USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 1 of 113

FILED: March 5, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
___________________
No. 18-1159 (L)
(7:17-cv-00492-EKD)
___________________
MOUNTAIN VALLEY PIPELINE, LLC
Plaintiff - Appellee
v.
6.56 ACRES OF LAND, OWNED BY SANDRA TOWNES POWELL,
Montgomery County Tax Map Parcel No. 015900 and Being MVP Parcel No. VAMO-3370; 1.81 ACRES OF LAND, OWNED BY ROBERT M. JONES AND
DONNA THOMAS JONES, Montgomery County Tax Map Parcel No. 024588
and Being MVP Parcel No. VA-MO-5511; 1.29 ACRES OF LAND, OWNED BY
ROBERT M. JONES AND DONNA THOMAS JONES, Montgomery County Tax
Map Parcel No. 024591 and Being MVP Parcel No. VA-MO-5512; 0.52 ACRES
OF LAND, OWNED BY EMILIE M. OWEN AND RICHARD CLARK OWEN,
Franklin County Tax Map Parcel No. 0380002204B and being MVP Parcel No.
VA-FR-4129 (AR FR-294)
Defendants - Appellants
and
0.18 ACRES OF LAND, OWNED BY GEORGIA LOU HAVERTY, Giles
County Tax Map Parcel No 30-4A and Being MVP Parcel No. BVGI-10;
EASEMENTS TO CONSTRUCT, OPERATE, AND MAINTAIN A NATURAL
GAS PIPELINE OVER TRACTS OF LAND IN GILES CO., CRAIG CO.,
MONTGOMERY CO., ROANOKE CO., FRANKLIN CO., AND
PITTSYLVANIA CO., VA INCLUDING:; 8.11 ACRES OF LAND, OWNED
BY DONNA ROGERS ALTIZER, Giles County Tax Map Parcel No. 27-18 and
Being MVP Parcel No. VA-GI-008.05; 0.12 ACRES OF LAND, OWNED BY
LHOIST NORTH AMERICA OF VIRGINIA, INC., Giles County Tax Map

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 2 of 113

Parcel No 27-73 and Being MVP Parcel No. VA-GI-008.06; 17.89 ACRES OF
LAND, OWNED BY LHOIST NORTH AMERICA OF VIRGINIA, INC., Giles
County Tax Map Parcel No. 27-75 and Being MVP Parcel No. VA-GI-013; 7.39
ACRES OF LAND, OWNED BY ANTHONY L. BOWMAN AND CAROL
ANN BOWMAN, Giles County Tax Map Parcel No. 28-10A and Being MVP
Parcel No. VA-GI-017; 6.50 ACRES OF LAND, OWNED BY SIZEMORE
INCORPORATED OF VIRGINIA, f/k/a National Committee for the New River,
Giles County Tax Map Parcel No. 29-25B and Being MVP Parcel No. VA-GI-035;
1.23 ACRES OF LAND, OWNED BY EAGLE'S NEST MINISTRIES, INC.,
Giles County Tax Map Parcel No. 29-25 and Being MVP Parcel No VA-GI035.01; 10.67 ACRES OF LAND, OWNED BY DOE CREEK FARM,
INCORPORATED, Giles County Tax Map Parcel No.30-4 and Being MVP Parcel
No. VA-GI-049; 1.52 ACRES OF LAND, OWNED BY VERNON V.
BEACHAM, SR. AND VERNON V. BEACHAM, II, Giles County Tax Map
Parcel No. 44A-1-34 and Being MVP Parcel No. VA-GI-051; 2.83 ACRES OF
LAND, OWNED BY VERNON V. BEACHAM, SR. AND VERNON V.
BEACHAM, II, Giles County Tax Map Parcel No. 44A-1-33 and Being MVP
Parcel VA-GI-052; 2.19 ACRES OF LAND, OWNED BY STEPHEN D. LEGGE,
DAVID LEGGE, AND PHYLLIS J. LEGGE, Giles County Tax Map Parcel No.
44-3-3A and Being MVP Parcel No. VA-GI-057; 2.85 ACRES OF LAND,
OWNED BY CHESTNUT MILL RANCH, LLC, Giles County Tax Map Parcel
No. 45-72 and Being MVP Parcel No. VA-GI-061 (AR GI-245.02); 0.72 ACRES
OF LAND, OWNED BY CHESTNUT MILL RANCH, LLC, Giles County Tax
Map Parcel No. 45-71 and Being MVP Parcel No. VA-GI-062; 3.17 ACRES OF
LAND, OWNED BY CHESTNUT MILL RANCH, LLC, Giles County Tax Map
Parcel No. 45-66 and Being MVP Parcel No. VA-GI-066; 5.82 ACRES OF
LAND, OWNED BY DAVID G. YOLTON AND KAREN M. YOLTON, Giles
County Tax Map Parcel No. 45-39D and Being MVP Parcel No. VA-GI-075; 5.25
ACRES OF LAND, OWNED BY MARY VIRGINIA REYNOLDS, SAMUEL
HALE REYNOLDS, AND MARY SUTTON REYNOLDS, Giles County Tax
Map Parcel No. 46-1-3 and Being MVP Parcel No. VA-GI-097.01; 1.18 ACRES
OF LAND, OWNED BY JAMES D. MATTOX, Giles County Tax Map Parcel
No. 46-49 and Being MVP Parcel No. VA-GI-098 (MVP-GI-256); 10.37 ACRES
OF LAND, OWNED BY CHESTNUT MILL RANCH, LLC, Giles County Tax
Map Parcel No. 45-70 and Being MVP Parcel No. VA-GI-200.003; 1.89 ACRES
OF LAND, OWNED BY BRIARWOOD DEVELOPMENT, LLC, Giles County
Tax Map Parcel No. 45-36 and Being MVP Parcel No. VA-GI-200.015; 8.55
ACRES OF LAND, OWNED BY NEWPORT DEVELOPMENT COMPANY,
LLC, Giles County Tax Map Parcel No. 45-33I and Being MVP Parcel No. VAGI-200.016; 0.26 ACRES OF LAND, OWNED BY FRANK S. QUINN, III AND

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 3 of 113

KATHERINE A. QUINN, Giles County Tax Map Parcel No. 45-30A and Being
MVP Parcel No. VA-GI-200.017; 1.22 ACRES OF LAND, OWNED BY
TAMARA N. HODSDEN, TRUSTEE OF THE JOSEPH D. HODSDEN TRUST
AND TAMARA N. HODSDEN TRUST, Giles County Tax Map Parcel No. 46-11
and Being MVP Parcel No. VA-GI-200.018; 4.90 ACRES OF LAND, OWNED
BY BRENDA LYNN WILLIAMS, Giles County Tax Map Parcel No. 46-15 and
Being MVP Parcel No. VA-GI-200.019; 0.29 ACRES OF LAND, OWNED BY
BRIARWOOD DEVELOPMENT, LLC, Giles County Tax Map Parcel No. 46-2B and Being MVP Parcel No. VA-GI-200.024; 2.99 ACRES OF LAND, OWNED
BY CLIFFORD A. SHAFFER AND THERESA C. HRUBEC, Giles County Tax
Map Parcel No. 61-12B and Being MVP Parcel No. VA-GI-200.028; 0.084
ACRES OF LAND, OWNED BY FRANCES D. W. COLLINS, f/k/a Frances D.
Williams, Giles County Tax Map Parcel No. 46-51 and Being MVP Parcel No.
VA-GI-200.035 (AR-GI-256); 4.03 ACRES OF LAND, OWNED BY LARRY
THOMPSON AND LOREEN THOMPSON, Giles County Tax Map Parcel No.
47-8 and Being MVP Parcel No. VA-GI-200.040; 4.88 ACRES OF LAND,
OWNED BY CLARENCE B. GIVENS AND KAROLYN W. GIVENS, Giles
County Tax Map Parcel No. 47-9 and Being MVP Parcel No. VA-GI-200.041;
0.335 ACRES OF LAND, OWNED BY GEORGE LEE JONES, Giles County
Tax Map Parcel No. 47-1-1 and Being MVP Parcel No. VA-GI-200.044; 2.01
ACRES OF LAND, OWNED BY GEORGE LEE JONES, Giles County Tax Map
Parcel No. 47-1-2 and Being MVP Parcel No. VA-GI-200.045; 2.74 ACRES OF
LAND, OWNED BY MARK A. PETTIPIECE AND TERESA J. PETTIPIECE,
Giles County Tax Map Parcel No. 47-1-3 and Being MVP Parcel No. VA-GI200.046; 7.61 ACRES OF LAND, OWNED BY JERRY J. DEPLAZES AND
JEROLYN K. DEPLAZES, Giles County Tax Map Parcel No. 46-66 and Being
MVP Parcel No. VA-GI-4249; 8.60 ACRES OF LAND, OWNED BY DOWDY
FARM LLC, Giles County Tax Map Parcel No. 46-52 and Being MVP Parcel No.
VA-GI-4250; 0.48 ACRES OF LAND, OWNED BY ESTIAL EARL ECHOLS,
JR., Giles County Tax Map Parcel No. 46-19B and Being MVP Parcel No. VAGI-4419 (AR GI-253.01); 0.09 ACRES OF LAND, OWNED BY ESTIAL EARL
ECHOLS, JR. AND EDITH FERN ECHOLS, Giles County Tax Map Parcel No.
46-20A and Being MVP Parcel No. VA-GI-4420 (AR GI-253.01); 0.09 ACRES
OF LAND, OWNED BY GARY HOLLOPTER AND ALLISON HOLLOPTER,
Giles County Tax Map Parcel No. 30-4B and Being MVP Parcel No. VA-GI-5310;
0.15 ACRES OF LAND, OWNED BY DAVID MATTHEW ALTIZER AND
ELIZABETH ANN ALTIZER, Giles County Tax Map Parcel No. 27-18A and
Being MVP Parcel No. VA-GI-5339; 5.78 ACRES OF LAND, OWNED BY
ELIZABETH ROGERS HARRISON, Giles County Tax Map Parcel No. 27-19
and Being MVP Parcel No. VA-GI-5340; 0.17 ACRES OF LAND, OWNED BY

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 4 of 113

DAWN E. CISEK, f/k/a Dawn E. Maxey, Giles County Tax Map Parcel No. 4712A and Being MVP Parcel No. VA-GI-5673; 0.01 ACRES OF LAND, OWNED
BY BENNY L. HUFFMAN, Giles County Tax Map Parcel No. 46-25 B and Being
MVP Parcel No. VA-GI-5779; 0.22 ACRES OF LAND, OWNED BY DOWDY
FARM, LLC, Giles County Tax Map Parcel No. 46-52 A. and Being MVP Parcel
No. VA-GI-5790; 1.87 ACRES OF LAND, OWNED BY JAMES D. MATTOX,
Giles County Tax Map Parcel No. 46-49A and Being MVP Parcel No. VA-GI5883; 0.25 ACRES OF LAND, OWNED BY ROY DOWDY OR UNKNOWN
HEIRS OR ASSIGNS OF ROY DOWDY, Giles County Tax Map Parcel No. 4666X and Being MVP Parcel No. VA-GI-5884; 10.26 ACRES OF LAND,
OWNED BY SAMUEL HALE REYNOLDS AND MARY SUTTON
REYNOLDS, Giles County Tax Map Parcel No. 46-1-2A and Being MVP Parcel
No. VA-GI-5922; 2.09 ACRES OF LAND, OWNED BY STEVEN C. HODGES
AND JUDY R. HODGES, Craig County Tax Map Parcel No. 120-A-10 and 120A-10A and Being MVP Parcel No. VA-CR-200.047; 2.75 ACRES OF LAND,
OWNED BY HELENA DELANEY TEEKELL, TRUSTEE OF THE HELENA
DELANEY TEEKELL TRUST, Craig County Tax Map Parcel No. 120-A-12 and
Being MVP Parcel No. VA-CR-200.048; 0.66 ACRES OF LAND, OWNED BY
GORDON WAYNE JONES AND DONNA W. JONES, Craig County Tax Map
Parcel No. 120-A-13 and Being MVP Parcel No. VA-CR-200.049; 2.81 ACRES
OF LAND, OWNED BY ROBERT W. CRAWFORD OR PATRICIA D.
CRAWFORD, TRUSTEES UNDER THE CRAWFORD LIVING TRUST, AND
ANITA NEAL HUGHES, Craig County Tax Map Parcel No. 121-A-15 and Being
MVP Parcel No. VA-CR-200.053; 0.14 ACRES OF LAND, OWNED BY DAWN
E. CISEK, f/k/a Dawn E. Maxey, Craig County Tax Map Parcel No. 120-A-9 and
Being MVP Parcel No. VA-CR-4445; 2.60 ACRES OF LAND, OWNED BY
HELENA DELANEY TEEKELL, TRUSTEE OF THE HELENA DELANEY
TEEKELL TRUST, Craig County Tax Map Parcel No. 120-A-14A and Being
MVP Parcel No. VA-CR-5343; 0.50 ACRES OF LAND, OWNED BY JOSE G.
AGUIRRE-TORRES, JUAN AGUIRRE, IGNACIO AGUIRRE, HECTOR
ANDRES AGUIRRE, AND RAMON A. ARELLANO, Craig County Tax Map
Parcel No. 120-A-8 and Being MVP Parcel No. VA-GI-200.047 (AR CR-258.01);
0.41 ACRES OF LAND, OWNED BY DONALD W. PERDUE, Montgomery
County Tax Map Parcel No. 035861 and Being MVP Parcel No. BV-MN-0053;
0.15 ACRES OF LAND, OWNED BY DONALD W. LONG AND EVELYN W.
LONG, Montgomery County Tax Map Parcel No. 021560 and Being MVP Parcel
No. BVMO-25; 0.64 ACRES OF LAND, OWNED BY VANESSA MICHELLE
UNDERWOOD AND JULIAN ADAMS STEWART, Montgomery County Tax
Map Parcel No. 170229 and Being MVP Parcel No. VA-MN-5175 (AR MN-275);
0.05 ACRES OF LAND, OWNED BY SARA KAY SCOTT, Montgomery County

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 5 of 113

Tax Map Parcel No. 190165 and Being MVP Parcel No. VA-MN-5176; 0.19
ACRES OF LAND, OWNED BY CLETUS WOODROW BOHON AND
BEVERLY ANN BOHON, Montgomery County Tax Map Parcel No. 030271 and
Being MVP Parcel No. VA-MN-5233 (AR MN-278.01); 0.39 ACRES OF LAND,
OWNED BY JAMES C. LAW AND CAROLYN D. LAW, Montgomery County
Tax Map Parcel No. 032431 And Being MVP Parcel No. VA-MN-5234 (AR MN278.01); 0.31 ACRES OF LAND, OWNED BY RANDALL KEITH EPPERLY
AND JOANNE ALICE EPPERLY, Montgomery County Tax Map Parcel No.
029056 and Being MVP Parcel No. VA-MN-5235 (AR MN-278.01); 0.50 ACRES
OF LAND, OWNED BY GREGORY M. APGAR AND ANGELA H. APGAR,
Montgomery County Tax Map Parcel No. 000837 and Being MVP Parcel No. VAMO-005; 0.07 ACRES OF LAND, OWNED BY GEORGE A. CRAIGHEAD
AND HELEN P. CRAIGHEAD, Montgomery County Tax Map Parcel No.
016298 and Being MVP Parcel No. VA-MO-011; 2.08 ACRES OF LAND,
OWNED BY DONALD D. APGAR AND MILDRED M. APGAR, Montgomery
County Tax Map Parcel No. 000843 and Being MVP Parcel No. VA-MO-012;
2.69 ACRES OF LAND, OWNED BY BRIAN DAVID GLOCK AND SUSAN
ELIZABETH GLOCK BUCH, Montgomery County Tax Map Parcel No. 000844
and Being MVP Parcel No. VA-MO-013; 0.78 ACRES OF LAND, OWNED BY
DENNIS G. BERUBE AND DIXIE L. BERUBE, Montgomery County Tax Map
Parcel No. 021080 and Being MVP Parcel No. VA-MO-019; 2.74 ACRES OF
LAND, OWNED BY CLETUS WOODROW BOHON AND BEVERLY ANN
BOHON, Montgomery County Tax Map Parcel No. 017761 and Being MVP
Parcel No. VA-MO-022; 4.85 ACRES OF LAND, OWNED BY JOHN
MICHAEL TURMAN, EDNA LAWRENCE, ROBERT BURRIS, KEITHER
EDWARD BURRIS, BARBARA KEELING, JACK "JACKIE" BURRIS, LINDA
PRADIS, VALERIE DELONG,, Unknown Heirs or Assigns of the Following
John Marshall Burris, Bobby Burris, Carlton Walters, and Alvin Brown,
Montgomery Co Tax Map Parcel No 0002831, MVP Parcel No. VA-MO-023;
2.12 ACRES OF LAND, OWNED BY JAMES CABEL LAW AND CAROLYN
DIANA EANES LAW, Montgomery County Tax Map Parcel No. 018808 and
Being MVP Parcel No. VA-MO-024; 4.67 ACRES OF LAND, OWNED BY
JAMES CABEL LAW AND CAROLYN DIANA EANES LAW, Montgomery
County Tax Map Parcel No. 011673 and Being MVP Parcel No. VA-MO-025;
1.90 ACRES OF LAND, OWNED BY JOSEPH PATRICK TOMELTY,
Montgomery County Tax Map Parcel No. 013819 and Being MVP Parcel No. VAMO-060; 0.89 ACRES OF LAND, OWNED BY DONALD W. LONG AND
EVELYN W. LONG, Montgomery County Tax Map Parcel No. 021559 and Being
MVP Parcel No. VA-MO-062; 0.392 ACRES OF LAND, OWNED BY TRAVIS
SCOTT LANCASTER AND TRACY LYNN TAYLOR, Montgomery County

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 6 of 113

Tax Map Parcel No. 033280 and Being MVP Parcel No. VA-MO-064 (AR-MN271); 0.53 ACRES OF LAND, OWNED BY SHELIA M. MEADOWS,
Montgomery County Tax Map Parcel No. 033209 and Being MVP Parcel No. VAMO-067; 0.94 ACRES OF LAND, OWNED BY STEVEN A. BOWMAN AND
RACHEL A. BOWMAN, Montgomery County Tax Map Parcel No. 120708 and
Being MVP Parcel No. VA-MO-069; 1.14 ACRES OF LAND, OWNED BY
HOWARD D. PERDUE, Montgomery County Tax Map Parcel No. 014256 and
Being MVP Parcel No. VA-MO-0700; 3.84 ACRES OF LAND, OWNED BY
DENNY R. SCOTT AND TAMMY K. SCOTT, Montgomery County Tax Map
Parcel No. 012030 and Being MVP Parcel No. VA-MO-071; 0.36 ACRES OF
LAND, OWNED BY CRAIG-BOTETOURT ELECTRIC COOPERATIVE, A
VIRGINIA ELECTRIC COOPERATIVE AND NON-STOCK CORPORATION,
Montgomery County Tax Map Parcel No. 034187 and Being MVP Parcel No. VAMO-075; 12.20 ACRES OF LAND, OWNED BY JUNE SMITH, RAY SMITH,
PATRICIA S. DEVECHA, STEPHEN R. SMITH, BARRY SCOTT SMITH,
DOUGLAS F. SMITH, DAVID L. SMITH, FRED APGAR, RUTH APGAR
GLOCK, GREGORY M. APGAR, AND ANG, a/k/a Raymond Foster Smith, a/k/a
Fred I. Apgar, a/k/a Frederick I. Apgar, Unknown Heirs or Assigns of the
Following June Smith, and Ray Smith, Montgomery Co. Tax Map Parcel No.
120001 and MVP Parcel No. VA-MO-084; 3.15 ACRES OF LAND, OWNED BY
DELWYN A. DYER, TRUSTEE OF THE DYER FAMILY TRUST, AND
DELWYN A. DYER, TRUSTEE OF THE DYER LIVING TRUST, Montgomery
County Tax Map Parcel No. 005668 and Being MVP Parcel No. VA-MO-3369;
7.18 ACRES OF LAND, OWNED BY MICHAEL EDWARD SLAYTON,
TRUSTEE OR MARGARET MCGRAW SLAYTON, TRUSTEE, MARGARET
MCGRAW SLAYTON LIVING TRUST, Montgomery County Tax Map Parcel
No. 024590 and Being MVP Parcel No. VA-MO-3371; 0.16 ACRES OF LAND,
OWNED BY LEONARD C. STEINER AND DEBORAH L. STEINER,
Montgomery County Tax Map Parcel No. 008906 and Being MVP Parcel No. VAMO-4259.001 (AR MN-272); 0.29 ACRES OF LAND, OWNED BY DENNY R.
SCOTT AND TAMMY K. SCOTT, Montgomery County Tax Map Parcel No.
030035 and Being MVP Parcel No. VA-MO-4261 (AR MN-272); 0.71 ACRES
OF LAND, OWNED BY ROANOKE VALLEY 4-WHEELERS ASSOCIATION,
Montgomery County Tax Map Parcel No. 031198 and Being MVP Parcel No. VAMO-4264 (AR-MN-276); 1.53 ACRES OF LAND, OWNED BY ROANOKE
VALLEY 4-WHEELERS ASSOCIATION, Montgomery County Tax Map Parcel
No. 016068 and Being MVP Parcel No. VA-MO-4265 (AR MN-276); 1.04
ACRES OF LAND, OWNED BY HENRY S. KEULING-STOUT, Montgomery
County Tax Map Parcel No. 005370 and Being MVP Parcel No. VA-MO-4266
(AR MN-276); 22.73 ACRES OF LAND, OWNED BY BLUE EAGLE

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 7 of 113

PARTNERSHIP, LLC, Montgomery County Tax Map Parcel No. 010352 and
Being MVP Parcel No. VA-MO-4314; 4.79 ACRES OF LAND, OWNED BY
SONABANK, Montgomery County Tax Map Parcel No. 013751 and Being MVP
Parcel No. VA-MO-4321; 0.04 ACRES OF LAND, OWNED BY JO MILLS
SOWERS, Montgomery County Tax Map Parcel No. 032744 and Being MVP
Parcel No. VA-MO-4424; 0.42 ACRES OF LAND, OWNED BY ANTHONY E.
HESS AND CARMELLA HESS, Montgomery County Tax Map Parcel No.
003368 and Being MVP Parcel No. VA-MO-5357; 0.28 ACRES OF LAND,
OWNED BY ELIJAH D. HOWARD, Montgomery County Tax Map Parcel No.
031305 and MVP Parcel No. VA-MO-5364; 0.37 ACRES OF LAND, OWNED
BY ELIJAH HOWARD AND KRISTIN HOWARD, Montgomery County Tax
Map Parcel No. 031305 and Being MVP Parcel No. VA-MO-5366; 0.11 ACRES
OF LAND, OWNED BY DELMER WAYNE HOWARD, Montgomery County
Tax Map Parcel No. 020405 and Being MVP Parcel No. VA-MO-5368; 0.24
ACRES OF LAND, OWNED BY TARTLE, LLC, Montgomery Count Tax Map
Parcel No. 002152 and Being MVP Parcel No. VA-MO-5369; 0.22 ACRES OF
LAND, OWNED BY HOLLY R. WIMMER-MCCLANAHAN AND ROBERT
C. MCCLANAHAN, Montgomery County Tax Map Parcel No. 003025 and Being
MVP Parcel No. VA-MO-5371; 0.40 ACRES OF LAND, OWNED BY
ROANOKE VALLEY RESOURCE AUTHORITY, Montgomery County Tax
Map Parcel No. 035144 and Being MVP Parcel No. VA-MO-5374; 0.01 ACRES
OF LAND, OWNED BY CORA LEE SMITH, RUBY J. SMITH, GENE E.
SMITH, GENA D. REED, BETHANY A. SMITH, AND JOHN ERIK SMITH,
Unknown Heirs of Assigns of the Following Cora Lee Smith and Ruby J. Smith,
Montgomery County Tax Map Parcel No. 017721 and Being MVP Parcel No. VAMO-5381; 3.35 ACRES OF LAND, OWNED BY THOMAS W. TRIPLETT
AND BONNIE B. TRIPLETT, Montgomery County Tac Map Parcel No. 024589
and Being MVP Parcel No. VA-MO-5514; 2.07 ACRES OF LAND, OWNED BY
PHYLLIS M. HUTTON, Montgomery County Tax Map Parcel No. 009443 and
Being MVP Parcel No. VA-MO-5515; 3.01 ACRES OF LAND, OWNED BY
PHYLLIS M. HUTTON, Montgomery County Tax Map Parcel No. 026945 and
Being MVP Parcel No. VA-MO-5516; 1.38 ACRES OF LAND, OWNED BY
MODE AND ARLEN JOHNSON AND PAMELA LOUISE FERRANTE,
Montgomery County Tax Map Parcel No. 001262 and Being MVP Parcel No. VAMO-5519; 3.87 ACRES OF LAND, OWNED BY MODE AND ARLEN
JOHNSON AND PAMELA LOUISE FERRANTE, Montgomery County Tax
Map Parcel No. 032870 and Being MVP Parcel No. VA-MO-5520; 1.30 ACRES
OF LAND, OWNED BY JOHN GARRET BAKER AND SUZANNE JANE
BAKER, Montgomery County Tax Map Parcel No. 019482 and Being MVP
Parcel No. VA-MO-5523; 6.86 ACRES OF LAND, OWNED BY JULIANA

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 8 of 113

BERNHOLZ AND IRINA BERNHOLZ SIEGRIST, Montgomery County Tax
Map Parcel No. 015895 and Being MVP Parcel No. VA-MO-5526; 9.66 ACRES
OF LAND, OWNED BY CHARLES BRUCE FUGATE, CURTIS DEAN
FUGATE, AND SHARON FUGATE LINKOUS, Montgomery County Tax Map
Parcel No. 006739 and Being MVP Parcel No. VA-MO-5528; 0.38 ACRES OF
LAND, OWNED BY JAMES C. LAW AND CAROLYN D. LAW, Montgomery
County Tax Map Parcel No. 002833 and Being MVP Parcel No. VA-MO-5626;
0.08 ACRES OF LAND, OWNED BY MELVIN L. LINKOUS AND SHARON
F. LINKOUS, Montgomery County Parcel No. 011191 and Being MVP Parcel No.
VA-MO-5758; 0.18 ACRES OF LAND, OWNED BY VALERIE E. GIBSON,
Montgomery County Tax Map Parcel No. 014919 and Being MVP Parcel No. VAMO-5788; 1.06 ACRES OF LAND, OWNED BY JOHN R. BAKER AND AMY
G. BAKER, Montgomery County Tax Map Parcel No. 230082 and Being MVP
Parcel No. VA-MO-5882; 0.01 ACRES OF LAND, OWNED BY ANTHONY
EDWARD HESS AND CARMELLA HESS, Montgomery County Tax Map
Parcel No. 003365 and Being MVP Parcel No. VA-MO-5885; 4.03 ACRES OF
LAND, OWNED BY MATTHEW D. ROLLIER AND DEANNA D.
ROBINSON, Roanoke County Tax Map Parcel No. 102.00-01-12.00-0000 and
Bring MVP Parcel No. BVRO-04; 0.47 ACRES OF LAND, OWNED BY BRUCE
M. COFFEY AND MARY E. COFFEY, Roanoke County Tax Map Parcel No.
102.00-01-13.00-0000 and Being MVP Parcel No. BVRO-05; 0.08 ACRES OF
LAND, OWNED BY JENNIFER L. FRALEY, Roanoke County Tax Map Parcel
No. 117.00-01-39.00-0000 and Being MVP Parcel No. BVRO-11; 0.22 ACRES
OF LAND, OWNED BY LENORA W. MONTUORI AND LENORA
MONTUORI AND KRISTINA MONTUORI HILLMAN, TRUSTEES OF THE
ANTONIO MONTUORI FAMILY TRUST, Roanoke County Tax Map Parcel No.
117.00-01-41.00-0000 and Being MVP Parcel No. BVRO-12; 0.41 ACRES OF
LAND, OWNED BY JAMES D. SCOTT AND KAREN B. SCOTT, Roanoke
County Tax Map Parcel No. 093.00-01-34.01-0000 and Being MVP Parcel No.
VA-RO-030 (AR RO-281); 0.11 ACRES OF LAND, OWNED BY JUNE SMITH,
RAY SMITH, PATRICIA S. DEVECHA, STEPHEN R. SMITH, BARRY
SCOTT SMITH, DOUGLAS F. SMITH, DAVID L. SMITH, FRED APGAR,
RUTH APGAR GLOCK, DONALD APGAR, GREGORY M. A, a/k/a Raymond
Foster Smith, a/k/a Fred I. Apgar, a/k/a Frederick Apgar, a/k/a Gregory M. Apgar,
a/k/a Angela H. Apgar, Unknown Heirs and Assigns of the Following June Smith,
and Ray Smith, Roanoke Co. Tax Map Parcel No. 063.00-01-25.00-0000 and
Being MVP Parcel No. VA-RO-033; 2.41 ACRES OF LAND, OWNED BY ANN
ELIZABETH ANDREWS, Roanoke County Tax Map Parcel No. 082.00-0140.00-0000 and Being MVP Parcel No. VA-RO-036; 22.47 ACRES OF LAND,
OWNED BY JAMES LOUIS MAXWELL, III, ELIZABETH MARSHALL

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 9 of 113

MAXWELL YARBORO, CHARLOTTE RUTH MAXWELL WEAVER, AND
MARY ANN MAXWELL, Roanoke County Tax Map Parcel No. 082.00-0141.00-0000 and Being MVP Parcel No. VA-RO-037; 23.74 ACRES OF LAND,
OWNED BY MARK W. CRONK, ALISON G. CRONK AND THE NATURE
CONSERVANCY, Roanoke County Tax Map Parcel No. 093.00-01-44.00-0000
and Being MVP Parcel No. VA-RO-038; 1.89 ACRES OF LAND, OWNED BY
TRUSTEES OF EVANGEL FOURSQUARE CHURCH, Roanoke County Tax
Map Parcel No. 093.00-01-47.00-0000 and Being MVP Parcel No. VA-RO-039;
2.17 ACRES OF LAND, OWNED BY JAMES D. SCOTT AND KAREN B.
SCOTT, Roanoke County Tax Map Parcel No. 093.00-01-33.00-0000 and Being
MVP Parcel No. VA-RO-042; 0.341 ACRES OF LAND, OWNED JAMES D.
SCOTT AND KAREN B. SCOTT, Roanoke County Tax Map Parcel No. 093.0001-33.01-0000 and Being MVP Parcel No. VA-RO-043; 0.68 ACRES OF LAND,
OWNED BY MICHAEL THOMAS SCOTT, Roanoke County Tax Map Parcel
No. 102.00-01-05.00-0000 and Being MVP Parcel No. VA-RO-044; 13.47
ACRES OF LAND, OWNED BY JOHN COLES TERRY, III, Roanoke County
Tax Map Parcel No. 102.00-01-08.00-0000 and Being MVP Parcel No. VA-RO045; 8.37 ACRES OF LAND, OWNED BY FRANK H. TERRY, JR., JOHN
COLES TERRY, III, AND ELIZABETH LEE TERRY, a/k/a Elizabeth Lee
Reynolds, Roanoke County Tax Map Parcel No. 102.00-01-02.00-0000 and Being
MVP Parcel No. VA-RO-046; 1.40 ACRES OF LAND, OWNED BY MARY
ELLEN RIVES, Roanoke County Tax Map Parcel No. 103.00-02-43.00-0000 and
Being MVP Parcel No. VA-RO-051; 1.85 ACRES OF LAND, OWNED BY
JACQULINE J. LUCKI, Roanoke County Tax Map Parcel No. 102.00-01-14.000000 and Being MVP Parcel No. VA-RO-052; 9.89 ACRES OF LAND, OWNED
BY ELIZABETH LEE TERRY, a/k/a Elizabeth Lee Reynolds, Roanoke County
Tax Map Parcel No. 110.00-01-44.00-0000 and Being MVP Parcel No. VA-RO054; 4.72 ACRES OF LAND, OWNED BY FRED W. VEST, Roanoke County
Tax Map Parcel No. 110.00-01-56.00-0000 and Being MVP Parcel No. VA-RO056; 2.93 ACRES OF LAND, OWNED BY LOIS KING WALDRON AND LOIS
MABEL WALDRON MARTIN, Roanoke County Tax Map Parcel No. 110.00-0150.00-0000 and Being MVP Parcel No. VA-RO-057; 0.41 ACRES OF LAND,
OWNED BY LENORA W. MONTUORI, Roanoke County Tax Map Parcel No.
110.00-01-54.00-0000 and Being MVP Parcel No. VA-RO-058; 2.07 ACRES OF
LAND, OWNED BY JOHN D. FULTON, JR. AND JANICE VANNESS
BROKA, Roanoke County Tax Map Parcel No. 110.00-01-55.00-0000 and Bring
MVP Parcel No. VA-RO-059; 4.31 ACRES OF LAND, OWNED BY JAMES T.
CHANDLER AND KATHY E. CHANDLER, Roanoke County Tax Map Parcel
No. 111.00-01-62.01-0000 and Being MVP Parcel No. VA-RO-060; 4.31 ACRES
OF LAND, OWNED BY JAMES T. CHANDLER AND KATHY E.

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 10 of 113

CHANDLER, Roanoke County Tax Map Parcel No 117.00-01-38.00-0000 and
Being MVP Parcel No. VA-RO-061; 1.91 ACRES OF LAND, OWNED BY
LENORA W. MONTUORI AND LENORA MONTUORI AND KRISTIN
MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO MONTUORI
FAMILY TRUST, Roanoke County Tax Map Parcel No. 117.00-01-43.02-0000
and Being MVP Parcel No. VA-RO-062; 0.91 ACRES OF LAND, OWNED BY
LENORA W. MONTUORI AND LENORA MONTUORI AND KRISTINA
MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO MONTUORI
FAMILY TRUST, Roanoke County Tax Map Parcel No. 117.00-01-43.00-0000,
Being MVP Parcel No. VA-RO-063; 2.99 ACRES OF LAND, OWNED BY
LENORA W. MONTUORI AND LENORA MONTUORI AND KRISTINA
MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO MONTUORI
FAMILY TRUST, Roanoke County Tax Map Parcel No. 117.00-01-46.00-0000
and Being Parcel No. VA-RO-064; 0.20 ACRES OF LAND, OWNED BY
LENORA W. MONTUORI AND LENORA MONTUORI AND KRISTINA
MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO MONTUORI
FAMILY TRU, Roanoke County Tax Map Parcel No. 117.00-01-43.01-0000 and
Being MVP Parcel No. VA-RO-065; 0.19 ACRES OF LAND, OWNED BY
LENORA W. MONTUORI AND LENORA MONTUORI AND KRISTINA
MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO MONTUORI
FAMILY TRUST, Roanoke County Tax Map Parcel No. 117.00-01-42.00-0000
and Being MVP Parcel No. VA-RO-066; 2.43 ACRES OF LAND, OWNED BY
LENORA W. MONTUORI AND LEMORA MONTUORI AND KRISTINA
MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO MONTUORI
FAMILY TRUST, Roanoke County Tax Map Parcel No. 117.00-01-45.00-0000
and Being MVP Parcel No. VA-RO-067; 2.05 ACRES OF LAND, OWNED BY
HOWARD M. THOMPSON AND CHRISTINE W. THOMPSON, Roanoke
County Tax Map Parcel No. 118.00-01-09.00-0000 and Being MVP Parcel No.
VA-RO-068; 0.94 ACRES OF LAND, OWNED BY MARTIN G. MORRISON
AND PATRICIA A. BOYD, Roanoke County Tax Map Parcel No. 063.00-0120.00-0000 and Being MVP Parcel No. VA-RO-4115; 2.20 ACRES OF LAND,
OWNED BY HILAH PARKS TERRY, FRANK H. TERRY, JR., ELIZABETH
LEE TERRY, JOHN COLES TERRY III, GRACE MINOR TERRY, Unknown
Heirs or Assigns of Frank H. Terry, Sr., Roanoke County Tax Map Parcel No.
103.00-02-01.00-0000 and Being MVP Parcel No. VA-RO-4118 (AR RO-283);
0.93 ACRES OF LAND, OWNED BY ALEXANDER B. PHILLIPS AND
EMILY M. PHILLIPS, Roanoke County Tax Map Parcel No. 111.00-01-62.000000 and Being MVP Parcel No. VA-RO-4123 (AR RO-287); 0.50 ACRES OF
LAND, OWNED BY LENORA W. MONTUORI AND LENORA MONTUORI
AND KRISTINA MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 11 of 113

MONTUORI FAMILY TRUST, Roanoke County Tax Map Parcel No. 117.00-0141.01-0000 and Being MVP Parcel No. VA-RO-4124; 0.33 ACRES OF LAND,
OWNED BY LENORA W. MONTUORI AND LENORA MONTUORI AND
KRISTINA MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO
MONTUORI FAMILY TRUST, Roanoke County Tax Map Parcel No. 117.00-0141.02-0000 and Being MVP Parcel No. VA-RO-4125; 0.28 ACRES OF LAND,
OWNED BY JACQULINE J. LUCKI, Roanoke County Tax Map Parcel No.
102.00-01-13.01-0000 and Being MVP Parcel No. VA-RO-50; 0.32 ACRES OF
LAND, OWNED BY GRACE MINOR TERRY, Roanoke County Tax Map Parcel
No. 102.00-01-01.02-0000 and Being MVP Parcel No. VA-RO-5149 (AR RO279.01); 0.35 ACRES OF LAND, OWNED BY KERMIT C. CROWE AND
ALVA T. CROWE, Roanoke County Tax Map Parcel No. 111.00-01-56.02-0000
and Being MVP Parcel No. VA-RO-5216 (AR RO-287); 0.36 ACRES OF LAND,
OWNED BY BETTY E. MCCOY, AND EDWARD CONNER, f/k/a Betty Eloise
Conner, f/k/a Betty T. Conner, Roanoke County Tax Map Parcel No. 111.00-0156.03-0000 and Being MVP Parcel No. VA-RO-5217 (AR RO-287); 0.05 ACRES
OF LAND, OWNED BY TEDDY D. CROWE AND SUSAN F. CROWE,
Roanoke County Tax Map Parcel No. 111.00-01-56.05-0000 and Being MVP
Parcel No. VA-RO-5218 (AR RO-287); 0.03 ACRES OF LAND, OWNED BY
GEORGE ROBERT FERGUSON AND DANA MICHELLE FERGUSON,
Roanoke County Tax Map Parcel No. 111.00-01-56.00-0000 and Being MVP
Parcel No. VA-RO-5221 (AR RO-287); 0.34 ACRES OF LAND, OWNED BY
ROBIN B. AUSTIN AND ALLEN R. AUSTIN, Roanoke County Tax Map Parcel
No. 110.00-01-45.00-0000 and Being MVP Parcel No. VA-RO-5222 (AR RO285); 0.06 ACRES OF LAND, OWNED BY MICHAEL L. LESTER AND
TERESA A. LESTER, Roanoke County Tax Map Parcel No. 111.00-0161.02.0000 and Being MVP Parcel No. VA-RO-5223 (AR RO-287); 0.04 ACRES
OF LAND, OWNED BY MICHELLE R. LESTER, Roanoke County Tax Map
Parcel No. 111.00-01-61.03-0000 and Being MVP Parcel No. VA-RO-5224 (AR
RO-287); 0.50 ACRES OF LAND, OWNED BY RANDALL KEITH EPPERLY
AND JOANN ALICE EPPERLY, Roanoke County Tax Map Parcel No. 082.0001-17.00-0000 and Being MVP Parcel No. VA-RO-5225 (AR MN-278.01); 0.64
ACRES OF LAND, OWNED BY DONALD EVERETT MELTON, a/k/a Don E.
Melton, Roanoke County Tax Map Parcel No. 082.00-01-16.00-0000 and Being
MVP Parcel No. VA-RO-5226 (AR MN-278.01); 0.09 ACRES OF LAND,
OWNED BY DONALD EVERETT MELTON, Roanoke County Tax Map Parcel
No. 082.00-01-15.00-0000 and Being MVP Parcel No. VA-RO-5227 (AR MN278.01); 0.33 ACRES OF LAND, OWNED BY ELIZABETH LEE TERRY, a/k/a
Elizabeth Lee Reynolds, Roanoke County Tax Map Parcel No. 093.00-01-46.000000 and Being MVP Parcel No. VA-RO-5228 (ATWS-1224); 0.01 ACRES OF

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 12 of 113

LAND, OWNED BY LONNIE L. LESTER AND JUDITH P. LESTER, Roanoke
County Tax Map Parcel No. 111.00-01-61.01-0000 and Being MVP Parcel No.
VA-RO-5229 (AR RO-287); 0.02 ACRES OF LAND, OWNED BY BD
INVESTMENTS OF ROANOKE, LLC, Roanoke County Tax Map Parcel No.
111.00-01-63.00-0000 Being MVP Parcel No. VA-RO-5231 (AR RO-287); 0.31
ACRES OF LAND, OWNED BY REBECCA JANE DAMERON, Roanoke
County Tax Map Parcel No. 111.00-01-61.00-0000 and Being MVP Parcel No.
VA-RO-5383; 0.01 ACRES OF LAND, OWNED BY JEREMY JOSEPH RICE
AND MICHELLE RENEE RICE, Roanoke County Tax Map Parcel No. 111.0001-58.00-0000 and Being MVP Parcel No. VA-RO-5627; 0.15 ACRES OF
LAND, OWNED BY FRANK W. HALE AND FLOSSIE I. HALE AND
ROBERT MATTHEW HAMM AND AIMEE CHASE HAMM, Roanoke County
Tax Map Parcel No. 110.00-01-56.01-0000 and Being MVP Parcel No. VA-RO5748; 0.09 ACRES OF LAND, OWNED BY LARRY BERNARD
CUNNINGHAM AND CAROLYN A. CUNNINGAM, Roanoke County Tax Map
Parcel No. 063.00-01-20.03-0000 and Being MVP Parcel No. VA-RO-5781; 0.25
ACRES OF LAND, OWNED BY CHELSEA CAMPER, Roanoke County Tax
Map Parcel No. 063.00-01-20.04-0000 and Being MVP Parcel No. VA-RO-5782;
0.21 ACRES OF LAND, OWNED BY WILLIAM J. CORRELL, SR. AND
NADINE E. CORRELL, Roanoke County Tax Map Parcel No. 063.00-01-20.020000 and Being MVP Parcel No. VA-RO-5783; 0.11 ACRES OF LAND,
OWNED BY WILLIAM J. CORRELL, SR. AND NADINE E. CORRELL,
Roanoke County Tax Map Parcel No. 063.00-01-20.01-0000 and Being MVP
Parcel No. VA-RO-5784; 0.26 ACRES OF LAND, OWNED BY LARRY
BERNARD CUNNINGHAM AND CAROLYN A. CUNNINGHAM, Roanoke
County Tax Map Parcel No. 063.00-01-21.00-0000 and Being MVP Parcel No.
VA-RO-5785; 1.53 ACRES OF LAND, OWNED BY STEPHEN W. BERNARD
AND ANNE W. BERNARD, Franklin County Tax Map Parcel No. 0370001901
and Being MVP Parcel No. BVA-FR-13; 0.16 ACRES OF LAND, OWNED BY
PAUL L. WILSON AND PEGGY M. WILSON, Franklin County Tax Map Parcel
No. 04300-05005 and Being MVP Parcel No. BVR-24; 5.38 ACRES OF LAND,
OWNED BY LUCY A. PRICE, Franklin County Tax Map Parcel No.
0240003400 and Being MVP Parcel No. VA-FR-008; 5.73 ACRES OF LAND,
OWNED BY SHIRLEY BOWMAN JAMISON, Franklin County Tax Map Parcel
No. 0240004400 and Being MVP Parcel No. VA-FR-009; 3.11 ACRES OF
LAND, OWNED BY RUSSELL E. CALLAWAY AND HEIDE K.
CALLAWAY, Franklin County Tax Map Parcel No. 0240005400 and Being MVP
Parcel No. VA-FR-015.02; 1.38 ACRES OF LAND, OWNED BY ALVIN E.
WRAY, LINDA L. WRAY, L. BENTON WRAY, JR., AND DIANE S. WRAY,
Franklin County Tax Map Parcel No. 250002100 and being MVP Parcel No. VA-

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 13 of 113

FR-017; 11.45 ACRES OF LAND, OWNED BYL. BENTON WRAY, JR.,
DIANE S. WRAY, ALVIN E. WRAY, AND LINDA L. WRAY, Franklin County
Tax Map Parcel No. 0250002200 and being MVP Parcel No. VA-FR-017.02; 1.28
ACRES OF LAND, OWNED BY ALAN R. HARTMAN, Franklin County Tax
Map Parcel No. 0250002500 and being MVP Parcel No. VA-FR-017.04; 3.86
ACRES OF LAND, OWNED BYJESSE ALBERT WEBSTER, Franklin County
Tax Map Parcel No. 0250002800 and being MVP Parcel No. VA-FR-017.06; 1.77
ACRES OF LAND, OWNED BYJESSE ALBERT WEBSTER, Franklin County
Tax Map Parcel No. 0250002400 and being MVP Parcel No. VA-FR-017.07; 2.23
ACRES OF LAND, OWNED BY MARTHA A. MCDEARMON, Franklin
County Tax Map Parcel No. 0250003801and being MVP Parcel No. VA-FR017.10; 8.21 ACRES OF LAND, OWNED BY OCCANNEECHI, INC., Franklin
County Tax Map Parcel No. 0250004100 and being MVP Parcel No. VA-FR017.11; 0.70 ACRES OF LAND, OWNED BY RICHARD H. MCDEARMON,
JR. AND ELLEN C. WALTON, Franklin County Tax Map Parcel No.
0380000201D and being MVP Parcel No. VA-FR-017.12; 0.83 ACRES OF
LAND, OWNED BY RICHARD H. MCDEARMON, JR. AND ELLEN C.
WALTON, Franklin County Tax Map Parcel No. 0380000201B and being MVP
Parcel No. VA-FR-017.13; 21.98 ACRES OF LAND, OWNED BY
OCCANNEECHI, INC., Franklin County Tax Map Parcel No. 0380001501 and
being MVP Parcel No. VA-FR-017.15; 0.49 ACRES OF LAND, OWNED BY J.
CLARK JAMISON, JR., SHIRLEY BOWMAN JAMISON, AND MARIE
KATHERINE FLORA JAMISON GOGGIN, Franklin County Tax Map Parcel
No. 0380001300 and being MVP Parcel No. VA-FR-017.16; 0.55 ACRES OF
LAND, OWNED BY J. CLARK JAMISON, JR., SHIRLEY BOWMAN
JAMISON, AND MARIE KATHERINE FLORA JAMISON GOGGIN, Franklin
County Tax Map Parcel No. 0380005100 and being MVP Parcel No. VA-FR017.19; 5.93 ACRES OF LAND, OWNED BY CHARLES FREDERICK FLORA
AND STEPHANIE M. FLORA, Franklin County Tax Map Parcel No.
0380002002 and being MVP Parcel No. VA-FR-017.20; 5.88 ACRES OF LAND,
OWNED BY WENDELL WRAY FLORA AND MARY MCNEIL FLORA,
Franklin County Tax Map Parcel No. 0380002000 and being MVP Parcel No. VAFR-017.21; 0.04 ACRES OF LAND, OWNED BY GLENN C. FRITH AND
LINDA K. FRITH, TRUSTEES OF THE FRITH LIVING TRUST, Franklin
County Tax Map Parcel No. 0380001900 and being MVP Parcel No. VA-FR017.24; 3.70 ACRES OF LAND, OWNED BY MICHAEL S. HURT AND
MARY FRANCES K. HURT, Franklin County Tax Map Parcel No. 0380002204
and being MVP Parcel No. VA-FR-017.25; 2.02 ACRES OF LAND, OWNED
BY GLENN C. FRITH AND LINDA K. FRITH, TRUSTEES OF THE FRITH
LIVING TRUST, Franklin County Tax Map Parcel No. 0380002500 and being

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 14 of 113

MVP Parcel No. VA-FR-017.26; 0.12 ACRES OF LAND, OWNED BY GLENN
W. LOVELESS AND JUNE S. LOVELESS, Franklin County Tax Map Parcel
No. 0370011106 and being MVP Parcel No. VA-FR-017.37; 0.25 ACRES OF
LAND, OWNED BY HEATHERWOOD PROPERTIES, INC, Franklin County
Tax Map Parcel No. 0370010900 and being MVP Parcel No. VA-FR-017.40,; 0.23
ACRES OF LAND, OWNED BY RAYMOND THOMAS WORRELL AND
LINDA D. WORRELL, Franklin County Tax Map Parcel No. 0370001510 and
being MVP Parcel No. VA-FR-017.42; 1.97 ACRES OF LAND, OWNED BY
KEITH M. WILSON AND MARY K. WILSON, Franklin County Tax Map Parcel
No. 0370009906 and being MVP Parcel No. VA-FR-017.44; 1.74 ACRES OF
LAND, OWNED BY DEREK T. HANES AND MARION C. HANES, Franklin
County Tax Map Parcel No. 0370009305 A and being MVP Parcel No. VA-FR047; 4.35 ACRES OF LAND, OWNED BY LYNN R. FLORA AND CYNTHIA
D. FLORA, Franklin County Tax Map Parcel No. 0370009301 and being MVP
Parcel No. VA-FR-049; 2.84 ACRES OF LAND, OWNED BY LYNN RAY
FLORA, Franklin County Tax Map Parcel No. 0370008500 and being MVP Parcel
No. VA-FR-050; 8.97 ACRES OF LAND, OWNED BY ROBERT G.
IKENBERRY, Franklin County Tax Map Parcel No. 0370017700 and being MVP
Parcel No. VA-FR-053; 0.06 ACRES OF LAND, OWNED BY ORREN
RICHARD ANDERSON AND GENEVA BELL ANDERSON, Franklin County
Tax Map Parcel No. 0370018101 and being MVP Parcel No. VA-FR-054.002;
0.66 ACRES OF LAND, OWNED BY COUNTY OF FRANKLIN, Franklin
County Tax Map Parcel No. 0370005400 and being MVP Parcel No. VA-FR-063;
5.16 ACRES OF LAND, OWNED BY THE COUNTY OF FRANKLIN, Franklin
County Tax Map Parcel No. 0370005300 and being MVP Parcel No. VA-FR-064;
6.24 ACRES OF LAND, OWNED BY C. GALEN FISHER, GALEN TODD
FISHER, AND RYAN GALEN FISHER, Franklin County Tax Map Parcel No.
0430004900 and being MVP Parcel No. VA-FR-068; 0.87 ACRES OF LAND,
OWNED BY BOBBY I. JONES AND RICHARD WAYNE JONES
REVOCABLE TRUST, RICHARD WAYNE JONES, TRUSTEE, Franklin
County Tax Map Parcel No. 0430105200 and being MVP Parcel No. VA-FR070.01; 1.60 ACRES OF LAND, OWNED BY SANDRA H. LANCASTER,
Franklin County Tax Map Parcel No. 0430105000 and being MVP Parcel No. VAFR-073; 8.21 ACRES OF LAND, OWNED BY LONGVIEW HOLSTEINS,
INC., Franklin County Tax Map Parcel No. 0430021500 and being MVP Parcel
No. VA-FR-075; 3.70 ACRES OF LAND, OWNED BY DAVID J. WERNER,
BETTY B. WERNER, IAN ELLIOTT REILLY, AND CAROLYN ELIZABETH
REILLY, Franklin County Tax Map Parcel No. 0440004300 and being MVP
Parcel No. VA-FR-076.01; 1.72 ACRES OF LAND, OWNED BY GUY W.
BUFORD AND MARGARET S. BUFORD, Franklin County Tax Map Parcel No.

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 15 of 113

0440004400 and being MVP Parcel No. VA-FR-077; 0.07 ACRES OF LAND,
OWNED BY DALE E. ANGLE AND MARY A. ANGLE, TRUSTEES OF THE
DALE E. ANGLE AND MARY A. ANGLE JOINT REVOCABLE TRUST,
Franklin County Tax Map Parcel No. 0440006400 and being MVP Parcel No. VAFR-077.01; 2.14 ACRES OF LAND, OWNED BY DALE E. ANGLE AND
MARY A. ANGLE, TRUSTEES UNDER THE DALE E. AND MARY A.
ANGLE JOINT REVOCABLE TRUST, Franklin County Tax Map Parcel No.
0440006501 and being MVP Parcel No. VA-FR-078; 8.21 ACRES OF LAND,
OWNED BY DALE E. ANGLE AND MARY A. ANGLE, TRUSTEES OF THE
DALE E. ANGLE AND MARY A. ANGLE JOINT REVOCABLE TRUST,
Franklin County Tax Map Parcel No. 0440006500 and being MVP Parcel No. VAFR-079; 11.86 ACRES OF LAND, OWNED BY DONALD B. BARNHART,
Franklin County Tax Map Parcel No. 0440007300 and being MVP Parcel No. VAFR-081; 0.292 ACRES OF LAND, OWNED BY GAIL DUDLEY SMITHERS
AND GINGER K. SMITHERS, Franklin County Tax Map Parcel No. 0450008100
and being MVP Parcel No. VA-FR-113; 8.56 ACRES OF LAND, OWNED BY
GAIL DUDLEY SMITHERS AND GINGER K. SMITHERS, Franklin County
Tax Map Parcel No. 0450000902 and being MVP Parcel No. VA-FR-114; 8.37
ACRES OF LAND, OWNED BY RICHARD LYNCH, TRUSTEE OF THE
CATHERINE R. BECKNER IRREVOCABLE TRUST, Franklin County Tax
Map Parcel No. 0450008000 and being MVP Parcel No. VA-FR-115; 8.60
ACRES OF LAND, OWNED BY GAIL DUDLEY SMITHERS, Franklin County
Tax Map Parcel No. 0450001600 and being MVP Parcel No. VA-FR-117; 3.92
ACRES OF LAND, OWNED BY GAIL DUDLEY SMITHERS AND GINGER
K. SMITHERS, Franklin County Tax Map Parcel No. 0450006800 and being
MVP Parcel No. VA-FR-119; 1.17 ACRES OF LAND, OWNED BY RONDA
DIANE ROOPE OSBORNE AND MICHAEL WAYNE ROOPE, Franklin
County Tax Map Parcel No. 0450003300 and being MVP Parcel No. VA-FR-125;
10.21 ACRES OF LAND, OWNED BY WILLIAM DAVID BOARD, JAMES R.
BOARD, SUSAN BOARD MYERS, NANCY B. FLORA, AND KENNETH
CRAIG BOARD, Franklin County Tax Map Parcel No. 0450006100 and being
MVP Parcel No. VA-FR-128; 5.56 ACRES OF LAND, OWNED BY FRANKLIN
REAL ESTATE COMPANY, Franklin County Tax Map Parcel No. 0530012101
and being MVP Parcel No. VA-FR-148; 4.82 ACRES OF LAND, OWNED BY
FRANKLIN REAL ESTATE COMPANY, Franklin County Tax Map Parcel No.
0530012600 and being MVP Parcel No. VA-FR-151; 0.30 ACRES OF LAND,
OWNED BY ROBERT ALAN PEGRAM, Franklin County Tax Map Parcel No.
0650401600 and being MVP Parcel No. VA-FR-155.01; 0.03 ACRES OF LAND,
OWNED BY MICHAEL A. DEEMS AND ELIZABETH A. DEEMS, Franklin
County Tax Map Parcel No. 06504-02500 and being MVP Parcel No. VA-FR-

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 16 of 113

155.02; 0.63 ACRES OF LAND, OWNED BY MICHAEL A. DEEMS AND
ELIZABETH A. DEEMS, Franklin County Tax Map Parcel No. 06504-02600 and
being MVP Parcel No. VA-FR-156; 6.74 ACRES OF LAND, OWNED BY
EDWARDS PROPERTIES, LTD, Franklin County Tax Map Parcel No.
0660004300 and being MVP Parcel No. VA-FR-170; 0.94 ACRES OF LAND,
OWNED BY UNKNOWN HEIRS OR ASSIGNS OF ANDREW L.
POINDEXTER AND ANDREW POINDEXTER, Franklin County Tax Map
Parcel No. 0660010500 and being MVP Parcel No. VA-FR-174; 2.66 ACRES OF
LAND, OWNED BY CHRISTOPHER ERIC LAMBERT AND JODI E.
LAMBERT, Franklin County Tax Map Parcel No. 0660010600 and being MVP
Parcel No. VA-FR-175; 1.23 ACRES OF LAND, OWNED BY SHARON E.
LAMBERT, Franklin County Tax Map Parcel No. 0660010602 and being MVP
Parcel No. VA-FR-176; 0.36 ACRES OF LAND, OWNED BY JOSEPH E.
LAMBERT AND MARY I. LAMBERT, Franklin County Tax Map Parcel No.
0660010601 and being MVP Parcel No. VA-FR-177; 3.05 ACRES OF LAND,
OWNED BY ANN C. CLEMENTS AND MARY ARRINGTON CLEMENTS,
Franklin County Tax Map Parcel No. 0660011000 and being MVP Parcel No. VAFR-179; 1.57 ACRES OF LAND, OWNED BY ROBERT B. WORKMAN, III
AND JOAN M. WORKMAN, Franklin County Tax Map Parcel No. 0680007000
and being MVP Parcel No. VA-FR-196.02; 1.85 ACRES OF LAND, OWNED
BY OYLER LAND AND LEASING, LLC, Franklin County Tax Map Parcel No.
0240004000 and being MVP Parcel No. VA-FR-4126 (AR FR-291); 0.65 ACRES
OF LAND, OWNED BY MICHAEL S. HURT AND MARY FRANCES K.
HURT, Franklin County Tax Map Parcel No. 0380002204A and being MVP
Parcel No. VA-FR-4130 (AR FR-294); 0.01 ACRES OF LAND, OWNED BY
JAMES WALTER WRAY, Franklin County Tax Map Parcel No. 0440006701and
being MVP Parcel No. VA-FR-4138.001 (AR FR-305); 0.83 ACRES OF LAND,
OWNED BY SUSAN BOARD MYERS, WILLIAM DAVID BOARD,
KENNETH CRAIG BOARD, AND NANCY BOARD FLORA, a/k/a William D.
Board, Franklin County Tax Map Parcel No. 0450012003and being MVP Parcel
No. VA-FR-4141 (AR FR-313); 0.01 ACRES OF LAND, OWNED BY JOSEPH
B. PHELPS AND ALESHIA V. PHELPS, Franklin County Tax Map Parcel No.
0530200100and being MVP Parcel No. VA-FR-4143 (AR FR-315); 0.52 ACRES
OF LAND, OWNED BY PREDELMA O'NEAL HALL, Franklin County Tax
Map Parcel No. 0660004400 and being MVP Parcel No. VA-FR-4144 (AR FR320); 0.14 ACRES OF LAND, OWNED BY PENHOOK UNITED METHODIST
CHURCH, Franklin County Tax Map Parcel No. 0660012101 and being MVP
Parcel No. VA-FR-4146 (AR FR-323); 0.01 ACRES OF LAND, OWNED BY
RONDA DIANE ROOPE OSBORNE, Franklin County Tax Map Parcel No.
0450003200 and being MVP Parcel No. VA-FR-4276; 0.56 ACRES OF LAND,

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 17 of 113

OWNED BY OWNED BY WILLIAM D. BOARD, Franklin County Tax Map
Parcel No. 0450012005 and being MVP Parcel No. VA-FR-4277 (AR FR-313);
0.97 ACRES OF LAND, OWNED BY WILLIAM DAVID BOARD, KENNETH
CRAIG BOARD, SUSAN B. MYERS, NANCY B. FLORA, AND JAMES R.
BOARD, Franklin County Tax Map Parcel No. 0450012001 and being MVP
Parcel No. VA-FR-4278 (AR FR-313); 0.32 ACRES OF LAND, OWNED BY
GAIL DUDLEY SMITHERS, Franklin County Tax Map Parcel No. 0450001500
and being MVP Parcel No. VA-FR-5151 (ATWS-1266); 0.34 ACRES OF LAND,
OWNED BY NANCY LORRAINE BRITTON AND KENITH DWAIN
BRITTON, SR., TRUSTEES OF THE NANCY LORRAINE BRITTON AND
KENITH DWAIN BRITTON, SR. LIVING TRU, Franklin County Tax Map
Parcel No. 0450006402 and being MVP Parcel No. VA-FR-5388; 1.66 ACRES
OF LAND, OWNED BY BRIAN H. KINSEY, GEORGE D. KINSEY, JR., AND
STEVEN D. KINSEY, Franklin County Tax Map Parcel No. 0380003402E and
being MVP Parcel No. VA-FR-5392; 0.09 ACRES OF LAND, OWNED BY
TIMOTHY J. LAWLESS AND MEGAN K. LAWLESS, Franklin County Tax
Map Parcel No. 0370009905A and being MVP Parcel No. VA-FR-5410; 0.12
ACRES OF LAND, OWNED BY ANGELA L. MCGHEE AND FREDRICK C.
MCGHEE, Franklin County Tax Map Parcel No. 0370009905 and being MVP
Parcel No. VA-FR-5411; 0.07 ACRES OF LAND, OWNED BY RUSSELL W.
LAWLESS, Franklin County Tax Map Parcel No. 0370009907 and being MVP
Parcel No. VA-FR-5413; 0.15 ACRES OF LAND, OWNED BY RUSSELL R.
BARKSDALE, JR., Franklin County Tax Map Parcel No. 0370009904and being
MVP Parcel No. VA-FR-5415; 0.02 ACRES OF LAND, OWNED BY DIANA M.
PERKINSON, Franklin County Tax Map Parcel No. 0370009600 and being MVP
Parcel No. VA-FR-5416; 0.16 ACRES OF LAND, OWNED BY CHRISTINE
JEANNETTE DAVIS, Franklin County Tax Map Parcel No. 0370009902 and
being MVP Parcel No. VA-FR-5417; 0.09 ACRES OF LAND, OWNED BY
ANDREW P. BUCKMAN AND SHARON H. BUCKMAN, Franklin County Tax
Map Parcel No. 0370009911 and being MVP Parcel No. VA-FR-5418; 0.02
ACRES OF LAND, OWNED BY JOHN L. BARBAZON AND LAURA S.
BARBAZON, Franklin County Tax Map Parcel No. 0370009901 and being MVP
Parcel No. VA-FR-5419; 0.27 ACRES OF LAND, OWNED BY LEE A. FLORA,
LYNN R. FLORA, AND PAMELA FLORA SWEENEY, Franklin County Tax
Map Parcel No. 0370009913 and being MVP Parcel No. VA-FR-5420; 0.15
ACRES OF LAND, OWNED BY FRANK H. BISCARDI AND JACQUELINE S.
BISCARDI, Franklin County Tax Map Parcel No. 0370009900 and being MVP
Parcel No. VA-FR-5421; 0.04 ACRES OF LAND, OWNED BY RONALD B.
EDWARDS, SR., GLORIA MARTIN, TERRANCE EDWARDS, LINDA
WHITE, RUBY PENN, JANIS E. WALLER, CRYSTAL DIANE EDWARDS,

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 18 of 113

AND PENNY EDWARDS BLUE, Franklin County Tax Map Parcel No.
0660009502 and being MVP Parcel No. VA-FR-5434; 0.04 ACRES OF LAND,
OWNED BY CRYSTAL DIANE EDWARDS, Franklin County Tax Map Parcel
No. 0660009602 and being MVP Parcel No. VA-FR-5437; 0.88 ACRES OF
LAND, OWNED BY DANIEL PAYNE WRIGHT AND DONALD WAYNE
WRIGHT, Franklin County Tax Map Parcel No. 0660007700 and being MVP
Parcel No. VA-FR-5441; 4.14 ACRES OF LAND, OWNED BY MARK E.
DANIEL AND ANGELA D. DANIEL, Franklin County Tax Map Parcel No.
0440011600 and being MVP Parcel No. VA-FR-5476; 1.71 ACRES OF LAND,
OWNED BY LYDIA LAVERNE BROWN, Franklin County Tax Map Parcel No.
0440015700 and being MVP Parcel No. VA-FR-5483; 2.02 ACRES OF LAND,
OWNED BY PAUL F. CRAWFORD, Franklin County Tax Map Parcel No.
0440016301 and being MVP Parcel No. VA-FR-5488; 1.49 ACRES OF LAND,
OWNED BY UNKNOWN SUCCESSOR TRUSTEE OF THE LACY F.
DUDLEY DECLARATION OF REVOCABLE TRUST AND ROSE MARIE
DUDLEY, Franklin County Tax Map Parcel No. 0440200500 and being MVP
Parcel No. VA-FR-5490; 0.44 ACRES OF LAND, OWNED BY SHELBY A.
LAW, Franklin County Tax Map Parcel No. 0440200400 and being MVP Parcel
No. VA-FR-5492; 3.15 ACRES OF LAND, OWNED BY ROBERT WAYNE
MORGAN AND PATRICIA ANN MORGAN, Franklin County Tax Map Parcel
No. 0440018700 and being MVP Parcel No. VA-FR-5493; 0.01 ACRES OF
LAND, OWNED BY ROY A. STEVENS, Franklin County Tax Map Parcel No.
0440018800 and being MVP Parcel No. VA-FR-5496; 0.14 ACRES OF LAND,
OWNED BY ANTHONY B. NOVITZKI, Franklin County Tax Map Parcel No.
0440206600 and being MVP Parcel No. VA-FR-5500; 5.51 ACRES OF LAND,
OWNED BY MARK A. DIVERS AND MARIE P. DIVERS, Franklin County
Tax Map Parcel No. 0440019801A and being MVP Parcel No. VA-FR-5501; 0.02
ACRES OF LAND, OWNED BY DANIEL G. MYERS AND DEBORAH L.
MYERS, Franklin County Tax Map Parcel No. 0440019801 and being MVP
Parcel No. VA-FR-5502; 3.11 ACRES OF LAND, OWNED BY JAMES
GLYNWOOD HAYNES, JR., Franklin County Tax Map Parcel No. 0440020001
and being MVP Parcel No. VA-FR-5504; 0.95 ACRES OF LAND, OWNED BY
JAMES GLYNWOOD HAYNES, JR., Franklin County Tax Map Parcel No.
0440019500 and being MVP Parcel No. VA-FR-5505; 0.38 ACRES OF LAND,
OWNED BY JAMES GLYNWOOD HAYNES, JR., Franklin County Tax Map
Parcel No. 0440019300 and being MVP Parcel No. VA-FR-5507; 3.76 ACRES
OF LAND, OWNED BY CATHERINE BECKNER KINGERY, Franklin County
Tax Map Parcel No. 0440020401 and being MVP Parcel No. VA-FR-5508; 0.07
ACRES OF LAND, OWNED BY MICHAEL S. LAMBERT AND KELLY O.
LAMBERT, Franklin County Tax Map Parcel No. 0660010200 and being MVP

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 19 of 113

Parcel No. VA-FR-5745; 0.10 ACRES OF LAND, OWNED BY UNKNOWN
HEIRS OR ASSIGNS OF ANDREW L. POINDEXTER AND ANDREW
POINDEXTER, Franklin County Tax Map Parcel No. 0660010300 and being
MVP Parcel No. VA-FR-5746; 0.08 ACRES OF LAND, OWNED BY
CHRISTOPHER E. LAMBERT AND JODI E. LAMBERT, Franklin County Tax
Map Parcel No. 0660010400 and being MVP Parcel No. VA-FR-5747; 0.04
ACRES OF LAND, OWNED BY BRUCE M. WOOD AND JENNIFER M.
WOOD, Franklin County Tax Map Parcel No. 0440200600 and being MVP Parcel
No. VA-FR-5791; 0.16 ACRES OF LAND, OWNED BY LEALDA T. ANGLE,
Franklin County Tax Map Parcel No. 0440020300 and being MVP Parcel No. VAFR-5892; 7.34 ACRES OF LAND, OWNED BY LEWIS O CLEMENTS,SR,
ANTHONY GRAY,KATHY POINDEXTER, LEAN C ROBERTSON, NADINE
B PERKINS, ANTHONY BROWN, HENRY ISAIAH NEWBILL, MARVIN
NEWBILL,LAVERNE N DAVIS, ALICE N DAVIS,THOMAS DOUGLAS
CLEMENTS, JR., HENRY LOUIS CLEMENTS, DWIGHT CLEMENTS,
NATHAN CLEMENTS, DOROTHY C TURNER, CHARLOTTE C DAY,
LAURA CLEMENTS, CLARA CLEMENTS, AND ELAINE HUBBARD
UNKNOWN HEIRS OR ASSIGNS OF THOMAS D CLEMENTS,SR,TORI C
GRAY, REBECCA CLEMENTS, NORA CLEMENTS, a/k/a Thomas Clement,
a/k/a Helen Glass, Pittsylvania Co TaxNo1489-09-2901;MVPNo VA-PI-026; 1.13
ACRES OF LAND,OWNED BY LEWIS O CLEMENTS, SR, ANTHONY
GRAY,KATHY POINDEXTER, LEAN C ROBERTSON, NADINE B
PERKINS,ANTHONY BROWN, HENRY ISAIAH NEWBILL, MARVIN
NEWBILL, LAVERNE N DAVIS, ALICE N DAVIS,THOMAS DOUGLAS
CLEMENTS,JR, HENRY LOUIS CLEMENTS, DW, a/k/a The Heirs or Assigns
of Thomas Clements, a/k/a Thomas Clement, a/k/a Helen Glass, a/k/a Unknown
Heirs and Assigns of Nora Clements, a/k/a Unknown Heirs and Assigns of
Rebecca Clements, Pittsylvania Co Tax No 1580-00-0360; MVPNoVA-PI-026.01;
1.12 ACRES OF LAND, OWNED BY LEWIS O CLEMENTS,JR, GENEVA C
PINKNEY, ANTHONY GRAY, KATHY POINDEXTER, MARVIN NEWBILL,
LAVERNE N DAVIS, ALICE N DAVIS SAM CLEMENTS, REBECCA
GLASS, ELAINE HUBBARD, DWIGHT CLEMENTS, THOMAS DOUGLAS
CLEMENTS,JR, HENRY LOUIS CLEMENTS, NATHAN CLEMENTS,
DOROTHY C TURNER, AND CHARLOTTE C DAY, a/k/a The Heirs or
Assigns of Thomas Clements, a/k/a Unknown Heirs or Assigns of Tori C. Gray,
a/k/a Unknown Heirs or Assigns of Nora Clements, a/k/a Helen Glass, a/k/a
Unknown Heirs or Assigns of Rebecca Clements, Pittsylvania Co TaxNo.1580-008311; MVPNo.VA-PI-026.02; 7.82 ACRES OF LAND, OWNED BY THOMAS
O. WHITE, JR., TRUSTEE OF THE BEVERLY A. MCLAUGHLIN
TESTAMENTARY TRUST, Pittsylvania County Tax Map Parcel No. 1489-86-

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 20 of 113

7542 and being MVP Parcel No. VA-PI-029.05; 0.12 ACRES OF LAND,
OWNED BY EUGENE RYLAND MOTLEY AND NANCYE B. MOTLEY,
Pittsylvania County Tax Map Parcel No. 2418-41-9409 and being MVP Parcel No.
VA-PI-071.01; 0.05 ACRES OF LAND, OWNED BY DEAN M. POWELL AND
ANNETTE S. POWELL, Pittsylvania County Tax Map Parcel No. 2417-49-1304
and being MVP Parcel No. VA-PI-072; 2.07 ACRES OF LAND, OWNED BY
LAKE ANNA INVESTMENTS, LC, Pittsylvania County Tax Map Parcel No.
2418-50-8820 and being MVP Parcel No. VA-PI-072.01; 11.07 ACRES OF
LAND, OWNED BY A. DOUGLAS DALTON JR., Pittsylvania County Tax Map
Parcel No. 2417-58-4539 and being MVP Parcel No. VA-PI-073; 2.99 ACRES OF
LAND, OWNED BY COMMONWEALTH FOREST INVESTMENTS, INC.,
Pittsylvania County Tax Map Parcel No. 2417-89-1099 and being MVP Parcel No.
VA-PI-081.01; 1.09 ACRES OF LAND, OWNED BY COMMONWEALTH
FOREST INVESTMENTS, INC., Pittsylvania County Tax Map Parcel No. 241787-1135 and being MVP Parcel No. VA-PI-085 (AR PI-338); 1.60 ACRES OF
LAND, OWNED BY SANDRA Y. JEFFCOAT, SABRINA D. PERRY, JOHN D.
WHITTLE, III, ANTHONY J. WHITTLE, SR., DERRICK A. WHITTLE, SR.
AND ELTON G. WHITTLE, SR., Pittsylvania County Tax Map Parcel No. 242712-7078 and being MVP Parcel No. VA-PI-091; 0.30 ACRES OF LAND,
OWNED BY GWENDOLYN F. GREEN UNKNOWN HEIRS AND ASSIGNS
OF THE FOLLOWING LAURA JONES, LIZZIE JONES, JESSIE JONES,
ANNIE JONES, Pittsylvania County Tax Map Parcel No. 2427-30-5719 and being
MVP Parcel No. VA-PI-095; 1.85 ACRES OF LAND, OWNED BY TOWN OF
CHATHAM, Pittsylvania County Tax Map Parcel No. Town of Chatham - Tax
Exempt and being MVP Parcel No. VA-PI-103.01; 1.23 ACRES OF LAND,
OWNED BY JAMES M. GRUBBS, EVELENA GRUBBS ROUSE, AND ENZY
GRUBBS ANDERSON, UNKNOWN HEIRS OR ASSIGNS OF JAMES M.
GRUBB, a/k/a Evelyn Rouse, Pittsylvania County Tax Map Parcel Nos. 2436-054452 and 2436-05-2564 and being MVP Parcel No. VA-PI-104; 0.18 ACRES OF
LAND, OWNED BY OAK GROVE CHRISTIAN CHURCH, Pittsylvania County
Tax Map Parcel No. 2417-68-8838 and being MVP Parcel No. VA-PI-4155 (AR
PI-337); 0.08 ACRES OF LAND, OWNED BY BARBARA SLOAN
FITZGERALD, CHERYL FERGUSON, STEPHANIE L WALDEN, ARETHA
JO FITZGERALD, BARBARA A FITZGERALD, JAMES FITZGERALD,
RUBY FITZGERALD, LOIS MARIE FITZGERALD, BARBARA ANN
FITZGERALD, CARABELL FITZGERALD, UNKNOWN HEIRS AND
ASSIGNS OF FOREST FITZGERALD, MILDRED FITZGERALD, DOUGLAS
FITZGERALD, JOE LOUIS FITZGERALD, FOREST FITZGERALD, JR,
Pittsylvania County Tax Map Parcel No. 2427-30-5083 and being MVP Parcel No.
VA-PI-4157 (AR PI-340); 0.35 ACRES OF LAND, OWNED BY BARBARA

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 21 of 113

SLOAN FITZGERALD, CHERYL FERGUSON, STEPHANIE L WALDEN,
ARETHA JO FITZGERALD, BARBARA A FITZGERALD, JAMES
FITZGERALD, RUBY FITZGERALD, LOIS MARIE FITZGERALD,
BARBARA ANN FITZGERALD, CARABELL FITZGERALD, UNKNOWN
HEIRS AND ASSIGNS OF FOREST FITZGERALD, MILDRED
FITZGERALD, DOUGLAS FITZGERALD, JOE LOUIS FITZGERALD,
FOREST FITZGERALD, Pittsylvania County Tax Map Parcel No. 2427-30-4184
and being MVP Parcel No. VA-PI-5156; UNKNOWN OWNERS; 6.50 ACRES
OF LAND, MORE OR LESS, OWNED BY NEW RIVER CONSERVANCY,
INC., Located in Giles County, Virginia being a portion of Giles County Tax Map
Parcel No. 29-25B and being MVP Parcel No. VA-GI-035; 1.38 ACRES OF
LAND, OWNED BY HENRY COX AND JANET DEGROFF, Montgomery
County Tax Map Parcel No. 001262 and Being MVP Parcel No. VA-MO-5519;
3.42 ACRES OF LAND, OWNED BY HENRY COX AND JANET DEGROFF,
Montgomery County Tax Map Parcel No. 032870 and Being MVP Parcel No. VAMO-5520; 1.06 ACRES OF LAND, OWNED BY JOHN GARRETT BAKER
AND SUZANNE JANE BAKER, Montgomery County Tax Map Parcel No.
230082 and Being MVP Parcel No. VA-MO-5882; 0.14 ACRES OF LAND,
OWNED BY UNKNOWN HEIRS OR ASSIGNS OF ANTHONY B. NOVITZKI
AND JOANNE A. LOFARO, Franklin County Tax Map Parcel No. 0440206600
and being MVP Parcel No. VA-FR-5500; 0.16 ACRES OF LAND, OWNED BY
RONNIE ALLEN ANGLE, Franklin County Tax Map Parcel No. 0440020300
and being MVP Parcel No. VA-FR-5892; 0.18 ACRES OF LAND, OWNED BY
MICHAEL EPPERLY, Montgomery County Tax Map Parcel No. 014919 and
Being MVP Parcel No. VA-MO-5788
Defendants
-----------------------------OWNER'S COUNSEL OF AMERICA
Amicus Supporting Rehearing Petition
___________________
No. 18-1165
(1:17-cv-00211-IMK)
___________________

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 22 of 113

MOUNTAIN VALLEY PIPELINE, LLC
Plaintiff - Appellee
v.
TERESA D. ERICKSON, POA for Gerald Wayne Corder (Parcel ID NO. 20-36220. An Easement to construct, operate and maintain a 42-inch gas transmission line
across properties in the counties of Braxton, Lewis, Harrison, Webster, and
Wetzel, WV; LORENA B. KRAFFT, POA for Randall N. Corder (Parcel ID NO.
20-362-21. An Easement to construct, operate and maintain a 42-inch gas
transmission line across properties in the counties of Braxton, Lewis, Harrison,
Webster, and Wetzel, WV
Defendants - Appellants
and
SHARON SIMMONS, Administratrix of the Charles D. Simmons estate (Parcel
ID NO. 7-13D-11). An Easement to construct, operate and maintain a 42-inch gas
transmission line across properties in the counties of Braxton, Lewis, Harrison,
Webster, and Wetzel, WV; JOSHUA SIMMONS, (Parcel ID NOS. 7-13D-11). An
Easement to construct, operate and maintain a 42-inch gas transmission line across
properties in the counties of Braxton, Lewis, Harrison, Webster, and Wetzel, WV;
BRYAN SIMMONS, (Parcel ID NO. 7-13D-11). An Easement to construct,
operate and maintain a 42-inch gas transmission line across properties in the
counties of Braxton, Lewis, Harrison, Webster, and Wetzel, WV; ROBERT C.
PIERSON, III AND VICKI L. PIERSON, As Trustees of The Red Hawk Trust
(Parcel ID NO. 7-13E-10. An Easement to construct, operate and maintain a 42inch gas transmission line across properties in the counties of Braxton, Lewis,
Harrison, Webster, and Wetzel, WV; WILLIAM G. LLOYD, (Parcel ID NO. 712F-11). An Easement to construct, operate and maintain a 42-inch gas
transmission line across properties in the counties of Braxton, Lewis, Harrison,
Webster, and Wetzel, WV; ARTHUR C. ROBERTS AND JUDY D. ROBERTS,
(Parcel ID NO. 02-4L-19, 02-4L-12). An Easement to construct, operate and
maintain a 42-inch gas transmission line across properties in the counties of
Braxton, Lewis, Harrison, Webster, and Wetzel, WV; KINCHELOE
MITIGATION HOLDINGS LLC, (Parcel ID NO. 20-421-8, 20-421-5, 20-421-4,
& 20-421-6, 03-4A-27 & 03-4A-29. An Easement to construct, operate and
maintain a 42-inch gas transmission line across properties in the counties of

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 23 of 113

Braxton, Lewis, Harrison, Webster, and Wetzel, WV; HILRY GORDON, (Parcel
ID NO. 14-123-41. An Easement to construct, operate and maintain a 42-inch gas
transmission line across properties in the counties of Braxton, Lewis, Harrison,
Webster, and Wetzel, WV; ADAM L. MATHENY, (Parcel ID NO. 18-282-108.
An Easement to construct, operate and maintain a 42-inch gas transmission line
across properties in the counties of Braxton, Lewis, Harrison, Webster, and
Wetzel, WV; GLENN D. MATHENY, II, (Parcel ID NO. 18-282-108. An
Easement to construct, operate and maintain a 42-inch gas transmission line across
properties in the counties of Braxton, Lewis, Harrison, Webster, and Wetzel, WV;
CHARLES F. CHONG AND REBECCA ANN ENEIX-CHONG, (Parcel ID NO.
18-322-14). An Easement to construct, operate and maintain a 42-inch gas
transmission line across properties in the counties of Braxton, Lewis, Harrison,
Webster, and Wetzel, WV; BRIAN AND HELEN MONTAGUE VAN
NOSTRAND, (Parcel ID NO. 6-6D-10). An Easement to construct, operate and
maintain a 42-inch gas transmission line across properties in the counties of
Braxton, Lewis, Harrison, Webster, and Wetzel, WV; GEORGE ERNEST
BRIGHT, (Parcel ID NO. 6-6E-1). An Easement to construct, operate and maintain
a 42-inch gas transmission line across properties in the counties of Braxton, Lewis,
Harrison, Webster, and Wetzel, WV; TRUSTEE OF THE JOHN A. BRIGHT
REVOCABLE LIVING TRUST, (Parcel ID NO. 6-6E-1). An Easement to
construct, operate and maintain a 42-inch gas transmission line across properties in
the counties of Braxton, Lewis, Harrison, Webster, and Wetzel, WV; WILLIAM
TOWNSEND BRIGHT, (Parcel ID NO. 6-6E-1). An Easement to construct,
operate and maintain a 42-inch gas transmission line across properties in the
counties of Braxton, Lewis, Harrison, Webster, and Wetzel, WV; WILLIAM B.
MORRISON AND ROBERT J. MORRISON, Trustees under the will of A.L.
Morrison for the Benefit of C.F. Morrison, Helena M. Berry, Herman R. Morrison,
Martha M. Cooper, Ruth M. Ward, Mabel M. Lewis, William B. Morrison, and
Robert J. Morrison (Parcel ID NO. 6-6E-1). An Easement to construct, o; MARY
E. SEBRING, (Parcel ID NO. 6-6E-1). An Easement to construct, operate and
maintain a 42-inch gas transmission line across properties in the counties of
Braxton, Lewis, Harrison, Webster, and Wetzel, WV; ICG EASTERN, LLC,
(Parcel ID NO. 4-4P-1.1, 4-4Q-13.1, 4-4Q-15, 4-4Q-16). An Easement to
construct, operate and maintain a 42-inch gas transmission line across properties in
the counties of Braxton, Lewis, Harrison, Webster, and Wetzel, WV; WESTERN
POCAHONTAS PROPERTIES LIMITED PARTNERSHIP, (Parcel ID NO. 65F-1). An Easement to construct, operate and maintain a 42-inch gas transmission
line across properties in the counties of Braxton, Lewis, Harrison, Webster, and
Wetzel, WV; DALE EASTHAM, (Parcel ID NO. 04-14-39.3). An Easement to
construct, operate and maintain a 42-inch gas transmission line across properties in

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 24 of 113

the counties of Braxton, Lewis, Harrison, Webster, and Wetzel, WV; TRAVIS
EASTHAM, (Parcel ID NO. 04-14-39.3). An Easement to construct, operate and
maintain a 42-inch gas transmission line across properties in the counties of
Braxton, Lewis, Harrison, Webster, and Wetzel, WV; ANDREW FAIRBANKS,
(Parcel ID NO. 04-14-39.3). An Easement to construct, operate and maintain a 42inch gas transmission line across properties in the counties of Braxton, Lewis,
Harrison, Webster, and Wetzel, WV; BRENT FAIRBANKS, (Parcel ID NO. 0414-39.3). An Easement to construct, operate and maintain a 42-inch gas
transmission line across properties in the counties of Braxton, Lewis, Harrison,
Webster, and Wetzel, WV; DAVID FAIRBANKS, (Parcel ID NO. 04-14-39.3).
An Easement to construct, operate and maintain a 42-inch gas transmission line
across properties in the counties of Braxton, Lewis, Harrison, Webster, and
Wetzel, WV; MICHAEL FAIRBANKS, (Parcel ID NO. 04-14-39.3). An
Easement to construct, operate and maintain a 42-inch gas transmission line across
properties in the counties of Braxton, Lewis, Harrison, Webster, and Wetzel, WV;
EDWARD CHARLES SMITH, SR., (Parcel ID NO. 04-14-39.3). An Easement to
construct, operate and maintain a 42-inch gas transmission line across properties in
the counties of Braxton, Lewis, Harrison, Webster, and Wetzel, WV; EDWARD
CHARLES SMITH, II, (Parcel ID NO. 04-14-39.3). An Easement to construct,
operate and maintain a 42-inch gas transmission line across properties in the
counties of Braxton, Lewis, Harrison, Webster, and Wetzel, WV; TODD
EDWARD SMITH, (Parcel ID NO. 04-14-39.3). An Easement to construct,
operate and maintain a 42-inch gas transmission line across properties in the
counties of Braxton, Lewis, Harrison, Webster, and Wetzel, WV; JEREMY
COLLINS, (Parcel ID NO. 04-14-39.3). An Easement to construct, operate and
maintain a 42-inch gas transmission line across properties in the counties of
Braxton, Lewis, Harrison, Webster, and Wetzel, WV; NANCY JANE
SHEWMAKE BATES, a/k/a Nancy Jane Bates, (Parcel ID NO. 04-35-11). An
Easement to construct, operate and maintain a 42-inch gas transmission line across
properties in the counties of Braxton, Lewis, Harrison, Webster, and Wetzel, WV;
UNKNOWN PERSONS AND INTERESTED PARTIES, An Easement to
construct, operate and maintain a 42-inch gas transmission line across properties in
the counties of Braxton, Lewis, Harrison, Webster, and Wetzel, WV
Defendants
-----------------------------OWNER'S COUNSEL OF AMERICA

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 25 of 113

Amicus Supporting Rehearing Petition
___________________
No. 18-1175
(7:17-cv-00492-EKD)
___________________
MOUNTAIN VALLEY PIPELINE, LLC
Plaintiff - Appellee
v.
0.335 ACRES OF LAND, OWNED BY GEORGE LEE JONES, Giles County
Tax Map Parcel No. 47-1-1 and Being MVP Parcel No. VA-GI-200.044; 0.65
ACRES OF LAND, OWNED BY MICHAEL S. HURT AND MARY FRANCES
K. HURT, Franklin County Tax Map Parcel No. 0380002204A and being MVP
Parcel No. VA-FR-4130 (AR FR-294); 1.52 ACRES OF LAND, OWNED BY
VERNON V. BEACHAM, SR. AND VERNON V. BEACHAM, II, Giles County
Tax Map Parcel No. 44A-1-34 and Being MVP Parcel No. VA-GI-051; 2.83
ACRES OF LAND, OWNED BY VERNON V. BEACHAM, SR. AND
VERNON V. BEACHAM, II, Giles County Tax Map Parcel No. 44A-1-33 and
Being MVP Parcel VA-GI-052; 4.88 ACRES OF LAND, OWNED BY
CLARENCE B. GIVENS AND KAROLYN W. GIVENS, Giles County Tax Map
Parcel No. 47-9 and Being MVP Parcel No. VA-GI-200.041; 2.01 ACRES OF
LAND, OWNED BY GEORGE LEE JONES, Giles County Tax Map Parcel No.
47-1-2 and Being MVP Parcel No. VA-GI-200.045; 2.09 ACRES OF LAND,
OWNED BY STEVEN C. HODGES AND JUDY R. HODGES, Craig County
Tax Map Parcel No. 120-A-10 and 120-A-10A and Being MVP Parcel No. VACR-200.047; 0.66 ACRES OF LAND, OWNED BY GORDON WAYNE JONES
AND DONNA W. JONES, Craig County Tax Map Parcel No. 120-A-13 and
Being MVP Parcel No. VA-CR-200.049; 0.71 ACRES OF LAND, OWNED BY
ROANOKE VALLEY 4-WHEELERS ASSOCIATION, Montgomery County Tax
Map Parcel No. 031198 and Being MVP Parcel No. VA-MO-4264 (AR-MN-276);
1.53 ACRES OF LAND, OWNED BY ROANOKE VALLEY 4-WHEELERS
ASSOCIATION, Montgomery County Tax Map Parcel No. 016068 and Being
MVP Parcel No. VA-MO-4265 (AR MN-276); 1.53 ACRES OF LAND, OWNED
BY STEPHEN W. BERNARD AND ANNE W. BERNARD, Franklin County Tax

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 26 of 113

Map Parcel No. 0370001901 and Being MVP Parcel No. BVA-FR-13; 5.88
ACRES OF LAND, OWNED BY WENDELL WRAY FLORA AND MARY
MCNEIL FLORA, Franklin County Tax Map Parcel No. 0380002000 and being
MVP Parcel No. VA-FR-017.21; 3.70 ACRES OF LAND, OWNED BY
MICHAEL S. HURT AND MARY FRANCES K. HURT, Franklin County Tax
Map Parcel No. 0380002204 and being MVP Parcel No. VA-FR-017.25; 1.97
ACRES OF LAND, OWNED BY KEITH M. WILSON AND MARY K.
WILSON, Franklin County Tax Map Parcel No. 0370009906 and being MVP
Parcel No. VA-FR-017.44; 6.50 ACRES OF LAND, MORE OR LESS, OWNED
BY NEW RIVER CONSERVANCY, INC., Located in Giles County, Virginia
being a portion of Giles County Tax Map Parcel No. 29-25B and being MVP
Parcel No. VA-GI-035
Defendants - Appellants
and
0.18 ACRES OF LAND, OWNED BY GEORGIA LOU HAVERTY, Giles
County Tax Map Parcel No 30-4A and Being MVP Parcel No. BVGI-10;
EASEMENTS TO CONSTRUCT, OPERATE, AND MAINTAIN A NATURAL
GAS PIPELINE OVER TRACTS OF LAND IN GILES CO., CRAIG CO.,
MONTGOMERY CO., ROANOKE CO., FRANKLIN CO., AND
PITTSYLVANIA CO., VA INCLUDING:; 8.11 ACRES OF LAND, OWNED
BY DONNA ROGERS ALTIZER, Giles County Tax Map Parcel No. 27-18 and
Being MVP Parcel No. VA-GI-008.05; 0.12 ACRES OF LAND, OWNED BY
LHOIST NORTH AMERICA OF VIRGINIA, INC., Giles County Tax Map
Parcel No 27-73 and Being MVP Parcel No. VA-GI-008.06; 17.89 ACRES OF
LAND, OWNED BY LHOIST NORTH AMERICA OF VIRGINIA, INC., Giles
County Tax Map Parcel No. 27-75 and Being MVP Parcel No. VA-GI-013; 7.39
ACRES OF LAND, OWNED BY ANTHONY L. BOWMAN AND CAROL
ANN BOWMAN, Giles County Tax Map Parcel No. 28-10A and Being MVP
Parcel No. VA-GI-017; 6.50 ACRES OF LAND, OWNED BY SIZEMORE
INCORPORATED OF VIRGINIA, f/k/a National Committee for the New River,
Giles County Tax Map Parcel No. 29-25B and Being MVP Parcel No. VA-GI-035;
1.23 ACRES OF LAND, OWNED BY EAGLE'S NEST MINISTRIES, INC.,
Giles County Tax Map Parcel No. 29-25 and Being MVP Parcel No VA-GI035.01; 10.67 ACRES OF LAND, OWNED BY DOE CREEK FARM,
INCORPORATED, Giles County Tax Map Parcel No.30-4 and Being MVP Parcel
No. VA-GI-049; 2.19 ACRES OF LAND, OWNED BY STEPHEN D. LEGGE,
DAVID LEGGE, AND PHYLLIS J. LEGGE, Giles County Tax Map Parcel No.

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 27 of 113

44-3-3A and Being MVP Parcel No. VA-GI-057; 2.85 ACRES OF LAND,
OWNED BY CHESTNUT MILL RANCH, LLC, Giles County Tax Map Parcel
No. 45-72 and Being MVP Parcel No. VA-GI-061 (AR GI-245.02); 0.72 ACRES
OF LAND, OWNED BY CHESTNUT MILL RANCH, LLC, Giles County Tax
Map Parcel No. 45-71 and Being MVP Parcel No. VA-GI-062; 3.17 ACRES OF
LAND, OWNED BY CHESTNUT MILL RANCH, LLC, Giles County Tax Map
Parcel No. 45-66 and Being MVP Parcel No. VA-GI-066; 5.82 ACRES OF
LAND, OWNED BY DAVID G. YOLTON AND KAREN M. YOLTON, Giles
County Tax Map Parcel No. 45-39D and Being MVP Parcel No. VA-GI-075; 5.25
ACRES OF LAND, OWNED BY MARY VIRGINIA REYNOLDS, SAMUEL
HALE REYNOLDS, AND MARY SUTTON REYNOLDS, Giles County Tax
Map Parcel No. 46-1-3 and Being MVP Parcel No. VA-GI-097.01; 1.18 ACRES
OF LAND, OWNED BY JAMES D. MATTOX, Giles County Tax Map Parcel
No. 46-49 and Being MVP Parcel No. VA-GI-098 (MVP-GI-256); 10.37 ACRES
OF LAND, OWNED BY CHESTNUT MILL RANCH, LLC, Giles County Tax
Map Parcel No. 45-70 and Being MVP Parcel No. VA-GI-200.003; 1.89 ACRES
OF LAND, OWNED BY BRIARWOOD DEVELOPMENT, LLC, Giles County
Tax Map Parcel No. 45-36 and Being MVP Parcel No. VA-GI-200.015; 8.55
ACRES OF LAND, OWNED BY NEWPORT DEVELOPMENT COMPANY,
LLC, Giles County Tax Map Parcel No. 45-33I and Being MVP Parcel No. VAGI-200.016; 0.26 ACRES OF LAND, OWNED BY FRANK S. QUINN, III AND
KATHERINE A. QUINN, Giles County Tax Map Parcel No. 45-30A and Being
MVP Parcel No. VA-GI-200.017; 1.22 ACRES OF LAND, OWNED BY
TAMARA N. HODSDEN, TRUSTEE OF THE JOSEPH D. HODSDEN TRUST
AND TAMARA N. HODSDEN TRUST, Giles County Tax Map Parcel No. 46-11
and Being MVP Parcel No. VA-GI-200.018; 4.90 ACRES OF LAND, OWNED
BY BRENDA LYNN WILLIAMS, Giles County Tax Map Parcel No. 46-15 and
Being MVP Parcel No. VA-GI-200.019; 0.29 ACRES OF LAND, OWNED BY
BRIARWOOD DEVELOPMENT, LLC, Giles County Tax Map Parcel No. 46-2B and Being MVP Parcel No. VA-GI-200.024; 2.99 ACRES OF LAND, OWNED
BY CLIFFORD A. SHAFFER AND THERESA C. HRUBEC, Giles County Tax
Map Parcel No. 61-12B and Being MVP Parcel No. VA-GI-200.028; 0.084
ACRES OF LAND, OWNED BY FRANCES D. W. COLLINS, f/k/a Frances D.
Williams, Giles County Tax Map Parcel No. 46-51 and Being MVP Parcel No.
VA-GI-200.035 (AR-GI-256); 4.03 ACRES OF LAND, OWNED BY LARRY
THOMPSON AND LOREEN THOMPSON, Giles County Tax Map Parcel No.
47-8 and Being MVP Parcel No. VA-GI-200.040; 2.74 ACRES OF LAND,
OWNED BY MARK A. PETTIPIECE AND TERESA J. PETTIPIECE, Giles
County Tax Map Parcel No. 47-1-3 and Being MVP Parcel No. VA-GI-200.046;
7.61 ACRES OF LAND, OWNED BY JERRY J. DEPLAZES AND JEROLYN

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 28 of 113

K. DEPLAZES, Giles County Tax Map Parcel No. 46-66 and Being MVP Parcel
No. VA-GI-4249; 8.60 ACRES OF LAND, OWNED BY DOWDY FARM LLC,
Giles County Tax Map Parcel No. 46-52 and Being MVP Parcel No. VA-GI-4250;
0.48 ACRES OF LAND, OWNED BY ESTIAL EARL ECHOLS, JR., Giles
County Tax Map Parcel No. 46-19B and Being MVP Parcel No. VA-GI-4419 (AR
GI-253.01); 0.09 ACRES OF LAND, OWNED BY ESTIAL EARL ECHOLS, JR.
AND EDITH FERN ECHOLS, Giles County Tax Map Parcel No. 46-20A and
Being MVP Parcel No. VA-GI-4420 (AR GI-253.01); 0.09 ACRES OF LAND,
OWNED BY GARY HOLLOPTER AND ALLISON HOLLOPTER, Giles
County Tax Map Parcel No. 30-4B and Being MVP Parcel No. VA-GI-5310; 0.15
ACRES OF LAND, OWNED BY DAVID MATTHEW ALTIZER AND
ELIZABETH ANN ALTIZER, Giles County Tax Map Parcel No. 27-18A and
Being MVP Parcel No. VA-GI-5339; 5.78 ACRES OF LAND, OWNED BY
ELIZABETH ROGERS HARRISON, Giles County Tax Map Parcel No. 27-19
and Being MVP Parcel No. VA-GI-5340; 0.17 ACRES OF LAND, OWNED BY
DAWN E. CISEK, f/k/a Dawn E. Maxey, Giles County Tax Map Parcel No. 4712A and Being MVP Parcel No. VA-GI-5673; 0.01 ACRES OF LAND, OWNED
BY BENNY L. HUFFMAN, Giles County Tax Map Parcel No. 46-25 B and Being
MVP Parcel No. VA-GI-5779; 0.22 ACRES OF LAND, OWNED BY DOWDY
FARM, LLC, Giles County Tax Map Parcel No. 46-52 A. and Being MVP Parcel
No. VA-GI-5790; 1.87 ACRES OF LAND, OWNED BY JAMES D. MATTOX,
Giles County Tax Map Parcel No. 46-49A and Being MVP Parcel No. VA-GI5883; 0.25 ACRES OF LAND, OWNED BY ROY DOWDY OR UNKNOWN
HEIRS OR ASSIGNS OF ROY DOWDY, Giles County Tax Map Parcel No. 4666X and Being MVP Parcel No. VA-GI-5884; 10.26 ACRES OF LAND,
OWNED BY SAMUEL HALE REYNOLDS AND MARY SUTTON
REYNOLDS, Giles County Tax Map Parcel No. 46-1-2A and Being MVP Parcel
No. VA-GI-5922; 2.75 ACRES OF LAND, OWNED BY HELENA DELANEY
TEEKELL, TRUSTEE OF THE HELENA DELANEY TEEKELL TRUST, Craig
County Tax Map Parcel No. 120-A-12 and Being MVP Parcel No. VA-CR200.048; 2.81 ACRES OF LAND, OWNED BY ROBERT W. CRAWFORD OR
PATRICIA D. CRAWFORD, TRUSTEES UNDER THE CRAWFORD LIVING
TRUST, AND ANITA NEAL HUGHES, Craig County Tax Map Parcel No. 121A-15 and Being MVP Parcel No. VA-CR-200.053; 0.14 ACRES OF LAND,
OWNED BY DAWN E. CISEK, f/k/a Dawn E. Maxey, Craig County Tax Map
Parcel No. 120-A-9 and Being MVP Parcel No. VA-CR-4445; 2.60 ACRES OF
LAND, OWNED BY HELENA DELANEY TEEKELL, TRUSTEE OF THE
HELENA DELANEY TEEKELL TRUST, Craig County Tax Map Parcel No.
120-A-14A and Being MVP Parcel No. VA-CR-5343; 0.50 ACRES OF LAND,
OWNED BY JOSE G. AGUIRRE-TORRES, JUAN AGUIRRE, IGNACIO

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 29 of 113

AGUIRRE, HECTOR ANDRES AGUIRRE, AND RAMON A. ARELLANO,
Craig County Tax Map Parcel No. 120-A-8 and Being MVP Parcel No. VA-GI200.047 (AR CR-258.01); 0.41 ACRES OF LAND, OWNED BY DONALD W.
PERDUE, Montgomery County Tax Map Parcel No. 035861 and Being MVP
Parcel No. BV-MN-0053; 0.15 ACRES OF LAND, OWNED BY DONALD W.
LONG AND EVELYN W. LONG, Montgomery County Tax Map Parcel No.
021560 and Being MVP Parcel No. BVMO-25; 0.64 ACRES OF LAND,
OWNED BY VANESSA MICHELLE UNDERWOOD AND JULIAN ADAMS
STEWART, Montgomery County Tax Map Parcel No. 170229 and Being MVP
Parcel No. VA-MN-5175 (AR MN-275); 0.05 ACRES OF LAND, OWNED BY
SARA KAY SCOTT, Montgomery County Tax Map Parcel No. 190165 and
Being MVP Parcel No. VA-MN-5176; 0.19 ACRES OF LAND, OWNED BY
CLETUS WOODROW BOHON AND BEVERLY ANN BOHON, Montgomery
County Tax Map Parcel No. 030271 and Being MVP Parcel No. VA-MN-5233
(AR MN-278.01); 0.39 ACRES OF LAND, OWNED BY JAMES C. LAW AND
CAROLYN D. LAW, Montgomery County Tax Map Parcel No. 032431 And
Being MVP Parcel No. VA-MN-5234 (AR MN-278.01); 0.31 ACRES OF LAND,
OWNED BY RANDALL KEITH EPPERLY AND JOANNE ALICE EPPERLY,
Montgomery County Tax Map Parcel No. 029056 and Being MVP Parcel No. VAMN-5235 (AR MN-278.01); 0.50 ACRES OF LAND, OWNED BY GREGORY
M. APGAR AND ANGELA H. APGAR, Montgomery County Tax Map Parcel
No. 000837 and Being MVP Parcel No. VA-MO-005; 0.07 ACRES OF LAND,
OWNED BY GEORGE A. CRAIGHEAD AND HELEN P. CRAIGHEAD,
Montgomery County Tax Map Parcel No. 016298 and Being MVP Parcel No. VAMO-011; 2.08 ACRES OF LAND, OWNED BY DONALD D. APGAR AND
MILDRED M. APGAR, Montgomery County Tax Map Parcel No. 000843 and
Being MVP Parcel No. VA-MO-012; 2.69 ACRES OF LAND, OWNED BY
BRIAN DAVID GLOCK AND SUSAN ELIZABETH GLOCK BUCH,
Montgomery County Tax Map Parcel No. 000844 and Being MVP Parcel No. VAMO-013; 0.78 ACRES OF LAND, OWNED BY DENNIS G. BERUBE AND
DIXIE L. BERUBE, Montgomery County Tax Map Parcel No. 021080 and Being
MVP Parcel No. VA-MO-019; 2.74 ACRES OF LAND, OWNED BY CLETUS
WOODROW BOHON AND BEVERLY ANN BOHON, Montgomery County
Tax Map Parcel No. 017761 and Being MVP Parcel No. VA-MO-022; 4.85
ACRES OF LAND, OWNED BY JOHN MICHAEL TURMAN, EDNA
LAWRENCE, ROBERT BURRIS, KEITHER EDWARD BURRIS, BARBARA
KEELING, JACK "JACKIE" BURRIS, LINDA PRADIS, VALERIE DELONG,,
Unknown Heirs or Assigns of the Following John Marshall Burris, Bobby Burris,
Carlton Walters, and Alvin Brown, Montgomery Co Tax Map Parcel No 0002831,
MVP Parcel No. VA-MO-023; 2.12 ACRES OF LAND, OWNED BY JAMES

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 30 of 113

CABEL LAW AND CAROLYN DIANA EANES LAW, Montgomery County
Tax Map Parcel No. 018808 and Being MVP Parcel No. VA-MO-024; 4.67
ACRES OF LAND, OWNED BY JAMES CABEL LAW AND CAROLYN
DIANA EANES LAW, Montgomery County Tax Map Parcel No. 011673 and
Being MVP Parcel No. VA-MO-025; 1.90 ACRES OF LAND, OWNED BY
JOSEPH PATRICK TOMELTY, Montgomery County Tax Map Parcel No.
013819 and Being MVP Parcel No. VA-MO-060; 0.89 ACRES OF LAND,
OWNED BY DONALD W. LONG AND EVELYN W. LONG, Montgomery
County Tax Map Parcel No. 021559 and Being MVP Parcel No. VA-MO-062;
0.392 ACRES OF LAND, OWNED BY TRAVIS SCOTT LANCASTER AND
TRACY LYNN TAYLOR, Montgomery County Tax Map Parcel No. 033280 and
Being MVP Parcel No. VA-MO-064 (AR-MN-271); 0.53 ACRES OF LAND,
OWNED BY SHELIA M. MEADOWS, Montgomery County Tax Map Parcel No.
033209 and Being MVP Parcel No. VA-MO-067; 0.94 ACRES OF LAND,
OWNED BY STEVEN A. BOWMAN AND RACHEL A. BOWMAN,
Montgomery County Tax Map Parcel No. 120708 and Being MVP Parcel No. VAMO-069; 1.14 ACRES OF LAND, OWNED BY HOWARD D. PERDUE,
Montgomery County Tax Map Parcel No. 014256 and Being MVP Parcel No. VAMO-0700; 3.84 ACRES OF LAND, OWNED BY DENNY R. SCOTT AND
TAMMY K. SCOTT, Montgomery County Tax Map Parcel No. 012030 and Being
MVP Parcel No. VA-MO-071; 0.36 ACRES OF LAND, OWNED BY CRAIGBOTETOURT ELECTRIC COOPERATIVE, A VIRGINIA ELECTRIC
COOPERATIVE AND NON-STOCK CORPORATION, Montgomery County
Tax Map Parcel No. 034187 and Being MVP Parcel No. VA-MO-075; 12.20
ACRES OF LAND, OWNED BY JUNE SMITH, RAY SMITH, PATRICIA S.
DEVECHA, STEPHEN R. SMITH, BARRY SCOTT SMITH, DOUGLAS F.
SMITH, DAVID L. SMITH, FRED APGAR, RUTH APGAR GLOCK,
GREGORY M. APGAR, AND ANG, a/k/a Raymond Foster Smith, a/k/a Fred I.
Apgar, a/k/a Frederick I. Apgar, Unknown Heirs or Assigns of the Following June
Smith, and Ray Smith, Montgomery Co. Tax Map Parcel No. 120001 and MVP
Parcel No. VA-MO-084; 7.18 ACRES OF LAND, OWNED BY MICHAEL
EDWARD SLAYTON, TRUSTEE OR MARGARET MCGRAW SLAYTON,
TRUSTEE, MARGARET MCGRAW SLAYTON LIVING TRUST, Montgomery
County Tax Map Parcel No. 024590 and Being MVP Parcel No. VA-MO-3371;
0.16 ACRES OF LAND, OWNED BY LEONARD C. STEINER AND
DEBORAH L. STEINER, Montgomery County Tax Map Parcel No. 008906 and
Being MVP Parcel No. VA-MO-4259.001 (AR MN-272); 0.29 ACRES OF
LAND, OWNED BY DENNY R. SCOTT AND TAMMY K. SCOTT,
Montgomery County Tax Map Parcel No. 030035 and Being MVP Parcel No. VAMO-4261 (AR MN-272); 1.04 ACRES OF LAND, OWNED BY HENRY S.

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 31 of 113

KEULING-STOUT, Montgomery County Tax Map Parcel No. 005370 and Being
MVP Parcel No. VA-MO-4266 (AR MN-276); 22.73 ACRES OF LAND,
OWNED BY BLUE EAGLE PARTNERSHIP, LLC, Montgomery County Tax
Map Parcel No. 010352 and Being MVP Parcel No. VA-MO-4314; 4.79 ACRES
OF LAND, OWNED BY SONABANK, Montgomery County Tax Map Parcel No.
013751 and Being MVP Parcel No. VA-MO-4321; 0.04 ACRES OF LAND,
OWNED BY JO MILLS SOWERS, Montgomery County Tax Map Parcel No.
032744 and Being MVP Parcel No. VA-MO-4424; 0.42 ACRES OF LAND,
OWNED BY ANTHONY E. HESS AND CARMELLA HESS, Montgomery
County Tax Map Parcel No. 003368 and Being MVP Parcel No. VA-MO-5357;
0.28 ACRES OF LAND, OWNED BY ELIJAH D. HOWARD, Montgomery
County Tax Map Parcel No. 031305 and MVP Parcel No. VA-MO-5364; 0.37
ACRES OF LAND, OWNED BY ELIJAH HOWARD AND KRISTIN
HOWARD, Montgomery County Tax Map Parcel No. 031305 and Being MVP
Parcel No. VA-MO-5366; 0.11 ACRES OF LAND, OWNED BY DELMER
WAYNE HOWARD, Montgomery County Tax Map Parcel No. 020405 and Being
MVP Parcel No. VA-MO-5368; 0.24 ACRES OF LAND, OWNED BY TARTLE,
LLC, Montgomery Count Tax Map Parcel No. 002152 and Being MVP Parcel No.
VA-MO-5369; 0.22 ACRES OF LAND, OWNED BY HOLLY R. WIMMERMCCLANAHAN AND ROBERT C. MCCLANAHAN, Montgomery County Tax
Map Parcel No. 003025 and Being MVP Parcel No. VA-MO-5371; 0.40 ACRES
OF LAND, OWNED BY ROANOKE VALLEY RESOURCE AUTHORITY,
Montgomery County Tax Map Parcel No. 035144 and Being MVP Parcel No. VAMO-5374; 0.01 ACRES OF LAND, OWNED BY CORA LEE SMITH, RUBY J.
SMITH, GENE E. SMITH, GENA D. REED, BETHANY A. SMITH, AND
JOHN ERIK SMITH, Unknown Heirs of Assigns of the Following Cora Lee
Smith and Ruby J. Smith, Montgomery County Tax Map Parcel No. 017721 and
Being MVP Parcel No. VA-MO-5381; 3.35 ACRES OF LAND, OWNED BY
THOMAS W. TRIPLETT AND BONNIE B. TRIPLETT, Montgomery County
Tac Map Parcel No. 024589 and Being MVP Parcel No. VA-MO-5514; 2.07
ACRES OF LAND, OWNED BY PHYLLIS M. HUTTON, Montgomery County
Tax Map Parcel No. 009443 and Being MVP Parcel No. VA-MO-5515; 3.01
ACRES OF LAND, OWNED BY PHYLLIS M. HUTTON, Montgomery County
Tax Map Parcel No. 026945 and Being MVP Parcel No. VA-MO-5516; 1.38
ACRES OF LAND, OWNED BY MODE AND ARLEN JOHNSON AND
PAMELA LOUISE FERRANTE, Montgomery County Tax Map Parcel No.
001262 and Being MVP Parcel No. VA-MO-5519; 3.87 ACRES OF LAND,
OWNED BY MODE AND ARLEN JOHNSON AND PAMELA LOUISE
FERRANTE, Montgomery County Tax Map Parcel No. 032870 and Being MVP
Parcel No. VA-MO-5520; 1.30 ACRES OF LAND, OWNED BY JOHN

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 32 of 113

GARRET BAKER AND SUZANNE JANE BAKER, Montgomery County Tax
Map Parcel No. 019482 and Being MVP Parcel No. VA-MO-5523; 6.86 ACRES
OF LAND, OWNED BY JULIANA BERNHOLZ AND IRINA BERNHOLZ
SIEGRIST, Montgomery County Tax Map Parcel No. 015895 and Being MVP
Parcel No. VA-MO-5526; 9.66 ACRES OF LAND, OWNED BY CHARLES
BRUCE FUGATE, CURTIS DEAN FUGATE, AND SHARON FUGATE
LINKOUS, Montgomery County Tax Map Parcel No. 006739 and Being MVP
Parcel No. VA-MO-5528; 0.38 ACRES OF LAND, OWNED BY JAMES C.
LAW AND CAROLYN D. LAW, Montgomery County Tax Map Parcel No.
002833 and Being MVP Parcel No. VA-MO-5626; 0.08 ACRES OF LAND,
OWNED BY MELVIN L. LINKOUS AND SHARON F. LINKOUS,
Montgomery County Parcel No. 011191 and Being MVP Parcel No. VA-MO5758; 0.18 ACRES OF LAND, OWNED BY VALERIE E. GIBSON,
Montgomery County Tax Map Parcel No. 014919 and Being MVP Parcel No. VAMO-5788; 1.06 ACRES OF LAND, OWNED BY JOHN R. BAKER AND AMY
G. BAKER, Montgomery County Tax Map Parcel No. 230082 and Being MVP
Parcel No. VA-MO-5882; 0.01 ACRES OF LAND, OWNED BY ANTHONY
EDWARD HESS AND CARMELLA HESS, Montgomery County Tax Map
Parcel No. 003365 and Being MVP Parcel No. VA-MO-5885; 4.03 ACRES OF
LAND, OWNED BY MATTHEW D. ROLLIER AND DEANNA D.
ROBINSON, Roanoke County Tax Map Parcel No. 102.00-01-12.00-0000 and
Bring MVP Parcel No. BVRO-04; 0.47 ACRES OF LAND, OWNED BY BRUCE
M. COFFEY AND MARY E. COFFEY, Roanoke County Tax Map Parcel No.
102.00-01-13.00-0000 and Being MVP Parcel No. BVRO-05; 0.08 ACRES OF
LAND, OWNED BY JENNIFER L. FRALEY, Roanoke County Tax Map Parcel
No. 117.00-01-39.00-0000 and Being MVP Parcel No. BVRO-11; 0.22 ACRES
OF LAND, OWNED BY LENORA W. MONTUORI AND LENORA
MONTUORI AND KRISTINA MONTUORI HILLMAN, TRUSTEES OF THE
ANTONIO MONTUORI FAMILY TRUST, Roanoke County Tax Map Parcel No.
117.00-01-41.00-0000 and Being MVP Parcel No. BVRO-12; 0.41 ACRES OF
LAND, OWNED BY JAMES D. SCOTT AND KAREN B. SCOTT, Roanoke
County Tax Map Parcel No. 093.00-01-34.01-0000 and Being MVP Parcel No.
VA-RO-030 (AR RO-281); 0.11 ACRES OF LAND, OWNED BY JUNE SMITH,
RAY SMITH, PATRICIA S. DEVECHA, STEPHEN R. SMITH, BARRY
SCOTT SMITH, DOUGLAS F. SMITH, DAVID L. SMITH, FRED APGAR,
RUTH APGAR GLOCK, DONALD APGAR, GREGORY M. A, a/k/a Raymond
Foster Smith, a/k/a Fred I. Apgar, a/k/a Frederick Apgar, a/k/a Gregory M. Apgar,
a/k/a Angela H. Apgar, Unknown Heirs and Assigns of the Following June Smith,
and Ray Smith, Roanoke Co. Tax Map Parcel No. 063.00-01-25.00-0000 and
Being MVP Parcel No. VA-RO-033; 2.41 ACRES OF LAND, OWNED BY ANN

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 33 of 113

ELIZABETH ANDREWS, Roanoke County Tax Map Parcel No. 082.00-0140.00-0000 and Being MVP Parcel No. VA-RO-036; 22.47 ACRES OF LAND,
OWNED BY JAMES LOUIS MAXWELL, III, ELIZABETH MARSHALL
MAXWELL YARBORO, CHARLOTTE RUTH MAXWELL WEAVER, AND
MARY ANN MAXWELL, Roanoke County Tax Map Parcel No. 082.00-0141.00-0000 and Being MVP Parcel No. VA-RO-037; 23.74 ACRES OF LAND,
OWNED BY MARK W. CRONK, ALISON G. CRONK AND THE NATURE
CONSERVANCY, Roanoke County Tax Map Parcel No. 093.00-01-44.00-0000
and Being MVP Parcel No. VA-RO-038; 1.89 ACRES OF LAND, OWNED BY
TRUSTEES OF EVANGEL FOURSQUARE CHURCH, Roanoke County Tax
Map Parcel No. 093.00-01-47.00-0000 and Being MVP Parcel No. VA-RO-039;
2.17 ACRES OF LAND, OWNED BY JAMES D. SCOTT AND KAREN B.
SCOTT, Roanoke County Tax Map Parcel No. 093.00-01-33.00-0000 and Being
MVP Parcel No. VA-RO-042; 0.341 ACRES OF LAND, OWNED JAMES D.
SCOTT AND KAREN B. SCOTT, Roanoke County Tax Map Parcel No. 093.0001-33.01-0000 and Being MVP Parcel No. VA-RO-043; 0.68 ACRES OF LAND,
OWNED BY MICHAEL THOMAS SCOTT, Roanoke County Tax Map Parcel
No. 102.00-01-05.00-0000 and Being MVP Parcel No. VA-RO-044; 13.47
ACRES OF LAND, OWNED BY JOHN COLES TERRY, III, Roanoke County
Tax Map Parcel No. 102.00-01-08.00-0000 and Being MVP Parcel No. VA-RO045; 8.37 ACRES OF LAND, OWNED BY FRANK H. TERRY, JR., JOHN
COLES TERRY, III, AND ELIZABETH LEE TERRY, a/k/a Elizabeth Lee
Reynolds, Roanoke County Tax Map Parcel No. 102.00-01-02.00-0000 and Being
MVP Parcel No. VA-RO-046; 1.40 ACRES OF LAND, OWNED BY MARY
ELLEN RIVES, Roanoke County Tax Map Parcel No. 103.00-02-43.00-0000 and
Being MVP Parcel No. VA-RO-051; 1.85 ACRES OF LAND, OWNED BY
JACQULINE J. LUCKI, Roanoke County Tax Map Parcel No. 102.00-01-14.000000 and Being MVP Parcel No. VA-RO-052; 9.89 ACRES OF LAND, OWNED
BY ELIZABETH LEE TERRY, a/k/a Elizabeth Lee Reynolds, Roanoke County
Tax Map Parcel No. 110.00-01-44.00-0000 and Being MVP Parcel No. VA-RO054; 4.72 ACRES OF LAND, OWNED BY FRED W. VEST, Roanoke County
Tax Map Parcel No. 110.00-01-56.00-0000 and Being MVP Parcel No. VA-RO056; 2.93 ACRES OF LAND, OWNED BY LOIS KING WALDRON AND LOIS
MABEL WALDRON MARTIN, Roanoke County Tax Map Parcel No. 110.00-0150.00-0000 and Being MVP Parcel No. VA-RO-057; 0.41 ACRES OF LAND,
OWNED BY LENORA W. MONTUORI, Roanoke County Tax Map Parcel No.
110.00-01-54.00-0000 and Being MVP Parcel No. VA-RO-058; 2.07 ACRES OF
LAND, OWNED BY JOHN D. FULTON, JR. AND JANICE VANNESS
BROKA, Roanoke County Tax Map Parcel No. 110.00-01-55.00-0000 and Bring
MVP Parcel No. VA-RO-059; 4.31 ACRES OF LAND, OWNED BY JAMES T.

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 34 of 113

CHANDLER AND KATHY E. CHANDLER, Roanoke County Tax Map Parcel
No. 111.00-01-62.01-0000 and Being MVP Parcel No. VA-RO-060; 4.31 ACRES
OF LAND, OWNED BY JAMES T. CHANDLER AND KATHY E.
CHANDLER, Roanoke County Tax Map Parcel No 117.00-01-38.00-0000 and
Being MVP Parcel No. VA-RO-061; 1.91 ACRES OF LAND, OWNED BY
LENORA W. MONTUORI AND LENORA MONTUORI AND KRISTIN
MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO MONTUORI
FAMILY TRUST, Roanoke County Tax Map Parcel No. 117.00-01-43.02-0000
and Being MVP Parcel No. VA-RO-062; 0.91 ACRES OF LAND, OWNED BY
LENORA W. MONTUORI AND LENORA MONTUORI AND KRISTINA
MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO MONTUORI
FAMILY TRUST, Roanoke County Tax Map Parcel No. 117.00-01-43.00-0000,
Being MVP Parcel No. VA-RO-063; 2.99 ACRES OF LAND, OWNED BY
LENORA W. MONTUORI AND LENORA MONTUORI AND KRISTINA
MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO MONTUORI
FAMILY TRUST, Roanoke County Tax Map Parcel No. 117.00-01-46.00-0000
and Being Parcel No. VA-RO-064; 0.20 ACRES OF LAND, OWNED BY
LENORA W. MONTUORI AND LENORA MONTUORI AND KRISTINA
MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO MONTUORI
FAMILY TRU, Roanoke County Tax Map Parcel No. 117.00-01-43.01-0000 and
Being MVP Parcel No. VA-RO-065; 0.19 ACRES OF LAND, OWNED BY
LENORA W. MONTUORI AND LENORA MONTUORI AND KRISTINA
MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO MONTUORI
FAMILY TRUST, Roanoke County Tax Map Parcel No. 117.00-01-42.00-0000
and Being MVP Parcel No. VA-RO-066; 2.43 ACRES OF LAND, OWNED BY
LENORA W. MONTUORI AND LEMORA MONTUORI AND KRISTINA
MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO MONTUORI
FAMILY TRUST, Roanoke County Tax Map Parcel No. 117.00-01-45.00-0000
and Being MVP Parcel No. VA-RO-067; 2.05 ACRES OF LAND, OWNED BY
HOWARD M. THOMPSON AND CHRISTINE W. THOMPSON, Roanoke
County Tax Map Parcel No. 118.00-01-09.00-0000 and Being MVP Parcel No.
VA-RO-068; 0.94 ACRES OF LAND, OWNED BY MARTIN G. MORRISON
AND PATRICIA A. BOYD, Roanoke County Tax Map Parcel No. 063.00-0120.00-0000 and Being MVP Parcel No. VA-RO-4115; 2.20 ACRES OF LAND,
OWNED BY HILAH PARKS TERRY, FRANK H. TERRY, JR., ELIZABETH
LEE TERRY, JOHN COLES TERRY III, GRACE MINOR TERRY, Unknown
Heirs or Assigns of Frank H. Terry, Sr., Roanoke County Tax Map Parcel No.
103.00-02-01.00-0000 and Being MVP Parcel No. VA-RO-4118 (AR RO-283);
0.93 ACRES OF LAND, OWNED BY ALEXANDER B. PHILLIPS AND
EMILY M. PHILLIPS, Roanoke County Tax Map Parcel No. 111.00-01-62.00-

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 35 of 113

0000 and Being MVP Parcel No. VA-RO-4123 (AR RO-287); 0.50 ACRES OF
LAND, OWNED BY LENORA W. MONTUORI AND LENORA MONTUORI
AND KRISTINA MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO
MONTUORI FAMILY TRUST, Roanoke County Tax Map Parcel No. 117.00-0141.01-0000 and Being MVP Parcel No. VA-RO-4124; 0.33 ACRES OF LAND,
OWNED BY LENORA W. MONTUORI AND LENORA MONTUORI AND
KRISTINA MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO
MONTUORI FAMILY TRUST, Roanoke County Tax Map Parcel No. 117.00-0141.02-0000 and Being MVP Parcel No. VA-RO-4125; 0.28 ACRES OF LAND,
OWNED BY JACQULINE J. LUCKI, Roanoke County Tax Map Parcel No.
102.00-01-13.01-0000 and Being MVP Parcel No. VA-RO-50; 0.32 ACRES OF
LAND, OWNED BY GRACE MINOR TERRY, Roanoke County Tax Map Parcel
No. 102.00-01-01.02-0000 and Being MVP Parcel No. VA-RO-5149 (AR RO279.01); 0.35 ACRES OF LAND, OWNED BY KERMIT C. CROWE AND
ALVA T. CROWE, Roanoke County Tax Map Parcel No. 111.00-01-56.02-0000
and Being MVP Parcel No. VA-RO-5216 (AR RO-287); 0.36 ACRES OF LAND,
OWNED BY BETTY E. MCCOY, AND EDWARD CONNER, f/k/a Betty Eloise
Conner, f/k/a Betty T. Conner, Roanoke County Tax Map Parcel No. 111.00-0156.03-0000 and Being MVP Parcel No. VA-RO-5217 (AR RO-287); 0.05 ACRES
OF LAND, OWNED BY TEDDY D. CROWE AND SUSAN F. CROWE,
Roanoke County Tax Map Parcel No. 111.00-01-56.05-0000 and Being MVP
Parcel No. VA-RO-5218 (AR RO-287); 0.03 ACRES OF LAND, OWNED BY
GEORGE ROBERT FERGUSON AND DANA MICHELLE FERGUSON,
Roanoke County Tax Map Parcel No. 111.00-01-56.00-0000 and Being MVP
Parcel No. VA-RO-5221 (AR RO-287); 0.34 ACRES OF LAND, OWNED BY
ROBIN B. AUSTIN AND ALLEN R. AUSTIN, Roanoke County Tax Map Parcel
No. 110.00-01-45.00-0000 and Being MVP Parcel No. VA-RO-5222 (AR RO285); 0.06 ACRES OF LAND, OWNED BY MICHAEL L. LESTER AND
TERESA A. LESTER, Roanoke County Tax Map Parcel No. 111.00-0161.02.0000 and Being MVP Parcel No. VA-RO-5223 (AR RO-287); 0.04 ACRES
OF LAND, OWNED BY MICHELLE R. LESTER, Roanoke County Tax Map
Parcel No. 111.00-01-61.03-0000 and Being MVP Parcel No. VA-RO-5224 (AR
RO-287); 0.50 ACRES OF LAND, OWNED BY RANDALL KEITH EPPERLY
AND JOANN ALICE EPPERLY, Roanoke County Tax Map Parcel No. 082.0001-17.00-0000 and Being MVP Parcel No. VA-RO-5225 (AR MN-278.01); 0.64
ACRES OF LAND, OWNED BY DONALD EVERETT MELTON, a/k/a Don E.
Melton, Roanoke County Tax Map Parcel No. 082.00-01-16.00-0000 and Being
MVP Parcel No. VA-RO-5226 (AR MN-278.01); 0.09 ACRES OF LAND,
OWNED BY DONALD EVERETT MELTON, Roanoke County Tax Map Parcel
No. 082.00-01-15.00-0000 and Being MVP Parcel No. VA-RO-5227 (AR MN-

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 36 of 113

278.01); 0.33 ACRES OF LAND, OWNED BY ELIZABETH LEE TERRY, a/k/a
Elizabeth Lee Reynolds, Roanoke County Tax Map Parcel No. 093.00-01-46.000000 and Being MVP Parcel No. VA-RO-5228 (ATWS-1224); 0.01 ACRES OF
LAND, OWNED BY LONNIE L. LESTER AND JUDITH P. LESTER, Roanoke
County Tax Map Parcel No. 111.00-01-61.01-0000 and Being MVP Parcel No.
VA-RO-5229 (AR RO-287); 0.02 ACRES OF LAND, OWNED BY BD
INVESTMENTS OF ROANOKE, LLC, Roanoke County Tax Map Parcel No.
111.00-01-63.00-0000 Being MVP Parcel No. VA-RO-5231 (AR RO-287); 0.31
ACRES OF LAND, OWNED BY REBECCA JANE DAMERON, Roanoke
County Tax Map Parcel No. 111.00-01-61.00-0000 and Being MVP Parcel No.
VA-RO-5383; 0.01 ACRES OF LAND, OWNED BY JEREMY JOSEPH RICE
AND MICHELLE RENEE RICE, Roanoke County Tax Map Parcel No. 111.0001-58.00-0000 and Being MVP Parcel No. VA-RO-5627; 0.15 ACRES OF
LAND, OWNED BY FRANK W. HALE AND FLOSSIE I. HALE AND
ROBERT MATTHEW HAMM AND AIMEE CHASE HAMM, Roanoke County
Tax Map Parcel No. 110.00-01-56.01-0000 and Being MVP Parcel No. VA-RO5748; 0.09 ACRES OF LAND, OWNED BY LARRY BERNARD
CUNNINGHAM AND CAROLYN A. CUNNINGAM, Roanoke County Tax Map
Parcel No. 063.00-01-20.03-0000 and Being MVP Parcel No. VA-RO-5781; 0.25
ACRES OF LAND, OWNED BY CHELSEA CAMPER, Roanoke County Tax
Map Parcel No. 063.00-01-20.04-0000 and Being MVP Parcel No. VA-RO-5782;
0.21 ACRES OF LAND, OWNED BY WILLIAM J. CORRELL, SR. AND
NADINE E. CORRELL, Roanoke County Tax Map Parcel No. 063.00-01-20.020000 and Being MVP Parcel No. VA-RO-5783; 0.11 ACRES OF LAND,
OWNED BY WILLIAM J. CORRELL, SR. AND NADINE E. CORRELL,
Roanoke County Tax Map Parcel No. 063.00-01-20.01-0000 and Being MVP
Parcel No. VA-RO-5784; 0.26 ACRES OF LAND, OWNED BY LARRY
BERNARD CUNNINGHAM AND CAROLYN A. CUNNINGHAM, Roanoke
County Tax Map Parcel No. 063.00-01-21.00-0000 and Being MVP Parcel No.
VA-RO-5785; 0.16 ACRES OF LAND, OWNED BY PAUL L. WILSON AND
PEGGY M. WILSON, Franklin County Tax Map Parcel No. 04300-05005 and
Being MVP Parcel No. BVR-24; 5.38 ACRES OF LAND, OWNED BY LUCY A.
PRICE, Franklin County Tax Map Parcel No. 0240003400 and Being MVP Parcel
No. VA-FR-008; 5.73 ACRES OF LAND, OWNED BY SHIRLEY BOWMAN
JAMISON, Franklin County Tax Map Parcel No. 0240004400 and Being MVP
Parcel No. VA-FR-009; 3.11 ACRES OF LAND, OWNED BY RUSSELL E.
CALLAWAY AND HEIDE K. CALLAWAY, Franklin County Tax Map Parcel
No. 0240005400 and Being MVP Parcel No. VA-FR-015.02; 1.38 ACRES OF
LAND, OWNED BY ALVIN E. WRAY, LINDA L. WRAY, L. BENTON
WRAY, JR., AND DIANE S. WRAY, Franklin County Tax Map Parcel No.

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 37 of 113

250002100 and being MVP Parcel No. VA-FR-017; 11.45 ACRES OF LAND,
OWNED BYL. BENTON WRAY, JR., DIANE S. WRAY, ALVIN E. WRAY,
AND LINDA L. WRAY, Franklin County Tax Map Parcel No. 0250002200 and
being MVP Parcel No. VA-FR-017.02; 1.28 ACRES OF LAND, OWNED BY
ALAN R. HARTMAN, Franklin County Tax Map Parcel No. 0250002500 and
being MVP Parcel No. VA-FR-017.04; 3.86 ACRES OF LAND, OWNED
BYJESSE ALBERT WEBSTER, Franklin County Tax Map Parcel No.
0250002800 and being MVP Parcel No. VA-FR-017.06; 1.77 ACRES OF LAND,
OWNED BYJESSE ALBERT WEBSTER, Franklin County Tax Map Parcel No.
0250002400 and being MVP Parcel No. VA-FR-017.07; 2.23 ACRES OF LAND,
OWNED BY MARTHA A. MCDEARMON, Franklin County Tax Map Parcel
No. 0250003801and being MVP Parcel No. VA-FR-017.10; 8.21 ACRES OF
LAND, OWNED BY OCCANNEECHI, INC., Franklin County Tax Map Parcel
No. 0250004100 and being MVP Parcel No. VA-FR-017.11; 0.70 ACRES OF
LAND, OWNED BY RICHARD H. MCDEARMON, JR. AND ELLEN C.
WALTON, Franklin County Tax Map Parcel No. 0380000201D and being MVP
Parcel No. VA-FR-017.12; 0.83 ACRES OF LAND, OWNED BY RICHARD H.
MCDEARMON, JR. AND ELLEN C. WALTON, Franklin County Tax Map
Parcel No. 0380000201B and being MVP Parcel No. VA-FR-017.13; 21.98
ACRES OF LAND, OWNED BY OCCANNEECHI, INC., Franklin County Tax
Map Parcel No. 0380001501 and being MVP Parcel No. VA-FR-017.15; 0.49
ACRES OF LAND, OWNED BY J. CLARK JAMISON, JR., SHIRLEY
BOWMAN JAMISON, AND MARIE KATHERINE FLORA JAMISON
GOGGIN, Franklin County Tax Map Parcel No. 0380001300 and being MVP
Parcel No. VA-FR-017.16; 0.55 ACRES OF LAND, OWNED BY J. CLARK
JAMISON, JR., SHIRLEY BOWMAN JAMISON, AND MARIE KATHERINE
FLORA JAMISON GOGGIN, Franklin County Tax Map Parcel No. 0380005100
and being MVP Parcel No. VA-FR-017.19; 5.93 ACRES OF LAND, OWNED
BY CHARLES FREDERICK FLORA AND STEPHANIE M. FLORA, Franklin
County Tax Map Parcel No. 0380002002 and being MVP Parcel No. VA-FR017.20; 0.04 ACRES OF LAND, OWNED BY GLENN C. FRITH AND LINDA
K. FRITH, TRUSTEES OF THE FRITH LIVING TRUST, Franklin County Tax
Map Parcel No. 0380001900 and being MVP Parcel No. VA-FR-017.24; 2.02
ACRES OF LAND, OWNED BY GLENN C. FRITH AND LINDA K. FRITH,
TRUSTEES OF THE FRITH LIVING TRUST, Franklin County Tax Map Parcel
No. 0380002500 and being MVP Parcel No. VA-FR-017.26; 0.12 ACRES OF
LAND, OWNED BY GLENN W. LOVELESS AND JUNE S. LOVELESS,
Franklin County Tax Map Parcel No. 0370011106 and being MVP Parcel No. VAFR-017.37; 0.25 ACRES OF LAND, OWNED BY HEATHERWOOD
PROPERTIES, INC, Franklin County Tax Map Parcel No. 0370010900 and being

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 38 of 113

MVP Parcel No. VA-FR-017.40,; 0.23 ACRES OF LAND, OWNED BY
RAYMOND THOMAS WORRELL AND LINDA D. WORRELL, Franklin
County Tax Map Parcel No. 0370001510 and being MVP Parcel No. VA-FR017.42; 1.74 ACRES OF LAND, OWNED BY DEREK T. HANES AND
MARION C. HANES, Franklin County Tax Map Parcel No. 0370009305 A and
being MVP Parcel No. VA-FR-047; 4.35 ACRES OF LAND, OWNED BY
LYNN R. FLORA AND CYNTHIA D. FLORA, Franklin County Tax Map Parcel
No. 0370009301 and being MVP Parcel No. VA-FR-049; 2.84 ACRES OF
LAND, OWNED BY LYNN RAY FLORA, Franklin County Tax Map Parcel No.
0370008500 and being MVP Parcel No. VA-FR-050; 8.97 ACRES OF LAND,
OWNED BY ROBERT G. IKENBERRY, Franklin County Tax Map Parcel No.
0370017700 and being MVP Parcel No. VA-FR-053; 0.06 ACRES OF LAND,
OWNED BY ORREN RICHARD ANDERSON AND GENEVA BELL
ANDERSON, Franklin County Tax Map Parcel No. 0370018101 and being MVP
Parcel No. VA-FR-054.002; 0.66 ACRES OF LAND, OWNED BY COUNTY OF
FRANKLIN, Franklin County Tax Map Parcel No. 0370005400 and being MVP
Parcel No. VA-FR-063; 5.16 ACRES OF LAND, OWNED BY THE COUNTY
OF FRANKLIN, Franklin County Tax Map Parcel No. 0370005300 and being
MVP Parcel No. VA-FR-064; 6.24 ACRES OF LAND, OWNED BY C. GALEN
FISHER, GALEN TODD FISHER, AND RYAN GALEN FISHER, Franklin
County Tax Map Parcel No. 0430004900 and being MVP Parcel No. VA-FR-068;
0.87 ACRES OF LAND, OWNED BY BOBBY I. JONES AND RICHARD
WAYNE JONES REVOCABLE TRUST, RICHARD WAYNE JONES,
TRUSTEE, Franklin County Tax Map Parcel No. 0430105200 and being MVP
Parcel No. VA-FR-070.01; 1.60 ACRES OF LAND, OWNED BY SANDRA H.
LANCASTER, Franklin County Tax Map Parcel No. 0430105000 and being MVP
Parcel No. VA-FR-073; 8.21 ACRES OF LAND, OWNED BY LONGVIEW
HOLSTEINS, INC., Franklin County Tax Map Parcel No. 0430021500 and being
MVP Parcel No. VA-FR-075; 3.70 ACRES OF LAND, OWNED BY DAVID J.
WERNER, BETTY B. WERNER, IAN ELLIOTT REILLY, AND CAROLYN
ELIZABETH REILLY, Franklin County Tax Map Parcel No. 0440004300 and
being MVP Parcel No. VA-FR-076.01; 1.72 ACRES OF LAND, OWNED BY
GUY W. BUFORD AND MARGARET S. BUFORD, Franklin County Tax Map
Parcel No. 0440004400 and being MVP Parcel No. VA-FR-077; 0.07 ACRES OF
LAND, OWNED BY DALE E. ANGLE AND MARY A. ANGLE, TRUSTEES
OF THE DALE E. ANGLE AND MARY A. ANGLE JOINT REVOCABLE
TRUST, Franklin County Tax Map Parcel No. 0440006400 and being MVP Parcel
No. VA-FR-077.01; 2.14 ACRES OF LAND, OWNED BY DALE E. ANGLE
AND MARY A. ANGLE, TRUSTEES UNDER THE DALE E. AND MARY A.
ANGLE JOINT REVOCABLE TRUST, Franklin County Tax Map Parcel No.

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 39 of 113

0440006501 and being MVP Parcel No. VA-FR-078; 8.21 ACRES OF LAND,
OWNED BY DALE E. ANGLE AND MARY A. ANGLE, TRUSTEES OF THE
DALE E. ANGLE AND MARY A. ANGLE JOINT REVOCABLE TRUST,
Franklin County Tax Map Parcel No. 0440006500 and being MVP Parcel No. VAFR-079; 11.86 ACRES OF LAND, OWNED BY DONALD B. BARNHART,
Franklin County Tax Map Parcel No. 0440007300 and being MVP Parcel No. VAFR-081; 0.292 ACRES OF LAND, OWNED BY GAIL DUDLEY SMITHERS
AND GINGER K. SMITHERS, Franklin County Tax Map Parcel No. 0450008100
and being MVP Parcel No. VA-FR-113; 8.56 ACRES OF LAND, OWNED BY
GAIL DUDLEY SMITHERS AND GINGER K. SMITHERS, Franklin County
Tax Map Parcel No. 0450000902 and being MVP Parcel No. VA-FR-114; 8.37
ACRES OF LAND, OWNED BY RICHARD LYNCH, TRUSTEE OF THE
CATHERINE R. BECKNER IRREVOCABLE TRUST, Franklin County Tax
Map Parcel No. 0450008000 and being MVP Parcel No. VA-FR-115; 8.60
ACRES OF LAND, OWNED BY GAIL DUDLEY SMITHERS, Franklin County
Tax Map Parcel No. 0450001600 and being MVP Parcel No. VA-FR-117; 3.92
ACRES OF LAND, OWNED BY GAIL DUDLEY SMITHERS AND GINGER
K. SMITHERS, Franklin County Tax Map Parcel No. 0450006800 and being
MVP Parcel No. VA-FR-119; 1.17 ACRES OF LAND, OWNED BY RONDA
DIANE ROOPE OSBORNE AND MICHAEL WAYNE ROOPE, Franklin
County Tax Map Parcel No. 0450003300 and being MVP Parcel No. VA-FR-125;
10.21 ACRES OF LAND, OWNED BY WILLIAM DAVID BOARD, JAMES R.
BOARD, SUSAN BOARD MYERS, NANCY B. FLORA, AND KENNETH
CRAIG BOARD, Franklin County Tax Map Parcel No. 0450006100 and being
MVP Parcel No. VA-FR-128; 5.56 ACRES OF LAND, OWNED BY FRANKLIN
REAL ESTATE COMPANY, Franklin County Tax Map Parcel No. 0530012101
and being MVP Parcel No. VA-FR-148; 4.82 ACRES OF LAND, OWNED BY
FRANKLIN REAL ESTATE COMPANY, Franklin County Tax Map Parcel No.
0530012600 and being MVP Parcel No. VA-FR-151; 0.30 ACRES OF LAND,
OWNED BY ROBERT ALAN PEGRAM, Franklin County Tax Map Parcel No.
0650401600 and being MVP Parcel No. VA-FR-155.01; 0.03 ACRES OF LAND,
OWNED BY MICHAEL A. DEEMS AND ELIZABETH A. DEEMS, Franklin
County Tax Map Parcel No. 06504-02500 and being MVP Parcel No. VA-FR155.02; 0.63 ACRES OF LAND, OWNED BY MICHAEL A. DEEMS AND
ELIZABETH A. DEEMS, Franklin County Tax Map Parcel No. 06504-02600 and
being MVP Parcel No. VA-FR-156; 6.74 ACRES OF LAND, OWNED BY
EDWARDS PROPERTIES, LTD, Franklin County Tax Map Parcel No.
0660004300 and being MVP Parcel No. VA-FR-170; 0.94 ACRES OF LAND,
OWNED BY UNKNOWN HEIRS OR ASSIGNS OF ANDREW L.
POINDEXTER AND ANDREW POINDEXTER, Franklin County Tax Map

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 40 of 113

Parcel No. 0660010500 and being MVP Parcel No. VA-FR-174; 2.66 ACRES OF
LAND, OWNED BY CHRISTOPHER ERIC LAMBERT AND JODI E.
LAMBERT, Franklin County Tax Map Parcel No. 0660010600 and being MVP
Parcel No. VA-FR-175; 1.23 ACRES OF LAND, OWNED BY SHARON E.
LAMBERT, Franklin County Tax Map Parcel No. 0660010602 and being MVP
Parcel No. VA-FR-176; 0.36 ACRES OF LAND, OWNED BY JOSEPH E.
LAMBERT AND MARY I. LAMBERT, Franklin County Tax Map Parcel No.
0660010601 and being MVP Parcel No. VA-FR-177; 3.05 ACRES OF LAND,
OWNED BY ANN C. CLEMENTS AND MARY ARRINGTON CLEMENTS,
Franklin County Tax Map Parcel No. 0660011000 and being MVP Parcel No. VAFR-179; 1.57 ACRES OF LAND, OWNED BY ROBERT B. WORKMAN, III
AND JOAN M. WORKMAN, Franklin County Tax Map Parcel No. 0680007000
and being MVP Parcel No. VA-FR-196.02; 1.85 ACRES OF LAND, OWNED
BY OYLER LAND AND LEASING, LLC, Franklin County Tax Map Parcel No.
0240004000 and being MVP Parcel No. VA-FR-4126 (AR FR-291); 0.01 ACRES
OF LAND, OWNED BY JAMES WALTER WRAY, Franklin County Tax Map
Parcel No. 0440006701and being MVP Parcel No. VA-FR-4138.001 (AR FR305); 0.83 ACRES OF LAND, OWNED BY SUSAN BOARD MYERS,
WILLIAM DAVID BOARD, KENNETH CRAIG BOARD, AND NANCY
BOARD FLORA, a/k/a William D. Board, Franklin County Tax Map Parcel No.
0450012003and being MVP Parcel No. VA-FR-4141 (AR FR-313); 0.01 ACRES
OF LAND, OWNED BY JOSEPH B. PHELPS AND ALESHIA V. PHELPS,
Franklin County Tax Map Parcel No. 0530200100and being MVP Parcel No. VAFR-4143 (AR FR-315); 0.52 ACRES OF LAND, OWNED BY PREDELMA
O'NEAL HALL, Franklin County Tax Map Parcel No. 0660004400 and being
MVP Parcel No. VA-FR-4144 (AR FR-320); 0.14 ACRES OF LAND, OWNED
BY PENHOOK UNITED METHODIST CHURCH, Franklin County Tax Map
Parcel No. 0660012101 and being MVP Parcel No. VA-FR-4146 (AR FR-323);
0.01 ACRES OF LAND, OWNED BY RONDA DIANE ROOPE OSBORNE,
Franklin County Tax Map Parcel No. 0450003200 and being MVP Parcel No. VAFR-4276; 0.56 ACRES OF LAND, OWNED BY OWNED BY WILLIAM D.
BOARD, Franklin County Tax Map Parcel No. 0450012005 and being MVP
Parcel No. VA-FR-4277 (AR FR-313); 0.97 ACRES OF LAND, OWNED BY
WILLIAM DAVID BOARD, KENNETH CRAIG BOARD, SUSAN B. MYERS,
NANCY B. FLORA, AND JAMES R. BOARD, Franklin County Tax Map Parcel
No. 0450012001 and being MVP Parcel No. VA-FR-4278 (AR FR-313); 0.32
ACRES OF LAND, OWNED BY GAIL DUDLEY SMITHERS, Franklin County
Tax Map Parcel No. 0450001500 and being MVP Parcel No. VA-FR-5151
(ATWS-1266); 0.34 ACRES OF LAND, OWNED BY NANCY LORRAINE
BRITTON AND KENITH DWAIN BRITTON, SR., TRUSTEES OF THE

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 41 of 113

NANCY LORRAINE BRITTON AND KENITH DWAIN BRITTON, SR.
LIVING TRU, Franklin County Tax Map Parcel No. 0450006402 and being MVP
Parcel No. VA-FR-5388; 1.66 ACRES OF LAND, OWNED BY BRIAN H.
KINSEY, GEORGE D. KINSEY, JR., AND STEVEN D. KINSEY, Franklin
County Tax Map Parcel No. 0380003402E and being MVP Parcel No. VA-FR5392; 0.09 ACRES OF LAND, OWNED BY TIMOTHY J. LAWLESS AND
MEGAN K. LAWLESS, Franklin County Tax Map Parcel No. 0370009905A and
being MVP Parcel No. VA-FR-5410; 0.12 ACRES OF LAND, OWNED BY
ANGELA L. MCGHEE AND FREDRICK C. MCGHEE, Franklin County Tax
Map Parcel No. 0370009905 and being MVP Parcel No. VA-FR-5411; 0.07
ACRES OF LAND, OWNED BY RUSSELL W. LAWLESS, Franklin County
Tax Map Parcel No. 0370009907 and being MVP Parcel No. VA-FR-5413; 0.15
ACRES OF LAND, OWNED BY RUSSELL R. BARKSDALE, JR., Franklin
County Tax Map Parcel No. 0370009904and being MVP Parcel No. VA-FR-5415;
0.02 ACRES OF LAND, OWNED BY DIANA M. PERKINSON, Franklin
County Tax Map Parcel No. 0370009600 and being MVP Parcel No. VA-FR5416; 0.16 ACRES OF LAND, OWNED BY CHRISTINE JEANNETTE DAVIS,
Franklin County Tax Map Parcel No. 0370009902 and being MVP Parcel No. VAFR-5417; 0.09 ACRES OF LAND, OWNED BY ANDREW P. BUCKMAN AND
SHARON H. BUCKMAN, Franklin County Tax Map Parcel No. 0370009911 and
being MVP Parcel No. VA-FR-5418; 0.02 ACRES OF LAND, OWNED BY
JOHN L. BARBAZON AND LAURA S. BARBAZON, Franklin County Tax Map
Parcel No. 0370009901 and being MVP Parcel No. VA-FR-5419; 0.27 ACRES
OF LAND, OWNED BY LEE A. FLORA, LYNN R. FLORA, AND PAMELA
FLORA SWEENEY, Franklin County Tax Map Parcel No. 0370009913 and being
MVP Parcel No. VA-FR-5420; 0.15 ACRES OF LAND, OWNED BY FRANK H.
BISCARDI AND JACQUELINE S. BISCARDI, Franklin County Tax Map Parcel
No. 0370009900 and being MVP Parcel No. VA-FR-5421; 0.04 ACRES OF
LAND, OWNED BY RONALD B. EDWARDS, SR., GLORIA MARTIN,
TERRANCE EDWARDS, LINDA WHITE, RUBY PENN, JANIS E. WALLER,
CRYSTAL DIANE EDWARDS, AND PENNY EDWARDS BLUE, Franklin
County Tax Map Parcel No. 0660009502 and being MVP Parcel No. VA-FR5434; 0.04 ACRES OF LAND, OWNED BY CRYSTAL DIANE EDWARDS,
Franklin County Tax Map Parcel No. 0660009602 and being MVP Parcel No. VAFR-5437; 0.88 ACRES OF LAND, OWNED BY DANIEL PAYNE WRIGHT
AND DONALD WAYNE WRIGHT, Franklin County Tax Map Parcel No.
0660007700 and being MVP Parcel No. VA-FR-5441; 4.14 ACRES OF LAND,
OWNED BY MARK E. DANIEL AND ANGELA D. DANIEL, Franklin County
Tax Map Parcel No. 0440011600 and being MVP Parcel No. VA-FR-5476; 1.71
ACRES OF LAND, OWNED BY LYDIA LAVERNE BROWN, Franklin County

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 42 of 113

Tax Map Parcel No. 0440015700 and being MVP Parcel No. VA-FR-5483; 2.02
ACRES OF LAND, OWNED BY PAUL F. CRAWFORD, Franklin County Tax
Map Parcel No. 0440016301 and being MVP Parcel No. VA-FR-5488; 1.49
ACRES OF LAND, OWNED BY UNKNOWN SUCCESSOR TRUSTEE OF
THE LACY F. DUDLEY DECLARATION OF REVOCABLE TRUST AND
ROSE MARIE DUDLEY, Franklin County Tax Map Parcel No. 0440200500 and
being MVP Parcel No. VA-FR-5490; 0.44 ACRES OF LAND, OWNED BY
SHELBY A. LAW, Franklin County Tax Map Parcel No. 0440200400 and being
MVP Parcel No. VA-FR-5492; 3.15 ACRES OF LAND, OWNED BY ROBERT
WAYNE MORGAN AND PATRICIA ANN MORGAN, Franklin County Tax
Map Parcel No. 0440018700 and being MVP Parcel No. VA-FR-5493; 0.01
ACRES OF LAND, OWNED BY ROY A. STEVENS, Franklin County Tax Map
Parcel No. 0440018800 and being MVP Parcel No. VA-FR-5496; 0.14 ACRES
OF LAND, OWNED BY ANTHONY B. NOVITZKI, Franklin County Tax Map
Parcel No. 0440206600 and being MVP Parcel No. VA-FR-5500; 5.51 ACRES
OF LAND, OWNED BY MARK A. DIVERS AND MARIE P. DIVERS, Franklin
County Tax Map Parcel No. 0440019801A and being MVP Parcel No. VA-FR5501; 0.02 ACRES OF LAND, OWNED BY DANIEL G. MYERS AND
DEBORAH L. MYERS, Franklin County Tax Map Parcel No. 0440019801 and
being MVP Parcel No. VA-FR-5502; 3.11 ACRES OF LAND, OWNED BY
JAMES GLYNWOOD HAYNES, JR., Franklin County Tax Map Parcel No.
0440020001 and being MVP Parcel No. VA-FR-5504; 0.95 ACRES OF LAND,
OWNED BY JAMES GLYNWOOD HAYNES, JR., Franklin County Tax Map
Parcel No. 0440019500 and being MVP Parcel No. VA-FR-5505; 0.38 ACRES
OF LAND, OWNED BY JAMES GLYNWOOD HAYNES, JR., Franklin County
Tax Map Parcel No. 0440019300 and being MVP Parcel No. VA-FR-5507; 3.76
ACRES OF LAND, OWNED BY CATHERINE BECKNER KINGERY, Franklin
County Tax Map Parcel No. 0440020401 and being MVP Parcel No. VA-FR5508; 0.07 ACRES OF LAND, OWNED BY MICHAEL S. LAMBERT AND
KELLY O. LAMBERT, Franklin County Tax Map Parcel No. 0660010200 and
being MVP Parcel No. VA-FR-5745; 0.10 ACRES OF LAND, OWNED BY
UNKNOWN HEIRS OR ASSIGNS OF ANDREW L. POINDEXTER AND
ANDREW POINDEXTER, Franklin County Tax Map Parcel No. 0660010300 and
being MVP Parcel No. VA-FR-5746; 0.08 ACRES OF LAND, OWNED BY
CHRISTOPHER E. LAMBERT AND JODI E. LAMBERT, Franklin County Tax
Map Parcel No. 0660010400 and being MVP Parcel No. VA-FR-5747; 0.04
ACRES OF LAND, OWNED BY BRUCE M. WOOD AND JENNIFER M.
WOOD, Franklin County Tax Map Parcel No. 0440200600 and being MVP Parcel
No. VA-FR-5791; 0.16 ACRES OF LAND, OWNED BY LEALDA T. ANGLE,
Franklin County Tax Map Parcel No. 0440020300 and being MVP Parcel No. VA-

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 43 of 113

FR-5892; 7.34 ACRES OF LAND, OWNED BY LEWIS O CLEMENTS,SR,
ANTHONY GRAY,KATHY POINDEXTER, LEAN C ROBERTSON, NADINE
B PERKINS, ANTHONY BROWN, HENRY ISAIAH NEWBILL, MARVIN
NEWBILL,LAVERNE N DAVIS, ALICE N DAVIS,THOMAS DOUGLAS
CLEMENTS, JR., HENRY LOUIS CLEMENTS, DWIGHT CLEMENTS,
NATHAN CLEMENTS, DOROTHY C TURNER, CHARLOTTE C DAY,
LAURA CLEMENTS, CLARA CLEMENTS, AND ELAINE HUBBARD
UNKNOWN HEIRS OR ASSIGNS OF THOMAS D CLEMENTS,SR,TORI C
GRAY, REBECCA CLEMENTS, NORA CLEMENTS, a/k/a Thomas Clement,
a/k/a Helen Glass, Pittsylvania Co TaxNo1489-09-2901;MVPNo VA-PI-026; 1.13
ACRES OF LAND,OWNED BY LEWIS O CLEMENTS, SR, ANTHONY
GRAY,KATHY POINDEXTER, LEAN C ROBERTSON, NADINE B
PERKINS,ANTHONY BROWN, HENRY ISAIAH NEWBILL, MARVIN
NEWBILL, LAVERNE N DAVIS, ALICE N DAVIS,THOMAS DOUGLAS
CLEMENTS,JR, HENRY LOUIS CLEMENTS, DW, a/k/a The Heirs or Assigns
of Thomas Clements, a/k/a Thomas Clement, a/k/a Helen Glass, a/k/a Unknown
Heirs and Assigns of Rebecca Clements, a/k/a Unknown Heirs and Assigns of
Nora Clements, Pittsylvania Co Tax No 1580-00-0360; MVPNoVA-PI-026.01;
1.12 ACRES OF LAND, OWNED BY LEWIS O CLEMENTS,JR, GENEVA C
PINKNEY, ANTHONY GRAY, KATHY POINDEXTER, MARVIN NEWBILL,
LAVERNE N DAVIS, ALICE N DAVIS SAM CLEMENTS, REBECCA
GLASS, ELAINE HUBBARD, DWIGHT CLEMENTS, THOMAS DOUGLAS
CLEMENTS,JR, HENRY LOUIS CLEMENTS, NATHAN CLEMENTS,
DOROTHY C TURNER, AND CHARLOTTE C DAY, a/k/a The Heirs or
Assigns of Thomas Clements, a/k/a Unknown Heirs or Assigns of Tori C. Gray,
a/k/a Unknown Heirs or Assigns of Nora Clements, a/k/a Helen Glass, a/k/a
Unknown Heirs or Assigns of Rebecca Clements, Pittsylvania Co TaxNo.1580-008311; MVPNo.VA-PI-026.02; 7.82 ACRES OF LAND, OWNED BY THOMAS
O. WHITE, JR., TRUSTEE OF THE BEVERLY A. MCLAUGHLIN
TESTAMENTARY TRUST, Pittsylvania County Tax Map Parcel No. 1489-867542 and being MVP Parcel No. VA-PI-029.05; 0.12 ACRES OF LAND,
OWNED BY EUGENE RYLAND MOTLEY AND NANCYE B. MOTLEY,
Pittsylvania County Tax Map Parcel No. 2418-41-9409 and being MVP Parcel No.
VA-PI-071.01; 0.05 ACRES OF LAND, OWNED BY DEAN M. POWELL AND
ANNETTE S. POWELL, Pittsylvania County Tax Map Parcel No. 2417-49-1304
and being MVP Parcel No. VA-PI-072; 2.07 ACRES OF LAND, OWNED BY
LAKE ANNA INVESTMENTS, LC, Pittsylvania County Tax Map Parcel No.
2418-50-8820 and being MVP Parcel No. VA-PI-072.01; 11.07 ACRES OF
LAND, OWNED BY A. DOUGLAS DALTON JR., Pittsylvania County Tax Map
Parcel No. 2417-58-4539 and being MVP Parcel No. VA-PI-073; 2.99 ACRES OF

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 44 of 113

LAND, OWNED BY COMMONWEALTH FOREST INVESTMENTS, INC.,
Pittsylvania County Tax Map Parcel No. 2417-89-1099 and being MVP Parcel No.
VA-PI-081.01; 1.09 ACRES OF LAND, OWNED BY COMMONWEALTH
FOREST INVESTMENTS, INC., Pittsylvania County Tax Map Parcel No. 241787-1135 and being MVP Parcel No. VA-PI-085 (AR PI-338); 1.60 ACRES OF
LAND, OWNED BY SANDRA Y. JEFFCOAT, SABRINA D. PERRY, JOHN D.
WHITTLE, III, ANTHONY J. WHITTLE, SR., DERRICK A. WHITTLE, SR.
AND ELTON G. WHITTLE, SR., Pittsylvania County Tax Map Parcel No. 242712-7078 and being MVP Parcel No. VA-PI-091; 0.30 ACRES OF LAND,
OWNED BY GWENDOLYN F. GREEN UNKNOWN HEIRS AND ASSIGNS
OF THE FOLLOWING LAURA JONES, LIZZIE JONES, JESSIE JONES,
ANNIE JONES, Pittsylvania County Tax Map Parcel No. 2427-30-5719 and being
MVP Parcel No. VA-PI-095; 1.85 ACRES OF LAND, OWNED BY TOWN OF
CHATHAM, Pittsylvania County Tax Map Parcel No. Town of Chatham - Tax
Exempt and being MVP Parcel No. VA-PI-103.01; 1.23 ACRES OF LAND,
OWNED BY JAMES M. GRUBBS, EVELENA GRUBBS ROUSE, AND ENZY
GRUBBS ANDERSON, UNKNOWN HEIRS OR ASSIGNS OF JAMES M.
GRUBB, a/k/a Evelyn Rouse, Pittsylvania County Tax Map Parcel Nos. 2436-054452 and 2436-05-2564 and being MVP Parcel No. VA-PI-104; 0.18 ACRES OF
LAND, OWNED BY OAK GROVE CHRISTIAN CHURCH, Pittsylvania County
Tax Map Parcel No. 2417-68-8838 and being MVP Parcel No. VA-PI-4155 (AR
PI-337); 0.08 ACRES OF LAND, OWNED BY BARBARA SLOAN
FITZGERALD, CHERYL FERGUSON, STEPHANIE L WALDEN, ARETHA
JO FITZGERALD, BARBARA A FITZGERALD, JAMES FITZGERALD,
RUBY FITZGERALD, LOIS MARIE FITZGERALD, BARBARA ANN
FITZGERALD, CARABELL FITZGERALD, UNKNOWN HEIRS AND
ASSIGNS OF FOREST FITZGERALD, MILDRED FITZGERALD, DOUGLAS
FITZGERALD, JOE LOUIS FITZGERALD, FOREST FITZGERALD, JR,
Pittsylvania County Tax Map Parcel No. 2427-30-5083 and being MVP Parcel No.
VA-PI-4157 (AR PI-340); 0.35 ACRES OF LAND, OWNED BY BARBARA
SLOAN FITZGERALD, CHERYL FERGUSON, STEPHANIE L WALDEN,
ARETHA JO FITZGERALD, BARBARA A FITZGERALD, JAMES
FITZGERALD, RUBY FITZGERALD, LOIS MARIE FITZGERALD,
BARBARA ANN FITZGERALD, CARABELL FITZGERALD, UNKNOWN
HEIRS AND ASSIGNS OF FOREST FITZGERALD, MILDRED
FITZGERALD, DOUGLAS FITZGERALD, JOE LOUIS FITZGERALD,
FOREST FITZGERALD, Pittsylvania County Tax Map Parcel No. 2427-30-4184
and being MVP Parcel No. VA-PI-5156; UNKNOWN OWNERS; 1.38 ACRES
OF LAND, OWNED BY HENRY COX AND JANET DEGROFF, Montgomery
County Tax Map Parcel No. 001262 and Being MVP Parcel No. VA-MO-5519;

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 45 of 113

3.42 ACRES OF LAND, OWNED BY HENRY COX AND JANET DEGROFF,
Montgomery County Tax Map Parcel No. 032870 and Being MVP Parcel No. VAMO-5520; 1.06 ACRES OF LAND, OWNED BY JOHN GARRETT BAKER
AND SUZANNE JANE BAKER, Montgomery County Tax Map Parcel No.
230082 and Being MVP Parcel No. VA-MO-5882; 0.14 ACRES OF LAND,
OWNED BY UNKNOWN HEIRS OR ASSIGNS OF ANTHONY B. NOVITZKI
AND JOANNE A. LOFARO, Franklin County Tax Map Parcel No. 0440206600
and being MVP Parcel No. VA-FR-5500; 0.16 ACRES OF LAND, OWNED BY
RONNIE ALLEN ANGLE, Franklin County Tax Map Parcel No. 0440020300
and being MVP Parcel No. VA-FR-5892; 0.18 ACRES OF LAND, OWNED BY
MICHAEL EPPERLY, Montgomery County Tax Map Parcel No. 014919 and
Being MVP Parcel No. VA-MO-5788; 3.15 ACRES OF LAND, OWNED BY
DELWYN A. DYER, TRUSTEE OF THE DYER FAMILY TRUST, AND
DELWYN A. DYER, TRUSTEE OF THE DYER LIVING TRUST, Montgomery
County Tax Map Parcel No. 005668 and Being MVP Parcel No. VA-MO-3369;
6.56 ACRES OF LAND, OWNED BY SANDRA TOWNES POWELL,
Montgomery County Tax Map Parcel No. 015900 and Being MVP Parcel No. VAMO-3370; 1.81 ACRES OF LAND, OWNED BY ROBERT M. JONES AND
DONNA THOMAS JONES, Montgomery County Tax Map Parcel No. 024588
and Being MVP Parcel No. VA-MO-5511; 1.29 ACRES OF LAND, OWNED BY
ROBERT M. JONES AND DONNA THOMAS JONES, Montgomery County Tax
Map Parcel No. 024591 and Being MVP Parcel No. VA-MO-5512; 0.52 ACRES
OF LAND, OWNED BY EMILIE M. OWEN AND RICHARD CLARK OWEN,
Franklin County Tax Map Parcel No. 0380002204B and being MVP Parcel No.
VA-FR-4129 (AR FR-294)
Defendants
-----------------------------OWNER'S COUNSEL OF AMERICA
Amicus Supporting Rehearing Petition
___________________
No. 18-1181
(7:17-cv-00492-EKD)
___________________

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 46 of 113

MOUNTAIN VALLEY PIPELINE, LLC
Plaintiff - Appellee
v.
0.01 ACRES OF LAND, OWNED BY BENNY L. HUFFMAN, Giles County Tax
Map Parcel No. 46-25 B and Being MVP Parcel No. VA-GI-5779; 0.01 ACRES
OF LAND, OWNED BY JEREMY JOSEPH RICE AND MICHELLE RENEE
RICE, Roanoke County Tax Map Parcel No. 111.00-01-58.00-0000 and Being
MVP Parcel No. VA-RO-5627; 0.01 ACRES OF LAND, OWNED BY ROY A.
STEVENS, Franklin County Tax Map Parcel No. 0440018800 and being MVP
Parcel No. VA-FR-5496; 0.02 ACRES OF LAND, OWNED BY DANIEL G.
MYERS AND DEBORAH L. MYERS, Franklin County Tax Map Parcel No.
0440019801 and being MVP Parcel No. VA-FR-5502; 0.04 ACRES OF LAND,
OWNED BY BRUCE M. WOOD AND JENNIFER M. WOOD, Franklin County
Tax Map Parcel No. 0440200600 and being MVP Parcel No. VA-FR-5791; 2.75
ACRES OF LAND, OWNED BY HELENA DELANEY TEEKELL, TRUSTEE
OF THE HELENA DELANEY TEEKELL TRUST, Craig County Tax Map
Parcel No. 120-A-12 and Being MVP Parcel No. VA-CR-200.048; 2.81 ACRES
OF LAND, OWNED BY ROBERT W. CRAWFORD OR PATRICIA D.
CRAWFORD, TRUSTEES UNDER THE CRAWFORD LIVING TRUST, AND
ANITA NEAL HUGHES, Craig County Tax Map Parcel No. 121-A-15 and Being
MVP Parcel No. VA-CR-200.053; 2.60 ACRES OF LAND, OWNED BY
HELENA DELANEY TEEKELL, TRUSTEE OF THE HELENA DELANEY
TEEKELL TRUST, Craig County Tax Map Parcel No. 120-A-14A and Being
MVP Parcel No. VA-CR-5343; 0.15 ACRES OF LAND, OWNED BY DONALD
W. LONG AND EVELYN W. LONG, Montgomery County Tax Map Parcel No.
021560 and Being MVP Parcel No. BVMO-25; 0.07 ACRES OF LAND,
OWNED BY GEORGE A. CRAIGHEAD AND HELEN P. CRAIGHEAD,
Montgomery County Tax Map Parcel No. 016298 and Being MVP Parcel No. VAMO-011; 1.90 ACRES OF LAND, OWNED BY JOSEPH PATRICK TOMELTY,
Montgomery County Tax Map Parcel No. 013819 and Being MVP Parcel No. VAMO-060; 0.89 ACRES OF LAND, OWNED BY DONALD W. LONG AND
EVELYN W. LONG, Montgomery County Tax Map Parcel No. 021559 and Being
MVP Parcel No. VA-MO-062; 0.392 ACRES OF LAND, OWNED BY TRAVIS
SCOTT LANCASTER AND TRACY LYNN TAYLOR, Montgomery County
Tax Map Parcel No. 033280 and Being MVP Parcel No. VA-MO-064 (AR-MN271); 23.74 ACRES OF LAND, OWNED BY MARK W. CRONK, ALISON G.
CRONK AND THE NATURE CONSERVANCY, Roanoke County Tax Map

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 47 of 113

Parcel No. 093.00-01-44.00-0000 and Being MVP Parcel No. VA-RO-038; 1.89
ACRES OF LAND, OWNED BY TRUSTEES OF EVANGEL FOURSQUARE
CHURCH, Roanoke County Tax Map Parcel No. 093.00-01-47.00-0000 and
Being MVP Parcel No. VA-RO-039; 5.38 ACRES OF LAND, OWNED BY
LUCY A. PRICE, Franklin County Tax Map Parcel No. 0240003400 and Being
MVP Parcel No. VA-FR-008; 3.11 ACRES OF LAND, OWNED BY RUSSELL
E. CALLAWAY AND HEIDE K. CALLAWAY, Franklin County Tax Map
Parcel No. 0240005400 and Being MVP Parcel No. VA-FR-015.02; 5.93 ACRES
OF LAND, OWNED BY CHARLES FREDERICK FLORA AND STEPHANIE
M. FLORA, Franklin County Tax Map Parcel No. 0380002002 and being MVP
Parcel No. VA-FR-017.20; 0.07 ACRES OF LAND, OWNED BY DALE E.
ANGLE AND MARY A. ANGLE, TRUSTEES OF THE DALE E. ANGLE AND
MARY A. ANGLE JOINT REVOCABLE TRUST, Franklin County Tax Map
Parcel No. 0440006400 and being MVP Parcel No. VA-FR-077.01; 2.14 ACRES
OF LAND, OWNED BY DALE E. ANGLE AND MARY A. ANGLE,
TRUSTEES UNDER THE DALE E. AND MARY A. ANGLE JOINT
REVOCABLE TRUST, Franklin County Tax Map Parcel No. 0440006501 and
being MVP Parcel No. VA-FR-078; 11.86 ACRES OF LAND, OWNED BY
DONALD B. BARNHART, Franklin County Tax Map Parcel No. 0440007300
and being MVP Parcel No. VA-FR-081; 10.21 ACRES OF LAND, OWNED BY
WILLIAM DAVID BOARD, JAMES R. BOARD, SUSAN BOARD MYERS,
NANCY B. FLORA, AND KENNETH CRAIG BOARD, Franklin County Tax
Map Parcel No. 0450006100 and being MVP Parcel No. VA-FR-128; 0.30
ACRES OF LAND, OWNED BY ROBERT ALAN PEGRAM, Franklin County
Tax Map Parcel No. 0650401600 and being MVP Parcel No. VA-FR-155.01; 1.85
ACRES OF LAND, OWNED BY OYLER LAND AND LEASING, LLC,
Franklin County Tax Map Parcel No. 0240004000 and being MVP Parcel No. VAFR-4126 (AR FR-291); 0.83 ACRES OF LAND, OWNED BY SUSAN BOARD
MYERS, WILLIAM DAVID BOARD, KENNETH CRAIG BOARD, AND
NANCY BOARD FLORA, a/k/a William D. Board, Franklin County Tax Map
Parcel No. 0450012003and being MVP Parcel No. VA-FR-4141 (AR FR-313);
0.56 ACRES OF LAND, OWNED BY OWNED BY WILLIAM D. BOARD,
Franklin County Tax Map Parcel No. 0450012005 and being MVP Parcel No. VAFR-4277 (AR FR-313); 0.97 ACRES OF LAND, OWNED BY WILLIAM
DAVID BOARD, KENNETH CRAIG BOARD, SUSAN B. MYERS, NANCY B.
FLORA, AND JAMES R. BOARD, Franklin County Tax Map Parcel No.
0450012001 and being MVP Parcel No. VA-FR-4278 (AR FR-313); 0.12 ACRES
OF LAND, OWNED BY ANGELA L. MCGHEE AND FREDRICK C.
MCGHEE, Franklin County Tax Map Parcel No. 0370009905 and being MVP
Parcel No. VA-FR-5411; 0.07 ACRES OF LAND, OWNED BY RUSSELL W.

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 48 of 113

LAWLESS, Franklin County Tax Map Parcel No. 0370009907 and being MVP
Parcel No. VA-FR-5413; 0.04 ACRES OF LAND, OWNED BY RONALD B.
EDWARDS, SR., GLORIA MARTIN, TERRANCE EDWARDS, LINDA
WHITE, RUBY PENN, JANIS E. WALLER, CRYSTAL DIANE EDWARDS,
AND PENNY EDWARDS BLUE, Franklin County Tax Map Parcel No.
0660009502 and being MVP Parcel No. VA-FR-5434; 0.44 ACRES OF LAND,
OWNED BY SHELBY A. LAW, Franklin County Tax Map Parcel No.
0440200400 and being MVP Parcel No. VA-FR-5492; 3.15 ACRES OF LAND,
OWNED BY ROBERT WAYNE MORGAN AND PATRICIA ANN MORGAN,
Franklin County Tax Map Parcel No. 0440018700 and being MVP Parcel No. VAFR-5493; 3.11 ACRES OF LAND, OWNED BY JAMES GLYNWOOD
HAYNES, JR., Franklin County Tax Map Parcel No. 0440020001 and being MVP
Parcel No. VA-FR-5504; 0.95 ACRES OF LAND, OWNED BY JAMES
GLYNWOOD HAYNES, JR., Franklin County Tax Map Parcel No. 0440019500
and being MVP Parcel No. VA-FR-5505; 0.38 ACRES OF LAND, OWNED BY
JAMES GLYNWOOD HAYNES, JR., Franklin County Tax Map Parcel No.
0440019300 and being MVP Parcel No. VA-FR-5507
Defendants - Appellants
and
0.18 ACRES OF LAND, OWNED BY GEORGIA LOU HAVERTY, Giles
County Tax Map Parcel No 30-4A and Being MVP Parcel No. BVGI-10;
EASEMENTS TO CONSTRUCT, OPERATE, AND MAINTAIN A NATURAL
GAS PIPELINE OVER TRACTS OF LAND IN GILES CO., CRAIG CO.,
MONTGOMERY CO., ROANOKE CO., FRANKLIN CO., AND
PITTSYLVANIA CO., VA INCLUDING:; 8.11 ACRES OF LAND, OWNED
BY DONNA ROGERS ALTIZER, Giles County Tax Map Parcel No. 27-18 and
Being MVP Parcel No. VA-GI-008.05; 0.12 ACRES OF LAND, OWNED BY
LHOIST NORTH AMERICA OF VIRGINIA, INC., Giles County Tax Map
Parcel No 27-73 and Being MVP Parcel No. VA-GI-008.06; 17.89 ACRES OF
LAND, OWNED BY LHOIST NORTH AMERICA OF VIRGINIA, INC., Giles
County Tax Map Parcel No. 27-75 and Being MVP Parcel No. VA-GI-013; 7.39
ACRES OF LAND, OWNED BY ANTHONY L. BOWMAN AND CAROL
ANN BOWMAN, Giles County Tax Map Parcel No. 28-10A and Being MVP
Parcel No. VA-GI-017; 6.50 ACRES OF LAND, OWNED BY SIZEMORE
INCORPORATED OF VIRGINIA, f/k/a National Committee for the New River,
Giles County Tax Map Parcel No. 29-25B and Being MVP Parcel No. VA-GI-035;
1.23 ACRES OF LAND, OWNED BY EAGLE'S NEST MINISTRIES, INC.,

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 49 of 113

Giles County Tax Map Parcel No. 29-25 and Being MVP Parcel No VA-GI035.01; 10.67 ACRES OF LAND, OWNED BY DOE CREEK FARM,
INCORPORATED, Giles County Tax Map Parcel No.30-4 and Being MVP Parcel
No. VA-GI-049; 1.52 ACRES OF LAND, OWNED BY VERNON V.
BEACHAM, SR. AND VERNON V. BEACHAM, II, Giles County Tax Map
Parcel No. 44A-1-34 and Being MVP Parcel No. VA-GI-051; 2.83 ACRES OF
LAND, OWNED BY VERNON V. BEACHAM, SR. AND VERNON V.
BEACHAM, II, Giles County Tax Map Parcel No. 44A-1-33 and Being MVP
Parcel VA-GI-052; 2.19 ACRES OF LAND, OWNED BY STEPHEN D. LEGGE,
DAVID LEGGE, AND PHYLLIS J. LEGGE, Giles County Tax Map Parcel No.
44-3-3A and Being MVP Parcel No. VA-GI-057; 2.85 ACRES OF LAND,
OWNED BY CHESTNUT MILL RANCH, LLC, Giles County Tax Map Parcel
No. 45-72 and Being MVP Parcel No. VA-GI-061 (AR GI-245.02); 0.72 ACRES
OF LAND, OWNED BY CHESTNUT MILL RANCH, LLC, Giles County Tax
Map Parcel No. 45-71 and Being MVP Parcel No. VA-GI-062; 3.17 ACRES OF
LAND, OWNED BY CHESTNUT MILL RANCH, LLC, Giles County Tax Map
Parcel No. 45-66 and Being MVP Parcel No. VA-GI-066; 5.82 ACRES OF
LAND, OWNED BY DAVID G. YOLTON AND KAREN M. YOLTON, Giles
County Tax Map Parcel No. 45-39D and Being MVP Parcel No. VA-GI-075; 5.25
ACRES OF LAND, OWNED BY MARY VIRGINIA REYNOLDS, SAMUEL
HALE REYNOLDS, AND MARY SUTTON REYNOLDS, Giles County Tax
Map Parcel No. 46-1-3 and Being MVP Parcel No. VA-GI-097.01; 1.18 ACRES
OF LAND, OWNED BY JAMES D. MATTOX, Giles County Tax Map Parcel
No. 46-49 and Being MVP Parcel No. VA-GI-098 (MVP-GI-256); 10.37 ACRES
OF LAND, OWNED BY CHESTNUT MILL RANCH, LLC, Giles County Tax
Map Parcel No. 45-70 and Being MVP Parcel No. VA-GI-200.003; 1.89 ACRES
OF LAND, OWNED BY BRIARWOOD DEVELOPMENT, LLC, Giles County
Tax Map Parcel No. 45-36 and Being MVP Parcel No. VA-GI-200.015; 8.55
ACRES OF LAND, OWNED BY NEWPORT DEVELOPMENT COMPANY,
LLC, Giles County Tax Map Parcel No. 45-33I and Being MVP Parcel No. VAGI-200.016; 0.26 ACRES OF LAND, OWNED BY FRANK S. QUINN, III AND
KATHERINE A. QUINN, Giles County Tax Map Parcel No. 45-30A and Being
MVP Parcel No. VA-GI-200.017; 1.22 ACRES OF LAND, OWNED BY
TAMARA N. HODSDEN, TRUSTEE OF THE JOSEPH D. HODSDEN TRUST
AND TAMARA N. HODSDEN TRUST, Giles County Tax Map Parcel No. 46-11
and Being MVP Parcel No. VA-GI-200.018; 4.90 ACRES OF LAND, OWNED
BY BRENDA LYNN WILLIAMS, Giles County Tax Map Parcel No. 46-15 and
Being MVP Parcel No. VA-GI-200.019; 0.29 ACRES OF LAND, OWNED BY
BRIARWOOD DEVELOPMENT, LLC, Giles County Tax Map Parcel No. 46-2B and Being MVP Parcel No. VA-GI-200.024; 2.99 ACRES OF LAND, OWNED

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 50 of 113

BY CLIFFORD A. SHAFFER AND THERESA C. HRUBEC, Giles County Tax
Map Parcel No. 61-12B and Being MVP Parcel No. VA-GI-200.028; 0.084
ACRES OF LAND, OWNED BY FRANCES D. W. COLLINS, f/k/a Frances D.
Williams, Giles County Tax Map Parcel No. 46-51 and Being MVP Parcel No.
VA-GI-200.035 (AR-GI-256); 4.03 ACRES OF LAND, OWNED BY LARRY
THOMPSON AND LOREEN THOMPSON, Giles County Tax Map Parcel No.
47-8 and Being MVP Parcel No. VA-GI-200.040; 4.88 ACRES OF LAND,
OWNED BY CLARENCE B. GIVENS AND KAROLYN W. GIVENS, Giles
County Tax Map Parcel No. 47-9 and Being MVP Parcel No. VA-GI-200.041;
0.335 ACRES OF LAND, OWNED BY GEORGE LEE JONES, Giles County
Tax Map Parcel No. 47-1-1 and Being MVP Parcel No. VA-GI-200.044; 2.01
ACRES OF LAND, OWNED BY GEORGE LEE JONES, Giles County Tax Map
Parcel No. 47-1-2 and Being MVP Parcel No. VA-GI-200.045; 2.74 ACRES OF
LAND, OWNED BY MARK A. PETTIPIECE AND TERESA J. PETTIPIECE,
Giles County Tax Map Parcel No. 47-1-3 and Being MVP Parcel No. VA-GI200.046; 7.61 ACRES OF LAND, OWNED BY JERRY J. DEPLAZES AND
JEROLYN K. DEPLAZES, Giles County Tax Map Parcel No. 46-66 and Being
MVP Parcel No. VA-GI-4249; 8.60 ACRES OF LAND, OWNED BY DOWDY
FARM LLC, Giles County Tax Map Parcel No. 46-52 and Being MVP Parcel No.
VA-GI-4250; 0.48 ACRES OF LAND, OWNED BY ESTIAL EARL ECHOLS,
JR., Giles County Tax Map Parcel No. 46-19B and Being MVP Parcel No. VAGI-4419 (AR GI-253.01); 0.09 ACRES OF LAND, OWNED BY ESTIAL EARL
ECHOLS, JR. AND EDITH FERN ECHOLS, Giles County Tax Map Parcel No.
46-20A and Being MVP Parcel No. VA-GI-4420 (AR GI-253.01); 0.09 ACRES
OF LAND, OWNED BY GARY HOLLOPTER AND ALLISON HOLLOPTER,
Giles County Tax Map Parcel No. 30-4B and Being MVP Parcel No. VA-GI-5310;
0.15 ACRES OF LAND, OWNED BY DAVID MATTHEW ALTIZER AND
ELIZABETH ANN ALTIZER, Giles County Tax Map Parcel No. 27-18A and
Being MVP Parcel No. VA-GI-5339; 5.78 ACRES OF LAND, OWNED BY
ELIZABETH ROGERS HARRISON, Giles County Tax Map Parcel No. 27-19
and Being MVP Parcel No. VA-GI-5340; 0.17 ACRES OF LAND, OWNED BY
DAWN E. CISEK, f/k/a Dawn E. Maxey, Giles County Tax Map Parcel No. 4712A and Being MVP Parcel No. VA-GI-5673; 0.22 ACRES OF LAND, OWNED
BY DOWDY FARM, LLC, Giles County Tax Map Parcel No. 46-52 A. and Being
MVP Parcel No. VA-GI-5790; 1.87 ACRES OF LAND, OWNED BY JAMES D.
MATTOX, Giles County Tax Map Parcel No. 46-49A and Being MVP Parcel No.
VA-GI-5883; 0.25 ACRES OF LAND, OWNED BY ROY DOWDY OR
UNKNOWN HEIRS OR ASSIGNS OF ROY DOWDY, Giles County Tax Map
Parcel No. 46-66X and Being MVP Parcel No. VA-GI-5884; 10.26 ACRES OF
LAND, OWNED BY SAMUEL HALE REYNOLDS AND MARY SUTTON

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 51 of 113

REYNOLDS, Giles County Tax Map Parcel No. 46-1-2A and Being MVP Parcel
No. VA-GI-5922; 2.09 ACRES OF LAND, OWNED BY STEVEN C. HODGES
AND JUDY R. HODGES, Craig County Tax Map Parcel No. 120-A-10 and 120A-10A and Being MVP Parcel No. VA-CR-200.047; 0.66 ACRES OF LAND,
OWNED BY GORDON WAYNE JONES AND DONNA W. JONES, Craig
County Tax Map Parcel No. 120-A-13 and Being MVP Parcel No. VA-CR200.049; 0.14 ACRES OF LAND, OWNED BY DAWN E. CISEK, f/k/a Dawn E.
Maxey, Craig County Tax Map Parcel No. 120-A-9 and Being MVP Parcel No.
VA-CR-4445; 0.50 ACRES OF LAND, OWNED BY JOSE G. AGUIRRETORRES, JUAN AGUIRRE, IGNACIO AGUIRRE, HECTOR ANDRES
AGUIRRE, AND RAMON A. ARELLANO, Craig County Tax Map Parcel No.
120-A-8 and Being MVP Parcel No. VA-GI-200.047 (AR CR-258.01); 0.41
ACRES OF LAND, OWNED BY DONALD W. PERDUE, Montgomery County
Tax Map Parcel No. 035861 and Being MVP Parcel No. BV-MN-0053; 0.64
ACRES OF LAND, OWNED BY VANESSA MICHELLE UNDERWOOD AND
JULIAN ADAMS STEWART, Montgomery County Tax Map Parcel No. 170229
and Being MVP Parcel No. VA-MN-5175 (AR MN-275); 0.05 ACRES OF
LAND, OWNED BY SARA KAY SCOTT, Montgomery County Tax Map Parcel
No. 190165 and Being MVP Parcel No. VA-MN-5176; 0.19 ACRES OF LAND,
OWNED BY CLETUS WOODROW BOHON AND BEVERLY ANN BOHON,
Montgomery County Tax Map Parcel No. 030271 and Being MVP Parcel No. VAMN-5233 (AR MN-278.01); 0.39 ACRES OF LAND, OWNED BY JAMES C.
LAW AND CAROLYN D. LAW, Montgomery County Tax Map Parcel No.
032431 And Being MVP Parcel No. VA-MN-5234 (AR MN-278.01); 0.31
ACRES OF LAND, OWNED BY RANDALL KEITH EPPERLY AND JOANNE
ALICE EPPERLY, Montgomery County Tax Map Parcel No. 029056 and Being
MVP Parcel No. VA-MN-5235 (AR MN-278.01); 0.50 ACRES OF LAND,
OWNED BY GREGORY M. APGAR AND ANGELA H. APGAR, Montgomery
County Tax Map Parcel No. 000837 and Being MVP Parcel No. VA-MO-005;
2.08 ACRES OF LAND, OWNED BY DONALD D. APGAR AND MILDRED
M. APGAR, Montgomery County Tax Map Parcel No. 000843 and Being MVP
Parcel No. VA-MO-012; 2.69 ACRES OF LAND, OWNED BY BRIAN DAVID
GLOCK AND SUSAN ELIZABETH GLOCK BUCH, Montgomery County Tax
Map Parcel No. 000844 and Being MVP Parcel No. VA-MO-013; 0.78 ACRES
OF LAND, OWNED BY DENNIS G. BERUBE AND DIXIE L. BERUBE,
Montgomery County Tax Map Parcel No. 021080 and Being MVP Parcel No. VAMO-019; 2.74 ACRES OF LAND, OWNED BY CLETUS WOODROW BOHON
AND BEVERLY ANN BOHON, Montgomery County Tax Map Parcel No.
017761 and Being MVP Parcel No. VA-MO-022; 4.85 ACRES OF LAND,
OWNED BY JOHN MICHAEL TURMAN, EDNA LAWRENCE, ROBERT

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 52 of 113

BURRIS, KEITHER EDWARD BURRIS, BARBARA KEELING, JACK
"JACKIE" BURRIS, LINDA PRADIS, VALERIE DELONG,, Unknown Heirs or
Assigns of the Following John Marshall Burris, Bobby Burris, Carlton Walters,
and Alvin Brown, Montgomery Co Tax Map Parcel No 0002831, MVP Parcel No.
VA-MO-023; 2.12 ACRES OF LAND, OWNED BY JAMES CABEL LAW
AND CAROLYN DIANA EANES LAW, Montgomery County Tax Map Parcel
No. 018808 and Being MVP Parcel No. VA-MO-024; 4.67 ACRES OF LAND,
OWNED BY JAMES CABEL LAW AND CAROLYN DIANA EANES LAW,
Montgomery County Tax Map Parcel No. 011673 and Being MVP Parcel No. VAMO-025; 0.53 ACRES OF LAND, OWNED BY SHELIA M. MEADOWS,
Montgomery County Tax Map Parcel No. 033209 and Being MVP Parcel No. VAMO-067; 0.94 ACRES OF LAND, OWNED BY STEVEN A. BOWMAN AND
RACHEL A. BOWMAN, Montgomery County Tax Map Parcel No. 120708 and
Being MVP Parcel No. VA-MO-069; 1.14 ACRES OF LAND, OWNED BY
HOWARD D. PERDUE, Montgomery County Tax Map Parcel No. 014256 and
Being MVP Parcel No. VA-MO-0700; 3.84 ACRES OF LAND, OWNED BY
DENNY R. SCOTT AND TAMMY K. SCOTT, Montgomery County Tax Map
Parcel No. 012030 and Being MVP Parcel No. VA-MO-071; 0.36 ACRES OF
LAND, OWNED BY CRAIG-BOTETOURT ELECTRIC COOPERATIVE, A
VIRGINIA ELECTRIC COOPERATIVE AND NON-STOCK CORPORATION,
Montgomery County Tax Map Parcel No. 034187 and Being MVP Parcel No. VAMO-075; 12.20 ACRES OF LAND, OWNED BY JUNE SMITH, RAY SMITH,
PATRICIA S. DEVECHA, STEPHEN R. SMITH, BARRY SCOTT SMITH,
DOUGLAS F. SMITH, DAVID L. SMITH, FRED APGAR, RUTH APGAR
GLOCK, GREGORY M. APGAR, AND ANG, a/k/a Raymond Foster Smith, a/k/a
Fred I. Apgar, a/k/a Frederick I. Apgar, Unknown Heirs or Assigns of the
Following June Smith, and Ray Smith, Montgomery Co. Tax Map Parcel No.
120001 and MVP Parcel No. VA-MO-084; 3.15 ACRES OF LAND, OWNED BY
DELWYN A. DYER, TRUSTEE OF THE DYER FAMILY TRUST, AND
DELWYN A. DYER, TRUSTEE OF THE DYER LIVING TRUST, Montgomery
County Tax Map Parcel No. 005668 and Being MVP Parcel No. VA-MO-3369;
7.18 ACRES OF LAND, OWNED BY MICHAEL EDWARD SLAYTON,
TRUSTEE OR MARGARET MCGRAW SLAYTON, TRUSTEE, MARGARET
MCGRAW SLAYTON LIVING TRUST, Montgomery County Tax Map Parcel
No. 024590 and Being MVP Parcel No. VA-MO-3371; 0.16 ACRES OF LAND,
OWNED BY LEONARD C. STEINER AND DEBORAH L. STEINER,
Montgomery County Tax Map Parcel No. 008906 and Being MVP Parcel No. VAMO-4259.001 (AR MN-272); 0.29 ACRES OF LAND, OWNED BY DENNY R.
SCOTT AND TAMMY K. SCOTT, Montgomery County Tax Map Parcel No.
030035 and Being MVP Parcel No. VA-MO-4261 (AR MN-272); 0.71 ACRES

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 53 of 113

OF LAND, OWNED BY ROANOKE VALLEY 4-WHEELERS ASSOCIATION,
Montgomery County Tax Map Parcel No. 031198 and Being MVP Parcel No. VAMO-4264 (AR-MN-276); 1.53 ACRES OF LAND, OWNED BY ROANOKE
VALLEY 4-WHEELERS ASSOCIATION, Montgomery County Tax Map Parcel
No. 016068 and Being MVP Parcel No. VA-MO-4265 (AR MN-276); 1.04
ACRES OF LAND, OWNED BY HENRY S. KEULING-STOUT, Montgomery
County Tax Map Parcel No. 005370 and Being MVP Parcel No. VA-MO-4266
(AR MN-276); 22.73 ACRES OF LAND, OWNED BY BLUE EAGLE
PARTNERSHIP, LLC, Montgomery County Tax Map Parcel No. 010352 and
Being MVP Parcel No. VA-MO-4314; 4.79 ACRES OF LAND, OWNED BY
SONABANK, Montgomery County Tax Map Parcel No. 013751 and Being MVP
Parcel No. VA-MO-4321; 0.04 ACRES OF LAND, OWNED BY JO MILLS
SOWERS, Montgomery County Tax Map Parcel No. 032744 and Being MVP
Parcel No. VA-MO-4424; 0.42 ACRES OF LAND, OWNED BY ANTHONY E.
HESS AND CARMELLA HESS, Montgomery County Tax Map Parcel No.
003368 and Being MVP Parcel No. VA-MO-5357; 0.28 ACRES OF LAND,
OWNED BY ELIJAH D. HOWARD, Montgomery County Tax Map Parcel No.
031305 and MVP Parcel No. VA-MO-5364; 0.37 ACRES OF LAND, OWNED
BY ELIJAH HOWARD AND KRISTIN HOWARD, Montgomery County Tax
Map Parcel No. 031305 and Being MVP Parcel No. VA-MO-5366; 0.11 ACRES
OF LAND, OWNED BY DELMER WAYNE HOWARD, Montgomery County
Tax Map Parcel No. 020405 and Being MVP Parcel No. VA-MO-5368; 0.24
ACRES OF LAND, OWNED BY TARTLE, LLC, Montgomery Count Tax Map
Parcel No. 002152 and Being MVP Parcel No. VA-MO-5369; 0.22 ACRES OF
LAND, OWNED BY HOLLY R. WIMMER-MCCLANAHAN AND ROBERT
C. MCCLANAHAN, Montgomery County Tax Map Parcel No. 003025 and Being
MVP Parcel No. VA-MO-5371; 0.40 ACRES OF LAND, OWNED BY
ROANOKE VALLEY RESOURCE AUTHORITY, Montgomery County Tax
Map Parcel No. 035144 and Being MVP Parcel No. VA-MO-5374; 0.01 ACRES
OF LAND, OWNED BY CORA LEE SMITH, RUBY J. SMITH, GENE E.
SMITH, GENA D. REED, BETHANY A. SMITH, AND JOHN ERIK SMITH,
Unknown Heirs of Assigns of the Following Cora Lee Smith and Ruby J. Smith,
Montgomery County Tax Map Parcel No. 017721 and Being MVP Parcel No. VAMO-5381; 3.35 ACRES OF LAND, OWNED BY THOMAS W. TRIPLETT
AND BONNIE B. TRIPLETT, Montgomery County Tac Map Parcel No. 024589
and Being MVP Parcel No. VA-MO-5514; 2.07 ACRES OF LAND, OWNED BY
PHYLLIS M. HUTTON, Montgomery County Tax Map Parcel No. 009443 and
Being MVP Parcel No. VA-MO-5515; 3.01 ACRES OF LAND, OWNED BY
PHYLLIS M. HUTTON, Montgomery County Tax Map Parcel No. 026945 and
Being MVP Parcel No. VA-MO-5516; 1.38 ACRES OF LAND, OWNED BY

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 54 of 113

MODE AND ARLEN JOHNSON AND PAMELA LOUISE FERRANTE,
Montgomery County Tax Map Parcel No. 001262 and Being MVP Parcel No. VAMO-5519; 3.87 ACRES OF LAND, OWNED BY MODE AND ARLEN
JOHNSON AND PAMELA LOUISE FERRANTE, Montgomery County Tax
Map Parcel No. 032870 and Being MVP Parcel No. VA-MO-5520; 1.30 ACRES
OF LAND, OWNED BY JOHN GARRET BAKER AND SUZANNE JANE
BAKER, Montgomery County Tax Map Parcel No. 019482 and Being MVP
Parcel No. VA-MO-5523; 6.86 ACRES OF LAND, OWNED BY JULIANA
BERNHOLZ AND IRINA BERNHOLZ SIEGRIST, Montgomery County Tax
Map Parcel No. 015895 and Being MVP Parcel No. VA-MO-5526; 9.66 ACRES
OF LAND, OWNED BY CHARLES BRUCE FUGATE, CURTIS DEAN
FUGATE, AND SHARON FUGATE LINKOUS, Montgomery County Tax Map
Parcel No. 006739 and Being MVP Parcel No. VA-MO-5528; 0.38 ACRES OF
LAND, OWNED BY JAMES C. LAW AND CAROLYN D. LAW, Montgomery
County Tax Map Parcel No. 002833 and Being MVP Parcel No. VA-MO-5626;
0.08 ACRES OF LAND, OWNED BY MELVIN L. LINKOUS AND SHARON
F. LINKOUS, Montgomery County Parcel No. 011191 and Being MVP Parcel No.
VA-MO-5758; 0.18 ACRES OF LAND, OWNED BY VALERIE E. GIBSON,
Montgomery County Tax Map Parcel No. 014919 and Being MVP Parcel No. VAMO-5788; 1.06 ACRES OF LAND, OWNED BY JOHN R. BAKER AND AMY
G. BAKER, Montgomery County Tax Map Parcel No. 230082 and Being MVP
Parcel No. VA-MO-5882; 0.01 ACRES OF LAND, OWNED BY ANTHONY
EDWARD HESS AND CARMELLA HESS, Montgomery County Tax Map
Parcel No. 003365 and Being MVP Parcel No. VA-MO-5885; 4.03 ACRES OF
LAND, OWNED BY MATTHEW D. ROLLIER AND DEANNA D.
ROBINSON, Roanoke County Tax Map Parcel No. 102.00-01-12.00-0000 and
Bring MVP Parcel No. BVRO-04; 0.47 ACRES OF LAND, OWNED BY BRUCE
M. COFFEY AND MARY E. COFFEY, Roanoke County Tax Map Parcel No.
102.00-01-13.00-0000 and Being MVP Parcel No. BVRO-05; 0.08 ACRES OF
LAND, OWNED BY JENNIFER L. FRALEY, Roanoke County Tax Map Parcel
No. 117.00-01-39.00-0000 and Being MVP Parcel No. BVRO-11; 0.22 ACRES
OF LAND, OWNED BY LENORA W. MONTUORI AND LENORA
MONTUORI AND KRISTINA MONTUORI HILLMAN, TRUSTEES OF THE
ANTONIO MONTUORI FAMILY TRUST, Roanoke County Tax Map Parcel No.
117.00-01-41.00-0000 and Being MVP Parcel No. BVRO-12; 0.41 ACRES OF
LAND, OWNED BY JAMES D. SCOTT AND KAREN B. SCOTT, Roanoke
County Tax Map Parcel No. 093.00-01-34.01-0000 and Being MVP Parcel No.
VA-RO-030 (AR RO-281); 0.11 ACRES OF LAND, OWNED BY JUNE SMITH,
RAY SMITH, PATRICIA S. DEVECHA, STEPHEN R. SMITH, BARRY
SCOTT SMITH, DOUGLAS F. SMITH, DAVID L. SMITH, FRED APGAR,

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 55 of 113

RUTH APGAR GLOCK, DONALD APGAR, GREGORY M. A, a/k/a Raymond
Foster Smith, a/k/a Fred I. Apgar, a/k/a Frederick Apgar, a/k/a Gregory M. Apgar,
a/k/a Angela H. Apgar, Unknown Heirs and Assigns of the Following June Smith,
and Ray Smith, Roanoke Co. Tax Map Parcel No. 063.00-01-25.00-0000 and
Being MVP Parcel No. VA-RO-033; 2.41 ACRES OF LAND, OWNED BY ANN
ELIZABETH ANDREWS, Roanoke County Tax Map Parcel No. 082.00-0140.00-0000 and Being MVP Parcel No. VA-RO-036; 22.47 ACRES OF LAND,
OWNED BY JAMES LOUIS MAXWELL, III, ELIZABETH MARSHALL
MAXWELL YARBORO, CHARLOTTE RUTH MAXWELL WEAVER, AND
MARY ANN MAXWELL, Roanoke County Tax Map Parcel No. 082.00-0141.00-0000 and Being MVP Parcel No. VA-RO-037; 2.17 ACRES OF LAND,
OWNED BY JAMES D. SCOTT AND KAREN B. SCOTT, Roanoke County Tax
Map Parcel No. 093.00-01-33.00-0000 and Being MVP Parcel No. VA-RO-042;
0.341 ACRES OF LAND, OWNED JAMES D. SCOTT AND KAREN B.
SCOTT, Roanoke County Tax Map Parcel No. 093.00-01-33.01-0000 and Being
MVP Parcel No. VA-RO-043; 0.68 ACRES OF LAND, OWNED BY MICHAEL
THOMAS SCOTT, Roanoke County Tax Map Parcel No. 102.00-01-05.00-0000
and Being MVP Parcel No. VA-RO-044; 13.47 ACRES OF LAND, OWNED BY
JOHN COLES TERRY, III, Roanoke County Tax Map Parcel No. 102.00-0108.00-0000 and Being MVP Parcel No. VA-RO-045; 8.37 ACRES OF LAND,
OWNED BY FRANK H. TERRY, JR., JOHN COLES TERRY, III, AND
ELIZABETH LEE TERRY, a/k/a Elizabeth Lee Reynolds, Roanoke County Tax
Map Parcel No. 102.00-01-02.00-0000 and Being MVP Parcel No. VA-RO-046;
1.40 ACRES OF LAND, OWNED BY MARY ELLEN RIVES, Roanoke County
Tax Map Parcel No. 103.00-02-43.00-0000 and Being MVP Parcel No. VA-RO051; 1.85 ACRES OF LAND, OWNED BY JACQULINE J. LUCKI, Roanoke
County Tax Map Parcel No. 102.00-01-14.00-0000 and Being MVP Parcel No.
VA-RO-052; 9.89 ACRES OF LAND, OWNED BY ELIZABETH LEE TERRY,
a/k/a Elizabeth Lee Reynolds, Roanoke County Tax Map Parcel No. 110.00-0144.00-0000 and Being MVP Parcel No. VA-RO-054; 4.72 ACRES OF LAND,
OWNED BY FRED W. VEST, Roanoke County Tax Map Parcel No. 110.00-0156.00-0000 and Being MVP Parcel No. VA-RO-056; 2.93 ACRES OF LAND,
OWNED BY LOIS KING WALDRON AND LOIS MABEL WALDRON
MARTIN, Roanoke County Tax Map Parcel No. 110.00-01-50.00-0000 and Being
MVP Parcel No. VA-RO-057; 0.41 ACRES OF LAND, OWNED BY LENORA
W. MONTUORI, Roanoke County Tax Map Parcel No. 110.00-01-54.00-0000
and Being MVP Parcel No. VA-RO-058; 2.07 ACRES OF LAND, OWNED BY
JOHN D. FULTON, JR. AND JANICE VANNESS BROKA, Roanoke County
Tax Map Parcel No. 110.00-01-55.00-0000 and Bring MVP Parcel No. VA-RO059; 4.31 ACRES OF LAND, OWNED BY JAMES T. CHANDLER AND

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 56 of 113

KATHY E. CHANDLER, Roanoke County Tax Map Parcel No. 111.00-01-62.010000 and Being MVP Parcel No. VA-RO-060; 4.31 ACRES OF LAND, OWNED
BY JAMES T. CHANDLER AND KATHY E. CHANDLER, Roanoke County
Tax Map Parcel No 117.00-01-38.00-0000 and Being MVP Parcel No. VA-RO061; 1.91 ACRES OF LAND, OWNED BY LENORA W. MONTUORI AND
LENORA MONTUORI AND KRISTIN MONTUORI HILLMAN, TRUSTEES
OF THE ANTONIO MONTUORI FAMILY TRUST, Roanoke County Tax Map
Parcel No. 117.00-01-43.02-0000 and Being MVP Parcel No. VA-RO-062; 0.91
ACRES OF LAND, OWNED BY LENORA W. MONTUORI AND LENORA
MONTUORI AND KRISTINA MONTUORI HILLMAN, TRUSTEES OF THE
ANTONIO MONTUORI FAMILY TRUST, Roanoke County Tax Map Parcel No.
117.00-01-43.00-0000, Being MVP Parcel No. VA-RO-063; 2.99 ACRES OF
LAND, OWNED BY LENORA W. MONTUORI AND LENORA MONTUORI
AND KRISTINA MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO
MONTUORI FAMILY TRUST, Roanoke County Tax Map Parcel No. 117.00-0146.00-0000 and Being Parcel No. VA-RO-064; 0.20 ACRES OF LAND, OWNED
BY LENORA W. MONTUORI AND LENORA MONTUORI AND KRISTINA
MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO MONTUORI
FAMILY TRU, Roanoke County Tax Map Parcel No. 117.00-01-43.01-0000 and
Being MVP Parcel No. VA-RO-065; 0.19 ACRES OF LAND, OWNED BY
LENORA W. MONTUORI AND LENORA MONTUORI AND KRISTINA
MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO MONTUORI
FAMILY TRUST, Roanoke County Tax Map Parcel No. 117.00-01-42.00-0000
and Being MVP Parcel No. VA-RO-066; 2.43 ACRES OF LAND, OWNED BY
LENORA W. MONTUORI AND LEMORA MONTUORI AND KRISTINA
MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO MONTUORI
FAMILY TRUST, Roanoke County Tax Map Parcel No. 117.00-01-45.00-0000
and Being MVP Parcel No. VA-RO-067; 2.05 ACRES OF LAND, OWNED BY
HOWARD M. THOMPSON AND CHRISTINE W. THOMPSON, Roanoke
County Tax Map Parcel No. 118.00-01-09.00-0000 and Being MVP Parcel No.
VA-RO-068; 0.94 ACRES OF LAND, OWNED BY MARTIN G. MORRISON
AND PATRICIA A. BOYD, Roanoke County Tax Map Parcel No. 063.00-0120.00-0000 and Being MVP Parcel No. VA-RO-4115; 2.20 ACRES OF LAND,
OWNED BY HILAH PARKS TERRY, FRANK H. TERRY, JR., ELIZABETH
LEE TERRY, JOHN COLES TERRY III, GRACE MINOR TERRY, Unknown
Heirs or Assigns of Frank H. Terry, Sr., Roanoke County Tax Map Parcel No.
103.00-02-01.00-0000 and Being MVP Parcel No. VA-RO-4118 (AR RO-283);
0.93 ACRES OF LAND, OWNED BY ALEXANDER B. PHILLIPS AND
EMILY M. PHILLIPS, Roanoke County Tax Map Parcel No. 111.00-01-62.000000 and Being MVP Parcel No. VA-RO-4123 (AR RO-287); 0.50 ACRES OF

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 57 of 113

LAND, OWNED BY LENORA W. MONTUORI AND LENORA MONTUORI
AND KRISTINA MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO
MONTUORI FAMILY TRUST, Roanoke County Tax Map Parcel No. 117.00-0141.01-0000 and Being MVP Parcel No. VA-RO-4124; 0.33 ACRES OF LAND,
OWNED BY LENORA W. MONTUORI AND LENORA MONTUORI AND
KRISTINA MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO
MONTUORI FAMILY TRUST, Roanoke County Tax Map Parcel No. 117.00-0141.02-0000 and Being MVP Parcel No. VA-RO-4125; 0.28 ACRES OF LAND,
OWNED BY JACQULINE J. LUCKI, Roanoke County Tax Map Parcel No.
102.00-01-13.01-0000 and Being MVP Parcel No. VA-RO-50; 0.32 ACRES OF
LAND, OWNED BY GRACE MINOR TERRY, Roanoke County Tax Map Parcel
No. 102.00-01-01.02-0000 and Being MVP Parcel No. VA-RO-5149 (AR RO279.01); 0.35 ACRES OF LAND, OWNED BY KERMIT C. CROWE AND
ALVA T. CROWE, Roanoke County Tax Map Parcel No. 111.00-01-56.02-0000
and Being MVP Parcel No. VA-RO-5216 (AR RO-287); 0.36 ACRES OF LAND,
OWNED BY BETTY E. MCCOY, AND EDWARD CONNER, f/k/a Betty Eloise
Conner, f/k/a Betty T. Conner, Roanoke County Tax Map Parcel No. 111.00-0156.03-0000 and Being MVP Parcel No. VA-RO-5217 (AR RO-287); 0.05 ACRES
OF LAND, OWNED BY TEDDY D. CROWE AND SUSAN F. CROWE,
Roanoke County Tax Map Parcel No. 111.00-01-56.05-0000 and Being MVP
Parcel No. VA-RO-5218 (AR RO-287); 0.03 ACRES OF LAND, OWNED BY
GEORGE ROBERT FERGUSON AND DANA MICHELLE FERGUSON,
Roanoke County Tax Map Parcel No. 111.00-01-56.00-0000 and Being MVP
Parcel No. VA-RO-5221 (AR RO-287); 0.34 ACRES OF LAND, OWNED BY
ROBIN B. AUSTIN AND ALLEN R. AUSTIN, Roanoke County Tax Map Parcel
No. 110.00-01-45.00-0000 and Being MVP Parcel No. VA-RO-5222 (AR RO285); 0.06 ACRES OF LAND, OWNED BY MICHAEL L. LESTER AND
TERESA A. LESTER, Roanoke County Tax Map Parcel No. 111.00-0161.02.0000 and Being MVP Parcel No. VA-RO-5223 (AR RO-287); 0.04 ACRES
OF LAND, OWNED BY MICHELLE R. LESTER, Roanoke County Tax Map
Parcel No. 111.00-01-61.03-0000 and Being MVP Parcel No. VA-RO-5224 (AR
RO-287); 0.50 ACRES OF LAND, OWNED BY RANDALL KEITH EPPERLY
AND JOANN ALICE EPPERLY, Roanoke County Tax Map Parcel No. 082.0001-17.00-0000 and Being MVP Parcel No. VA-RO-5225 (AR MN-278.01); 0.64
ACRES OF LAND, OWNED BY DONALD EVERETT MELTON, a/k/a Don E.
Melton, Roanoke County Tax Map Parcel No. 082.00-01-16.00-0000 and Being
MVP Parcel No. VA-RO-5226 (AR MN-278.01); 0.09 ACRES OF LAND,
OWNED BY DONALD EVERETT MELTON, Roanoke County Tax Map Parcel
No. 082.00-01-15.00-0000 and Being MVP Parcel No. VA-RO-5227 (AR MN278.01); 0.33 ACRES OF LAND, OWNED BY ELIZABETH LEE TERRY, a/k/a

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 58 of 113

Elizabeth Lee Reynolds, Roanoke County Tax Map Parcel No. 093.00-01-46.000000 and Being MVP Parcel No. VA-RO-5228 (ATWS-1224); 0.01 ACRES OF
LAND, OWNED BY LONNIE L. LESTER AND JUDITH P. LESTER, Roanoke
County Tax Map Parcel No. 111.00-01-61.01-0000 and Being MVP Parcel No.
VA-RO-5229 (AR RO-287); 0.02 ACRES OF LAND, OWNED BY BD
INVESTMENTS OF ROANOKE, LLC, Roanoke County Tax Map Parcel No.
111.00-01-63.00-0000 Being MVP Parcel No. VA-RO-5231 (AR RO-287); 0.31
ACRES OF LAND, OWNED BY REBECCA JANE DAMERON, Roanoke
County Tax Map Parcel No. 111.00-01-61.00-0000 and Being MVP Parcel No.
VA-RO-5383; 0.15 ACRES OF LAND, OWNED BY FRANK W. HALE AND
FLOSSIE I. HALE AND ROBERT MATTHEW HAMM AND AIMEE CHASE
HAMM, Roanoke County Tax Map Parcel No. 110.00-01-56.01-0000 and Being
MVP Parcel No. VA-RO-5748; 0.09 ACRES OF LAND, OWNED BY LARRY
BERNARD CUNNINGHAM AND CAROLYN A. CUNNINGAM, Roanoke
County Tax Map Parcel No. 063.00-01-20.03-0000 and Being MVP Parcel No.
VA-RO-5781; 0.25 ACRES OF LAND, OWNED BY CHELSEA CAMPER,
Roanoke County Tax Map Parcel No. 063.00-01-20.04-0000 and Being MVP
Parcel No. VA-RO-5782; 0.21 ACRES OF LAND, OWNED BY WILLIAM J.
CORRELL, SR. AND NADINE E. CORRELL, Roanoke County Tax Map Parcel
No. 063.00-01-20.02-0000 and Being MVP Parcel No. VA-RO-5783; 0.11
ACRES OF LAND, OWNED BY WILLIAM J. CORRELL, SR. AND NADINE
E. CORRELL, Roanoke County Tax Map Parcel No. 063.00-01-20.01-0000 and
Being MVP Parcel No. VA-RO-5784; 0.26 ACRES OF LAND, OWNED BY
LARRY BERNARD CUNNINGHAM AND CAROLYN A. CUNNINGHAM,
Roanoke County Tax Map Parcel No. 063.00-01-21.00-0000 and Being MVP
Parcel No. VA-RO-5785; 1.53 ACRES OF LAND, OWNED BY STEPHEN W.
BERNARD AND ANNE W. BERNARD, Franklin County Tax Map Parcel No.
0370001901 and Being MVP Parcel No. BVA-FR-13; 0.16 ACRES OF LAND,
OWNED BY PAUL L. WILSON AND PEGGY M. WILSON, Franklin County
Tax Map Parcel No. 04300-05005 and Being MVP Parcel No. BVR-24; 5.73
ACRES OF LAND, OWNED BY SHIRLEY BOWMAN JAMISON, Franklin
County Tax Map Parcel No. 0240004400 and Being MVP Parcel No. VA-FR-009;
1.38 ACRES OF LAND, OWNED BY ALVIN E. WRAY, LINDA L. WRAY, L.
BENTON WRAY, JR., AND DIANE S. WRAY, Franklin County Tax Map Parcel
No. 250002100 and being MVP Parcel No. VA-FR-017; 11.45 ACRES OF
LAND, OWNED BYL. BENTON WRAY, JR., DIANE S. WRAY, ALVIN E.
WRAY, AND LINDA L. WRAY, Franklin County Tax Map Parcel No.
0250002200 and being MVP Parcel No. VA-FR-017.02; 1.28 ACRES OF LAND,
OWNED BY ALAN R. HARTMAN, Franklin County Tax Map Parcel No.
0250002500 and being MVP Parcel No. VA-FR-017.04; 3.86 ACRES OF LAND,

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 59 of 113

OWNED BYJESSE ALBERT WEBSTER, Franklin County Tax Map Parcel No.
0250002800 and being MVP Parcel No. VA-FR-017.06; 1.77 ACRES OF LAND,
OWNED BYJESSE ALBERT WEBSTER, Franklin County Tax Map Parcel No.
0250002400 and being MVP Parcel No. VA-FR-017.07; 2.23 ACRES OF LAND,
OWNED BY MARTHA A. MCDEARMON, Franklin County Tax Map Parcel
No. 0250003801and being MVP Parcel No. VA-FR-017.10; 8.21 ACRES OF
LAND, OWNED BY OCCANNEECHI, INC., Franklin County Tax Map Parcel
No. 0250004100 and being MVP Parcel No. VA-FR-017.11; 0.70 ACRES OF
LAND, OWNED BY RICHARD H. MCDEARMON, JR. AND ELLEN C.
WALTON, Franklin County Tax Map Parcel No. 0380000201D and being MVP
Parcel No. VA-FR-017.12; 0.83 ACRES OF LAND, OWNED BY RICHARD H.
MCDEARMON, JR. AND ELLEN C. WALTON, Franklin County Tax Map
Parcel No. 0380000201B and being MVP Parcel No. VA-FR-017.13; 21.98
ACRES OF LAND, OWNED BY OCCANNEECHI, INC., Franklin County Tax
Map Parcel No. 0380001501 and being MVP Parcel No. VA-FR-017.15; 0.49
ACRES OF LAND, OWNED BY J. CLARK JAMISON, JR., SHIRLEY
BOWMAN JAMISON, AND MARIE KATHERINE FLORA JAMISON
GOGGIN, Franklin County Tax Map Parcel No. 0380001300 and being MVP
Parcel No. VA-FR-017.16; 0.55 ACRES OF LAND, OWNED BY J. CLARK
JAMISON, JR., SHIRLEY BOWMAN JAMISON, AND MARIE KATHERINE
FLORA JAMISON GOGGIN, Franklin County Tax Map Parcel No. 0380005100
and being MVP Parcel No. VA-FR-017.19; 5.88 ACRES OF LAND, OWNED
BY WENDELL WRAY FLORA AND MARY MCNEIL FLORA, Franklin
County Tax Map Parcel No. 0380002000 and being MVP Parcel No. VA-FR017.21; 0.04 ACRES OF LAND, OWNED BY GLENN C. FRITH AND LINDA
K. FRITH, TRUSTEES OF THE FRITH LIVING TRUST, Franklin County Tax
Map Parcel No. 0380001900 and being MVP Parcel No. VA-FR-017.24; 3.70
ACRES OF LAND, OWNED BY MICHAEL S. HURT AND MARY FRANCES
K. HURT, Franklin County Tax Map Parcel No. 0380002204 and being MVP
Parcel No. VA-FR-017.25; 2.02 ACRES OF LAND, OWNED BY GLENN C.
FRITH AND LINDA K. FRITH, TRUSTEES OF THE FRITH LIVING TRUST,
Franklin County Tax Map Parcel No. 0380002500 and being MVP Parcel No. VAFR-017.26; 0.12 ACRES OF LAND, OWNED BY GLENN W. LOVELESS AND
JUNE S. LOVELESS, Franklin County Tax Map Parcel No. 0370011106 and
being MVP Parcel No. VA-FR-017.37; 0.25 ACRES OF LAND, OWNED BY
HEATHERWOOD PROPERTIES, INC, Franklin County Tax Map Parcel No.
0370010900 and being MVP Parcel No. VA-FR-017.40,; 0.23 ACRES OF LAND,
OWNED BY RAYMOND THOMAS WORRELL AND LINDA D. WORRELL,
Franklin County Tax Map Parcel No. 0370001510 and being MVP Parcel No. VAFR-017.42; 1.97 ACRES OF LAND, OWNED BY KEITH M. WILSON AND

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 60 of 113

MARY K. WILSON, Franklin County Tax Map Parcel No. 0370009906 and being
MVP Parcel No. VA-FR-017.44; 1.74 ACRES OF LAND, OWNED BY DEREK
T. HANES AND MARION C. HANES, Franklin County Tax Map Parcel No.
0370009305 A and being MVP Parcel No. VA-FR-047; 4.35 ACRES OF LAND,
OWNED BY LYNN R. FLORA AND CYNTHIA D. FLORA, Franklin County
Tax Map Parcel No. 0370009301 and being MVP Parcel No. VA-FR-049; 2.84
ACRES OF LAND, OWNED BY LYNN RAY FLORA, Franklin County Tax
Map Parcel No. 0370008500 and being MVP Parcel No. VA-FR-050; 8.97
ACRES OF LAND, OWNED BY ROBERT G. IKENBERRY, Franklin County
Tax Map Parcel No. 0370017700 and being MVP Parcel No. VA-FR-053; 0.06
ACRES OF LAND, OWNED BY ORREN RICHARD ANDERSON AND
GENEVA BELL ANDERSON, Franklin County Tax Map Parcel No. 0370018101
and being MVP Parcel No. VA-FR-054.002; 0.66 ACRES OF LAND, OWNED
BY COUNTY OF FRANKLIN, Franklin County Tax Map Parcel No.
0370005400 and being MVP Parcel No. VA-FR-063; 5.16 ACRES OF LAND,
OWNED BY THE COUNTY OF FRANKLIN, Franklin County Tax Map Parcel
No. 0370005300 and being MVP Parcel No. VA-FR-064; 6.24 ACRES OF
LAND, OWNED BY C. GALEN FISHER, GALEN TODD FISHER, AND
RYAN GALEN FISHER, Franklin County Tax Map Parcel No. 0430004900 and
being MVP Parcel No. VA-FR-068; 0.87 ACRES OF LAND, OWNED BY
BOBBY I. JONES AND RICHARD WAYNE JONES REVOCABLE TRUST,
RICHARD WAYNE JONES, TRUSTEE, Franklin County Tax Map Parcel No.
0430105200 and being MVP Parcel No. VA-FR-070.01; 1.60 ACRES OF LAND,
OWNED BY SANDRA H. LANCASTER, Franklin County Tax Map Parcel No.
0430105000 and being MVP Parcel No. VA-FR-073; 8.21 ACRES OF LAND,
OWNED BY LONGVIEW HOLSTEINS, INC., Franklin County Tax Map Parcel
No. 0430021500 and being MVP Parcel No. VA-FR-075; 3.70 ACRES OF
LAND, OWNED BY DAVID J. WERNER, BETTY B. WERNER, IAN
ELLIOTT REILLY, AND CAROLYN ELIZABETH REILLY, Franklin County
Tax Map Parcel No. 0440004300 and being MVP Parcel No. VA-FR-076.01; 1.72
ACRES OF LAND, OWNED BY GUY W. BUFORD AND MARGARET S.
BUFORD, Franklin County Tax Map Parcel No. 0440004400 and being MVP
Parcel No. VA-FR-077; 8.21 ACRES OF LAND, OWNED BY DALE E. ANGLE
AND MARY A. ANGLE, TRUSTEES OF THE DALE E. ANGLE AND MARY
A. ANGLE JOINT REVOCABLE TRUST, Franklin County Tax Map Parcel No.
0440006500 and being MVP Parcel No. VA-FR-079; 0.292 ACRES OF LAND,
OWNED BY GAIL DUDLEY SMITHERS AND GINGER K. SMITHERS,
Franklin County Tax Map Parcel No. 0450008100 and being MVP Parcel No. VAFR-113; 8.56 ACRES OF LAND, OWNED BY GAIL DUDLEY SMITHERS
AND GINGER K. SMITHERS, Franklin County Tax Map Parcel No. 0450000902

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 61 of 113

and being MVP Parcel No. VA-FR-114; 8.37 ACRES OF LAND, OWNED BY
RICHARD LYNCH, TRUSTEE OF THE CATHERINE R. BECKNER
IRREVOCABLE TRUST, Franklin County Tax Map Parcel No. 0450008000 and
being MVP Parcel No. VA-FR-115; 8.60 ACRES OF LAND, OWNED BY GAIL
DUDLEY SMITHERS, Franklin County Tax Map Parcel No. 0450001600 and
being MVP Parcel No. VA-FR-117; 3.92 ACRES OF LAND, OWNED BY GAIL
DUDLEY SMITHERS AND GINGER K. SMITHERS, Franklin County Tax Map
Parcel No. 0450006800 and being MVP Parcel No. VA-FR-119; 1.17 ACRES OF
LAND, OWNED BY RONDA DIANE ROOPE OSBORNE AND MICHAEL
WAYNE ROOPE, Franklin County Tax Map Parcel No. 0450003300 and being
MVP Parcel No. VA-FR-125; 5.56 ACRES OF LAND, OWNED BY FRANKLIN
REAL ESTATE COMPANY, Franklin County Tax Map Parcel No. 0530012101
and being MVP Parcel No. VA-FR-148; 4.82 ACRES OF LAND, OWNED BY
FRANKLIN REAL ESTATE COMPANY, Franklin County Tax Map Parcel No.
0530012600 and being MVP Parcel No. VA-FR-151; 0.03 ACRES OF LAND,
OWNED BY MICHAEL A. DEEMS AND ELIZABETH A. DEEMS, Franklin
County Tax Map Parcel No. 06504-02500 and being MVP Parcel No. VA-FR155.02; 0.63 ACRES OF LAND, OWNED BY MICHAEL A. DEEMS AND
ELIZABETH A. DEEMS, Franklin County Tax Map Parcel No. 06504-02600 and
being MVP Parcel No. VA-FR-156; 6.74 ACRES OF LAND, OWNED BY
EDWARDS PROPERTIES, LTD, Franklin County Tax Map Parcel No.
0660004300 and being MVP Parcel No. VA-FR-170; 0.94 ACRES OF LAND,
OWNED BY UNKNOWN HEIRS OR ASSIGNS OF ANDREW L.
POINDEXTER AND ANDREW POINDEXTER, Franklin County Tax Map
Parcel No. 0660010500 and being MVP Parcel No. VA-FR-174; 2.66 ACRES OF
LAND, OWNED BY CHRISTOPHER ERIC LAMBERT AND JODI E.
LAMBERT, Franklin County Tax Map Parcel No. 0660010600 and being MVP
Parcel No. VA-FR-175; 1.23 ACRES OF LAND, OWNED BY SHARON E.
LAMBERT, Franklin County Tax Map Parcel No. 0660010602 and being MVP
Parcel No. VA-FR-176; 0.36 ACRES OF LAND, OWNED BY JOSEPH E.
LAMBERT AND MARY I. LAMBERT, Franklin County Tax Map Parcel No.
0660010601 and being MVP Parcel No. VA-FR-177; 3.05 ACRES OF LAND,
OWNED BY ANN C. CLEMENTS AND MARY ARRINGTON CLEMENTS,
Franklin County Tax Map Parcel No. 0660011000 and being MVP Parcel No. VAFR-179; 1.57 ACRES OF LAND, OWNED BY ROBERT B. WORKMAN, III
AND JOAN M. WORKMAN, Franklin County Tax Map Parcel No. 0680007000
and being MVP Parcel No. VA-FR-196.02; 0.65 ACRES OF LAND, OWNED
BY MICHAEL S. HURT AND MARY FRANCES K. HURT, Franklin County
Tax Map Parcel No. 0380002204A and being MVP Parcel No. VA-FR-4130 (AR
FR-294); 0.01 ACRES OF LAND, OWNED BY JAMES WALTER WRAY,

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 62 of 113

Franklin County Tax Map Parcel No. 0440006701and being MVP Parcel No. VAFR-4138.001 (AR FR-305); 0.01 ACRES OF LAND, OWNED BY JOSEPH B.
PHELPS AND ALESHIA V. PHELPS, Franklin County Tax Map Parcel No.
0530200100and being MVP Parcel No. VA-FR-4143 (AR FR-315); 0.52 ACRES
OF LAND, OWNED BY PREDELMA O'NEAL HALL, Franklin County Tax
Map Parcel No. 0660004400 and being MVP Parcel No. VA-FR-4144 (AR FR320); 0.14 ACRES OF LAND, OWNED BY PENHOOK UNITED METHODIST
CHURCH, Franklin County Tax Map Parcel No. 0660012101 and being MVP
Parcel No. VA-FR-4146 (AR FR-323); 0.01 ACRES OF LAND, OWNED BY
RONDA DIANE ROOPE OSBORNE, Franklin County Tax Map Parcel No.
0450003200 and being MVP Parcel No. VA-FR-4276; 0.32 ACRES OF LAND,
OWNED BY GAIL DUDLEY SMITHERS, Franklin County Tax Map Parcel No.
0450001500 and being MVP Parcel No. VA-FR-5151 (ATWS-1266); 0.34
ACRES OF LAND, OWNED BY NANCY LORRAINE BRITTON AND
KENITH DWAIN BRITTON, SR., TRUSTEES OF THE NANCY LORRAINE
BRITTON AND KENITH DWAIN BRITTON, SR. LIVING TRU, Franklin
County Tax Map Parcel No. 0450006402 and being MVP Parcel No. VA-FR5388; 1.66 ACRES OF LAND, OWNED BY BRIAN H. KINSEY, GEORGE D.
KINSEY, JR., AND STEVEN D. KINSEY, Franklin County Tax Map Parcel No.
0380003402E and being MVP Parcel No. VA-FR-5392; 0.15 ACRES OF LAND,
OWNED BY RUSSELL R. BARKSDALE, JR., Franklin County Tax Map Parcel
No. 0370009904and being MVP Parcel No. VA-FR-5415; 0.02 ACRES OF
LAND, OWNED BY DIANA M. PERKINSON, Franklin County Tax Map Parcel
No. 0370009600 and being MVP Parcel No. VA-FR-5416; 0.16 ACRES OF
LAND, OWNED BY CHRISTINE JEANNETTE DAVIS, Franklin County Tax
Map Parcel No. 0370009902 and being MVP Parcel No. VA-FR-5417; 0.09
ACRES OF LAND, OWNED BY ANDREW P. BUCKMAN AND SHARON H.
BUCKMAN, Franklin County Tax Map Parcel No. 0370009911 and being MVP
Parcel No. VA-FR-5418; 0.02 ACRES OF LAND, OWNED BY JOHN L.
BARBAZON AND LAURA S. BARBAZON, Franklin County Tax Map Parcel
No. 0370009901 and being MVP Parcel No. VA-FR-5419; 0.27 ACRES OF
LAND, OWNED BY LEE A. FLORA, LYNN R. FLORA, AND PAMELA
FLORA SWEENEY, Franklin County Tax Map Parcel No. 0370009913 and being
MVP Parcel No. VA-FR-5420; 0.15 ACRES OF LAND, OWNED BY FRANK H.
BISCARDI AND JACQUELINE S. BISCARDI, Franklin County Tax Map Parcel
No. 0370009900 and being MVP Parcel No. VA-FR-5421; 0.04 ACRES OF
LAND, OWNED BY CRYSTAL DIANE EDWARDS, Franklin County Tax Map
Parcel No. 0660009602 and being MVP Parcel No. VA-FR-5437; 0.88 ACRES
OF LAND, OWNED BY DANIEL PAYNE WRIGHT AND DONALD WAYNE
WRIGHT, Franklin County Tax Map Parcel No. 0660007700 and being MVP

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 63 of 113

Parcel No. VA-FR-5441; 4.14 ACRES OF LAND, OWNED BY MARK E.
DANIEL AND ANGELA D. DANIEL, Franklin County Tax Map Parcel No.
0440011600 and being MVP Parcel No. VA-FR-5476; 1.71 ACRES OF LAND,
OWNED BY LYDIA LAVERNE BROWN, Franklin County Tax Map Parcel No.
0440015700 and being MVP Parcel No. VA-FR-5483; 2.02 ACRES OF LAND,
OWNED BY PAUL F. CRAWFORD, Franklin County Tax Map Parcel No.
0440016301 and being MVP Parcel No. VA-FR-5488; 1.49 ACRES OF LAND,
OWNED BY UNKNOWN SUCCESSOR TRUSTEE OF THE LACY F.
DUDLEY DECLARATION OF REVOCABLE TRUST AND ROSE MARIE
DUDLEY, Franklin County Tax Map Parcel No. 0440200500 and being MVP
Parcel No. VA-FR-5490; 0.14 ACRES OF LAND, OWNED BY ANTHONY B.
NOVITZKI, Franklin County Tax Map Parcel No. 0440206600 and being MVP
Parcel No. VA-FR-5500; 5.51 ACRES OF LAND, OWNED BY MARK A.
DIVERS AND MARIE P. DIVERS, Franklin County Tax Map Parcel No.
0440019801A and being MVP Parcel No. VA-FR-5501; 3.76 ACRES OF LAND,
OWNED BY CATHERINE BECKNER KINGERY, Franklin County Tax Map
Parcel No. 0440020401 and being MVP Parcel No. VA-FR-5508; 0.07 ACRES
OF LAND, OWNED BY MICHAEL S. LAMBERT AND KELLY O.
LAMBERT, Franklin County Tax Map Parcel No. 0660010200 and being MVP
Parcel No. VA-FR-5745; 0.10 ACRES OF LAND, OWNED BY UNKNOWN
HEIRS OR ASSIGNS OF ANDREW L. POINDEXTER AND ANDREW
POINDEXTER, Franklin County Tax Map Parcel No. 0660010300 and being
MVP Parcel No. VA-FR-5746; 0.08 ACRES OF LAND, OWNED BY
CHRISTOPHER E. LAMBERT AND JODI E. LAMBERT, Franklin County Tax
Map Parcel No. 0660010400 and being MVP Parcel No. VA-FR-5747; 0.16
ACRES OF LAND, OWNED BY LEALDA T. ANGLE, Franklin County Tax
Map Parcel No. 0440020300 and being MVP Parcel No. VA-FR-5892; 7.34
ACRES OF LAND, OWNED BY LEWIS O CLEMENTS,SR, ANTHONY
GRAY,KATHY POINDEXTER, LEAN C ROBERTSON, NADINE B
PERKINS, ANTHONY BROWN, HENRY ISAIAH NEWBILL, MARVIN
NEWBILL,LAVERNE N DAVIS, ALICE N DAVIS,THOMAS DOUGLAS
CLEMENTS, JR., HENRY LOUIS CLEMENTS, DWIGHT CLEMENTS,
NATHAN CLEMENTS, DOROTHY C TURNER, CHARLOTTE C DAY,
LAURA CLEMENTS, CLARA CLEMENTS, AND ELAINE HUBBARD
UNKNOWN HEIRS OR ASSIGNS OF THOMAS D CLEMENTS,SR,TORI C
GRAY, REBECCA CLEMENTS, NORA CLEMENTS, a/k/a Thomas Clement,
a/k/a Helen Glass, Pittsylvania Co TaxNo1489-09-2901;MVPNo VA-PI-026; 1.13
ACRES OF LAND,OWNED BY LEWIS O CLEMENTS, SR, ANTHONY
GRAY,KATHY POINDEXTER, LEAN C ROBERTSON, NADINE B
PERKINS,ANTHONY BROWN, HENRY ISAIAH NEWBILL, MARVIN

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 64 of 113

NEWBILL, LAVERNE N DAVIS, ALICE N DAVIS,THOMAS DOUGLAS
CLEMENTS,JR, HENRY LOUIS CLEMENTS, DW, a/k/a The Heirs or Assigns
of Thomas Clements, a/k/a Thomas Clement, a/k/a Helen Glass, a/k/a Unknown
Heirs and Assigns of Rebecca Clements, a/k/a Unknown Heirs and Assigns of
Nora Clements, Pittsylvania Co Tax No 1580-00-0360; MVPNoVA-PI-026.01;
1.12 ACRES OF LAND, OWNED BY LEWIS O CLEMENTS,JR, GENEVA C
PINKNEY, ANTHONY GRAY, KATHY POINDEXTER, MARVIN NEWBILL,
LAVERNE N DAVIS, ALICE N DAVIS SAM CLEMENTS, REBECCA
GLASS, ELAINE HUBBARD, DWIGHT CLEMENTS, THOMAS DOUGLAS
CLEMENTS,JR, HENRY LOUIS CLEMENTS, NATHAN CLEMENTS,
DOROTHY C TURNER, AND CHARLOTTE C DAY, a/k/a The Heirs or
Assigns of Thomas Clements, a/k/a Unknown Heirs or Assigns of Tori C. Gray,
a/k/a Unknown Heirs or Assigns of Nora Clements, a/k/a Helen Glass, a/k/a
Unknown Heirs or Assigns of Rebecca Clements, Pittsylvania Co TaxNo.1580-008311; MVPNo.VA-PI-026.02; 7.82 ACRES OF LAND, OWNED BY THOMAS
O. WHITE, JR., TRUSTEE OF THE BEVERLY A. MCLAUGHLIN
TESTAMENTARY TRUST, Pittsylvania County Tax Map Parcel No. 1489-867542 and being MVP Parcel No. VA-PI-029.05; 0.12 ACRES OF LAND,
OWNED BY EUGENE RYLAND MOTLEY AND NANCYE B. MOTLEY,
Pittsylvania County Tax Map Parcel No. 2418-41-9409 and being MVP Parcel No.
VA-PI-071.01; 0.05 ACRES OF LAND, OWNED BY DEAN M. POWELL AND
ANNETTE S. POWELL, Pittsylvania County Tax Map Parcel No. 2417-49-1304
and being MVP Parcel No. VA-PI-072; 2.07 ACRES OF LAND, OWNED BY
LAKE ANNA INVESTMENTS, LC, Pittsylvania County Tax Map Parcel No.
2418-50-8820 and being MVP Parcel No. VA-PI-072.01; 11.07 ACRES OF
LAND, OWNED BY A. DOUGLAS DALTON JR., Pittsylvania County Tax Map
Parcel No. 2417-58-4539 and being MVP Parcel No. VA-PI-073; 2.99 ACRES OF
LAND, OWNED BY COMMONWEALTH FOREST INVESTMENTS, INC.,
Pittsylvania County Tax Map Parcel No. 2417-89-1099 and being MVP Parcel No.
VA-PI-081.01; 1.09 ACRES OF LAND, OWNED BY COMMONWEALTH
FOREST INVESTMENTS, INC., Pittsylvania County Tax Map Parcel No. 241787-1135 and being MVP Parcel No. VA-PI-085 (AR PI-338); 1.60 ACRES OF
LAND, OWNED BY SANDRA Y. JEFFCOAT, SABRINA D. PERRY, JOHN D.
WHITTLE, III, ANTHONY J. WHITTLE, SR., DERRICK A. WHITTLE, SR.
AND ELTON G. WHITTLE, SR., Pittsylvania County Tax Map Parcel No. 242712-7078 and being MVP Parcel No. VA-PI-091; 0.30 ACRES OF LAND,
OWNED BY GWENDOLYN F. GREEN UNKNOWN HEIRS AND ASSIGNS
OF THE FOLLOWING LAURA JONES, LIZZIE JONES, JESSIE JONES,
ANNIE JONES, Pittsylvania County Tax Map Parcel No. 2427-30-5719 and being
MVP Parcel No. VA-PI-095; 1.85 ACRES OF LAND, OWNED BY TOWN OF

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 65 of 113

CHATHAM, Pittsylvania County Tax Map Parcel No. Town of Chatham - Tax
Exempt and being MVP Parcel No. VA-PI-103.01; 1.23 ACRES OF LAND,
OWNED BY JAMES M. GRUBBS, EVELENA GRUBBS ROUSE, AND ENZY
GRUBBS ANDERSON, UNKNOWN HEIRS OR ASSIGNS OF JAMES M.
GRUBB, a/k/a Evelyn Rouse, Pittsylvania County Tax Map Parcel Nos. 2436-054452 and 2436-05-2564 and being MVP Parcel No. VA-PI-104; 0.18 ACRES OF
LAND, OWNED BY OAK GROVE CHRISTIAN CHURCH, Pittsylvania County
Tax Map Parcel No. 2417-68-8838 and being MVP Parcel No. VA-PI-4155 (AR
PI-337); 0.08 ACRES OF LAND, OWNED BY BARBARA SLOAN
FITZGERALD, CHERYL FERGUSON, STEPHANIE L WALDEN, ARETHA
JO FITZGERALD, BARBARA A FITZGERALD, JAMES FITZGERALD,
RUBY FITZGERALD, LOIS MARIE FITZGERALD, BARBARA ANN
FITZGERALD, CARABELL FITZGERALD, UNKNOWN HEIRS AND
ASSIGNS OF FOREST FITZGERALD, MILDRED FITZGERALD, DOUGLAS
FITZGERALD, JOE LOUIS FITZGERALD, FOREST FITZGERALD, JR,
Pittsylvania County Tax Map Parcel No. 2427-30-5083 and being MVP Parcel No.
VA-PI-4157 (AR PI-340); 0.35 ACRES OF LAND, OWNED BY BARBARA
SLOAN FITZGERALD, CHERYL FERGUSON, STEPHANIE L WALDEN,
ARETHA JO FITZGERALD, BARBARA A FITZGERALD, JAMES
FITZGERALD, RUBY FITZGERALD, LOIS MARIE FITZGERALD,
BARBARA ANN FITZGERALD, CARABELL FITZGERALD, UNKNOWN
HEIRS AND ASSIGNS OF FOREST FITZGERALD, MILDRED
FITZGERALD, DOUGLAS FITZGERALD, JOE LOUIS FITZGERALD,
FOREST FITZGERALD, Pittsylvania County Tax Map Parcel No. 2427-30-4184
and being MVP Parcel No. VA-PI-5156; UNKNOWN OWNERS; 6.50 ACRES
OF LAND, MORE OR LESS, OWNED BY NEW RIVER CONSERVANCY,
INC., Located in Giles County, Virginia being a portion of Giles County Tax Map
Parcel No. 29-25B and being MVP Parcel No. VA-GI-035; 1.38 ACRES OF
LAND, OWNED BY HENRY COX AND JANET DEGROFF, Montgomery
County Tax Map Parcel No. 001262 and Being MVP Parcel No. VA-MO-5519;
3.42 ACRES OF LAND, OWNED BY HENRY COX AND JANET DEGROFF,
Montgomery County Tax Map Parcel No. 032870 and Being MVP Parcel No. VAMO-5520; 1.06 ACRES OF LAND, OWNED BY JOHN GARRETT BAKER
AND SUZANNE JANE BAKER, Montgomery County Tax Map Parcel No.
230082 and Being MVP Parcel No. VA-MO-5882; 0.14 ACRES OF LAND,
OWNED BY UNKNOWN HEIRS OR ASSIGNS OF ANTHONY B. NOVITZKI
AND JOANNE A. LOFARO, Franklin County Tax Map Parcel No. 0440206600
and being MVP Parcel No. VA-FR-5500; 0.16 ACRES OF LAND, OWNED BY
RONNIE ALLEN ANGLE, Franklin County Tax Map Parcel No. 0440020300
and being MVP Parcel No. VA-FR-5892; 0.18 ACRES OF LAND, OWNED BY

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 66 of 113

MICHAEL EPPERLY, Montgomery County Tax Map Parcel No. 014919 and
Being MVP Parcel No. VA-MO-5788; 0.09 ACRES OF LAND, OWNED BY
TIMOTHY J. LAWLESS AND MEGAN K. LAWLESS, Franklin County Tax
Map Parcel No. 0370009905A and being MVP Parcel No. VA-FR-5410; 6.56
ACRES OF LAND, OWNED BY SANDRA TOWNES POWELL, Montgomery
County Tax Map Parcel No. 015900 and Being MVP Parcel No. VA-MO-3370;
1.81 ACRES OF LAND, OWNED BY ROBERT M. JONES AND DONNA
THOMAS JONES, Montgomery County Tax Map Parcel No. 024588 and Being
MVP Parcel No. VA-MO-5511; 1.29 ACRES OF LAND, OWNED BY ROBERT
M. JONES AND DONNA THOMAS JONES, Montgomery County Tax Map
Parcel No. 024591 and Being MVP Parcel No. VA-MO-5512; 0.52 ACRES OF
LAND, OWNED BY EMILIE M. OWEN AND RICHARD CLARK OWEN,
Franklin County Tax Map Parcel No. 0380002204B and being MVP Parcel No.
VA-FR-4129 (AR FR-294)
Defendants
-----------------------------OWNER'S COUNSEL OF AMERICA
Amicus Supporting Rehearing Petition
___________________
No. 18-1187
(7:17-cv-00492-EKD)
___________________
MOUNTAIN VALLEY PIPELINE, LLC
Plaintiff - Appellee
v.
0.09 ACRES OF LAND, OWNED BY GARY HOLLOPTER AND ALLISON
HOLLOPTER, Giles County Tax Map Parcel No. 30-4B and Being MVP Parcel
No. VA-GI-5310; 0.18 ACRES OF LAND, OWNED BY GEORGIA LOU
HAVERTY, Giles County Tax Map Parcel No 30-4A and Being MVP Parcel No.
BVGI-10; 8.67 ACRES OF LAND, OWNED BY JAMES D. SCOTT AND

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 67 of 113

KAREN B. SCOTT, Roanoke County Tax Map Parcel No. 093.00-01-34.00-0000
and Being MVP Parcel No. VA-RO-040; 21.98 ACRES OF LAND, OWNED BY
OCCANNEECHI, INC., Franklin County Tax Map Parcel No. 0380001501 and
being MVP Parcel No. VA-FR-017.15; 8.21 ACRES OF LAND, OWNED BY
OCCANNEECHI, INC., Franklin County Tax Map Parcel No. 0250004100 and
being MVP Parcel No. VA-FR-017.11; 0.33 ACRES OF LAND, OWNED BY
LENORA W. MONTUORI AND LENORA MONTUORI AND KRISTINA
MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO MONTUORI
FAMILY TRUST, Roanoke County Tax Map Parcel No. 117.00-01-41.02-0000
and Being MVP Parcel No. VA-RO-4125; 0.50 ACRES OF LAND, OWNED BY
LENORA W. MONTUORI AND LENORA MONTUORI AND KRISTINA
MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO MONTUORI
FAMILY TRUST, Roanoke County Tax Map Parcel No. 117.00-01-41.01-0000
and Being MVP Parcel No. VA-RO-4124; 2.43 ACRES OF LAND, OWNED BY
LENORA W. MONTUORI AND LEMORA MONTUORI AND KRISTINA
MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO MONTUORI
FAMILY TRUST, Roanoke County Tax Map Parcel No. 117.00-01-45.00-0000
and Being MVP Parcel No. VA-RO-067; 0.19 ACRES OF LAND, OWNED BY
LENORA W. MONTUORI AND LENORA MONTUORI AND KRISTINA
MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO MONTUORI
FAMILY TRUST, Roanoke County Tax Map Parcel No. 117.00-01-42.00-0000
and Being MVP Parcel No. VA-RO-066; 0.20 ACRES OF LAND, OWNED BY
LENORA W. MONTUORI AND LENORA MONTUORI AND KRISTINA
MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO MONTUORI
FAMILY TRU, Roanoke County Tax Map Parcel No. 117.00-01-43.01-0000 and
Being MVP Parcel No. VA-RO-065; 2.99 ACRES OF LAND, OWNED BY
LENORA W. MONTUORI AND LENORA MONTUORI AND KRISTINA
MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO MONTUORI
FAMILY TRUST, Roanoke County Tax Map Parcel No. 117.00-01-46.00-0000
and Being Parcel No. VA-RO-064; 0.91 ACRES OF LAND, OWNED BY
LENORA W. MONTUORI AND LENORA MONTUORI AND KRISTINA
MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO MONTUORI
FAMILY TRUST, Roanoke County Tax Map Parcel No. 117.00-01-43.00-0000,
Being MVP Parcel No. VA-RO-063; 1.91 ACRES OF LAND, OWNED BY
LENORA W. MONTUORI AND LENORA MONTUORI AND KRISTIN
MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO MONTUORI
FAMILY TRUST, Roanoke County Tax Map Parcel No. 117.00-01-43.02-0000
and Being MVP Parcel No. VA-RO-062; 4.31 ACRES OF LAND, OWNED BY
JAMES T. CHANDLER AND KATHY E. CHANDLER, Roanoke County Tax
Map Parcel No 117.00-01-38.00-0000 and Being MVP Parcel No. VA-RO-061;

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 68 of 113

4.31 ACRES OF LAND, OWNED BY JAMES T. CHANDLER AND KATHY E.
CHANDLER, Roanoke County Tax Map Parcel No. 111.00-01-62.01-0000 and
Being MVP Parcel No. VA-RO-060; 0.41 ACRES OF LAND, OWNED BY
LENORA W. MONTUORI, Roanoke County Tax Map Parcel No. 110.00-0154.00-0000 and Being MVP Parcel No. VA-RO-058; 0.341 ACRES OF LAND,
OWNED JAMES D. SCOTT AND KAREN B. SCOTT, Roanoke County Tax
Map Parcel No. 093.00-01-33.01-0000 and Being MVP Parcel No. VA-RO-043;
2.17 ACRES OF LAND, OWNED BY JAMES D. SCOTT AND KAREN B.
SCOTT, Roanoke County Tax Map Parcel No. 093.00-01-33.00-0000 and Being
MVP Parcel No. VA-RO-042; 0.41 ACRES OF LAND, OWNED BY JAMES D.
SCOTT AND KAREN B. SCOTT, Roanoke County Tax Map Parcel No. 093.0001-34.01-0000 and Being MVP Parcel No. VA-RO-030 (AR RO-281); 0.22
ACRES OF LAND, OWNED BY LENORA W. MONTUORI AND LENORA
MONTUORI AND KRISTINA MONTUORI HILLMAN, TRUSTEES OF THE
ANTONIO MONTUORI FAMILY TRUST, Roanoke County Tax Map Parcel No.
117.00-01-41.00-0000 and Being MVP Parcel No. BVRO-12; 7.18 ACRES OF
LAND, OWNED BY MICHAEL EDWARD SLAYTON, TRUSTEE OR
MARGARET MCGRAW SLAYTON, TRUSTEE, MARGARET MCGRAW
SLAYTON LIVING TRUST, Montgomery County Tax Map Parcel No. 024590
and Being MVP Parcel No. VA-MO-3371; 10.26 ACRES OF LAND, OWNED
BY SAMUEL HALE REYNOLDS AND MARY SUTTON REYNOLDS, Giles
County Tax Map Parcel No. 46-1-2A and Being MVP Parcel No. VA-GI-5922;
0.22 ACRES OF LAND, OWNED BY DOWDY FARM, LLC, Giles County Tax
Map Parcel No. 46-52 A. and Being MVP Parcel No. VA-GI-5790; 8.60 ACRES
OF LAND, OWNED BY DOWDY FARM LLC, Giles County Tax Map Parcel
No. 46-52 and Being MVP Parcel No. VA-GI-4250; 5.25 ACRES OF LAND,
OWNED BY MARY VIRGINIA REYNOLDS, SAMUEL HALE REYNOLDS,
AND MARY SUTTON REYNOLDS, Giles County Tax Map Parcel No. 46-1-3
and Being MVP Parcel No. VA-GI-097.01; 2.19 ACRES OF LAND, OWNED
BY STEPHEN D. LEGGE, DAVID LEGGE, AND PHYLLIS J. LEGGE, Giles
County Tax Map Parcel No. 44-3-3A and Being MVP Parcel No. VA-GI-057;
10.67 ACRES OF LAND, OWNED BY DOE CREEK FARM,
INCORPORATED, Giles County Tax Map Parcel No.30-4 and Being MVP Parcel
No. VA-GI-049; 1.23 ACRES OF LAND, OWNED BY EAGLE'S NEST
MINISTRIES, INC., Giles County Tax Map Parcel No. 29-25 and Being MVP
Parcel No VA-GI-035.01; 6.50 ACRES OF LAND, OWNED BY SIZEMORE
INCORPORATED OF VIRGINIA, f/k/a National Committee for the New River,
Giles County Tax Map Parcel No. 29-25B and Being MVP Parcel No. VA-GI-035
Defendants - Appellants

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 69 of 113

and
EASEMENTS TO CONSTRUCT, OPERATE, AND MAINTAIN A NATURAL
GAS PIPELINE OVER TRACTS OF LAND IN GILES CO., CRAIG CO.,
MONTGOMERY CO., ROANOKE CO., FRANKLIN CO., AND
PITTSYLVANIA CO., VA INCLUDING:; 8.11 ACRES OF LAND, OWNED
BY DONNA ROGERS ALTIZER, Giles County Tax Map Parcel No. 27-18 and
Being MVP Parcel No. VA-GI-008.05; 0.12 ACRES OF LAND, OWNED BY
LHOIST NORTH AMERICA OF VIRGINIA, INC., Giles County Tax Map
Parcel No 27-73 and Being MVP Parcel No. VA-GI-008.06; 17.89 ACRES OF
LAND, OWNED BY LHOIST NORTH AMERICA OF VIRGINIA, INC., Giles
County Tax Map Parcel No. 27-75 and Being MVP Parcel No. VA-GI-013; 7.39
ACRES OF LAND, OWNED BY ANTHONY L. BOWMAN AND CAROL
ANN BOWMAN, Giles County Tax Map Parcel No. 28-10A and Being MVP
Parcel No. VA-GI-017; 1.52 ACRES OF LAND, OWNED BY VERNON V.
BEACHAM, SR. AND VERNON V. BEACHAM, II, Giles County Tax Map
Parcel No. 44A-1-34 and Being MVP Parcel No. VA-GI-051; 2.83 ACRES OF
LAND, OWNED BY VERNON V. BEACHAM, SR. AND VERNON V.
BEACHAM, II, Giles County Tax Map Parcel No. 44A-1-33 and Being MVP
Parcel VA-GI-052; 2.85 ACRES OF LAND, OWNED BY CHESTNUT MILL
RANCH, LLC, Giles County Tax Map Parcel No. 45-72 and Being MVP Parcel
No. VA-GI-061 (AR GI-245.02); 0.72 ACRES OF LAND, OWNED BY
CHESTNUT MILL RANCH, LLC, Giles County Tax Map Parcel No. 45-71 and
Being MVP Parcel No. VA-GI-062; 3.17 ACRES OF LAND, OWNED BY
CHESTNUT MILL RANCH, LLC, Giles County Tax Map Parcel No. 45-66 and
Being MVP Parcel No. VA-GI-066; 1.18 ACRES OF LAND, OWNED BY
JAMES D. MATTOX, Giles County Tax Map Parcel No. 46-49 and Being MVP
Parcel No. VA-GI-098 (MVP-GI-256); 10.37 ACRES OF LAND, OWNED BY
CHESTNUT MILL RANCH, LLC, Giles County Tax Map Parcel No. 45-70 and
Being MVP Parcel No. VA-GI-200.003; 1.89 ACRES OF LAND, OWNED BY
BRIARWOOD DEVELOPMENT, LLC, Giles County Tax Map Parcel No. 45-36
and Being MVP Parcel No. VA-GI-200.015; 8.55 ACRES OF LAND, OWNED
BY NEWPORT DEVELOPMENT COMPANY, LLC, Giles County Tax Map
Parcel No. 45-33I and Being MVP Parcel No. VA-GI-200.016; 0.26 ACRES OF
LAND, OWNED BY FRANK S. QUINN, III AND KATHERINE A. QUINN,
Giles County Tax Map Parcel No. 45-30A and Being MVP Parcel No. VA-GI200.017; 1.22 ACRES OF LAND, OWNED BY TAMARA N. HODSDEN,
TRUSTEE OF THE JOSEPH D. HODSDEN TRUST AND TAMARA N.
HODSDEN TRUST, Giles County Tax Map Parcel No. 46-11 and Being MVP

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 70 of 113

Parcel No. VA-GI-200.018; 4.90 ACRES OF LAND, OWNED BY BRENDA
LYNN WILLIAMS, Giles County Tax Map Parcel No. 46-15 and Being MVP
Parcel No. VA-GI-200.019; 0.29 ACRES OF LAND, OWNED BY
BRIARWOOD DEVELOPMENT, LLC, Giles County Tax Map Parcel No. 46-2B and Being MVP Parcel No. VA-GI-200.024; 4.88 ACRES OF LAND, OWNED
BY CLARENCE B. GIVENS AND KAROLYN W. GIVENS, Giles County Tax
Map Parcel No. 47-9 and Being MVP Parcel No. VA-GI-200.041; 0.335 ACRES
OF LAND, OWNED BY GEORGE LEE JONES, Giles County Tax Map Parcel
No. 47-1-1 and Being MVP Parcel No. VA-GI-200.044; 2.01 ACRES OF LAND,
OWNED BY GEORGE LEE JONES, Giles County Tax Map Parcel No. 47-1-2
and Being MVP Parcel No. VA-GI-200.045; 2.74 ACRES OF LAND, OWNED
BY MARK A. PETTIPIECE AND TERESA J. PETTIPIECE, Giles County Tax
Map Parcel No. 47-1-3 and Being MVP Parcel No. VA-GI-200.046; 7.61 ACRES
OF LAND, OWNED BY JERRY J. DEPLAZES AND JEROLYN K.
DEPLAZES, Giles County Tax Map Parcel No. 46-66 and Being MVP Parcel No.
VA-GI-4249; 0.15 ACRES OF LAND, OWNED BY DAVID MATTHEW
ALTIZER AND ELIZABETH ANN ALTIZER, Giles County Tax Map Parcel
No. 27-18A and Being MVP Parcel No. VA-GI-5339; 5.78 ACRES OF LAND,
OWNED BY ELIZABETH ROGERS HARRISON, Giles County Tax Map Parcel
No. 27-19 and Being MVP Parcel No. VA-GI-5340; 0.01 ACRES OF LAND,
OWNED BY BENNY L. HUFFMAN, Giles County Tax Map Parcel No. 46-25 B
and Being MVP Parcel No. VA-GI-5779; 1.87 ACRES OF LAND, OWNED BY
JAMES D. MATTOX, Giles County Tax Map Parcel No. 46-49A and Being MVP
Parcel No. VA-GI-5883; 0.25 ACRES OF LAND, OWNED BY ROY DOWDY
OR UNKNOWN HEIRS OR ASSIGNS OF ROY DOWDY, Giles County Tax
Map Parcel No. 46-66X and Being MVP Parcel No. VA-GI-5884; 2.09 ACRES
OF LAND, OWNED BY STEVEN C. HODGES AND JUDY R. HODGES, Craig
County Tax Map Parcel No. 120-A-10 and 120-A-10A and Being MVP Parcel No.
VA-CR-200.047; 2.75 ACRES OF LAND, OWNED BY HELENA DELANEY
TEEKELL, TRUSTEE OF THE HELENA DELANEY TEEKELL TRUST, Craig
County Tax Map Parcel No. 120-A-12 and Being MVP Parcel No. VA-CR200.048; 0.66 ACRES OF LAND, OWNED BY GORDON WAYNE JONES
AND DONNA W. JONES, Craig County Tax Map Parcel No. 120-A-13 and
Being MVP Parcel No. VA-CR-200.049; 2.81 ACRES OF LAND, OWNED BY
ROBERT W. CRAWFORD OR PATRICIA D. CRAWFORD, TRUSTEES
UNDER THE CRAWFORD LIVING TRUST, AND ANITA NEAL HUGHES,
Craig County Tax Map Parcel No. 121-A-15 and Being MVP Parcel No. VA-CR200.053; 2.60 ACRES OF LAND, OWNED BY HELENA DELANEY
TEEKELL, TRUSTEE OF THE HELENA DELANEY TEEKELL TRUST, Craig
County Tax Map Parcel No. 120-A-14A and Being MVP Parcel No. VA-CR-

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 71 of 113

5343; 0.50 ACRES OF LAND, OWNED BY JOSE G. AGUIRRE-TORRES,
JUAN AGUIRRE, IGNACIO AGUIRRE, HECTOR ANDRES AGUIRRE, AND
RAMON A. ARELLANO, Craig County Tax Map Parcel No. 120-A-8 and Being
MVP Parcel No. VA-GI-200.047 (AR CR-258.01); 0.41 ACRES OF LAND,
OWNED BY DONALD W. PERDUE, Montgomery County Tax Map Parcel No.
035861 and Being MVP Parcel No. BV-MN-0053; 0.15 ACRES OF LAND,
OWNED BY DONALD W. LONG AND EVELYN W. LONG, Montgomery
County Tax Map Parcel No. 021560 and Being MVP Parcel No. BVMO-25; 0.64
ACRES OF LAND, OWNED BY VANESSA MICHELLE UNDERWOOD AND
JULIAN ADAMS STEWART, Montgomery County Tax Map Parcel No. 170229
and Being MVP Parcel No. VA-MN-5175 (AR MN-275); 0.05 ACRES OF
LAND, OWNED BY SARA KAY SCOTT, Montgomery County Tax Map Parcel
No. 190165 and Being MVP Parcel No. VA-MN-5176; 0.19 ACRES OF LAND,
OWNED BY CLETUS WOODROW BOHON AND BEVERLY ANN BOHON,
Montgomery County Tax Map Parcel No. 030271 and Being MVP Parcel No. VAMN-5233 (AR MN-278.01); 0.39 ACRES OF LAND, OWNED BY JAMES C.
LAW AND CAROLYN D. LAW, Montgomery County Tax Map Parcel No.
032431 And Being MVP Parcel No. VA-MN-5234 (AR MN-278.01); 0.31
ACRES OF LAND, OWNED BY RANDALL KEITH EPPERLY AND JOANNE
ALICE EPPERLY, Montgomery County Tax Map Parcel No. 029056 and Being
MVP Parcel No. VA-MN-5235 (AR MN-278.01); 0.50 ACRES OF LAND,
OWNED BY GREGORY M. APGAR AND ANGELA H. APGAR, Montgomery
County Tax Map Parcel No. 000837 and Being MVP Parcel No. VA-MO-005;
0.07 ACRES OF LAND, OWNED BY GEORGE A. CRAIGHEAD AND HELEN
P. CRAIGHEAD, Montgomery County Tax Map Parcel No. 016298 and Being
MVP Parcel No. VA-MO-011; 2.08 ACRES OF LAND, OWNED BY DONALD
D. APGAR AND MILDRED M. APGAR, Montgomery County Tax Map Parcel
No. 000843 and Being MVP Parcel No. VA-MO-012; 2.69 ACRES OF LAND,
OWNED BY BRIAN DAVID GLOCK AND SUSAN ELIZABETH GLOCK
BUCH, Montgomery County Tax Map Parcel No. 000844 and Being MVP Parcel
No. VA-MO-013; 0.78 ACRES OF LAND, OWNED BY DENNIS G. BERUBE
AND DIXIE L. BERUBE, Montgomery County Tax Map Parcel No. 021080 and
Being MVP Parcel No. VA-MO-019; 2.74 ACRES OF LAND, OWNED BY
CLETUS WOODROW BOHON AND BEVERLY ANN BOHON, Montgomery
County Tax Map Parcel No. 017761 and Being MVP Parcel No. VA-MO-022;
4.85 ACRES OF LAND, OWNED BY JOHN MICHAEL TURMAN, EDNA
LAWRENCE, ROBERT BURRIS, KEITHER EDWARD BURRIS, BARBARA
KEELING, JACK "JACKIE" BURRIS, LINDA PRADIS, VALERIE DELONG,,
Unknown Heirs or Assigns of the Following John Marshall Burris, Bobby Burris,
Carlton Walters, and Alvin Brown, Montgomery Co Tax Map Parcel No 0002831,

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 72 of 113

MVP Parcel No. VA-MO-023; 2.12 ACRES OF LAND, OWNED BY JAMES
CABEL LAW AND CAROLYN DIANA EANES LAW, Montgomery County
Tax Map Parcel No. 018808 and Being MVP Parcel No. VA-MO-024; 4.67
ACRES OF LAND, OWNED BY JAMES CABEL LAW AND CAROLYN
DIANA EANES LAW, Montgomery County Tax Map Parcel No. 011673 and
Being MVP Parcel No. VA-MO-025; 1.90 ACRES OF LAND, OWNED BY
JOSEPH PATRICK TOMELTY, Montgomery County Tax Map Parcel No.
013819 and Being MVP Parcel No. VA-MO-060; 0.89 ACRES OF LAND,
OWNED BY DONALD W. LONG AND EVELYN W. LONG, Montgomery
County Tax Map Parcel No. 021559 and Being MVP Parcel No. VA-MO-062;
0.392 ACRES OF LAND, OWNED BY TRAVIS SCOTT LANCASTER AND
TRACY LYNN TAYLOR, Montgomery County Tax Map Parcel No. 033280 and
Being MVP Parcel No. VA-MO-064 (AR-MN-271); 0.53 ACRES OF LAND,
OWNED BY SHELIA M. MEADOWS, Montgomery County Tax Map Parcel No.
033209 and Being MVP Parcel No. VA-MO-067; 0.94 ACRES OF LAND,
OWNED BY STEVEN A. BOWMAN AND RACHEL A. BOWMAN,
Montgomery County Tax Map Parcel No. 120708 and Being MVP Parcel No. VAMO-069; 1.14 ACRES OF LAND, OWNED BY HOWARD D. PERDUE,
Montgomery County Tax Map Parcel No. 014256 and Being MVP Parcel No. VAMO-0700; 3.84 ACRES OF LAND, OWNED BY DENNY R. SCOTT AND
TAMMY K. SCOTT, Montgomery County Tax Map Parcel No. 012030 and Being
MVP Parcel No. VA-MO-071; 0.36 ACRES OF LAND, OWNED BY CRAIGBOTETOURT ELECTRIC COOPERATIVE, A VIRGINIA ELECTRIC
COOPERATIVE AND NON-STOCK CORPORATION, Montgomery County
Tax Map Parcel No. 034187 and Being MVP Parcel No. VA-MO-075; 12.20
ACRES OF LAND, OWNED BY JUNE SMITH, RAY SMITH, PATRICIA S.
DEVECHA, STEPHEN R. SMITH, BARRY SCOTT SMITH, DOUGLAS F.
SMITH, DAVID L. SMITH, FRED APGAR, RUTH APGAR GLOCK,
GREGORY M. APGAR, AND ANG, a/k/a Raymond Foster Smith, a/k/a Fred I.
Apgar, a/k/a Frederick I. Apgar, Unknown Heirs or Assigns of the Following June
Smith, and Ray Smith, Montgomery Co. Tax Map Parcel No. 120001 and MVP
Parcel No. VA-MO-084; 3.15 ACRES OF LAND, OWNED BY DELWYN A.
DYER, TRUSTEE OF THE DYER FAMILY TRUST, AND DELWYN A.
DYER, TRUSTEE OF THE DYER LIVING TRUST, Montgomery County Tax
Map Parcel No. 005668 and Being MVP Parcel No. VA-MO-3369; 0.16 ACRES
OF LAND, OWNED BY LEONARD C. STEINER AND DEBORAH L.
STEINER, Montgomery County Tax Map Parcel No. 008906 and Being MVP
Parcel No. VA-MO-4259.001 (AR MN-272); 0.29 ACRES OF LAND, OWNED
BY DENNY R. SCOTT AND TAMMY K. SCOTT, Montgomery County Tax
Map Parcel No. 030035 and Being MVP Parcel No. VA-MO-4261 (AR MN-272);

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 73 of 113

0.71 ACRES OF LAND, OWNED BY ROANOKE VALLEY 4-WHEELERS
ASSOCIATION, Montgomery County Tax Map Parcel No. 031198 and Being
MVP Parcel No. VA-MO-4264 (AR-MN-276); 1.53 ACRES OF LAND, OWNED
BY ROANOKE VALLEY 4-WHEELERS ASSOCIATION, Montgomery County
Tax Map Parcel No. 016068 and Being MVP Parcel No. VA-MO-4265 (AR MN276); 1.04 ACRES OF LAND, OWNED BY HENRY S. KEULING-STOUT,
Montgomery County Tax Map Parcel No. 005370 and Being MVP Parcel No. VAMO-4266 (AR MN-276); 22.73 ACRES OF LAND, OWNED BY BLUE EAGLE
PARTNERSHIP, LLC, Montgomery County Tax Map Parcel No. 010352 and
Being MVP Parcel No. VA-MO-4314; 4.79 ACRES OF LAND, OWNED BY
SONABANK, Montgomery County Tax Map Parcel No. 013751 and Being MVP
Parcel No. VA-MO-4321; 0.04 ACRES OF LAND, OWNED BY JO MILLS
SOWERS, Montgomery County Tax Map Parcel No. 032744 and Being MVP
Parcel No. VA-MO-4424; 0.42 ACRES OF LAND, OWNED BY ANTHONY E.
HESS AND CARMELLA HESS, Montgomery County Tax Map Parcel No.
003368 and Being MVP Parcel No. VA-MO-5357; 0.28 ACRES OF LAND,
OWNED BY ELIJAH D. HOWARD, Montgomery County Tax Map Parcel No.
031305 and MVP Parcel No. VA-MO-5364; 0.37 ACRES OF LAND, OWNED
BY ELIJAH HOWARD AND KRISTIN HOWARD, Montgomery County Tax
Map Parcel No. 031305 and Being MVP Parcel No. VA-MO-5366; 0.11 ACRES
OF LAND, OWNED BY DELMER WAYNE HOWARD, Montgomery County
Tax Map Parcel No. 020405 and Being MVP Parcel No. VA-MO-5368; 0.24
ACRES OF LAND, OWNED BY TARTLE, LLC, Montgomery Count Tax Map
Parcel No. 002152 and Being MVP Parcel No. VA-MO-5369; 0.22 ACRES OF
LAND, OWNED BY HOLLY R. WIMMER-MCCLANAHAN AND ROBERT
C. MCCLANAHAN, Montgomery County Tax Map Parcel No. 003025 and Being
MVP Parcel No. VA-MO-5371; 0.40 ACRES OF LAND, OWNED BY
ROANOKE VALLEY RESOURCE AUTHORITY, Montgomery County Tax
Map Parcel No. 035144 and Being MVP Parcel No. VA-MO-5374; 0.01 ACRES
OF LAND, OWNED BY CORA LEE SMITH, RUBY J. SMITH, GENE E.
SMITH, GENA D. REED, BETHANY A. SMITH, AND JOHN ERIK SMITH,
Unknown Heirs of Assigns of the Following Cora Lee Smith and Ruby J. Smith,
Montgomery County Tax Map Parcel No. 017721 and Being MVP Parcel No. VAMO-5381; 3.35 ACRES OF LAND, OWNED BY THOMAS W. TRIPLETT
AND BONNIE B. TRIPLETT, Montgomery County Tac Map Parcel No. 024589
and Being MVP Parcel No. VA-MO-5514; 2.07 ACRES OF LAND, OWNED BY
PHYLLIS M. HUTTON, Montgomery County Tax Map Parcel No. 009443 and
Being MVP Parcel No. VA-MO-5515; 3.01 ACRES OF LAND, OWNED BY
PHYLLIS M. HUTTON, Montgomery County Tax Map Parcel No. 026945 and
Being MVP Parcel No. VA-MO-5516; 1.38 ACRES OF LAND, OWNED BY

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 74 of 113

MODE AND ARLEN JOHNSON AND PAMELA LOUISE FERRANTE,
Montgomery County Tax Map Parcel No. 001262 and Being MVP Parcel No. VAMO-5519; 3.87 ACRES OF LAND, OWNED BY MODE AND ARLEN
JOHNSON AND PAMELA LOUISE FERRANTE, Montgomery County Tax
Map Parcel No. 032870 and Being MVP Parcel No. VA-MO-5520; 1.30 ACRES
OF LAND, OWNED BY JOHN GARRET BAKER AND SUZANNE JANE
BAKER, Montgomery County Tax Map Parcel No. 019482 and Being MVP
Parcel No. VA-MO-5523; 6.86 ACRES OF LAND, OWNED BY JULIANA
BERNHOLZ AND IRINA BERNHOLZ SIEGRIST, Montgomery County Tax
Map Parcel No. 015895 and Being MVP Parcel No. VA-MO-5526; 9.66 ACRES
OF LAND, OWNED BY CHARLES BRUCE FUGATE, CURTIS DEAN
FUGATE, AND SHARON FUGATE LINKOUS, Montgomery County Tax Map
Parcel No. 006739 and Being MVP Parcel No. VA-MO-5528; 0.38 ACRES OF
LAND, OWNED BY JAMES C. LAW AND CAROLYN D. LAW, Montgomery
County Tax Map Parcel No. 002833 and Being MVP Parcel No. VA-MO-5626;
0.08 ACRES OF LAND, OWNED BY MELVIN L. LINKOUS AND SHARON
F. LINKOUS, Montgomery County Parcel No. 011191 and Being MVP Parcel No.
VA-MO-5758; 0.18 ACRES OF LAND, OWNED BY VALERIE E. GIBSON,
Montgomery County Tax Map Parcel No. 014919 and Being MVP Parcel No. VAMO-5788; 1.06 ACRES OF LAND, OWNED BY JOHN R. BAKER AND AMY
G. BAKER, Montgomery County Tax Map Parcel No. 230082 and Being MVP
Parcel No. VA-MO-5882; 0.01 ACRES OF LAND, OWNED BY ANTHONY
EDWARD HESS AND CARMELLA HESS, Montgomery County Tax Map
Parcel No. 003365 and Being MVP Parcel No. VA-MO-5885; 4.03 ACRES OF
LAND, OWNED BY MATTHEW D. ROLLIER AND DEANNA D.
ROBINSON, Roanoke County Tax Map Parcel No. 102.00-01-12.00-0000 and
Bring MVP Parcel No. BVRO-04; 0.47 ACRES OF LAND, OWNED BY BRUCE
M. COFFEY AND MARY E. COFFEY, Roanoke County Tax Map Parcel No.
102.00-01-13.00-0000 and Being MVP Parcel No. BVRO-05; 0.08 ACRES OF
LAND, OWNED BY JENNIFER L. FRALEY, Roanoke County Tax Map Parcel
No. 117.00-01-39.00-0000 and Being MVP Parcel No. BVRO-11; 0.11 ACRES
OF LAND, OWNED BY JUNE SMITH, RAY SMITH, PATRICIA S.
DEVECHA, STEPHEN R. SMITH, BARRY SCOTT SMITH, DOUGLAS F.
SMITH, DAVID L. SMITH, FRED APGAR, RUTH APGAR GLOCK,
DONALD APGAR, GREGORY M. A, a/k/a Raymond Foster Smith, a/k/a Fred I.
Apgar, a/k/a Frederick Apgar, a/k/a Gregory M. Apgar, a/k/a Angela H. Apgar,
Unknown Heirs and Assigns of the Following June Smith, and Ray Smith,
Roanoke Co. Tax Map Parcel No. 063.00-01-25.00-0000 and Being MVP Parcel
No. VA-RO-033; 22.47 ACRES OF LAND, OWNED BY JAMES LOUIS
MAXWELL, III, ELIZABETH MARSHALL MAXWELL YARBORO,

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 75 of 113

CHARLOTTE RUTH MAXWELL WEAVER, AND MARY ANN MAXWELL,
Roanoke County Tax Map Parcel No. 082.00-01-41.00-0000 and Being MVP
Parcel No. VA-RO-037; 23.74 ACRES OF LAND, OWNED BY MARK W.
CRONK, ALISON G. CRONK AND THE NATURE CONSERVANCY,
Roanoke County Tax Map Parcel No. 093.00-01-44.00-0000 and Being MVP
Parcel No. VA-RO-038; 1.89 ACRES OF LAND, OWNED BY TRUSTEES OF
EVANGEL FOURSQUARE CHURCH, Roanoke County Tax Map Parcel No.
093.00-01-47.00-0000 and Being MVP Parcel No. VA-RO-039; 0.68 ACRES OF
LAND, OWNED BY MICHAEL THOMAS SCOTT, Roanoke County Tax Map
Parcel No. 102.00-01-05.00-0000 and Being MVP Parcel No. VA-RO-044; 13.47
ACRES OF LAND, OWNED BY JOHN COLES TERRY, III, Roanoke County
Tax Map Parcel No. 102.00-01-08.00-0000 and Being MVP Parcel No. VA-RO045; 8.37 ACRES OF LAND, OWNED BY FRANK H. TERRY, JR., JOHN
COLES TERRY, III, AND ELIZABETH LEE TERRY, a/k/a Elizabeth Lee
Reynolds, Roanoke County Tax Map Parcel No. 102.00-01-02.00-0000 and Being
MVP Parcel No. VA-RO-046; 1.40 ACRES OF LAND, OWNED BY MARY
ELLEN RIVES, Roanoke County Tax Map Parcel No. 103.00-02-43.00-0000 and
Being MVP Parcel No. VA-RO-051; 1.85 ACRES OF LAND, OWNED BY
JACQULINE J. LUCKI, Roanoke County Tax Map Parcel No. 102.00-01-14.000000 and Being MVP Parcel No. VA-RO-052; 9.89 ACRES OF LAND, OWNED
BY ELIZABETH LEE TERRY, a/k/a Elizabeth Lee Reynolds, Roanoke County
Tax Map Parcel No. 110.00-01-44.00-0000 and Being MVP Parcel No. VA-RO054; 4.72 ACRES OF LAND, OWNED BY FRED W. VEST, Roanoke County
Tax Map Parcel No. 110.00-01-56.00-0000 and Being MVP Parcel No. VA-RO056; 2.93 ACRES OF LAND, OWNED BY LOIS KING WALDRON AND LOIS
MABEL WALDRON MARTIN, Roanoke County Tax Map Parcel No. 110.00-0150.00-0000 and Being MVP Parcel No. VA-RO-057; 2.07 ACRES OF LAND,
OWNED BY JOHN D. FULTON, JR. AND JANICE VANNESS BROKA,
Roanoke County Tax Map Parcel No. 110.00-01-55.00-0000 and Bring MVP
Parcel No. VA-RO-059; 2.05 ACRES OF LAND, OWNED BY HOWARD M.
THOMPSON AND CHRISTINE W. THOMPSON, Roanoke County Tax Map
Parcel No. 118.00-01-09.00-0000 and Being MVP Parcel No. VA-RO-068; 0.94
ACRES OF LAND, OWNED BY MARTIN G. MORRISON AND PATRICIA A.
BOYD, Roanoke County Tax Map Parcel No. 063.00-01-20.00-0000 and Being
MVP Parcel No. VA-RO-4115; 2.20 ACRES OF LAND, OWNED BY HILAH
PARKS TERRY, FRANK H. TERRY, JR., ELIZABETH LEE TERRY, JOHN
COLES TERRY III, GRACE MINOR TERRY, Unknown Heirs or Assigns of
Frank H. Terry, Sr., Roanoke County Tax Map Parcel No. 103.00-02-01.00-0000
and Being MVP Parcel No. VA-RO-4118 (AR RO-283); 0.93 ACRES OF LAND,
OWNED BY ALEXANDER B. PHILLIPS AND EMILY M. PHILLIPS, Roanoke

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 76 of 113

County Tax Map Parcel No. 111.00-01-62.00-0000 and Being MVP Parcel No.
VA-RO-4123 (AR RO-287); 0.28 ACRES OF LAND, OWNED BY JACQULINE
J. LUCKI, Roanoke County Tax Map Parcel No. 102.00-01-13.01-0000 and Being
MVP Parcel No. VA-RO-50; 0.32 ACRES OF LAND, OWNED BY GRACE
MINOR TERRY, Roanoke County Tax Map Parcel No. 102.00-01-01.02-0000
and Being MVP Parcel No. VA-RO-5149 (AR RO-279.01); 0.35 ACRES OF
LAND, OWNED BY KERMIT C. CROWE AND ALVA T. CROWE, Roanoke
County Tax Map Parcel No. 111.00-01-56.02-0000 and Being MVP Parcel No.
VA-RO-5216 (AR RO-287); 0.36 ACRES OF LAND, OWNED BY BETTY E.
MCCOY, AND EDWARD CONNER, f/k/a Betty Eloise Conner, f/k/a Betty T.
Conner, Roanoke County Tax Map Parcel No. 111.00-01-56.03-0000 and Being
MVP Parcel No. VA-RO-5217 (AR RO-287); 0.05 ACRES OF LAND, OWNED
BY TEDDY D. CROWE AND SUSAN F. CROWE, Roanoke County Tax Map
Parcel No. 111.00-01-56.05-0000 and Being MVP Parcel No. VA-RO-5218 (AR
RO-287); 0.03 ACRES OF LAND, OWNED BY GEORGE ROBERT
FERGUSON AND DANA MICHELLE FERGUSON, Roanoke County Tax Map
Parcel No. 111.00-01-56.00-0000 and Being MVP Parcel No. VA-RO-5221 (AR
RO-287); 0.34 ACRES OF LAND, OWNED BY ROBIN B. AUSTIN AND
ALLEN R. AUSTIN, Roanoke County Tax Map Parcel No. 110.00-01-45.00-0000
and Being MVP Parcel No. VA-RO-5222 (AR RO-285); 0.06 ACRES OF LAND,
OWNED BY MICHAEL L. LESTER AND TERESA A. LESTER, Roanoke
County Tax Map Parcel No. 111.00-01-61.02.0000 and Being MVP Parcel No.
VA-RO-5223 (AR RO-287); 0.04 ACRES OF LAND, OWNED BY MICHELLE
R. LESTER, Roanoke County Tax Map Parcel No. 111.00-01-61.03-0000 and
Being MVP Parcel No. VA-RO-5224 (AR RO-287); 0.50 ACRES OF LAND,
OWNED BY RANDALL KEITH EPPERLY AND JOANN ALICE EPPERLY,
Roanoke County Tax Map Parcel No. 082.00-01-17.00-0000 and Being MVP
Parcel No. VA-RO-5225 (AR MN-278.01); 0.64 ACRES OF LAND, OWNED
BY DONALD EVERETT MELTON, a/k/a Don E. Melton, Roanoke County Tax
Map Parcel No. 082.00-01-16.00-0000 and Being MVP Parcel No. VA-RO-5226
(AR MN-278.01); 0.09 ACRES OF LAND, OWNED BY DONALD EVERETT
MELTON, Roanoke County Tax Map Parcel No. 082.00-01-15.00-0000 and
Being MVP Parcel No. VA-RO-5227 (AR MN-278.01); 0.33 ACRES OF LAND,
OWNED BY ELIZABETH LEE TERRY, a/k/a Elizabeth Lee Reynolds, Roanoke
County Tax Map Parcel No. 093.00-01-46.00-0000 and Being MVP Parcel No.
VA-RO-5228 (ATWS-1224); 0.01 ACRES OF LAND, OWNED BY LONNIE L.
LESTER AND JUDITH P. LESTER, Roanoke County Tax Map Parcel No.
111.00-01-61.01-0000 and Being MVP Parcel No. VA-RO-5229 (AR RO-287);
0.02 ACRES OF LAND, OWNED BY BD INVESTMENTS OF ROANOKE,
LLC, Roanoke County Tax Map Parcel No. 111.00-01-63.00-0000 Being MVP

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 77 of 113

Parcel No. VA-RO-5231 (AR RO-287); 0.31 ACRES OF LAND, OWNED BY
REBECCA JANE DAMERON, Roanoke County Tax Map Parcel No. 111.00-0161.00-0000 and Being MVP Parcel No. VA-RO-5383; 0.01 ACRES OF LAND,
OWNED BY JEREMY JOSEPH RICE AND MICHELLE RENEE RICE,
Roanoke County Tax Map Parcel No. 111.00-01-58.00-0000 and Being MVP
Parcel No. VA-RO-5627; 0.15 ACRES OF LAND, OWNED BY FRANK W.
HALE AND FLOSSIE I. HALE AND ROBERT MATTHEW HAMM AND
AIMEE CHASE HAMM, Roanoke County Tax Map Parcel No. 110.00-01-56.010000 and Being MVP Parcel No. VA-RO-5748; 0.09 ACRES OF LAND,
OWNED BY LARRY BERNARD CUNNINGHAM AND CAROLYN A.
CUNNINGAM, Roanoke County Tax Map Parcel No. 063.00-01-20.03-0000 and
Being MVP Parcel No. VA-RO-5781; 0.25 ACRES OF LAND, OWNED BY
CHELSEA CAMPER, Roanoke County Tax Map Parcel No. 063.00-01-20.040000 and Being MVP Parcel No. VA-RO-5782; 0.21 ACRES OF LAND,
OWNED BY WILLIAM J. CORRELL, SR. AND NADINE E. CORRELL,
Roanoke County Tax Map Parcel No. 063.00-01-20.02-0000 and Being MVP
Parcel No. VA-RO-5783; 0.11 ACRES OF LAND, OWNED BY WILLIAM J.
CORRELL, SR. AND NADINE E. CORRELL, Roanoke County Tax Map Parcel
No. 063.00-01-20.01-0000 and Being MVP Parcel No. VA-RO-5784; 0.26
ACRES OF LAND, OWNED BY LARRY BERNARD CUNNINGHAM AND
CAROLYN A. CUNNINGHAM, Roanoke County Tax Map Parcel No. 063.0001-21.00-0000 and Being MVP Parcel No. VA-RO-5785; 1.53 ACRES OF
LAND, OWNED BY STEPHEN W. BERNARD AND ANNE W. BERNARD,
Franklin County Tax Map Parcel No. 0370001901 and Being MVP Parcel No.
BVA-FR-13; 0.16 ACRES OF LAND, OWNED BY PAUL L. WILSON AND
PEGGY M. WILSON, Franklin County Tax Map Parcel No. 04300-05005 and
Being MVP Parcel No. BVR-24; 5.38 ACRES OF LAND, OWNED BY LUCY A.
PRICE, Franklin County Tax Map Parcel No. 0240003400 and Being MVP Parcel
No. VA-FR-008; 5.73 ACRES OF LAND, OWNED BY SHIRLEY BOWMAN
JAMISON, Franklin County Tax Map Parcel No. 0240004400 and Being MVP
Parcel No. VA-FR-009; 3.11 ACRES OF LAND, OWNED BY RUSSELL E.
CALLAWAY AND HEIDE K. CALLAWAY, Franklin County Tax Map Parcel
No. 0240005400 and Being MVP Parcel No. VA-FR-015.02; 1.38 ACRES OF
LAND, OWNED BY ALVIN E. WRAY, LINDA L. WRAY, L. BENTON
WRAY, JR., AND DIANE S. WRAY, Franklin County Tax Map Parcel No.
250002100 and being MVP Parcel No. VA-FR-017; 11.45 ACRES OF LAND,
OWNED BYL. BENTON WRAY, JR., DIANE S. WRAY, ALVIN E. WRAY,
AND LINDA L. WRAY, Franklin County Tax Map Parcel No. 0250002200 and
being MVP Parcel No. VA-FR-017.02; 1.28 ACRES OF LAND, OWNED BY
ALAN R. HARTMAN, Franklin County Tax Map Parcel No. 0250002500 and

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 78 of 113

being MVP Parcel No. VA-FR-017.04; 3.86 ACRES OF LAND, OWNED
BYJESSE ALBERT WEBSTER, Franklin County Tax Map Parcel No.
0250002800 and being MVP Parcel No. VA-FR-017.06; 1.77 ACRES OF LAND,
OWNED BYJESSE ALBERT WEBSTER, Franklin County Tax Map Parcel No.
0250002400 and being MVP Parcel No. VA-FR-017.07; 2.23 ACRES OF LAND,
OWNED BY MARTHA A. MCDEARMON, Franklin County Tax Map Parcel
No. 0250003801and being MVP Parcel No. VA-FR-017.10; 0.70 ACRES OF
LAND, OWNED BY RICHARD H. MCDEARMON, JR. AND ELLEN C.
WALTON, Franklin County Tax Map Parcel No. 0380000201D and being MVP
Parcel No. VA-FR-017.12; 0.83 ACRES OF LAND, OWNED BY RICHARD H.
MCDEARMON, JR. AND ELLEN C. WALTON, Franklin County Tax Map
Parcel No. 0380000201B and being MVP Parcel No. VA-FR-017.13; 0.49 ACRES
OF LAND, OWNED BY J. CLARK JAMISON, JR., SHIRLEY BOWMAN
JAMISON, AND MARIE KATHERINE FLORA JAMISON GOGGIN, Franklin
County Tax Map Parcel No. 0380001300 and being MVP Parcel No. VA-FR017.16; 0.55 ACRES OF LAND, OWNED BY J. CLARK JAMISON, JR.,
SHIRLEY BOWMAN JAMISON, AND MARIE KATHERINE FLORA
JAMISON GOGGIN, Franklin County Tax Map Parcel No. 0380005100 and
being MVP Parcel No. VA-FR-017.19; 5.93 ACRES OF LAND, OWNED BY
CHARLES FREDERICK FLORA AND STEPHANIE M. FLORA, Franklin
County Tax Map Parcel No. 0380002002 and being MVP Parcel No. VA-FR017.20; 5.88 ACRES OF LAND, OWNED BY WENDELL WRAY FLORA AND
MARY MCNEIL FLORA, Franklin County Tax Map Parcel No. 0380002000 and
being MVP Parcel No. VA-FR-017.21; 0.04 ACRES OF LAND, OWNED BY
GLENN C. FRITH AND LINDA K. FRITH, TRUSTEES OF THE FRITH
LIVING TRUST, Franklin County Tax Map Parcel No. 0380001900 and being
MVP Parcel No. VA-FR-017.24; 3.70 ACRES OF LAND, OWNED BY
MICHAEL S. HURT AND MARY FRANCES K. HURT, Franklin County Tax
Map Parcel No. 0380002204 and being MVP Parcel No. VA-FR-017.25; 2.02
ACRES OF LAND, OWNED BY GLENN C. FRITH AND LINDA K. FRITH,
TRUSTEES OF THE FRITH LIVING TRUST, Franklin County Tax Map Parcel
No. 0380002500 and being MVP Parcel No. VA-FR-017.26; 0.25 ACRES OF
LAND, OWNED BY HEATHERWOOD PROPERTIES, INC, Franklin County
Tax Map Parcel No. 0370010900 and being MVP Parcel No. VA-FR-017.40,; 0.23
ACRES OF LAND, OWNED BY RAYMOND THOMAS WORRELL AND
LINDA D. WORRELL, Franklin County Tax Map Parcel No. 0370001510 and
being MVP Parcel No. VA-FR-017.42; 1.97 ACRES OF LAND, OWNED BY
KEITH M. WILSON AND MARY K. WILSON, Franklin County Tax Map Parcel
No. 0370009906 and being MVP Parcel No. VA-FR-017.44; 1.74 ACRES OF
LAND, OWNED BY DEREK T. HANES AND MARION C. HANES, Franklin

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 79 of 113

County Tax Map Parcel No. 0370009305 A and being MVP Parcel No. VA-FR047; 4.35 ACRES OF LAND, OWNED BY LYNN R. FLORA AND CYNTHIA
D. FLORA, Franklin County Tax Map Parcel No. 0370009301 and being MVP
Parcel No. VA-FR-049; 2.84 ACRES OF LAND, OWNED BY LYNN RAY
FLORA, Franklin County Tax Map Parcel No. 0370008500 and being MVP Parcel
No. VA-FR-050; 8.97 ACRES OF LAND, OWNED BY ROBERT G.
IKENBERRY, Franklin County Tax Map Parcel No. 0370017700 and being MVP
Parcel No. VA-FR-053; 0.06 ACRES OF LAND, OWNED BY ORREN
RICHARD ANDERSON AND GENEVA BELL ANDERSON, Franklin County
Tax Map Parcel No. 0370018101 and being MVP Parcel No. VA-FR-054.002;
0.66 ACRES OF LAND, OWNED BY COUNTY OF FRANKLIN, Franklin
County Tax Map Parcel No. 0370005400 and being MVP Parcel No. VA-FR-063;
5.16 ACRES OF LAND, OWNED BY THE COUNTY OF FRANKLIN, Franklin
County Tax Map Parcel No. 0370005300 and being MVP Parcel No. VA-FR-064;
6.24 ACRES OF LAND, OWNED BY C. GALEN FISHER, GALEN TODD
FISHER, AND RYAN GALEN FISHER, Franklin County Tax Map Parcel No.
0430004900 and being MVP Parcel No. VA-FR-068; 0.87 ACRES OF LAND,
OWNED BY BOBBY I. JONES AND RICHARD WAYNE JONES
REVOCABLE TRUST, RICHARD WAYNE JONES, TRUSTEE, Franklin
County Tax Map Parcel No. 0430105200 and being MVP Parcel No. VA-FR070.01; 1.60 ACRES OF LAND, OWNED BY SANDRA H. LANCASTER,
Franklin County Tax Map Parcel No. 0430105000 and being MVP Parcel No. VAFR-073; 8.21 ACRES OF LAND, OWNED BY LONGVIEW HOLSTEINS,
INC., Franklin County Tax Map Parcel No. 0430021500 and being MVP Parcel
No. VA-FR-075; 3.70 ACRES OF LAND, OWNED BY DAVID J. WERNER,
BETTY B. WERNER, IAN ELLIOTT REILLY, AND CAROLYN ELIZABETH
REILLY, Franklin County Tax Map Parcel No. 0440004300 and being MVP
Parcel No. VA-FR-076.01; 1.72 ACRES OF LAND, OWNED BY GUY W.
BUFORD AND MARGARET S. BUFORD, Franklin County Tax Map Parcel No.
0440004400 and being MVP Parcel No. VA-FR-077; 0.07 ACRES OF LAND,
OWNED BY DALE E. ANGLE AND MARY A. ANGLE, TRUSTEES OF THE
DALE E. ANGLE AND MARY A. ANGLE JOINT REVOCABLE TRUST,
Franklin County Tax Map Parcel No. 0440006400 and being MVP Parcel No. VAFR-077.01; 2.14 ACRES OF LAND, OWNED BY DALE E. ANGLE AND
MARY A. ANGLE, TRUSTEES UNDER THE DALE E. AND MARY A.
ANGLE JOINT REVOCABLE TRUST, Franklin County Tax Map Parcel No.
0440006501 and being MVP Parcel No. VA-FR-078; 8.21 ACRES OF LAND,
OWNED BY DALE E. ANGLE AND MARY A. ANGLE, TRUSTEES OF THE
DALE E. ANGLE AND MARY A. ANGLE JOINT REVOCABLE TRUST,
Franklin County Tax Map Parcel No. 0440006500 and being MVP Parcel No. VA-

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 80 of 113

FR-079; 11.86 ACRES OF LAND, OWNED BY DONALD B. BARNHART,
Franklin County Tax Map Parcel No. 0440007300 and being MVP Parcel No. VAFR-081; 0.292 ACRES OF LAND, OWNED BY GAIL DUDLEY SMITHERS
AND GINGER K. SMITHERS, Franklin County Tax Map Parcel No. 0450008100
and being MVP Parcel No. VA-FR-113; 8.56 ACRES OF LAND, OWNED BY
GAIL DUDLEY SMITHERS AND GINGER K. SMITHERS, Franklin County
Tax Map Parcel No. 0450000902 and being MVP Parcel No. VA-FR-114; 8.37
ACRES OF LAND, OWNED BY RICHARD LYNCH, TRUSTEE OF THE
CATHERINE R. BECKNER IRREVOCABLE TRUST, Franklin County Tax
Map Parcel No. 0450008000 and being MVP Parcel No. VA-FR-115; 8.60
ACRES OF LAND, OWNED BY GAIL DUDLEY SMITHERS, Franklin County
Tax Map Parcel No. 0450001600 and being MVP Parcel No. VA-FR-117; 3.92
ACRES OF LAND, OWNED BY GAIL DUDLEY SMITHERS AND GINGER
K. SMITHERS, Franklin County Tax Map Parcel No. 0450006800 and being
MVP Parcel No. VA-FR-119; 1.17 ACRES OF LAND, OWNED BY RONDA
DIANE ROOPE OSBORNE AND MICHAEL WAYNE ROOPE, Franklin
County Tax Map Parcel No. 0450003300 and being MVP Parcel No. VA-FR-125;
10.21 ACRES OF LAND, OWNED BY WILLIAM DAVID BOARD, JAMES R.
BOARD, SUSAN BOARD MYERS, NANCY B. FLORA, AND KENNETH
CRAIG BOARD, Franklin County Tax Map Parcel No. 0450006100 and being
MVP Parcel No. VA-FR-128; 5.56 ACRES OF LAND, OWNED BY FRANKLIN
REAL ESTATE COMPANY, Franklin County Tax Map Parcel No. 0530012101
and being MVP Parcel No. VA-FR-148; 4.82 ACRES OF LAND, OWNED BY
FRANKLIN REAL ESTATE COMPANY, Franklin County Tax Map Parcel No.
0530012600 and being MVP Parcel No. VA-FR-151; 0.30 ACRES OF LAND,
OWNED BY ROBERT ALAN PEGRAM, Franklin County Tax Map Parcel No.
0650401600 and being MVP Parcel No. VA-FR-155.01; 0.03 ACRES OF LAND,
OWNED BY MICHAEL A. DEEMS AND ELIZABETH A. DEEMS, Franklin
County Tax Map Parcel No. 06504-02500 and being MVP Parcel No. VA-FR155.02; 0.63 ACRES OF LAND, OWNED BY MICHAEL A. DEEMS AND
ELIZABETH A. DEEMS, Franklin County Tax Map Parcel No. 06504-02600 and
being MVP Parcel No. VA-FR-156; 6.74 ACRES OF LAND, OWNED BY
EDWARDS PROPERTIES, LTD, Franklin County Tax Map Parcel No.
0660004300 and being MVP Parcel No. VA-FR-170; 0.94 ACRES OF LAND,
OWNED BY UNKNOWN HEIRS OR ASSIGNS OF ANDREW L.
POINDEXTER AND ANDREW POINDEXTER, Franklin County Tax Map
Parcel No. 0660010500 and being MVP Parcel No. VA-FR-174; 2.66 ACRES OF
LAND, OWNED BY CHRISTOPHER ERIC LAMBERT AND JODI E.
LAMBERT, Franklin County Tax Map Parcel No. 0660010600 and being MVP
Parcel No. VA-FR-175; 1.23 ACRES OF LAND, OWNED BY SHARON E.

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 81 of 113

LAMBERT, Franklin County Tax Map Parcel No. 0660010602 and being MVP
Parcel No. VA-FR-176; 0.36 ACRES OF LAND, OWNED BY JOSEPH E.
LAMBERT AND MARY I. LAMBERT, Franklin County Tax Map Parcel No.
0660010601 and being MVP Parcel No. VA-FR-177; 3.05 ACRES OF LAND,
OWNED BY ANN C. CLEMENTS AND MARY ARRINGTON CLEMENTS,
Franklin County Tax Map Parcel No. 0660011000 and being MVP Parcel No. VAFR-179; 1.57 ACRES OF LAND, OWNED BY ROBERT B. WORKMAN, III
AND JOAN M. WORKMAN, Franklin County Tax Map Parcel No. 0680007000
and being MVP Parcel No. VA-FR-196.02; 1.85 ACRES OF LAND, OWNED
BY OYLER LAND AND LEASING, LLC, Franklin County Tax Map Parcel No.
0240004000 and being MVP Parcel No. VA-FR-4126 (AR FR-291); 0.65 ACRES
OF LAND, OWNED BY MICHAEL S. HURT AND MARY FRANCES K.
HURT, Franklin County Tax Map Parcel No. 0380002204A and being MVP
Parcel No. VA-FR-4130 (AR FR-294); 0.01 ACRES OF LAND, OWNED BY
JAMES WALTER WRAY, Franklin County Tax Map Parcel No. 0440006701and
being MVP Parcel No. VA-FR-4138.001 (AR FR-305); 0.83 ACRES OF LAND,
OWNED BY SUSAN BOARD MYERS, WILLIAM DAVID BOARD,
KENNETH CRAIG BOARD, AND NANCY BOARD FLORA, a/k/a William D.
Board, Franklin County Tax Map Parcel No. 0450012003and being MVP Parcel
No. VA-FR-4141 (AR FR-313); 0.01 ACRES OF LAND, OWNED BY JOSEPH
B. PHELPS AND ALESHIA V. PHELPS, Franklin County Tax Map Parcel No.
0530200100and being MVP Parcel No. VA-FR-4143 (AR FR-315); 0.52 ACRES
OF LAND, OWNED BY PREDELMA O'NEAL HALL, Franklin County Tax
Map Parcel No. 0660004400 and being MVP Parcel No. VA-FR-4144 (AR FR320); 0.14 ACRES OF LAND, OWNED BY PENHOOK UNITED METHODIST
CHURCH, Franklin County Tax Map Parcel No. 0660012101 and being MVP
Parcel No. VA-FR-4146 (AR FR-323); 0.01 ACRES OF LAND, OWNED BY
RONDA DIANE ROOPE OSBORNE, Franklin County Tax Map Parcel No.
0450003200 and being MVP Parcel No. VA-FR-4276; 0.56 ACRES OF LAND,
OWNED BY OWNED BY WILLIAM D. BOARD, Franklin County Tax Map
Parcel No. 0450012005 and being MVP Parcel No. VA-FR-4277 (AR FR-313);
0.97 ACRES OF LAND, OWNED BY WILLIAM DAVID BOARD, KENNETH
CRAIG BOARD, SUSAN B. MYERS, NANCY B. FLORA, AND JAMES R.
BOARD, Franklin County Tax Map Parcel No. 0450012001 and being MVP
Parcel No. VA-FR-4278 (AR FR-313); 0.32 ACRES OF LAND, OWNED BY
GAIL DUDLEY SMITHERS, Franklin County Tax Map Parcel No. 0450001500
and being MVP Parcel No. VA-FR-5151 (ATWS-1266); 0.34 ACRES OF LAND,
OWNED BY NANCY LORRAINE BRITTON AND KENITH DWAIN
BRITTON, SR., TRUSTEES OF THE NANCY LORRAINE BRITTON AND
KENITH DWAIN BRITTON, SR. LIVING TRU, Franklin County Tax Map

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 82 of 113

Parcel No. 0450006402 and being MVP Parcel No. VA-FR-5388; 1.66 ACRES
OF LAND, OWNED BY BRIAN H. KINSEY, GEORGE D. KINSEY, JR., AND
STEVEN D. KINSEY, Franklin County Tax Map Parcel No. 0380003402E and
being MVP Parcel No. VA-FR-5392; 0.09 ACRES OF LAND, OWNED BY
TIMOTHY J. LAWLESS AND MEGAN K. LAWLESS, Franklin County Tax
Map Parcel No. 0370009905A and being MVP Parcel No. VA-FR-5410; 0.12
ACRES OF LAND, OWNED BY ANGELA L. MCGHEE AND FREDRICK C.
MCGHEE, Franklin County Tax Map Parcel No. 0370009905 and being MVP
Parcel No. VA-FR-5411; 0.07 ACRES OF LAND, OWNED BY RUSSELL W.
LAWLESS, Franklin County Tax Map Parcel No. 0370009907 and being MVP
Parcel No. VA-FR-5413; 0.15 ACRES OF LAND, OWNED BY RUSSELL R.
BARKSDALE, JR., Franklin County Tax Map Parcel No. 0370009904and being
MVP Parcel No. VA-FR-5415; 0.02 ACRES OF LAND, OWNED BY DIANA M.
PERKINSON, Franklin County Tax Map Parcel No. 0370009600 and being MVP
Parcel No. VA-FR-5416; 0.16 ACRES OF LAND, OWNED BY CHRISTINE
JEANNETTE DAVIS, Franklin County Tax Map Parcel No. 0370009902 and
being MVP Parcel No. VA-FR-5417; 0.09 ACRES OF LAND, OWNED BY
ANDREW P. BUCKMAN AND SHARON H. BUCKMAN, Franklin County Tax
Map Parcel No. 0370009911 and being MVP Parcel No. VA-FR-5418; 0.02
ACRES OF LAND, OWNED BY JOHN L. BARBAZON AND LAURA S.
BARBAZON, Franklin County Tax Map Parcel No. 0370009901 and being MVP
Parcel No. VA-FR-5419; 0.27 ACRES OF LAND, OWNED BY LEE A. FLORA,
LYNN R. FLORA, AND PAMELA FLORA SWEENEY, Franklin County Tax
Map Parcel No. 0370009913 and being MVP Parcel No. VA-FR-5420; 0.15
ACRES OF LAND, OWNED BY FRANK H. BISCARDI AND JACQUELINE S.
BISCARDI, Franklin County Tax Map Parcel No. 0370009900 and being MVP
Parcel No. VA-FR-5421; 0.04 ACRES OF LAND, OWNED BY RONALD B.
EDWARDS, SR., GLORIA MARTIN, TERRANCE EDWARDS, LINDA
WHITE, RUBY PENN, JANIS E. WALLER, CRYSTAL DIANE EDWARDS,
AND PENNY EDWARDS BLUE, Franklin County Tax Map Parcel No.
0660009502 and being MVP Parcel No. VA-FR-5434; 0.04 ACRES OF LAND,
OWNED BY CRYSTAL DIANE EDWARDS, Franklin County Tax Map Parcel
No. 0660009602 and being MVP Parcel No. VA-FR-5437; 0.88 ACRES OF
LAND, OWNED BY DANIEL PAYNE WRIGHT AND DONALD WAYNE
WRIGHT, Franklin County Tax Map Parcel No. 0660007700 and being MVP
Parcel No. VA-FR-5441; 4.14 ACRES OF LAND, OWNED BY MARK E.
DANIEL AND ANGELA D. DANIEL, Franklin County Tax Map Parcel No.
0440011600 and being MVP Parcel No. VA-FR-5476; 1.71 ACRES OF LAND,
OWNED BY LYDIA LAVERNE BROWN, Franklin County Tax Map Parcel No.
0440015700 and being MVP Parcel No. VA-FR-5483; 2.02 ACRES OF LAND,

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 83 of 113

OWNED BY PAUL F. CRAWFORD, Franklin County Tax Map Parcel No.
0440016301 and being MVP Parcel No. VA-FR-5488; 1.49 ACRES OF LAND,
OWNED BY UNKNOWN SUCCESSOR TRUSTEE OF THE LACY F.
DUDLEY DECLARATION OF REVOCABLE TRUST AND ROSE MARIE
DUDLEY, Franklin County Tax Map Parcel No. 0440200500 and being MVP
Parcel No. VA-FR-5490; 0.44 ACRES OF LAND, OWNED BY SHELBY A.
LAW, Franklin County Tax Map Parcel No. 0440200400 and being MVP Parcel
No. VA-FR-5492; 3.15 ACRES OF LAND, OWNED BY ROBERT WAYNE
MORGAN AND PATRICIA ANN MORGAN, Franklin County Tax Map Parcel
No. 0440018700 and being MVP Parcel No. VA-FR-5493; 0.01 ACRES OF
LAND, OWNED BY ROY A. STEVENS, Franklin County Tax Map Parcel No.
0440018800 and being MVP Parcel No. VA-FR-5496; 0.14 ACRES OF LAND,
OWNED BY ANTHONY B. NOVITZKI, Franklin County Tax Map Parcel No.
0440206600 and being MVP Parcel No. VA-FR-5500; 5.51 ACRES OF LAND,
OWNED BY MARK A. DIVERS AND MARIE P. DIVERS, Franklin County
Tax Map Parcel No. 0440019801A and being MVP Parcel No. VA-FR-5501; 0.02
ACRES OF LAND, OWNED BY DANIEL G. MYERS AND DEBORAH L.
MYERS, Franklin County Tax Map Parcel No. 0440019801 and being MVP
Parcel No. VA-FR-5502; 3.11 ACRES OF LAND, OWNED BY JAMES
GLYNWOOD HAYNES, JR., Franklin County Tax Map Parcel No. 0440020001
and being MVP Parcel No. VA-FR-5504; 0.95 ACRES OF LAND, OWNED BY
JAMES GLYNWOOD HAYNES, JR., Franklin County Tax Map Parcel No.
0440019500 and being MVP Parcel No. VA-FR-5505; 0.38 ACRES OF LAND,
OWNED BY JAMES GLYNWOOD HAYNES, JR., Franklin County Tax Map
Parcel No. 0440019300 and being MVP Parcel No. VA-FR-5507; 3.76 ACRES
OF LAND, OWNED BY CATHERINE BECKNER KINGERY, Franklin County
Tax Map Parcel No. 0440020401 and being MVP Parcel No. VA-FR-5508; 0.07
ACRES OF LAND, OWNED BY MICHAEL S. LAMBERT AND KELLY O.
LAMBERT, Franklin County Tax Map Parcel No. 0660010200 and being MVP
Parcel No. VA-FR-5745; 0.10 ACRES OF LAND, OWNED BY UNKNOWN
HEIRS OR ASSIGNS OF ANDREW L. POINDEXTER AND ANDREW
POINDEXTER, Franklin County Tax Map Parcel No. 0660010300 and being
MVP Parcel No. VA-FR-5746; 0.08 ACRES OF LAND, OWNED BY
CHRISTOPHER E. LAMBERT AND JODI E. LAMBERT, Franklin County Tax
Map Parcel No. 0660010400 and being MVP Parcel No. VA-FR-5747; 0.04
ACRES OF LAND, OWNED BY BRUCE M. WOOD AND JENNIFER M.
WOOD, Franklin County Tax Map Parcel No. 0440200600 and being MVP Parcel
No. VA-FR-5791; 0.16 ACRES OF LAND, OWNED BY LEALDA T. ANGLE,
Franklin County Tax Map Parcel No. 0440020300 and being MVP Parcel No. VAFR-5892; 7.34 ACRES OF LAND, OWNED BY LEWIS O CLEMENTS,SR,

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 84 of 113

ANTHONY GRAY,KATHY POINDEXTER, LEAN C ROBERTSON, NADINE
B PERKINS, ANTHONY BROWN, HENRY ISAIAH NEWBILL, MARVIN
NEWBILL,LAVERNE N DAVIS, ALICE N DAVIS,THOMAS DOUGLAS
CLEMENTS, JR., HENRY LOUIS CLEMENTS, DWIGHT CLEMENTS,
NATHAN CLEMENTS, DOROTHY C TURNER, CHARLOTTE C DAY,
LAURA CLEMENTS, CLARA CLEMENTS, AND ELAINE HUBBARD
UNKNOWN HEIRS OR ASSIGNS OF THOMAS D CLEMENTS,SR,TORI C
GRAY, REBECCA CLEMENTS, NORA CLEMENTS, a/k/a Thomas Clement,
a/k/a Helen Glass, Pittsylvania Co TaxNo1489-09-2901;MVPNo VA-PI-026; 1.13
ACRES OF LAND,OWNED BY LEWIS O CLEMENTS, SR, ANTHONY
GRAY,KATHY POINDEXTER, LEAN C ROBERTSON, NADINE B
PERKINS,ANTHONY BROWN, HENRY ISAIAH NEWBILL, MARVIN
NEWBILL, LAVERNE N DAVIS, ALICE N DAVIS,THOMAS DOUGLAS
CLEMENTS,JR, HENRY LOUIS CLEMENTS, DW, a/k/a The Heirs or Assigns
of Thomas Clements, a/k/a Thomas Clement, a/k/a Helen Glass, a/k/a Unknown
Heirs and Assigns of Rebecca Clements, a/k/a Unknown Heirs and Assigns of
Nora Clements, Pittsylvania Co Tax No 1580-00-0360; MVPNoVA-PI-026.01;
1.12 ACRES OF LAND, OWNED BY LEWIS O CLEMENTS,JR, GENEVA C
PINKNEY, ANTHONY GRAY, KATHY POINDEXTER, MARVIN NEWBILL,
LAVERNE N DAVIS, ALICE N DAVIS SAM CLEMENTS, REBECCA
GLASS, ELAINE HUBBARD, DWIGHT CLEMENTS, THOMAS DOUGLAS
CLEMENTS,JR, HENRY LOUIS CLEMENTS, NATHAN CLEMENTS,
DOROTHY C TURNER, AND CHARLOTTE C DAY, a/k/a The Heirs or
Assigns of Thomas Clements, a/k/a Unknown Heirs or Assigns of Tori C. Gray,
a/k/a Unknown Heirs or Assigns of Nora Clements, a/k/a Helen Glass, a/k/a
Unknown Heirs or Assigns of Rebecca Clements, Pittsylvania Co TaxNo.1580-008311; MVPNo.VA-PI-026.02; 7.82 ACRES OF LAND, OWNED BY THOMAS
O. WHITE, JR., TRUSTEE OF THE BEVERLY A. MCLAUGHLIN
TESTAMENTARY TRUST, Pittsylvania County Tax Map Parcel No. 1489-867542 and being MVP Parcel No. VA-PI-029.05; 0.05 ACRES OF LAND,
OWNED BY DEAN M. POWELL AND ANNETTE S. POWELL, Pittsylvania
County Tax Map Parcel No. 2417-49-1304 and being MVP Parcel No. VA-PI-072;
2.07 ACRES OF LAND, OWNED BY LAKE ANNA INVESTMENTS, LC,
Pittsylvania County Tax Map Parcel No. 2418-50-8820 and being MVP Parcel No.
VA-PI-072.01; 11.07 ACRES OF LAND, OWNED BY A. DOUGLAS DALTON
JR., Pittsylvania County Tax Map Parcel No. 2417-58-4539 and being MVP Parcel
No. VA-PI-073; 2.99 ACRES OF LAND, OWNED BY COMMONWEALTH
FOREST INVESTMENTS, INC., Pittsylvania County Tax Map Parcel No. 241789-1099 and being MVP Parcel No. VA-PI-081.01; 1.09 ACRES OF LAND,
OWNED BY COMMONWEALTH FOREST INVESTMENTS, INC.,

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 85 of 113

Pittsylvania County Tax Map Parcel No. 2417-87-1135 and being MVP Parcel No.
VA-PI-085 (AR PI-338); 1.60 ACRES OF LAND, OWNED BY SANDRA Y.
JEFFCOAT, SABRINA D. PERRY, JOHN D. WHITTLE, III, ANTHONY J.
WHITTLE, SR., DERRICK A. WHITTLE, SR. AND ELTON G. WHITTLE,
SR., Pittsylvania County Tax Map Parcel No. 2427-12-7078 and being MVP
Parcel No. VA-PI-091; 0.30 ACRES OF LAND, OWNED BY GWENDOLYN F.
GREEN UNKNOWN HEIRS AND ASSIGNS OF THE FOLLOWING LAURA
JONES, LIZZIE JONES, JESSIE JONES, ANNIE JONES, Pittsylvania County
Tax Map Parcel No. 2427-30-5719 and being MVP Parcel No. VA-PI-095; 1.85
ACRES OF LAND, OWNED BY TOWN OF CHATHAM, Pittsylvania County
Tax Map Parcel No. Town of Chatham - Tax Exempt and being MVP Parcel No.
VA-PI-103.01; 1.23 ACRES OF LAND, OWNED BY JAMES M. GRUBBS,
EVELENA GRUBBS ROUSE, AND ENZY GRUBBS ANDERSON,
UNKNOWN HEIRS OR ASSIGNS OF JAMES M. GRUBB, a/k/a Evelyn Rouse,
Pittsylvania County Tax Map Parcel Nos. 2436-05-4452 and 2436-05-2564 and
being MVP Parcel No. VA-PI-104; 0.18 ACRES OF LAND, OWNED BY OAK
GROVE CHRISTIAN CHURCH, Pittsylvania County Tax Map Parcel No. 241768-8838 and being MVP Parcel No. VA-PI-4155 (AR PI-337); 0.08 ACRES OF
LAND, OWNED BY BARBARA SLOAN FITZGERALD, CHERYL
FERGUSON, STEPHANIE L WALDEN, ARETHA JO FITZGERALD,
BARBARA A FITZGERALD, JAMES FITZGERALD, RUBY FITZGERALD,
LOIS MARIE FITZGERALD, BARBARA ANN FITZGERALD, CARABELL
FITZGERALD, UNKNOWN HEIRS AND ASSIGNS OF FOREST
FITZGERALD, MILDRED FITZGERALD, DOUGLAS FITZGERALD, JOE
LOUIS FITZGERALD, FOREST FITZGERALD, JR, Pittsylvania County Tax
Map Parcel No. 2427-30-5083 and being MVP Parcel No. VA-PI-4157 (AR PI340); 0.35 ACRES OF LAND, OWNED BY BARBARA SLOAN
FITZGERALD, CHERYL FERGUSON, STEPHANIE L WALDEN, ARETHA
JO FITZGERALD, BARBARA A FITZGERALD, JAMES FITZGERALD,
RUBY FITZGERALD, LOIS MARIE FITZGERALD, BARBARA ANN
FITZGERALD, CARABELL FITZGERALD, UNKNOWN HEIRS AND
ASSIGNS OF FOREST FITZGERALD, MILDRED FITZGERALD, DOUGLAS
FITZGERALD, JOE LOUIS FITZGERALD, FOREST FITZGERALD,
Pittsylvania County Tax Map Parcel No. 2427-30-4184 and being MVP Parcel No.
VA-PI-5156; UNKNOWN OWNERS; 6.50 ACRES OF LAND, MORE OR
LESS, OWNED BY NEW RIVER CONSERVANCY, INC., Located in Giles
County, Virginia being a portion of Giles County Tax Map Parcel No. 29-25B and
being MVP Parcel No. VA-GI-035; 1.38 ACRES OF LAND, OWNED BY
HENRY COX AND JANET DEGROFF, Montgomery County Tax Map Parcel
No. 001262 and Being MVP Parcel No. VA-MO-5519; 3.42 ACRES OF LAND,

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 86 of 113

OWNED BY HENRY COX AND JANET DEGROFF, Montgomery County Tax
Map Parcel No. 032870 and Being MVP Parcel No. VA-MO-5520; 1.06 ACRES
OF LAND, OWNED BY JOHN GARRETT BAKER AND SUZANNE JANE
BAKER, Montgomery County Tax Map Parcel No. 230082 and Being MVP
Parcel No. VA-MO-5882; 0.14 ACRES OF LAND, OWNED BY UNKNOWN
HEIRS OR ASSIGNS OF ANTHONY B. NOVITZKI AND JOANNE A.
LOFARO, Franklin County Tax Map Parcel No. 0440206600 and being MVP
Parcel No. VA-FR-5500; 0.16 ACRES OF LAND, OWNED BY RONNIE
ALLEN ANGLE, Franklin County Tax Map Parcel No. 0440020300 and being
MVP Parcel No. VA-FR-5892; 0.18 ACRES OF LAND, OWNED BY MICHAEL
EPPERLY, Montgomery County Tax Map Parcel No. 014919 and Being MVP
Parcel No. VA-MO-5788; 0.12 ACRES OF LAND, OWNED BY EUGENE
RYLAND MOTLEY AND NANCYE B. MOTLEY, Pittsylvania County Tax Map
Parcel No. 2418-41-9409 and being MVP Parcel No. VA-PI-071.01; 0.12 ACRES
OF LAND, OWNED BY GLENN W. LOVELESS AND JUNE S. LOVELESS,
Franklin County Tax Map Parcel No. 0370011106 and being MVP Parcel No. VAFR-017.37; 0.14 ACRES OF LAND, OWNED BY DAWN E. CISEK, f/k/a Dawn
E. Maxey, Craig County Tax Map Parcel No. 120-A-9 and Being MVP Parcel No.
VA-CR-4445; 0.17 ACRES OF LAND, OWNED BY DAWN E. CISEK, f/k/a
Dawn E. Maxey, Giles County Tax Map Parcel No. 47-12A and Being MVP
Parcel No. VA-GI-5673; 4.03 ACRES OF LAND, OWNED BY LARRY
THOMPSON AND LOREEN THOMPSON, Giles County Tax Map Parcel No.
47-8 and Being MVP Parcel No. VA-GI-200.040; 0.084 ACRES OF LAND,
OWNED BY FRANCES D. W. COLLINS, f/k/a Frances D. Williams, Giles
County Tax Map Parcel No. 46-51 and Being MVP Parcel No. VA-GI-200.035
(AR-GI-256); 2.99 ACRES OF LAND, OWNED BY CLIFFORD A. SHAFFER
AND THERESA C. HRUBEC, Giles County Tax Map Parcel No. 61-12B and
Being MVP Parcel No. VA-GI-200.028; 5.82 ACRES OF LAND, OWNED BY
DAVID G. YOLTON AND KAREN M. YOLTON, Giles County Tax Map Parcel
No. 45-39D and Being MVP Parcel No. VA-GI-075; 0.52 ACRES OF LAND,
OWNED BY EMILIE M. OWEN AND RICHARD CLARK OWEN, Franklin
County Tax Map Parcel No. 0380002204B and being MVP Parcel No. VA-FR4129 (AR FR-294); 1.29 ACRES OF LAND, OWNED BY ROBERT M. JONES
AND DONNA THOMAS JONES, Montgomery County Tax Map Parcel No.
024591 and Being MVP Parcel No. VA-MO-5512; 1.81 ACRES OF LAND,
OWNED BY ROBERT M. JONES AND DONNA THOMAS JONES,
Montgomery County Tax Map Parcel No. 024588 and Being MVP Parcel No. VAMO-5511; 6.56 ACRES OF LAND, OWNED BY SANDRA TOWNES
POWELL, Montgomery County Tax Map Parcel No. 015900 and Being MVP
Parcel No. VA-MO-3370; 0.09 ACRES OF LAND, OWNED BY ESTIAL EARL

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 87 of 113

ECHOLS, JR. AND EDITH FERN ECHOLS, Giles County Tax Map Parcel No.
46-20A and Being MVP Parcel No. VA-GI-4420 (AR GI-253.01); 0.48 ACRES
OF LAND, OWNED BY ESTIAL EARL ECHOLS, JR., Giles County Tax Map
Parcel No. 46-20A and Being MVP Parcel No. VA-GI-4420 (AR GI-253.01); 2.41
ACRES OF LAND, OWNED BY ANN ELIZABETH ANDREWS, Giles County
Tax Map Parcel No. 46-20A and Being MVP Parcel No. VA-GI-4420 (AR GI253.01)
Defendants
-----------------------------OWNER'S COUNSEL OF AMERICA
Amicus Supporting Rehearing Petition
___________________
No. 18-1242
(7:17-cv-00492-EKD)
___________________
MOUNTAIN VALLEY PIPELINE, LLC
Plaintiff - Appellee
v.
0.09 ACRES OF LAND, OWNED BY LARRY BERNARD CUNNINGHAM
AND CAROLYN A. CUNNINGAM, Roanoke County Tax Map Parcel No.
063.00-01-20.03-0000 and Being MVP Parcel No. VA-RO-5781; 0.14 ACRES OF
LAND, OWNED BY UNKNOWN HEIRS OR ASSIGNS OF ANTHONY B.
NOVITZKI AND JOANNE A. LOFARO, Franklin County Tax Map Parcel No.
0440206600 and being MVP Parcel No. VA-FR-5500; 0.11 ACRES OF LAND,
OWNED BY JUNE SMITH, RAY SMITH, PATRICIA S. DEVECHA,
STEPHEN R. SMITH, BARRY SCOTT SMITH, DOUGLAS F. SMITH, DAVID
L. SMITH, FRED APGAR, RUTH APGAR GLOCK, DONALD APGAR,
GREGORY M. A, a/k/a Raymond Foster Smith, a/k/a Fred I. Apgar, a/k/a
Frederick Apgar, a/k/a Gregory M. Apgar, a/k/a Angela H. Apgar, Unknown Heirs
and Assigns of the Following June Smith, and Ray Smith, Roanoke Co. Tax Map

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 88 of 113

Parcel No. 063.00-01-25.00-0000 and Being MVP Parcel No. VA-RO-033; 3.74
ACRES OF LAND, OWNED BY JEROME DAVID HENRY AND DORIS
MARIE HENRY, Roanoke County Tax Map Parcel No. 110.00-01-46.00-0000
and Being MVP Parcel No. VA-RO-055; 3.42 ACRES OF LAND, OWNED BY
HENRY COX AND JANET DEGROFF, Montgomery County Tax Map Parcel
No. 032870 and Being MVP Parcel No. VA-MO-5520; 1.23 ACRES OF LAND,
OWNED BY JAMES M. GRUBBS, EVELENA GRUBBS ROUSE, AND ENZY
GRUBBS ANDERSON, UNKNOWN HEIRS OR ASSIGNS OF JAMES M.
GRUBB, a/k/a Evelyn Rouse, Pittsylvania County Tax Map Parcel Nos. 2436-054452 and 2436-05-2564 and being MVP Parcel No. VA-PI-104; 7.82 ACRES OF
LAND, OWNED BY THOMAS O. WHITE, JR., TRUSTEE OF THE BEVERLY
A. MCLAUGHLIN TESTAMENTARY TRUST, Pittsylvania County Tax Map
Parcel No. 1489-86-7542 and being MVP Parcel No. VA-PI-029.05; 4.14 ACRES
OF LAND, OWNED BY MARK E. DANIEL AND ANGELA D. DANIEL,
Franklin County Tax Map Parcel No. 0440011600 and being MVP Parcel No. VAFR-5476; 0.15 ACRES OF LAND, OWNED BY RUSSELL R. BARKSDALE,
JR., Franklin County Tax Map Parcel No. 0370009904and being MVP Parcel No.
VA-FR-5415; 0.32 ACRES OF LAND, OWNED BY GAIL DUDLEY
SMITHERS, Franklin County Tax Map Parcel No. 0450001500 and being MVP
Parcel No. VA-FR-5151 (ATWS-1266); 3.92 ACRES OF LAND, OWNED BY
GAIL DUDLEY SMITHERS AND GINGER K. SMITHERS, Franklin County
Tax Map Parcel No. 0450006800 and being MVP Parcel No. VA-FR-119; 8.60
ACRES OF LAND, OWNED BY GAIL DUDLEY SMITHERS, Franklin County
Tax Map Parcel No. 0450001600 and being MVP Parcel No. VA-FR-117; 8.56
ACRES OF LAND, OWNED BY GAIL DUDLEY SMITHERS AND GINGER
K. SMITHERS, Franklin County Tax Map Parcel No. 0450000902 and being
MVP Parcel No. VA-FR-114; 0.292 ACRES OF LAND, OWNED BY GAIL
DUDLEY SMITHERS AND GINGER K. SMITHERS, Franklin County Tax Map
Parcel No. 0450008100 and being MVP Parcel No. VA-FR-113; 1.72 ACRES OF
LAND, OWNED BY GUY W. BUFORD AND MARGARET S. BUFORD,
Franklin County Tax Map Parcel No. 0440004400 and being MVP Parcel No. VAFR-077; 3.70 ACRES OF LAND, OWNED BY DAVID J. WERNER, BETTY B.
WERNER, IAN ELLIOTT REILLY, AND CAROLYN ELIZABETH REILLY,
Franklin County Tax Map Parcel No. 0440004300 and being MVP Parcel No. VAFR-076.01; 1.60 ACRES OF LAND, OWNED BY SANDRA H. LANCASTER,
Franklin County Tax Map Parcel No. 0430105000 and being MVP Parcel No. VAFR-073; 0.87 ACRES OF LAND, OWNED BY BOBBY I. JONES AND
RICHARD WAYNE JONES REVOCABLE TRUST, RICHARD WAYNE
JONES, TRUSTEE, Franklin County Tax Map Parcel No. 0430105200 and being
MVP Parcel No. VA-FR-070.01; 2.74 ACRES OF LAND, OWNED BY MARK

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 89 of 113

A. PETTIPIECE AND TERESA J. PETTIPIECE, Giles County Tax Map Parcel
No. 47-1-3 and Being MVP Parcel No. VA-GI-200.046; 11.45 ACRES OF
LAND, OWNED BYL. BENTON WRAY, JR., DIANE S. WRAY, ALVIN E.
WRAY, AND LINDA L. WRAY, Franklin County Tax Map Parcel No.
0250002200 and being MVP Parcel No. VA-FR-017.02; 1.38 ACRES OF LAND,
OWNED BY ALVIN E. WRAY, LINDA L. WRAY, L. BENTON WRAY, JR.,
AND DIANE S. WRAY, Franklin County Tax Map Parcel No. 250002100 and
being MVP Parcel No. VA-FR-017; 0.26 ACRES OF LAND, OWNED BY
LARRY BERNARD CUNNINGHAM AND CAROLYN A. CUNNINGHAM,
Roanoke County Tax Map Parcel No. 063.00-01-21.00-0000 and Being MVP
Parcel No. VA-RO-5785; 0.15 ACRES OF LAND, OWNED BY FRANK W.
HALE AND FLOSSIE I. HALE AND ROBERT MATTHEW HAMM AND
AIMEE CHASE HAMM, Roanoke County Tax Map Parcel No. 110.00-01-56.010000 and Being MVP Parcel No. VA-RO-5748; 0.31 ACRES OF LAND,
OWNED BY REBECCA JANE DAMERON, Roanoke County Tax Map Parcel
No. 111.00-01-61.00-0000 and Being MVP Parcel No. VA-RO-5383; 0.33
ACRES OF LAND, OWNED BY ELIZABETH LEE TERRY, a/k/a Elizabeth Lee
Reynolds, Roanoke County Tax Map Parcel No. 093.00-01-46.00-0000 and Being
MVP Parcel No. VA-RO-5228 (ATWS-1224); 0.34 ACRES OF LAND, OWNED
BY ROBIN B. AUSTIN AND ALLEN R. AUSTIN, Roanoke County Tax Map
Parcel No. 110.00-01-45.00-0000 and Being MVP Parcel No. VA-RO-5222 (AR
RO-285); 0.32 ACRES OF LAND, OWNED BY GRACE MINOR TERRY,
Roanoke County Tax Map Parcel No. 102.00-01-01.02-0000 and Being MVP
Parcel No. VA-RO-5149 (AR RO-279.01); 0.28 ACRES OF LAND, OWNED BY
JACQULINE J. LUCKI, Roanoke County Tax Map Parcel No. 102.00-01-13.010000 and Being MVP Parcel No. VA-RO-50; 2.20 ACRES OF LAND, OWNED
BY HILAH PARKS TERRY, FRANK H. TERRY, JR., ELIZABETH LEE
TERRY, JOHN COLES TERRY III, GRACE MINOR TERRY, Unknown Heirs
or Assigns of Frank H. Terry, Sr., Roanoke County Tax Map Parcel No. 103.0002-01.00-0000 and Being MVP Parcel No. VA-RO-4118 (AR RO-283); 0.94
ACRES OF LAND, OWNED BY MARTIN G. MORRISON AND PATRICIA A.
BOYD, Roanoke County Tax Map Parcel No. 063.00-01-20.00-0000 and Being
MVP Parcel No. VA-RO-4115; 2.05 ACRES OF LAND, OWNED BY
HOWARD M. THOMPSON AND CHRISTINE W. THOMPSON, Roanoke
County Tax Map Parcel No. 118.00-01-09.00-0000 and Being MVP Parcel No.
VA-RO-068; 2.93 ACRES OF LAND, OWNED BY LOIS KING WALDRON
AND LOIS MABEL WALDRON MARTIN, Roanoke County Tax Map Parcel
No. 110.00-01-50.00-0000 and Being MVP Parcel No. VA-RO-057; 4.72 ACRES
OF LAND, OWNED BY FRED W. VEST, Roanoke County Tax Map Parcel No.
110.00-01-56.00-0000 and Being MVP Parcel No. VA-RO-056; 9.89 ACRES OF

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 90 of 113

LAND, OWNED BY ELIZABETH LEE TERRY, a/k/a Elizabeth Lee Reynolds,
Roanoke County Tax Map Parcel No. 110.00-01-44.00-0000 and Being MVP
Parcel No. VA-RO-054; 1.85 ACRES OF LAND, OWNED BY JACQULINE J.
LUCKI, Roanoke County Tax Map Parcel No. 102.00-01-14.00-0000 and Being
MVP Parcel No. VA-RO-052; 1.40 ACRES OF LAND, OWNED BY MARY
ELLEN RIVES, Roanoke County Tax Map Parcel No. 103.00-02-43.00-0000 and
Being MVP Parcel No. VA-RO-051; 8.37 ACRES OF LAND, OWNED BY
FRANK H. TERRY, JR., JOHN COLES TERRY, III, AND ELIZABETH LEE
TERRY, a/k/a Elizabeth Lee Reynolds, Roanoke County Tax Map Parcel No.
102.00-01-02.00-0000 and Being MVP Parcel No. VA-RO-046; 13.47 ACRES OF
LAND, OWNED BY JOHN COLES TERRY, III, Roanoke County Tax Map
Parcel No. 102.00-01-08.00-0000 and Being MVP Parcel No. VA-RO-045; 0.47
ACRES OF LAND, OWNED BY BRUCE M. COFFEY AND MARY E.
COFFEY, Roanoke County Tax Map Parcel No. 102.00-01-13.00-0000 and Being
MVP Parcel No. BVRO-05; 4.03 ACRES OF LAND, OWNED BY MATTHEW
D. ROLLIER AND DEANNA D. ROBINSON, Roanoke County Tax Map Parcel
No. 102.00-01-12.00-0000 and Bring MVP Parcel No. BVRO-04; 0.38 ACRES
OF LAND, OWNED BY JAMES C. LAW AND CAROLYN D. LAW,
Montgomery County Tax Map Parcel No. 002833 and Being MVP Parcel No. VAMO-5626; 6.86 ACRES OF LAND, OWNED BY JULIANA BERNHOLZ AND
IRINA BERNHOLZ SIEGRIST, Montgomery County Tax Map Parcel No.
015895 and Being MVP Parcel No. VA-MO-5526; 3.01 ACRES OF LAND,
OWNED BY PHYLLIS M. HUTTON, Montgomery County Tax Map Parcel No.
026945 and Being MVP Parcel No. VA-MO-5516; 2.07 ACRES OF LAND,
OWNED BY PHYLLIS M. HUTTON, Montgomery County Tax Map Parcel No.
009443 and Being MVP Parcel No. VA-MO-5515; 3.35 ACRES OF LAND,
OWNED BY THOMAS W. TRIPLETT AND BONNIE B. TRIPLETT,
Montgomery County Tac Map Parcel No. 024589 and Being MVP Parcel No. VAMO-5514; 12.20 ACRES OF LAND, OWNED BY JUNE SMITH, RAY SMITH,
PATRICIA S. DEVECHA, STEPHEN R. SMITH, BARRY SCOTT SMITH,
DOUGLAS F. SMITH, DAVID L. SMITH, FRED APGAR, RUTH APGAR
GLOCK, GREGORY M. APGAR, AND ANG, a/k/a Raymond Foster Smith, a/k/a
Fred I. Apgar, a/k/a Frederick I. Apgar, Unknown Heirs or Assigns of the
Following June Smith, and Ray Smith, Montgomery Co. Tax Map Parcel No.
120001 and MVP Parcel No. VA-MO-084; 4.67 ACRES OF LAND, OWNED BY
JAMES CABEL LAW AND CAROLYN DIANA EANES LAW, Montgomery
County Tax Map Parcel No. 011673 and Being MVP Parcel No. VA-MO-025;
2.12 ACRES OF LAND, OWNED BY JAMES CABEL LAW AND CAROLYN
DIANA EANES LAW, Montgomery County Tax Map Parcel No. 018808 and
Being MVP Parcel No. VA-MO-024; 2.74 ACRES OF LAND, OWNED BY

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 91 of 113

CLETUS WOODROW BOHON AND BEVERLY ANN BOHON, Montgomery
County Tax Map Parcel No. 017761 and Being MVP Parcel No. VA-MO-022;
2.69 ACRES OF LAND, OWNED BY BRIAN DAVID GLOCK AND SUSAN
ELIZABETH GLOCK BUCH, Montgomery County Tax Map Parcel No. 000844
and Being MVP Parcel No. VA-MO-013; 2.08 ACRES OF LAND, OWNED BY
DONALD D. APGAR AND MILDRED M. APGAR, Montgomery County Tax
Map Parcel No. 000843 and Being MVP Parcel No. VA-MO-012; 0.39 ACRES
OF LAND, OWNED BY JAMES C. LAW AND CAROLYN D. LAW,
Montgomery County Tax Map Parcel No. 032431 And Being MVP Parcel No.
VA-MN-5234 (AR MN-278.01); 0.19 ACRES OF LAND, OWNED BY CLETUS
WOODROW BOHON AND BEVERLY ANN BOHON, Montgomery County
Tax Map Parcel No. 030271 and Being MVP Parcel No. VA-MN-5233 (AR MN278.01); 4.90 ACRES OF LAND, OWNED BY BRENDA LYNN WILLIAMS,
Giles County Tax Map Parcel No. 46-15 and Being MVP Parcel No. VA-GI200.019
Defendants - Appellants
and
0.18 ACRES OF LAND, OWNED BY GEORGIA LOU HAVERTY, Giles
County Tax Map Parcel No 30-4A and Being MVP Parcel No. BVGI-10;
EASEMENTS TO CONSTRUCT, OPERATE, AND MAINTAIN A NATURAL
GAS PIPELINE OVER TRACTS OF LAND IN GILES CO., CRAIG CO.,
MONTGOMERY CO., ROANOKE CO., FRANKLIN CO., AND
PITTSYLVANIA CO., VA INCLUDING:; 8.11 ACRES OF LAND, OWNED
BY DONNA ROGERS ALTIZER, Giles County Tax Map Parcel No. 27-18 and
Being MVP Parcel No. VA-GI-008.05; 0.12 ACRES OF LAND, OWNED BY
LHOIST NORTH AMERICA OF VIRGINIA, INC., Giles County Tax Map
Parcel No 27-73 and Being MVP Parcel No. VA-GI-008.06; 17.89 ACRES OF
LAND, OWNED BY LHOIST NORTH AMERICA OF VIRGINIA, INC., Giles
County Tax Map Parcel No. 27-75 and Being MVP Parcel No. VA-GI-013; 7.39
ACRES OF LAND, OWNED BY ANTHONY L. BOWMAN AND CAROL
ANN BOWMAN, Giles County Tax Map Parcel No. 28-10A and Being MVP
Parcel No. VA-GI-017; 6.50 ACRES OF LAND, OWNED BY SIZEMORE
INCORPORATED OF VIRGINIA, f/k/a National Committee for the New River,
Giles County Tax Map Parcel No. 29-25B and Being MVP Parcel No. VA-GI-035;
1.23 ACRES OF LAND, OWNED BY EAGLE'S NEST MINISTRIES, INC.,
Giles County Tax Map Parcel No. 29-25 and Being MVP Parcel No VA-GI035.01; 10.67 ACRES OF LAND, OWNED BY DOE CREEK FARM,

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 92 of 113

INCORPORATED, Giles County Tax Map Parcel No.30-4 and Being MVP Parcel
No. VA-GI-049; 1.52 ACRES OF LAND, OWNED BY VERNON V.
BEACHAM, SR. AND VERNON V. BEACHAM, II, Giles County Tax Map
Parcel No. 44A-1-34 and Being MVP Parcel No. VA-GI-051; 2.83 ACRES OF
LAND, OWNED BY VERNON V. BEACHAM, SR. AND VERNON V.
BEACHAM, II, Giles County Tax Map Parcel No. 44A-1-33 and Being MVP
Parcel VA-GI-052; 2.19 ACRES OF LAND, OWNED BY STEPHEN D. LEGGE,
DAVID LEGGE, AND PHYLLIS J. LEGGE, Giles County Tax Map Parcel No.
44-3-3A and Being MVP Parcel No. VA-GI-057; 2.85 ACRES OF LAND,
OWNED BY CHESTNUT MILL RANCH, LLC, Giles County Tax Map Parcel
No. 45-72 and Being MVP Parcel No. VA-GI-061 (AR GI-245.02); 0.72 ACRES
OF LAND, OWNED BY CHESTNUT MILL RANCH, LLC, Giles County Tax
Map Parcel No. 45-71 and Being MVP Parcel No. VA-GI-062; 3.17 ACRES OF
LAND, OWNED BY CHESTNUT MILL RANCH, LLC, Giles County Tax Map
Parcel No. 45-66 and Being MVP Parcel No. VA-GI-066; 5.82 ACRES OF
LAND, OWNED BY DAVID G. YOLTON AND KAREN M. YOLTON, Giles
County Tax Map Parcel No. 45-39D and Being MVP Parcel No. VA-GI-075; 5.25
ACRES OF LAND, OWNED BY MARY VIRGINIA REYNOLDS, SAMUEL
HALE REYNOLDS, AND MARY SUTTON REYNOLDS, Giles County Tax
Map Parcel No. 46-1-3 and Being MVP Parcel No. VA-GI-097.01; 1.18 ACRES
OF LAND, OWNED BY JAMES D. MATTOX, Giles County Tax Map Parcel
No. 46-49 and Being MVP Parcel No. VA-GI-098 (MVP-GI-256); 10.37 ACRES
OF LAND, OWNED BY CHESTNUT MILL RANCH, LLC, Giles County Tax
Map Parcel No. 45-70 and Being MVP Parcel No. VA-GI-200.003; 1.89 ACRES
OF LAND, OWNED BY BRIARWOOD DEVELOPMENT, LLC, Giles County
Tax Map Parcel No. 45-36 and Being MVP Parcel No. VA-GI-200.015; 8.55
ACRES OF LAND, OWNED BY NEWPORT DEVELOPMENT COMPANY,
LLC, Giles County Tax Map Parcel No. 45-33I and Being MVP Parcel No. VAGI-200.016; 0.26 ACRES OF LAND, OWNED BY FRANK S. QUINN, III AND
KATHERINE A. QUINN, Giles County Tax Map Parcel No. 45-30A and Being
MVP Parcel No. VA-GI-200.017; 1.22 ACRES OF LAND, OWNED BY
TAMARA N. HODSDEN, TRUSTEE OF THE JOSEPH D. HODSDEN TRUST
AND TAMARA N. HODSDEN TRUST, Giles County Tax Map Parcel No. 46-11
and Being MVP Parcel No. VA-GI-200.018; 0.29 ACRES OF LAND, OWNED
BY BRIARWOOD DEVELOPMENT, LLC, Giles County Tax Map Parcel No.
46-2-B and Being MVP Parcel No. VA-GI-200.024; 2.99 ACRES OF LAND,
OWNED BY CLIFFORD A. SHAFFER AND THERESA C. HRUBEC, Giles
County Tax Map Parcel No. 61-12B and Being MVP Parcel No. VA-GI-200.028;
0.084 ACRES OF LAND, OWNED BY FRANCES D. W. COLLINS, f/k/a
Frances D. Williams, Giles County Tax Map Parcel No. 46-51 and Being MVP

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 93 of 113

Parcel No. VA-GI-200.035 (AR-GI-256); 4.03 ACRES OF LAND, OWNED BY
LARRY THOMPSON AND LOREEN THOMPSON, Giles County Tax Map
Parcel No. 47-8 and Being MVP Parcel No. VA-GI-200.040; 4.88 ACRES OF
LAND, OWNED BY CLARENCE B. GIVENS AND KAROLYN W. GIVENS,
Giles County Tax Map Parcel No. 47-9 and Being MVP Parcel No. VA-GI200.041; 0.335 ACRES OF LAND, OWNED BY GEORGE LEE JONES, Giles
County Tax Map Parcel No. 47-1-1 and Being MVP Parcel No. VA-GI-200.044;
2.01 ACRES OF LAND, OWNED BY GEORGE LEE JONES, Giles County Tax
Map Parcel No. 47-1-2 and Being MVP Parcel No. VA-GI-200.045; 7.61 ACRES
OF LAND, OWNED BY JERRY J. DEPLAZES AND JEROLYN K.
DEPLAZES, Giles County Tax Map Parcel No. 46-66 and Being MVP Parcel No.
VA-GI-4249; 8.60 ACRES OF LAND, OWNED BY DOWDY FARM LLC, Giles
County Tax Map Parcel No. 46-52 and Being MVP Parcel No. VA-GI-4250; 0.48
ACRES OF LAND, OWNED BY ESTIAL EARL ECHOLS, JR., Giles County
Tax Map Parcel No. 46-19B and Being MVP Parcel No. VA-GI-4419 (AR GI253.01); 0.09 ACRES OF LAND, OWNED BY ESTIAL EARL ECHOLS, JR.
AND EDITH FERN ECHOLS, Giles County Tax Map Parcel No. 46-20A and
Being MVP Parcel No. VA-GI-4420 (AR GI-253.01); 0.09 ACRES OF LAND,
OWNED BY GARY HOLLOPTER AND ALLISON HOLLOPTER, Giles
County Tax Map Parcel No. 30-4B and Being MVP Parcel No. VA-GI-5310; 0.15
ACRES OF LAND, OWNED BY DAVID MATTHEW ALTIZER AND
ELIZABETH ANN ALTIZER, Giles County Tax Map Parcel No. 27-18A and
Being MVP Parcel No. VA-GI-5339; 5.78 ACRES OF LAND, OWNED BY
ELIZABETH ROGERS HARRISON, Giles County Tax Map Parcel No. 27-19
and Being MVP Parcel No. VA-GI-5340; 0.17 ACRES OF LAND, OWNED BY
DAWN E. CISEK, f/k/a Dawn E. Maxey, Giles County Tax Map Parcel No. 4712A and Being MVP Parcel No. VA-GI-5673; 0.01 ACRES OF LAND, OWNED
BY BENNY L. HUFFMAN, Giles County Tax Map Parcel No. 46-25 B and Being
MVP Parcel No. VA-GI-5779; 0.22 ACRES OF LAND, OWNED BY DOWDY
FARM, LLC, Giles County Tax Map Parcel No. 46-52 A. and Being MVP Parcel
No. VA-GI-5790; 1.87 ACRES OF LAND, OWNED BY JAMES D. MATTOX,
Giles County Tax Map Parcel No. 46-49A and Being MVP Parcel No. VA-GI5883; 0.25 ACRES OF LAND, OWNED BY ROY DOWDY OR UNKNOWN
HEIRS OR ASSIGNS OF ROY DOWDY, Giles County Tax Map Parcel No. 4666X and Being MVP Parcel No. VA-GI-5884; 10.26 ACRES OF LAND,
OWNED BY SAMUEL HALE REYNOLDS AND MARY SUTTON
REYNOLDS, Giles County Tax Map Parcel No. 46-1-2A and Being MVP Parcel
No. VA-GI-5922; 2.09 ACRES OF LAND, OWNED BY STEVEN C. HODGES
AND JUDY R. HODGES, Craig County Tax Map Parcel No. 120-A-10 and 120A-10A and Being MVP Parcel No. VA-CR-200.047; 2.75 ACRES OF LAND,

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 94 of 113

OWNED BY HELENA DELANEY TEEKELL, TRUSTEE OF THE HELENA
DELANEY TEEKELL TRUST, Craig County Tax Map Parcel No. 120-A-12 and
Being MVP Parcel No. VA-CR-200.048; 0.66 ACRES OF LAND, OWNED BY
GORDON WAYNE JONES AND DONNA W. JONES, Craig County Tax Map
Parcel No. 120-A-13 and Being MVP Parcel No. VA-CR-200.049; 2.81 ACRES
OF LAND, OWNED BY ROBERT W. CRAWFORD OR PATRICIA D.
CRAWFORD, TRUSTEES UNDER THE CRAWFORD LIVING TRUST, AND
ANITA NEAL HUGHES, Craig County Tax Map Parcel No. 121-A-15 and Being
MVP Parcel No. VA-CR-200.053; 0.14 ACRES OF LAND, OWNED BY DAWN
E. CISEK, f/k/a Dawn E. Maxey, Craig County Tax Map Parcel No. 120-A-9 and
Being MVP Parcel No. VA-CR-4445; 2.60 ACRES OF LAND, OWNED BY
HELENA DELANEY TEEKELL, TRUSTEE OF THE HELENA DELANEY
TEEKELL TRUST, Craig County Tax Map Parcel No. 120-A-14A and Being
MVP Parcel No. VA-CR-5343; 0.50 ACRES OF LAND, OWNED BY JOSE G.
AGUIRRE-TORRES, JUAN AGUIRRE, IGNACIO AGUIRRE, HECTOR
ANDRES AGUIRRE, AND RAMON A. ARELLANO, Craig County Tax Map
Parcel No. 120-A-8 and Being MVP Parcel No. VA-GI-200.047 (AR CR-258.01);
0.41 ACRES OF LAND, OWNED BY DONALD W. PERDUE, Montgomery
County Tax Map Parcel No. 035861 and Being MVP Parcel No. BV-MN-0053;
0.15 ACRES OF LAND, OWNED BY DONALD W. LONG AND EVELYN W.
LONG, Montgomery County Tax Map Parcel No. 021560 and Being MVP Parcel
No. BVMO-25; 0.64 ACRES OF LAND, OWNED BY VANESSA MICHELLE
UNDERWOOD AND JULIAN ADAMS STEWART, Montgomery County Tax
Map Parcel No. 170229 and Being MVP Parcel No. VA-MN-5175 (AR MN-275);
0.05 ACRES OF LAND, OWNED BY SARA KAY SCOTT, Montgomery County
Tax Map Parcel No. 190165 and Being MVP Parcel No. VA-MN-5176; 0.31
ACRES OF LAND, OWNED BY RANDALL KEITH EPPERLY AND JOANNE
ALICE EPPERLY, Montgomery County Tax Map Parcel No. 029056 and Being
MVP Parcel No. VA-MN-5235 (AR MN-278.01); 0.50 ACRES OF LAND,
OWNED BY GREGORY M. APGAR AND ANGELA H. APGAR, Montgomery
County Tax Map Parcel No. 000837 and Being MVP Parcel No. VA-MO-005;
0.07 ACRES OF LAND, OWNED BY GEORGE A. CRAIGHEAD AND HELEN
P. CRAIGHEAD, Montgomery County Tax Map Parcel No. 016298 and Being
MVP Parcel No. VA-MO-011; 0.78 ACRES OF LAND, OWNED BY DENNIS
G. BERUBE AND DIXIE L. BERUBE, Montgomery County Tax Map Parcel No.
021080 and Being MVP Parcel No. VA-MO-019; 4.85 ACRES OF LAND,
OWNED BY JOHN MICHAEL TURMAN, EDNA LAWRENCE, ROBERT
BURRIS, KEITHER EDWARD BURRIS, BARBARA KEELING, JACK
"JACKIE" BURRIS, LINDA PRADIS, VALERIE DELONG,, Unknown Heirs or
Assigns of the Following John Marshall Burris, Bobby Burris, Carlton Walters,

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 95 of 113

and Alvin Brown, Montgomery Co Tax Map Parcel No 0002831, MVP Parcel No.
VA-MO-023; 1.90 ACRES OF LAND, OWNED BY JOSEPH PATRICK
TOMELTY, Montgomery County Tax Map Parcel No. 013819 and Being MVP
Parcel No. VA-MO-060; 0.89 ACRES OF LAND, OWNED BY DONALD W.
LONG AND EVELYN W. LONG, Montgomery County Tax Map Parcel No.
021559 and Being MVP Parcel No. VA-MO-062; 0.392 ACRES OF LAND,
OWNED BY TRAVIS SCOTT LANCASTER AND TRACY LYNN TAYLOR,
Montgomery County Tax Map Parcel No. 033280 and Being MVP Parcel No. VAMO-064 (AR-MN-271); 0.53 ACRES OF LAND, OWNED BY SHELIA M.
MEADOWS, Montgomery County Tax Map Parcel No. 033209 and Being MVP
Parcel No. VA-MO-067; 0.94 ACRES OF LAND, OWNED BY STEVEN A.
BOWMAN AND RACHEL A. BOWMAN, Montgomery County Tax Map Parcel
No. 120708 and Being MVP Parcel No. VA-MO-069; 1.14 ACRES OF LAND,
OWNED BY HOWARD D. PERDUE, Montgomery County Tax Map Parcel No.
014256 and Being MVP Parcel No. VA-MO-0700; 3.84 ACRES OF LAND,
OWNED BY DENNY R. SCOTT AND TAMMY K. SCOTT, Montgomery
County Tax Map Parcel No. 012030 and Being MVP Parcel No. VA-MO-071;
0.36 ACRES OF LAND, OWNED BY CRAIG-BOTETOURT ELECTRIC
COOPERATIVE, A VIRGINIA ELECTRIC COOPERATIVE AND NONSTOCK CORPORATION, Montgomery County Tax Map Parcel No. 034187 and
Being MVP Parcel No. VA-MO-075; 3.15 ACRES OF LAND, OWNED BY
DELWYN A. DYER, TRUSTEE OF THE DYER FAMILY TRUST, AND
DELWYN A. DYER, TRUSTEE OF THE DYER LIVING TRUST, Montgomery
County Tax Map Parcel No. 005668 and Being MVP Parcel No. VA-MO-3369;
7.18 ACRES OF LAND, OWNED BY MICHAEL EDWARD SLAYTON,
TRUSTEE OR MARGARET MCGRAW SLAYTON, TRUSTEE, MARGARET
MCGRAW SLAYTON LIVING TRUST, Montgomery County Tax Map Parcel
No. 024590 and Being MVP Parcel No. VA-MO-3371; 0.16 ACRES OF LAND,
OWNED BY LEONARD C. STEINER AND DEBORAH L. STEINER,
Montgomery County Tax Map Parcel No. 008906 and Being MVP Parcel No. VAMO-4259.001 (AR MN-272); 0.29 ACRES OF LAND, OWNED BY DENNY R.
SCOTT AND TAMMY K. SCOTT, Montgomery County Tax Map Parcel No.
030035 and Being MVP Parcel No. VA-MO-4261 (AR MN-272); 0.71 ACRES
OF LAND, OWNED BY ROANOKE VALLEY 4-WHEELERS ASSOCIATION,
Montgomery County Tax Map Parcel No. 031198 and Being MVP Parcel No. VAMO-4264 (AR-MN-276); 1.53 ACRES OF LAND, OWNED BY ROANOKE
VALLEY 4-WHEELERS ASSOCIATION, Montgomery County Tax Map Parcel
No. 016068 and Being MVP Parcel No. VA-MO-4265 (AR MN-276); 1.04
ACRES OF LAND, OWNED BY HENRY S. KEULING-STOUT, Montgomery
County Tax Map Parcel No. 005370 and Being MVP Parcel No. VA-MO-4266

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 96 of 113

(AR MN-276); 22.73 ACRES OF LAND, OWNED BY BLUE EAGLE
PARTNERSHIP, LLC, Montgomery County Tax Map Parcel No. 010352 and
Being MVP Parcel No. VA-MO-4314; 4.79 ACRES OF LAND, OWNED BY
SONABANK, Montgomery County Tax Map Parcel No. 013751 and Being MVP
Parcel No. VA-MO-4321; 0.04 ACRES OF LAND, OWNED BY JO MILLS
SOWERS, Montgomery County Tax Map Parcel No. 032744 and Being MVP
Parcel No. VA-MO-4424; 0.42 ACRES OF LAND, OWNED BY ANTHONY E.
HESS AND CARMELLA HESS, Montgomery County Tax Map Parcel No.
003368 and Being MVP Parcel No. VA-MO-5357; 0.28 ACRES OF LAND,
OWNED BY ELIJAH D. HOWARD, Montgomery County Tax Map Parcel No.
031305 and MVP Parcel No. VA-MO-5364; 0.37 ACRES OF LAND, OWNED
BY ELIJAH HOWARD AND KRISTIN HOWARD, Montgomery County Tax
Map Parcel No. 031305 and Being MVP Parcel No. VA-MO-5366; 0.11 ACRES
OF LAND, OWNED BY DELMER WAYNE HOWARD, Montgomery County
Tax Map Parcel No. 020405 and Being MVP Parcel No. VA-MO-5368; 0.24
ACRES OF LAND, OWNED BY TARTLE, LLC, Montgomery Count Tax Map
Parcel No. 002152 and Being MVP Parcel No. VA-MO-5369; 0.22 ACRES OF
LAND, OWNED BY HOLLY R. WIMMER-MCCLANAHAN AND ROBERT
C. MCCLANAHAN, Montgomery County Tax Map Parcel No. 003025 and Being
MVP Parcel No. VA-MO-5371; 0.40 ACRES OF LAND, OWNED BY
ROANOKE VALLEY RESOURCE AUTHORITY, Montgomery County Tax
Map Parcel No. 035144 and Being MVP Parcel No. VA-MO-5374; 0.01 ACRES
OF LAND, OWNED BY CORA LEE SMITH, RUBY J. SMITH, GENE E.
SMITH, GENA D. REED, BETHANY A. SMITH, AND JOHN ERIK SMITH,
Unknown Heirs of Assigns of the Following Cora Lee Smith and Ruby J. Smith,
Montgomery County Tax Map Parcel No. 017721 and Being MVP Parcel No. VAMO-5381; 1.38 ACRES OF LAND, OWNED BY MODE AND ARLEN
JOHNSON AND PAMELA LOUISE FERRANTE, Montgomery County Tax
Map Parcel No. 001262 and Being MVP Parcel No. VA-MO-5519; 3.87 ACRES
OF LAND, OWNED BY MODE AND ARLEN JOHNSON AND PAMELA
LOUISE FERRANTE, Montgomery County Tax Map Parcel No. 032870 and
Being MVP Parcel No. VA-MO-5520; 1.30 ACRES OF LAND, OWNED BY
JOHN GARRET BAKER AND SUZANNE JANE BAKER, Montgomery County
Tax Map Parcel No. 019482 and Being MVP Parcel No. VA-MO-5523; 9.66
ACRES OF LAND, OWNED BY CHARLES BRUCE FUGATE, CURTIS
DEAN FUGATE, AND SHARON FUGATE LINKOUS, Montgomery County
Tax Map Parcel No. 006739 and Being MVP Parcel No. VA-MO-5528; 0.08
ACRES OF LAND, OWNED BY MELVIN L. LINKOUS AND SHARON F.
LINKOUS, Montgomery County Parcel No. 011191 and Being MVP Parcel No.
VA-MO-5758; 0.18 ACRES OF LAND, OWNED BY VALERIE E. GIBSON,

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 97 of 113

Montgomery County Tax Map Parcel No. 014919 and Being MVP Parcel No. VAMO-5788; 1.06 ACRES OF LAND, OWNED BY JOHN R. BAKER AND AMY
G. BAKER, Montgomery County Tax Map Parcel No. 230082 and Being MVP
Parcel No. VA-MO-5882; 0.01 ACRES OF LAND, OWNED BY ANTHONY
EDWARD HESS AND CARMELLA HESS, Montgomery County Tax Map
Parcel No. 003365 and Being MVP Parcel No. VA-MO-5885; 0.08 ACRES OF
LAND, OWNED BY JENNIFER L. FRALEY, Roanoke County Tax Map Parcel
No. 117.00-01-39.00-0000 and Being MVP Parcel No. BVRO-11; 0.22 ACRES
OF LAND, OWNED BY LENORA W. MONTUORI AND LENORA
MONTUORI AND KRISTINA MONTUORI HILLMAN, TRUSTEES OF THE
ANTONIO MONTUORI FAMILY TRUST, Roanoke County Tax Map Parcel No.
117.00-01-41.00-0000 and Being MVP Parcel No. BVRO-12; 0.41 ACRES OF
LAND, OWNED BY JAMES D. SCOTT AND KAREN B. SCOTT, Roanoke
County Tax Map Parcel No. 093.00-01-34.01-0000 and Being MVP Parcel No.
VA-RO-030 (AR RO-281); 2.41 ACRES OF LAND, OWNED BY ANN
ELIZABETH ANDREWS, Roanoke County Tax Map Parcel No. 082.00-0140.00-0000 and Being MVP Parcel No. VA-RO-036; 22.47 ACRES OF LAND,
OWNED BY JAMES LOUIS MAXWELL, III, ELIZABETH MARSHALL
MAXWELL YARBORO, CHARLOTTE RUTH MAXWELL WEAVER, AND
MARY ANN MAXWELL, Roanoke County Tax Map Parcel No. 082.00-0141.00-0000 and Being MVP Parcel No. VA-RO-037; 23.74 ACRES OF LAND,
OWNED BY MARK W. CRONK, ALISON G. CRONK AND THE NATURE
CONSERVANCY, Roanoke County Tax Map Parcel No. 093.00-01-44.00-0000
and Being MVP Parcel No. VA-RO-038; 1.89 ACRES OF LAND, OWNED BY
TRUSTEES OF EVANGEL FOURSQUARE CHURCH, Roanoke County Tax
Map Parcel No. 093.00-01-47.00-0000 and Being MVP Parcel No. VA-RO-039;
2.17 ACRES OF LAND, OWNED BY JAMES D. SCOTT AND KAREN B.
SCOTT, Roanoke County Tax Map Parcel No. 093.00-01-33.00-0000 and Being
MVP Parcel No. VA-RO-042; 0.341 ACRES OF LAND, OWNED JAMES D.
SCOTT AND KAREN B. SCOTT, Roanoke County Tax Map Parcel No. 093.0001-33.01-0000 and Being MVP Parcel No. VA-RO-043; 0.68 ACRES OF LAND,
OWNED BY MICHAEL THOMAS SCOTT, Roanoke County Tax Map Parcel
No. 102.00-01-05.00-0000 and Being MVP Parcel No. VA-RO-044; 0.41 ACRES
OF LAND, OWNED BY LENORA W. MONTUORI, Roanoke County Tax Map
Parcel No. 110.00-01-54.00-0000 and Being MVP Parcel No. VA-RO-058; 2.07
ACRES OF LAND, OWNED BY JOHN D. FULTON, JR. AND JANICE
VANNESS BROKA, Roanoke County Tax Map Parcel No. 110.00-01-55.00-0000
and Bring MVP Parcel No. VA-RO-059; 4.31 ACRES OF LAND, OWNED BY
JAMES T. CHANDLER AND KATHY E. CHANDLER, Roanoke County Tax
Map Parcel No. 111.00-01-62.01-0000 and Being MVP Parcel No. VA-RO-060;

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 98 of 113

4.31 ACRES OF LAND, OWNED BY JAMES T. CHANDLER AND KATHY E.
CHANDLER, Roanoke County Tax Map Parcel No 117.00-01-38.00-0000 and
Being MVP Parcel No. VA-RO-061; 1.91 ACRES OF LAND, OWNED BY
LENORA W. MONTUORI AND LENORA MONTUORI AND KRISTIN
MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO MONTUORI
FAMILY TRUST, Roanoke County Tax Map Parcel No. 117.00-01-43.02-0000
and Being MVP Parcel No. VA-RO-062; 0.91 ACRES OF LAND, OWNED BY
LENORA W. MONTUORI AND LENORA MONTUORI AND KRISTINA
MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO MONTUORI
FAMILY TRUST, Roanoke County Tax Map Parcel No. 117.00-01-43.00-0000,
Being MVP Parcel No. VA-RO-063; 2.99 ACRES OF LAND, OWNED BY
LENORA W. MONTUORI AND LENORA MONTUORI AND KRISTINA
MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO MONTUORI
FAMILY TRUST, Roanoke County Tax Map Parcel No. 117.00-01-46.00-0000
and Being Parcel No. VA-RO-064; 0.20 ACRES OF LAND, OWNED BY
LENORA W. MONTUORI AND LENORA MONTUORI AND KRISTINA
MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO MONTUORI
FAMILY TRU, Roanoke County Tax Map Parcel No. 117.00-01-43.01-0000 and
Being MVP Parcel No. VA-RO-065; 0.19 ACRES OF LAND, OWNED BY
LENORA W. MONTUORI AND LENORA MONTUORI AND KRISTINA
MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO MONTUORI
FAMILY TRUST, Roanoke County Tax Map Parcel No. 117.00-01-42.00-0000
and Being MVP Parcel No. VA-RO-066; 2.43 ACRES OF LAND, OWNED BY
LENORA W. MONTUORI AND LEMORA MONTUORI AND KRISTINA
MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO MONTUORI
FAMILY TRUST, Roanoke County Tax Map Parcel No. 117.00-01-45.00-0000
and Being MVP Parcel No. VA-RO-067; 0.93 ACRES OF LAND, OWNED BY
ALEXANDER B. PHILLIPS AND EMILY M. PHILLIPS, Roanoke County Tax
Map Parcel No. 111.00-01-62.00-0000 and Being MVP Parcel No. VA-RO-4123
(AR RO-287); 0.50 ACRES OF LAND, OWNED BY LENORA W. MONTUORI
AND LENORA MONTUORI AND KRISTINA MONTUORI HILLMAN,
TRUSTEES OF THE ANTONIO MONTUORI FAMILY TRUST, Roanoke
County Tax Map Parcel No. 117.00-01-41.01-0000 and Being MVP Parcel No.
VA-RO-4124; 0.33 ACRES OF LAND, OWNED BY LENORA W. MONTUORI
AND LENORA MONTUORI AND KRISTINA MONTUORI HILLMAN,
TRUSTEES OF THE ANTONIO MONTUORI FAMILY TRUST, Roanoke
County Tax Map Parcel No. 117.00-01-41.02-0000 and Being MVP Parcel No.
VA-RO-4125; 0.50 ACRES OF LAND, OWNED BY RANDALL KEITH
EPPERLY AND JOANN ALICE EPPERLY, Roanoke County Tax Map Parcel
No. 082.00-01-17.00-0000 and Being MVP Parcel No. VA-RO-5225 (AR MN-

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 99 of 113

278.01); 0.64 ACRES OF LAND, OWNED BY DONALD EVERETT MELTON,
a/k/a Don E. Melton, Roanoke County Tax Map Parcel No. 082.00-01-16.00-0000
and Being MVP Parcel No. VA-RO-5226 (AR MN-278.01); 0.09 ACRES OF
LAND, OWNED BY DONALD EVERETT MELTON, Roanoke County Tax
Map Parcel No. 082.00-01-15.00-0000 and Being MVP Parcel No. VA-RO-5227
(AR MN-278.01); 0.02 ACRES OF LAND, OWNED BY BD INVESTMENTS
OF ROANOKE, LLC, Roanoke County Tax Map Parcel No. 111.00-01-63.000000 Being MVP Parcel No. VA-RO-5231 (AR RO-287); 0.01 ACRES OF
LAND, OWNED BY JEREMY JOSEPH RICE AND MICHELLE RENEE RICE,
Roanoke County Tax Map Parcel No. 111.00-01-58.00-0000 and Being MVP
Parcel No. VA-RO-5627; 0.25 ACRES OF LAND, OWNED BY CHELSEA
CAMPER, Roanoke County Tax Map Parcel No. 063.00-01-20.04-0000 and Being
MVP Parcel No. VA-RO-5782; 0.21 ACRES OF LAND, OWNED BY WILLIAM
J. CORRELL, SR. AND NADINE E. CORRELL, Roanoke County Tax Map
Parcel No. 063.00-01-20.02-0000 and Being MVP Parcel No. VA-RO-5783; 0.11
ACRES OF LAND, OWNED BY WILLIAM J. CORRELL, SR. AND NADINE
E. CORRELL, Roanoke County Tax Map Parcel No. 063.00-01-20.01-0000 and
Being MVP Parcel No. VA-RO-5784; 1.53 ACRES OF LAND, OWNED BY
STEPHEN W. BERNARD AND ANNE W. BERNARD, Franklin County Tax
Map Parcel No. 0370001901 and Being MVP Parcel No. BVA-FR-13; 0.16
ACRES OF LAND, OWNED BY PAUL L. WILSON AND PEGGY M.
WILSON, Franklin County Tax Map Parcel No. 04300-05005 and Being MVP
Parcel No. BVR-24; 5.38 ACRES OF LAND, OWNED BY LUCY A. PRICE,
Franklin County Tax Map Parcel No. 0240003400 and Being MVP Parcel No.
VA-FR-008; 5.73 ACRES OF LAND, OWNED BY SHIRLEY BOWMAN
JAMISON, Franklin County Tax Map Parcel No. 0240004400 and Being MVP
Parcel No. VA-FR-009; 3.11 ACRES OF LAND, OWNED BY RUSSELL E.
CALLAWAY AND HEIDE K. CALLAWAY, Franklin County Tax Map Parcel
No. 0240005400 and Being MVP Parcel No. VA-FR-015.02; 1.28 ACRES OF
LAND, OWNED BY ALAN R. HARTMAN, Franklin County Tax Map Parcel
No. 0250002500 and being MVP Parcel No. VA-FR-017.04; 3.86 ACRES OF
LAND, OWNED BYJESSE ALBERT WEBSTER, Franklin County Tax Map
Parcel No. 0250002800 and being MVP Parcel No. VA-FR-017.06; 1.77 ACRES
OF LAND, OWNED BYJESSE ALBERT WEBSTER, Franklin County Tax Map
Parcel No. 0250002400 and being MVP Parcel No. VA-FR-017.07; 2.23 ACRES
OF LAND, OWNED BY MARTHA A. MCDEARMON, Franklin County Tax
Map Parcel No. 0250003801and being MVP Parcel No. VA-FR-017.10; 8.21
ACRES OF LAND, OWNED BY OCCANNEECHI, INC., Franklin County Tax
Map Parcel No. 0250004100 and being MVP Parcel No. VA-FR-017.11; 0.70
ACRES OF LAND, OWNED BY RICHARD H. MCDEARMON, JR. AND

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 100 of 113

ELLEN C. WALTON, Franklin County Tax Map Parcel No. 0380000201D and
being MVP Parcel No. VA-FR-017.12; 0.83 ACRES OF LAND, OWNED BY
RICHARD H. MCDEARMON, JR. AND ELLEN C. WALTON, Franklin County
Tax Map Parcel No. 0380000201B and being MVP Parcel No. VA-FR-017.13;
21.98 ACRES OF LAND, OWNED BY OCCANNEECHI, INC., Franklin County
Tax Map Parcel No. 0380001501 and being MVP Parcel No. VA-FR-017.15; 0.49
ACRES OF LAND, OWNED BY J. CLARK JAMISON, JR., SHIRLEY
BOWMAN JAMISON, AND MARIE KATHERINE FLORA JAMISON
GOGGIN, Franklin County Tax Map Parcel No. 0380001300 and being MVP
Parcel No. VA-FR-017.16; 0.55 ACRES OF LAND, OWNED BY J. CLARK
JAMISON, JR., SHIRLEY BOWMAN JAMISON, AND MARIE KATHERINE
FLORA JAMISON GOGGIN, Franklin County Tax Map Parcel No. 0380005100
and being MVP Parcel No. VA-FR-017.19; 5.93 ACRES OF LAND, OWNED
BY CHARLES FREDERICK FLORA AND STEPHANIE M. FLORA, Franklin
County Tax Map Parcel No. 0380002002 and being MVP Parcel No. VA-FR017.20; 5.88 ACRES OF LAND, OWNED BY WENDELL WRAY FLORA AND
MARY MCNEIL FLORA, Franklin County Tax Map Parcel No. 0380002000 and
being MVP Parcel No. VA-FR-017.21; 0.04 ACRES OF LAND, OWNED BY
GLENN C. FRITH AND LINDA K. FRITH, TRUSTEES OF THE FRITH
LIVING TRUST, Franklin County Tax Map Parcel No. 0380001900 and being
MVP Parcel No. VA-FR-017.24; 3.70 ACRES OF LAND, OWNED BY
MICHAEL S. HURT AND MARY FRANCES K. HURT, Franklin County Tax
Map Parcel No. 0380002204 and being MVP Parcel No. VA-FR-017.25; 2.02
ACRES OF LAND, OWNED BY GLENN C. FRITH AND LINDA K. FRITH,
TRUSTEES OF THE FRITH LIVING TRUST, Franklin County Tax Map Parcel
No. 0380002500 and being MVP Parcel No. VA-FR-017.26; 0.12 ACRES OF
LAND, OWNED BY GLENN W. LOVELESS AND JUNE S. LOVELESS,
Franklin County Tax Map Parcel No. 0370011106 and being MVP Parcel No. VAFR-017.37; 0.25 ACRES OF LAND, OWNED BY HEATHERWOOD
PROPERTIES, INC, Franklin County Tax Map Parcel No. 0370010900 and being
MVP Parcel No. VA-FR-017.40,; 0.23 ACRES OF LAND, OWNED BY
RAYMOND THOMAS WORRELL AND LINDA D. WORRELL, Franklin
County Tax Map Parcel No. 0370001510 and being MVP Parcel No. VA-FR017.42; 1.97 ACRES OF LAND, OWNED BY KEITH M. WILSON AND
MARY K. WILSON, Franklin County Tax Map Parcel No. 0370009906 and being
MVP Parcel No. VA-FR-017.44; 1.74 ACRES OF LAND, OWNED BY DEREK
T. HANES AND MARION C. HANES, Franklin County Tax Map Parcel No.
0370009305 A and being MVP Parcel No. VA-FR-047; 4.35 ACRES OF LAND,
OWNED BY LYNN R. FLORA AND CYNTHIA D. FLORA, Franklin County
Tax Map Parcel No. 0370009301 and being MVP Parcel No. VA-FR-049; 2.84

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 101 of 113

ACRES OF LAND, OWNED BY LYNN RAY FLORA, Franklin County Tax
Map Parcel No. 0370008500 and being MVP Parcel No. VA-FR-050; 8.97
ACRES OF LAND, OWNED BY ROBERT G. IKENBERRY, Franklin County
Tax Map Parcel No. 0370017700 and being MVP Parcel No. VA-FR-053; 0.06
ACRES OF LAND, OWNED BY ORREN RICHARD ANDERSON AND
GENEVA BELL ANDERSON, Franklin County Tax Map Parcel No. 0370018101
and being MVP Parcel No. VA-FR-054.002; 0.66 ACRES OF LAND, OWNED
BY COUNTY OF FRANKLIN, Franklin County Tax Map Parcel No.
0370005400 and being MVP Parcel No. VA-FR-063; 5.16 ACRES OF LAND,
OWNED BY THE COUNTY OF FRANKLIN, Franklin County Tax Map Parcel
No. 0370005300 and being MVP Parcel No. VA-FR-064; 6.24 ACRES OF
LAND, OWNED BY C. GALEN FISHER, GALEN TODD FISHER, AND
RYAN GALEN FISHER, Franklin County Tax Map Parcel No. 0430004900 and
being MVP Parcel No. VA-FR-068; 8.21 ACRES OF LAND, OWNED BY
LONGVIEW HOLSTEINS, INC., Franklin County Tax Map Parcel No.
0430021500 and being MVP Parcel No. VA-FR-075; 0.07 ACRES OF LAND,
OWNED BY DALE E. ANGLE AND MARY A. ANGLE, TRUSTEES OF THE
DALE E. ANGLE AND MARY A. ANGLE JOINT REVOCABLE TRUST,
Franklin County Tax Map Parcel No. 0440006400 and being MVP Parcel No. VAFR-077.01; 2.14 ACRES OF LAND, OWNED BY DALE E. ANGLE AND
MARY A. ANGLE, TRUSTEES UNDER THE DALE E. AND MARY A.
ANGLE JOINT REVOCABLE TRUST, Franklin County Tax Map Parcel No.
0440006501 and being MVP Parcel No. VA-FR-078; 8.21 ACRES OF LAND,
OWNED BY DALE E. ANGLE AND MARY A. ANGLE, TRUSTEES OF THE
DALE E. ANGLE AND MARY A. ANGLE JOINT REVOCABLE TRUST,
Franklin County Tax Map Parcel No. 0440006500 and being MVP Parcel No. VAFR-079; 11.86 ACRES OF LAND, OWNED BY DONALD B. BARNHART,
Franklin County Tax Map Parcel No. 0440007300 and being MVP Parcel No. VAFR-081; 8.37 ACRES OF LAND, OWNED BY RICHARD LYNCH, TRUSTEE
OF THE CATHERINE R. BECKNER IRREVOCABLE TRUST, Franklin County
Tax Map Parcel No. 0450008000 and being MVP Parcel No. VA-FR-115; 1.17
ACRES OF LAND, OWNED BY RONDA DIANE ROOPE OSBORNE AND
MICHAEL WAYNE ROOPE, Franklin County Tax Map Parcel No. 0450003300
and being MVP Parcel No. VA-FR-125; 10.21 ACRES OF LAND, OWNED BY
WILLIAM DAVID BOARD, JAMES R. BOARD, SUSAN BOARD MYERS,
NANCY B. FLORA, AND KENNETH CRAIG BOARD, Franklin County Tax
Map Parcel No. 0450006100 and being MVP Parcel No. VA-FR-128; 5.56
ACRES OF LAND, OWNED BY FRANKLIN REAL ESTATE COMPANY,
Franklin County Tax Map Parcel No. 0530012101 and being MVP Parcel No. VAFR-148; 4.82 ACRES OF LAND, OWNED BY FRANKLIN REAL ESTATE

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 102 of 113

COMPANY, Franklin County Tax Map Parcel No. 0530012600 and being MVP
Parcel No. VA-FR-151; 0.30 ACRES OF LAND, OWNED BY ROBERT ALAN
PEGRAM, Franklin County Tax Map Parcel No. 0650401600 and being MVP
Parcel No. VA-FR-155.01; 0.03 ACRES OF LAND, OWNED BY MICHAEL A.
DEEMS AND ELIZABETH A. DEEMS, Franklin County Tax Map Parcel No.
06504-02500 and being MVP Parcel No. VA-FR-155.02; 0.63 ACRES OF LAND,
OWNED BY MICHAEL A. DEEMS AND ELIZABETH A. DEEMS, Franklin
County Tax Map Parcel No. 06504-02600 and being MVP Parcel No. VA-FR-156;
6.74 ACRES OF LAND, OWNED BY EDWARDS PROPERTIES, LTD,
Franklin County Tax Map Parcel No. 0660004300 and being MVP Parcel No. VAFR-170; 0.94 ACRES OF LAND, OWNED BY UNKNOWN HEIRS OR
ASSIGNS OF ANDREW L. POINDEXTER AND ANDREW POINDEXTER,
Franklin County Tax Map Parcel No. 0660010500 and being MVP Parcel No. VAFR-174; 2.66 ACRES OF LAND, OWNED BY CHRISTOPHER ERIC
LAMBERT AND JODI E. LAMBERT, Franklin County Tax Map Parcel No.
0660010600 and being MVP Parcel No. VA-FR-175; 1.23 ACRES OF LAND,
OWNED BY SHARON E. LAMBERT, Franklin County Tax Map Parcel No.
0660010602 and being MVP Parcel No. VA-FR-176; 0.36 ACRES OF LAND,
OWNED BY JOSEPH E. LAMBERT AND MARY I. LAMBERT, Franklin
County Tax Map Parcel No. 0660010601 and being MVP Parcel No. VA-FR-177;
3.05 ACRES OF LAND, OWNED BY ANN C. CLEMENTS AND MARY
ARRINGTON CLEMENTS, Franklin County Tax Map Parcel No. 0660011000
and being MVP Parcel No. VA-FR-179; 1.57 ACRES OF LAND, OWNED BY
ROBERT B. WORKMAN, III AND JOAN M. WORKMAN, Franklin County
Tax Map Parcel No. 0680007000 and being MVP Parcel No. VA-FR-196.02; 1.85
ACRES OF LAND, OWNED BY OYLER LAND AND LEASING, LLC,
Franklin County Tax Map Parcel No. 0240004000 and being MVP Parcel No. VAFR-4126 (AR FR-291); 0.65 ACRES OF LAND, OWNED BY MICHAEL S.
HURT AND MARY FRANCES K. HURT, Franklin County Tax Map Parcel No.
0380002204A and being MVP Parcel No. VA-FR-4130 (AR FR-294); 0.01
ACRES OF LAND, OWNED BY JAMES WALTER WRAY, Franklin County
Tax Map Parcel No. 0440006701and being MVP Parcel No. VA-FR-4138.001
(AR FR-305); 0.83 ACRES OF LAND, OWNED BY SUSAN BOARD MYERS,
WILLIAM DAVID BOARD, KENNETH CRAIG BOARD, AND NANCY
BOARD FLORA, a/k/a William D. Board, Franklin County Tax Map Parcel No.
0450012003and being MVP Parcel No. VA-FR-4141 (AR FR-313); 0.01 ACRES
OF LAND, OWNED BY JOSEPH B. PHELPS AND ALESHIA V. PHELPS,
Franklin County Tax Map Parcel No. 0530200100and being MVP Parcel No. VAFR-4143 (AR FR-315); 0.52 ACRES OF LAND, OWNED BY PREDELMA
O'NEAL HALL, Franklin County Tax Map Parcel No. 0660004400 and being

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 103 of 113

MVP Parcel No. VA-FR-4144 (AR FR-320); 0.14 ACRES OF LAND, OWNED
BY PENHOOK UNITED METHODIST CHURCH, Franklin County Tax Map
Parcel No. 0660012101 and being MVP Parcel No. VA-FR-4146 (AR FR-323);
0.01 ACRES OF LAND, OWNED BY RONDA DIANE ROOPE OSBORNE,
Franklin County Tax Map Parcel No. 0450003200 and being MVP Parcel No. VAFR-4276; 0.56 ACRES OF LAND, OWNED BY OWNED BY WILLIAM D.
BOARD, Franklin County Tax Map Parcel No. 0450012005 and being MVP
Parcel No. VA-FR-4277 (AR FR-313); 0.97 ACRES OF LAND, OWNED BY
WILLIAM DAVID BOARD, KENNETH CRAIG BOARD, SUSAN B. MYERS,
NANCY B. FLORA, AND JAMES R. BOARD, Franklin County Tax Map Parcel
No. 0450012001 and being MVP Parcel No. VA-FR-4278 (AR FR-313); 0.34
ACRES OF LAND, OWNED BY NANCY LORRAINE BRITTON AND
KENITH DWAIN BRITTON, SR., TRUSTEES OF THE NANCY LORRAINE
BRITTON AND KENITH DWAIN BRITTON, SR. LIVING TRU, Franklin
County Tax Map Parcel No. 0450006402 and being MVP Parcel No. VA-FR5388; 1.66 ACRES OF LAND, OWNED BY BRIAN H. KINSEY, GEORGE D.
KINSEY, JR., AND STEVEN D. KINSEY, Franklin County Tax Map Parcel No.
0380003402E and being MVP Parcel No. VA-FR-5392; 0.09 ACRES OF LAND,
OWNED BY TIMOTHY J. LAWLESS AND MEGAN K. LAWLESS, Franklin
County Tax Map Parcel No. 0370009905A and being MVP Parcel No. VA-FR5410; 0.12 ACRES OF LAND, OWNED BY ANGELA L. MCGHEE AND
FREDRICK C. MCGHEE, Franklin County Tax Map Parcel No. 0370009905 and
being MVP Parcel No. VA-FR-5411; 0.07 ACRES OF LAND, OWNED BY
RUSSELL W. LAWLESS, Franklin County Tax Map Parcel No. 0370009907 and
being MVP Parcel No. VA-FR-5413; 0.02 ACRES OF LAND, OWNED BY
DIANA M. PERKINSON, Franklin County Tax Map Parcel No. 0370009600 and
being MVP Parcel No. VA-FR-5416; 0.16 ACRES OF LAND, OWNED BY
CHRISTINE JEANNETTE DAVIS, Franklin County Tax Map Parcel No.
0370009902 and being MVP Parcel No. VA-FR-5417; 0.09 ACRES OF LAND,
OWNED BY ANDREW P. BUCKMAN AND SHARON H. BUCKMAN,
Franklin County Tax Map Parcel No. 0370009911 and being MVP Parcel No. VAFR-5418; 0.02 ACRES OF LAND, OWNED BY JOHN L. BARBAZON AND
LAURA S. BARBAZON, Franklin County Tax Map Parcel No. 0370009901 and
being MVP Parcel No. VA-FR-5419; 0.27 ACRES OF LAND, OWNED BY LEE
A. FLORA, LYNN R. FLORA, AND PAMELA FLORA SWEENEY, Franklin
County Tax Map Parcel No. 0370009913 and being MVP Parcel No. VA-FR5420; 0.15 ACRES OF LAND, OWNED BY FRANK H. BISCARDI AND
JACQUELINE S. BISCARDI, Franklin County Tax Map Parcel No. 0370009900
and being MVP Parcel No. VA-FR-5421; 0.04 ACRES OF LAND, OWNED BY
RONALD B. EDWARDS, SR., GLORIA MARTIN, TERRANCE EDWARDS,

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 104 of 113

LINDA WHITE, RUBY PENN, JANIS E. WALLER, CRYSTAL DIANE
EDWARDS, AND PENNY EDWARDS BLUE, Franklin County Tax Map Parcel
No. 0660009502 and being MVP Parcel No. VA-FR-5434; 0.04 ACRES OF
LAND, OWNED BY CRYSTAL DIANE EDWARDS, Franklin County Tax Map
Parcel No. 0660009602 and being MVP Parcel No. VA-FR-5437; 0.88 ACRES
OF LAND, OWNED BY DANIEL PAYNE WRIGHT AND DONALD WAYNE
WRIGHT, Franklin County Tax Map Parcel No. 0660007700 and being MVP
Parcel No. VA-FR-5441; 1.71 ACRES OF LAND, OWNED BY LYDIA
LAVERNE BROWN, Franklin County Tax Map Parcel No. 0440015700 and
being MVP Parcel No. VA-FR-5483; 2.02 ACRES OF LAND, OWNED BY
PAUL F. CRAWFORD, Franklin County Tax Map Parcel No. 0440016301 and
being MVP Parcel No. VA-FR-5488; 1.49 ACRES OF LAND, OWNED BY
UNKNOWN SUCCESSOR TRUSTEE OF THE LACY F. DUDLEY
DECLARATION OF REVOCABLE TRUST AND ROSE MARIE DUDLEY,
Franklin County Tax Map Parcel No. 0440200500 and being MVP Parcel No. VAFR-5490; 0.44 ACRES OF LAND, OWNED BY SHELBY A. LAW, Franklin
County Tax Map Parcel No. 0440200400 and being MVP Parcel No. VA-FR5492; 3.15 ACRES OF LAND, OWNED BY ROBERT WAYNE MORGAN
AND PATRICIA ANN MORGAN, Franklin County Tax Map Parcel No.
0440018700 and being MVP Parcel No. VA-FR-5493; 0.01 ACRES OF LAND,
OWNED BY ROY A. STEVENS, Franklin County Tax Map Parcel No.
0440018800 and being MVP Parcel No. VA-FR-5496; 0.14 ACRES OF LAND,
OWNED BY ANTHONY B. NOVITZKI, Franklin County Tax Map Parcel No.
0440206600 and being MVP Parcel No. VA-FR-5500; 5.51 ACRES OF LAND,
OWNED BY MARK A. DIVERS AND MARIE P. DIVERS, Franklin County
Tax Map Parcel No. 0440019801A and being MVP Parcel No. VA-FR-5501; 0.02
ACRES OF LAND, OWNED BY DANIEL G. MYERS AND DEBORAH L.
MYERS, Franklin County Tax Map Parcel No. 0440019801 and being MVP
Parcel No. VA-FR-5502; 3.11 ACRES OF LAND, OWNED BY JAMES
GLYNWOOD HAYNES, JR., Franklin County Tax Map Parcel No. 0440020001
and being MVP Parcel No. VA-FR-5504; 0.95 ACRES OF LAND, OWNED BY
JAMES GLYNWOOD HAYNES, JR., Franklin County Tax Map Parcel No.
0440019500 and being MVP Parcel No. VA-FR-5505; 0.38 ACRES OF LAND,
OWNED BY JAMES GLYNWOOD HAYNES, JR., Franklin County Tax Map
Parcel No. 0440019300 and being MVP Parcel No. VA-FR-5507; 3.76 ACRES
OF LAND, OWNED BY CATHERINE BECKNER KINGERY, Franklin County
Tax Map Parcel No. 0440020401 and being MVP Parcel No. VA-FR-5508; 0.07
ACRES OF LAND, OWNED BY MICHAEL S. LAMBERT AND KELLY O.
LAMBERT, Franklin County Tax Map Parcel No. 0660010200 and being MVP
Parcel No. VA-FR-5745; 0.10 ACRES OF LAND, OWNED BY UNKNOWN

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 105 of 113

HEIRS OR ASSIGNS OF ANDREW L. POINDEXTER AND ANDREW
POINDEXTER, Franklin County Tax Map Parcel No. 0660010300 and being
MVP Parcel No. VA-FR-5746; 0.08 ACRES OF LAND, OWNED BY
CHRISTOPHER E. LAMBERT AND JODI E. LAMBERT, Franklin County Tax
Map Parcel No. 0660010400 and being MVP Parcel No. VA-FR-5747; 0.04
ACRES OF LAND, OWNED BY BRUCE M. WOOD AND JENNIFER M.
WOOD, Franklin County Tax Map Parcel No. 0440200600 and being MVP Parcel
No. VA-FR-5791; 0.16 ACRES OF LAND, OWNED BY LEALDA T. ANGLE,
Franklin County Tax Map Parcel No. 0440020300 and being MVP Parcel No. VAFR-5892; 7.34 ACRES OF LAND, OWNED BY LEWIS O CLEMENTS,SR,
ANTHONY GRAY,KATHY POINDEXTER, LEAN C ROBERTSON, NADINE
B PERKINS, ANTHONY BROWN, HENRY ISAIAH NEWBILL, MARVIN
NEWBILL,LAVERNE N DAVIS, ALICE N DAVIS,THOMAS DOUGLAS
CLEMENTS, JR., HENRY LOUIS CLEMENTS, DWIGHT CLEMENTS,
NATHAN CLEMENTS, DOROTHY C TURNER, CHARLOTTE C DAY,
LAURA CLEMENTS, CLARA CLEMENTS, AND ELAINE HUBBARD
UNKNOWN HEIRS OR ASSIGNS OF THOMAS D CLEMENTS,SR,TORI C
GRAY, REBECCA CLEMENTS, NORA CLEMENTS, a/k/a Thomas Clement,
a/k/a Helen Glass, Pittsylvania Co TaxNo1489-09-2901;MVPNo VA-PI-026; 1.13
ACRES OF LAND,OWNED BY LEWIS O CLEMENTS, SR, ANTHONY
GRAY,KATHY POINDEXTER, LEAN C ROBERTSON, NADINE B
PERKINS,ANTHONY BROWN, HENRY ISAIAH NEWBILL, MARVIN
NEWBILL, LAVERNE N DAVIS, ALICE N DAVIS,THOMAS DOUGLAS
CLEMENTS,JR, HENRY LOUIS CLEMENTS, DW, a/k/a The Heirs or Assigns
of Thomas Clements, a/k/a Thomas Clement, a/k/a Helen Glass, a/k/a Unknown
Heirs and Assigns of Rebecca Clements, a/k/a Unknown Heirs and Assigns of
Nora Clements, Pittsylvania Co Tax No 1580-00-0360; MVPNoVA-PI-026.01;
1.12 ACRES OF LAND, OWNED BY LEWIS O CLEMENTS,JR, GENEVA C
PINKNEY, ANTHONY GRAY, KATHY POINDEXTER, MARVIN NEWBILL,
LAVERNE N DAVIS, ALICE N DAVIS SAM CLEMENTS, REBECCA
GLASS, ELAINE HUBBARD, DWIGHT CLEMENTS, THOMAS DOUGLAS
CLEMENTS,JR, HENRY LOUIS CLEMENTS, NATHAN CLEMENTS,
DOROTHY C TURNER, AND CHARLOTTE C DAY, a/k/a The Heirs or
Assigns of Thomas Clements, a/k/a Unknown Heirs or Assigns of Tori C. Gray,
a/k/a Unknown Heirs or Assigns of Nora Clements, a/k/a Helen Glass, a/k/a
Unknown Heirs or Assigns of Rebecca Clements, Pittsylvania Co TaxNo.1580-008311; MVPNo.VA-PI-026.02; 0.12 ACRES OF LAND, OWNED BY EUGENE
RYLAND MOTLEY AND NANCYE B. MOTLEY, Pittsylvania County Tax Map
Parcel No. 2418-41-9409 and being MVP Parcel No. VA-PI-071.01; 0.05 ACRES
OF LAND, OWNED BY DEAN M. POWELL AND ANNETTE S. POWELL,

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 106 of 113

Pittsylvania County Tax Map Parcel No. 2417-49-1304 and being MVP Parcel No.
VA-PI-072; 2.07 ACRES OF LAND, OWNED BY LAKE ANNA
INVESTMENTS, LC, Pittsylvania County Tax Map Parcel No. 2418-50-8820 and
being MVP Parcel No. VA-PI-072.01; 11.07 ACRES OF LAND, OWNED BY A.
DOUGLAS DALTON JR., Pittsylvania County Tax Map Parcel No. 2417-584539 and being MVP Parcel No. VA-PI-073; 2.99 ACRES OF LAND, OWNED
BY COMMONWEALTH FOREST INVESTMENTS, INC., Pittsylvania County
Tax Map Parcel No. 2417-89-1099 and being MVP Parcel No. VA-PI-081.01;
1.09 ACRES OF LAND, OWNED BY COMMONWEALTH FOREST
INVESTMENTS, INC., Pittsylvania County Tax Map Parcel No. 2417-87-1135
and being MVP Parcel No. VA-PI-085 (AR PI-338); 1.60 ACRES OF LAND,
OWNED BY SANDRA Y. JEFFCOAT, SABRINA D. PERRY, JOHN D.
WHITTLE, III, ANTHONY J. WHITTLE, SR., DERRICK A. WHITTLE, SR.
AND ELTON G. WHITTLE, SR., Pittsylvania County Tax Map Parcel No. 242712-7078 and being MVP Parcel No. VA-PI-091; 0.30 ACRES OF LAND,
OWNED BY GWENDOLYN F. GREEN UNKNOWN HEIRS AND ASSIGNS
OF THE FOLLOWING LAURA JONES, LIZZIE JONES, JESSIE JONES,
ANNIE JONES, Pittsylvania County Tax Map Parcel No. 2427-30-5719 and being
MVP Parcel No. VA-PI-095; 1.85 ACRES OF LAND, OWNED BY TOWN OF
CHATHAM, Pittsylvania County Tax Map Parcel No. Town of Chatham - Tax
Exempt and being MVP Parcel No. VA-PI-103.01; 0.18 ACRES OF LAND,
OWNED BY OAK GROVE CHRISTIAN CHURCH, Pittsylvania County Tax
Map Parcel No. 2417-68-8838 and being MVP Parcel No. VA-PI-4155 (AR PI337); 0.08 ACRES OF LAND, OWNED BY BARBARA SLOAN
FITZGERALD, CHERYL FERGUSON, STEPHANIE L WALDEN, ARETHA
JO FITZGERALD, BARBARA A FITZGERALD, JAMES FITZGERALD,
RUBY FITZGERALD, LOIS MARIE FITZGERALD, BARBARA ANN
FITZGERALD, CARABELL FITZGERALD, UNKNOWN HEIRS AND
ASSIGNS OF FOREST FITZGERALD, MILDRED FITZGERALD, DOUGLAS
FITZGERALD, JOE LOUIS FITZGERALD, FOREST FITZGERALD, JR,
Pittsylvania County Tax Map Parcel No. 2427-30-5083 and being MVP Parcel No.
VA-PI-4157 (AR PI-340); 0.35 ACRES OF LAND, OWNED BY BARBARA
SLOAN FITZGERALD, CHERYL FERGUSON, STEPHANIE L WALDEN,
ARETHA JO FITZGERALD, BARBARA A FITZGERALD, JAMES
FITZGERALD, RUBY FITZGERALD, LOIS MARIE FITZGERALD,
BARBARA ANN FITZGERALD, CARABELL FITZGERALD, UNKNOWN
HEIRS AND ASSIGNS OF FOREST FITZGERALD, MILDRED
FITZGERALD, DOUGLAS FITZGERALD, JOE LOUIS FITZGERALD,
FOREST FITZGERALD, Pittsylvania County Tax Map Parcel No. 2427-30-4184
and being MVP Parcel No. VA-PI-5156; UNKNOWN OWNERS; 6.50 ACRES

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 107 of 113

OF LAND, MORE OR LESS, OWNED BY NEW RIVER CONSERVANCY,
INC., Located in Giles County, Virginia being a portion of Giles County Tax Map
Parcel No. 29-25B and being MVP Parcel No. VA-GI-035; 1.38 ACRES OF
LAND, OWNED BY HENRY COX AND JANET DEGROFF, Montgomery
County Tax Map Parcel No. 001262 and Being MVP Parcel No. VA-MO-5519;
1.06 ACRES OF LAND, OWNED BY JOHN GARRETT BAKER AND
SUZANNE JANE BAKER, Montgomery County Tax Map Parcel No. 230082 and
Being MVP Parcel No. VA-MO-5882; 0.16 ACRES OF LAND, OWNED BY
RONNIE ALLEN ANGLE, Franklin County Tax Map Parcel No. 0440020300
and being MVP Parcel No. VA-FR-5892; 0.18 ACRES OF LAND, OWNED BY
MICHAEL EPPERLY, Montgomery County Tax Map Parcel No. 014919 and
Being MVP Parcel No. VA-MO-5788; 0.01 ACRES OF LAND, OWNED BY
LONNIE L. LESTER AND JUDITH P. LESTER, Roanoke County Tax Map
Parcel No. 111.00-01-61.01-0000 and Being MVP Parcel No. VA-RO-5229 (AR
RO-287); 0.04 ACRES OF LAND, OWNED BY MICHELLE R. LESTER,
Roanoke County Tax Map Parcel No. 111.00-01-61.03-0000 and Being MVP
Parcel No. VA-RO-5224 (AR RO-287); 0.06 ACRES OF LAND, OWNED BY
MICHAEL L. LESTER AND TERESA A. LESTER, Roanoke County Tax Map
Parcel No. 111.00-01-61.02.0000 and Being MVP Parcel No. VA-RO-5223 (AR
RO-287); 0.03 ACRES OF LAND, OWNED BY GEORGE ROBERT
FERGUSON AND DANA MICHELLE FERGUSON, Roanoke County Tax Map
Parcel No. 111.00-01-56.00-0000 and Being MVP Parcel No. VA-RO-5221 (AR
RO-287); 0.05 ACRES OF LAND, OWNED BY TEDDY D. CROWE AND
SUSAN F. CROWE, Roanoke County Tax Map Parcel No. 111.00-01-56.05-0000
and Being MVP Parcel No. VA-RO-5218 (AR RO-287); 0.36 ACRES OF LAND,
OWNED BY BETTY E. MCCOY, AND EDWARD CONNER, f/k/a Betty Eloise
Conner, f/k/a Betty T. Conner, Roanoke County Tax Map Parcel No. 111.00-0156.03-0000 and Being MVP Parcel No. VA-RO-5217 (AR RO-287); 0.35 ACRES
OF LAND, OWNED BY KERMIT C. CROWE AND ALVA T. CROWE,
Roanoke County Tax Map Parcel No. 111.00-01-56.02-0000 and Being MVP
Parcel No. VA-RO-5216 (AR RO-287); 0.52 ACRES OF LAND, OWNED BY
EMILIE M. OWEN AND RICHARD CLARK OWEN, Franklin County Tax Map
Parcel No. 0380002204B and being MVP Parcel No. VA-FR-4129 (AR FR-294);
1.29 ACRES OF LAND, OWNED BY ROBERT M. JONES AND DONNA
THOMAS JONES, Montgomery County Tax Map Parcel No. 024591 and Being
MVP Parcel No. VA-MO-5512; 1.81 ACRES OF LAND, OWNED BY ROBERT
M. JONES AND DONNA THOMAS JONES, Montgomery County Tax Map
Parcel No. 024588 and Being MVP Parcel No. VA-MO-5511; 6.56 ACRES OF
LAND, OWNED BY SANDRA TOWNES POWELL, Montgomery County Tax
Map Parcel No. 015900 and Being MVP Parcel No. VA-MO-3370

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 108 of 113

Defendants
-----------------------------OWNER'S COUNSEL OF AMERICA
Amicus Supporting Rehearing Petition
___________________
No. 18-1300
(2:17-cv-04214)
___________________
MOUNTAIN VALLEY PIPELINE, LLC
Plaintiff - Appellee
v.
CHERYL L. BOONE, Parcel ID No. 7-7-27.2; KERRY N. BOONE, Parcel ID
No. 7-7-27.2; ORUS ASHBY BERKLEY, Parcel ID No. 7-15A-13, 7-15A-13.1;
MARJORIE BOOTHE, Parcel ID No. 03-18-3; TAMMY A. CAPALDO, Parcel
ID No. 7-15-125; CARLA D. FOUNTAIN, Parcel ID No. 05-19-36, 05-19-24;
DENNIS F. FOUNTAIN, Parcel ID No. 05-19-36, 05-19-24; ROBERT M.
JARRELL, Parcel ID No. 7-11-15; DAVID ALLEN JOHNSON, Parcel ID No.
05-19-9; EVERETT JOHNSON, JR., Parcel ID No. 05-19-9; WAYNE
JOHNSON, Parcel ID No. 05-19-9; MAURY JOHNSON, Parcel ID No. 05-19-9;
ELISABETH TOBEY, Parcel ID No. 11-84-10; RONALD TOBEY, Parcel ID No.
11-84-10; PATRICIA J. WILLIAMS, Parcel ID No. 05-25-1.13
Defendants - Appellants
and
D. LANE MCMILLION, Parcel ID No. 1-13-49, 1-13-68; DALE L.
MCMILLION, Parcel ID No. 1-13-49, 1-13-68; ALICIA D. MCMILLION, Parcel
ID No. 1-13-49, 1-13-68; PACO LANE, INC., Parcel ID No. 1-18-69; BRIAN
ARMSTRONG, Parcel ID Nos. 1-18-86, 1-18-84; BETH ARMSTRONG, Parcel

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 109 of 113

ID Nos. 1-18-86, 1-18-84; JERRY ALLEN HAMMONS, Parcel ID No. 1-24-35;
MARY E. HAMMONS, Parcel ID No. 1-24-35; BRUCE A. ROBERTS, Parcel ID
No. 5-34-2; KIMBERLY ROBERTS, Parcel ID No. 5-34-2; TODD E. WHITE,
Parcel ID No. 5-34-4; TAMARA L. WHITE DELONG, Parcel ID No. 5-34-4;
VIRGINIA D. MCCLUNG, Parcel ID No. 1-24-7; CONNIE MCCLUNG, Parcel
ID No. 1-24-7; ARTIE ORLENA ROBINSON, Parcel ID No. 5-14-22; DAVID
LANE ROBINSON, Parcel ID No. 5-14-22; QUINWOOD COAL COMPANY,
f/k/a Alex Energy, LLC, f/k/a Alex Energy, Incorporated, f/k/a Green Valley Coal
Company, LLC, Parcel ID No. 5-15-28, 5-20-48, 11-30-19; C. L. KEENER, Estate
of (Parcel ID No. 11-22-75); JAMES KEENER, Parcel ID No. 11-22-75;
JOHNNIE RAY KEENER, Parcel ID No. 11-22-75; BRANDE NICOLE
KEENER, Parcel ID No. 11-22-75; DAVID HARMON, Parcel ID No. 11-22-75;
THOMAS KENNER, Parcel ID No. 11-22-75; CLYDE FOX, Parcel ID No. 1130-5; MICHAEL FOX, Parcel ID No. 11-30-5; NAOMI J. FOX, Parcel ID No.
11-30-5; ROBERT W. FOX, Parcel ID No. 11-30-5; REX COAL LAND
COMPANY, Parcel ID No. 11-39-7; EUGENE RAY TUCKWILLER, Parcel ID
No. 11-54-13; TINA ROBIN TUCKWILLER, Parcel ID No. 11-54-13; SILAS
STEVEN TUCKER, Parcel ID No. 11-54-12; LAUREL TUCKER, Parcel ID No.
11-54-12; JEFFREY DEWAYNE OSBORNE, Parcel ID No. 11-68-33;
MARTHA I. KESSLER, Unknown heirs of (Parcel ID No. 3-13-24); MARY L.
SURBAUGH, Unknown heirs of (Parcel ID No. 3-13-24); NORA E. VANDALL,
Unknown heirs of (Parcel ID No. 3-13-24); AZEL FORD ZICKAFOOSE,
Unknown heirs of (Parcel ID No. 3-13-24); JOSEPH ORVILLE ZICKAFOOSE,
Unknown heirs of (Parcel ID No. 3-13-24); ROBERT C. ZICKAFOOSE,
Unknown heirs of (Parcel ID No. 3-13-24); DOREEN S. ALLEN, Parcel ID No.
11-68-10; FREDERECK M. OSBORNE, Parcel ID No. 11-68-10; JO LYNN
BLANKENSHIP, Parcel ID No. 11-68-10; MICKEY D. OSBORNE, Parcel ID
No. 11-68-10; SCOTT S. OSBORNE, Parcel ID No. 11-68-10; DONNA M.
HUFFMAN, Parcel ID No. 09-13-10.1; NORVEL MANN, Parcel ID No. 05-2531.3; JEAN MANN, Parcel ID No. 05-25-31.3; THOMAS B. MANN, Parcel ID
No. 05-25-31.3; HANNAH G. MANN, Parcel ID No. 05-25-31.3; CHLODA
CROSIER, Parcel ID No. 05-25-31.3; WILLIAM H. MANN, Parcel ID No. 0525-31.3; LUCY G. BOOTH, Parcel ID No. 05-25-31.5; HARRY L. MANN,
Parcel ID No. 05-25-31.5; NANCY L. PHILLIPS, Parcel ID No. 05-25-31.5;
DONALD E. MANN, Parcel ID No. 05-25-31.5; CARL E. MANN, Parcel ID No.
05-25-31.5; LARRY W. MANN, Parcel ID No. 05-25-31.5; BONNIE K.
BARBERIE, Parcel ID No. 05-25-31.5; REBECCA K. BRAGG, Parcel ID No.
05-5-27; LANDCEY RAGLAND, Parcel ID No. 05-14-1, 05-14-19.2, 05-14-24;
JOHN WHITE, II, Parcel ID No. 05-14-21, 05-18-3.1, 05-19-11.2; PETRIE
DOBBS BROWN, Parcel ID No. 05-18-3; ADDISON DUNLAP DOBBS, Parcel

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 110 of 113

ID No. 05-18-3; LEE FILMORE DOBBS, III, Parcel ID No. 05-18-3; OSCAR D.
DARAGO, Parcel ID No. 05-18-11; DAVID R. HUGHES, Parcel ID No. 03-12-9;
JAMES ROBERT PERSINGER, Parcel ID No. 03-12-19; LILLIAN SUE
PERSINGER, Parcel ID No. 03-12-19; STEPHEN C. BROYLES, Parcel ID No.
05-31-25.3; LORRIE P. BROYLES, Parcel ID No. 05-31-25.3; PAULETTE A.
SEARS, Trustee of the Paulette A. Sears Family Trust (Parcel ID No. 03-18-32,
03-18-4); MELANIE J. MILLER, Parcel ID No. 03-18-8, 03-18-9, 03-18-10;
ANNE C. CHAMBERS, Executrix of the Estate of Thomas P. Long (Parcel ID
No. 03-18-23.3); THOMAS P. LONG, The Estate of (Parcel ID No. 03-18-23.3);
CAROL M. VASS, Parcel ID No. 03-18-23.4; KENNETH L. VASS, Parcel ID
No. 03-18-23.4; LACY H. TONEY, Trustee of the Lacy H. Toney Farm Trust
(Parcel ID No. 03-30-18); MOUNTAIN LAIR, LLC, Parcel ID No. 03-30-38;
DANNY SPENCE, JR., Administrator of the Estate of Dannie Lee Spence (Parcel
ID No. 03-12-7); DANNIE LEE SPENCE, The Estate of (Parcel ID No. 03-12-7);
LAURA BOWEN-COFFELT, Trustee of the Susan H. Leeper (a/k/a Ella Susan
Houcins) Revocable Living Trust (Parcel ID No. 09-17-10); SUSAN H. LEEPER,
a/k/a Ella Susan Houcins, Revocable Living Trust (Parcel ID No. 09-17-10);
MONTE G. MCKENZIE, Parcel ID No. 09-17-21; ELORA C. MCKENZIE,
Parcel ID No. 09-17-21; EARL C. WILLIAMS, Parcel ID No. 05-25-1.13;
ROGER D. CRABTREE, Parcel ID No. 03-30-18.8; REBECCA H. CRABTREE,
Parcel ID No. 03-30-18.8; BONNIE LAREW WALSH, Parcel ID No. 05-14-25;
GLADYS LAREW CARTER, Parcel ID No. 05-14-25; JAMES TULLY LAREW,
Parcel ID No. 05-14-25; JANET LAREW HAAG, Parcel ID No. 05-14-25;
ALLAN WALTER LEHR, Parcel ID No. 03-12-22; J. H. HARRAH, Heirs of
(Parcel ID No. 3-12-23); IRA HICKMAN HARRAH, Parcel ID No. 3-18-15;
RICHARD BERKLEY, Parcel ID No. 7-4-20; ANNE M. BERKLEY, Parcel ID
No. 7-4-20; CONNIE HARPER, Parcel ID No. 7-4-19; MELISSA A. LESLIE,
Parcel ID No. 7-4-19; ANTHONY D. RICHMOND, Parcel ID No. 7-4-19;
DENNIS WAYNE RICHMOND, Parcel ID No. 7-4-19; RHONDA RICHMOND,
Administrator of the Estate of Roger L. Richmond (Parcel ID No. 7-4-19);
ROGER L. RICHMOND, The Estate of (Parcel ID No. 7-4-19); SANDRA
RICHMOND, Parcel ID No. 7-4-19; ERVIN E. RICHMOND, Parcel ID No. 7-419; GERALD K. RICHMOND, Parcel ID No. 7-4-19; JESSE JAMES
RICHMOND, Parcel ID No. 7-4-19; CAROLYN S. WALLS, Parcel ID No. 7-419; RICHARD DEAN WARD, Parcel ID No. 7-4-19; ASHBY A. BOONE, Parcel
ID No. 7-7-27.3; EMMA JEAN BOONE, Parcel ID No. 7-7-27.3; DOROTHY
MARIE BOONE FOGLE, Parcel ID No. 7-7-27.3; MARK GREY SMITH, Parcel
ID No. 7-15A-5; CAITLYN A. GRAGG, Parcel ID No. 7-15-125; GENE
WISEMAN, Trustee of the Wiseman Living Trust (Parcel ID No. 7-15-25);
PHYLLIS M. WISEMAN, Trustee of the Wiseman Living Trust (Parcel ID No. 7-

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 111 of 113

15-25); ROBERT JACKSON HOLT, Parcel ID No. 3-23-16, 3-23-12, 3-23-15;
PHILIP J. HARRAH, Parcel ID No. 3-23-12.3, 3-23-12.4; REINHARD
BOUMAN, Parcel ID No. 3-18-17, 3-23-12.2, 3-23-24, 3-18-16, 3-23-12.5;
ASHOFTEH ASSAD-BOUMAN, Parcel ID No. 3-18-17, 3-23-12.2, 3-23-24, 318-16, 3-23-12.5; MEADOW CREEK COAL CORPORATION, Parcel ID No. 74-20.1; KIRANASA SWAMI, Parcel ID No. 3-18-17.1; DANNY R. BERRY,
Parcel ID No. 7-15-80.7-80.13; GREGORY L. BERRY, Parcel ID No. 7-15-80.780.13; LC MILLER, JR., Parcel ID No. 7-13D-11; JAMES R. MILLER, Parcel ID
No. 7-13D-11; CHARLES D. SIMMONS, Parcel ID No. 7-13D-11, 7-13-D-15;
SHARON SIMMONS, Administratrix of the Estate of Charles D. Simmons
(Parcel ID No. 7-13D-11, 7-13D-15); JOSHUA SIMMONS, Parcel ID No. 7-13D11, 7-13D-15; JERRY L. CANNADY, Parcel ID No. 7-13D-11, 7-13D-15;
BRYAN SIMMONS, Parcel ID No. 7-13D-11; RED HAWK TRUST, Parcel ID
No. 7-13E-10; WILLIAM G. LLOYD, Parcel ID No. 7-12F-11; JAMES
MCALLISTER, Parcel ID No. 7-13F-2; HILRY GORDON, Parcel ID No. 14123-41; CHAD W. JOHNSON, Parcel ID No. 14-163-86; MARTHA JEAN
KOTSCHENREUTHER, Parcel ID No. 14-163-86; KAREN JEAN
KOTSCHENREUTHER, Parcel ID No. 14-163-86; ELSA LYN
KOTSCHENREUTHER, Parcel ID No. 14-163-86; BARBARA JUNE REGER,
Estate of (Parcel ID No. 14-163-86); BARRY G. PALLAY, Parcel ID No. 18-24223.1; GLENN D. MATHENY, II, Parcel ID No. 18-282-108; CHARLES
CHONG, Parcel ID No. 18-322-14; REBECCA A. ENEIX-CHONG, Parcel ID
No. 18-322-14; COURTNEY CECIL, Parcel ID No. 18-321-40; STACEY
POSTUS, Parcel ID No. 18-321-40; CLIFFORD S. CLEAVENGER, Parcel ID
No. 18-321-40; LAURA CLEAVENGER, Parcel ID No. 18-321-40; TERESA D.
ERICKSON, POA for Gerald Wayne Corder (Parcel ID No. 20-362-20);
GERALD WAYNE CORDER, Parcel ID No. 20-362-20; LORENA B. KRAFFT,
POA for Randall N. Corder (Parcel ID No. 20-362-21); KINCHELOE
MITIGATION HOLDINGS LLC, Parcel ID No. 20-421-8, 20-421-5, 20-421-4, &
20-421-6, 03-4A-27 & 03-4A-29; DANNY MARTIN, Parcel ID No. 18-321-40.5,
18-321-41; TINA MARTIN, Parcel ID No. 18-321-40.5, 18-321-41; GARY
CASTO, Parcel ID No. 02-4J-39.1; SHARON CASTO, Parcel ID No. 02-4J-39.1;
AVERAL TODD CASTO, Parcel ID No. 02-4J-39.1; ARTHUR C. ROBERTS,
Parcel ID No. 02-4L-19, 02-4L-12; JUDY D. ROBERTS, Parcel ID No. 02-4L-19,
02-4L-12; FRED L. GOLDEN, Parcel ID No. 01-4M-10, 01-4M-10.1;
SHERMAN GAMBLE, Parcel ID No. 01-5P-5; MARY GAMBLE, Parcel ID No.
01-5P-5; DAVID FINSTER, Parcel ID No. 02-4L-16; DONALD J. FINSTER,
Parcel ID No. 02-4L-16; PAUL W. FINSTER, Parcel ID No. 02-4L-16; DANA
M. FINSTER, Parcel ID No. 02-4L-25; LEONARD G. FINSTER, JR., Parcel ID
No. 02-4L-25; VENICE EILEEN FINSTER, Parcel ID No. 02-4L-25; DIANA

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 112 of 113

WIMER, Parcel ID No. 02-4L-25; BRIAN VAN NOSTRAND, Parcel ID No. 66D-10; HELEN MONTAGUE VAN NOSTRAND, Parcel ID No. 6-6D-10;
GEORGE ERNEST BRIGHT, Parcel ID No. 6-6E-1; JOHN A. BRIGHT, Trustee
of the John A. Bright Revocable Living Trust (Parcel ID No. 6-6E-1); WILLIAM
TOWNSEND BRIGHT, Parcel ID No. 6-6E-1; WILLIAM H. BROWN, JR.,
Parcel ID No. 6-6E-1; WILLIAM MORRISON, Trustee under the will of (Parcel
ID No. 6-6E-1); ROBERT J. MORRISON, Trustee under the will of (Parcel ID
No. 6-6E-1); A. L. MORRISON, for the benefit of (Parcel ID No. 6-6E-1; C. F.
MORRISON, Parcel ID No. 6-6E-1; HELENA M. BERRY, Parcel ID No. 6-6E-1;
HERMAN R. MORRISON, Parcel ID No. 6-6E-1; MARTHA M. COOPER,
Parcel ID No. 6-6E-1; RUTH M. WARD, Parcel ID No. 6-6E-1; MABEL M.
LEWIS, Parcel ID No. 6-6E-1; MARY E. SEBRING, Parcel ID No. 6-6E-1;
MEGANN M. SHEPPARD, Parcel ID No. 6-6E-1; JESSE FRANK WILLIAMS,
IV, of the WMS WVMinerals Trust (Parcel ID No. 6-6E-1); WMS
WVMINERALS TRUST, Parcel ID No. 6-6E-1; ICG EASTERN, LLC, Parcel ID
No. 4-4P-01, 4-4Q-13.1, 4-4Q-15, 4-4Q-16; WESTERN POCAHONTAS
PROPERTIES LIMITED PARTNERSHIP, Parcel ID No. 6-5F-1 (Terminated:
1/11/2018), 1-31-10, 1-30-8, 5-26-2; DALE EASTHAM, Parcel ID No. 4-14-39.3;
TRAVIS EASTHAM, Parcel ID No. 4-14-39.3; ANDREW FAIRBANKS, Parcel
ID No. 4-14-39.3; BRENT FAIRBANKS, Parcel ID No. 4-14-39.3; DAVID
FAIRBANKS, Parcel ID No. 4-14-39.3; MICHAEL FAIRBANKS, Parcel ID No.
4-14-39.3; EDWARD CHARLES SMITH, SR., Parcel ID No. 4-14-39.3;
EDWARD CHARLES SMITH, II, Parcel ID No. 4-14-39.3; TODD EDWARD
SMITH, Parcel ID No. 4-14-39.3; JEREMY COLLINS, Parcel ID No. 4-14-39.3;
NANCY JANE SHEWMAKE BATES, Parcel ID No. 04-35-11; JOHN H.
MELVIN, Parcel ID No. 04-29A-1.14; PAMELA J. MELVIN, Parcel ID No. 0429A-1.14; UNKNOWN PERSONS AND INTERESTED PARTIES; AN
EASEMENT TO CONSTRUCT, OPERATE AND MAINTAIN A 42-INCH GAS
TRANSMISSION LINE ACROSS PROPERTIES IN THE COUNTIES OF
NICHOLAS, GREENBRIER, MONROE, AND SUMMERS, WEST VIRGINIA,
et al; VIRGINIA B. BROYLES, Revocable Trust (Parcel ID No. 03-24-39);
THOMAS E. TONEY, Parcel ID No. 03-12-6; ROSETTA B. TONEY, Parcel ID
No. 03-12-6; AUSTIN B. TONEY, Parcel ID No. 03-12-6; CLARENCE FRANK
SILLS, JR., Parcel ID No. 05-25-1, 05-25-1.6; KELLEY ANNE SANDELL
SILLS, Parcel ID No. 05-25-1, 05-25-1.6; ROY P. REESE, Parcel ID No. 03-3020; JOYCE A. REESE, Parcel ID No. 03-30-20; LISA B. MEADOWS, Parcel ID
No. 03-12-18; BARRY G. MEADOWS, Parcel ID No. 03-12-18; ZANE
LAWHORN, Parcel ID No. 03-12-18; JAMES GORE, Parcel ID No. 03-12-7, 0312-8; WILLIAM S. BROYLES, Revocable Trust (Parcel ID No. 03-24-39);
CYNTHIA A. BROYLES MORRIS, Trustee of the William S. Broyles Revocable

USCA4 Appeal: 18-1159

Doc: 134

Filed: 03/05/2019

Pg: 113 of 113

Trust and the Virginia B. Broyles Revocable Trust, Parcel ID No. 03-24-39;
CHERYL BOWERS, Parcel ID No. 03-18-11; RODGER L. BOOTHE, Parcel ID
No. 03-18-3
Defendants
-----------------------------OWNER'S COUNSEL OF AMERICA
Amicus Supporting Rehearing Petition
___________________
ORDER
___________________
The court denies the petition for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Chief Judge Gregory, Judge Wynn, and
Judge Harris.
For the Court
/s/ Patricia S. Connor, Clerk

